        Fiscal Year 2009 Department of the Navy Annual Financial Report

Prevailing Today, Preparing for Tomorrow
                                                                                                                                                                                                                                                          ON THE COVER:
                                                                                                                                                                                                                                                          YOKOSUKA, Japan (Sept. 8, 2009) A Quartermaster 1st Class uses a parallel motion protractor to
                                                                                                                                                                                                                                                          plot coordinates aboard the amphibious command ship USS Blue Ridge (LCC 19) before getting
                                                                                                                                                                                                                                                          underway on a scheduled deployment. (U.S. Navy photo by Mass Communication Specialist 2nd
                                                                                                                                                                                                                                                          Class Cynthia Griggs /Released)
                                                                 Fiscal Year 2009 Department of the Navy Annual Financial Report | Prevailing Today, Preparing for Tomorrow




More Information                                                                                                                                                                                                                                          PACIFIC OCEAN (July 24, 2009) Sailors assigned to the deck department of the aircraft carrier USS
                                                                                                                                                                                                                                                          George Washington (CVN 73) conduct coxswain training in a rigid hull inflatable boat. George
the Navy Financial Management and Comptroller
 /www.finance.hq.navy.mil/FMC

         Navy



                                                                                                                                                                                                                                                          Washington is participating in Talisman Saber 09, a biennial, combined exercise designed to train
   http://www.navy.mil

   Marine Corps
                                                                                                                                                                                        Fiscal Year 2009 Department of the Navy Annual Financial Report
 http://www.marines.mil
                                                                                                                                                                              Prevailing Today, Preparing for Tomorrow
     Contact Us
his report is available at http://www.fmo.navy.mil
es of this report may be sent to DON_Financial_Report@navy.mil
                                                                                                                                                                                                                                                          Australian and U.S. forces in planning and conducting combined operations. (U.S. Navy photo by
                                                                                                                                                                                                                                                          Mass Communication Specialist 1st Class John M. Hageman/Released)
                                                      Contents
Message from the Secretary of the Navy .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

Message from the Assistant Secretary of the Navy (Financial Management & Comptroller) .  . 5

Management’s Discussion and Analysis .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7

Department of the Navy General Fund Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39

Navy Working Capital Fund Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 117

Subsidiary Financial Statements

	            United States Marine Corps General Fund Financial Statements .  .  .  .  .  .  .  .  .  .  . 161

	            Navy Working Capital Fund - Marine Corps Financial Statements  .  .  .  .  .  .  .  .  .  . 219

Audit Opinions  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 265




                                                                 Fiscal Year 2009 Department of the Navy Annual Financial Report | 1
    The Honorable Ray Mabus
          Secretary of the Navy




2
Fiscal Year 2009 Department of the Navy Annual Financial Report | 3
                            John W. McNair
    Acting Assistant Secretary of the Navy (Financial Management and Comptroller)




4
Fiscal Year 2009 Department of the Navy Annual Financial Report | 5
6
Management’s Discussion and Analysis




                                7
   Fiscal Year 2009 Department of the Navy Annual Financial Report
Military Sealift Command-chartered high speed vessel HSV-2 Swift (HSV 2) along with various embarked U.S. Navy, Marine Corps, and Air
Force units departed for a five-month deployment in support of Southern Partnership Station. Morgan City, LA – November 2008




2009
                                                                        In 2009, U.S. ships, Sailors, and Marines
                                                                        stood on call throughout the world, ready at
                                                                        an instant to protect innocent people or to
                                                                        provide assistance as needed. During the year,
                                                                        the U.S. Navy kept our country and overseas
                                                                        partners safe from terrorism and other acts of
Fiscal Year 2009 in Review                                              cruelty, and provided humanitarian assistance
                                                                        and disaster relief when nature struck harshly.
                                                                        Despite a year of crises abroad and changes
                                                                        at home, the Navy and Marine Corps stayed
                                                                        focused, and were undeterred in the face of
                                                                        dangerous and shifting situations.

                                                                        The pictures that follow provide a glimpse
                                                                        into some of the significant events involving
                                                                        the Department of the Navy in Fiscal Year
                                                                        2009. U.S. maritime forces held strong,
                                                                        protected the homeland, and provided aid
                                                                        around the world to those in need.


8
                                                                                 Oct 2008 – Dec 2008




Crewmembers of the Virginia-class attack submarine USS New         Spectators attend the commissioning ceremony for the littoral
Hampshire (SSN 778) line the boat during the commissioning         combat ship USS Freedom (LCS 1) at Veterans Park. Milwaukee, WI
ceremony at Portsmouth Naval Shipyard. Kittery, ME – October       – November 2008
2008



                                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 9
Jan 2009 – Mar 2009




President Barack Obama and Chief of Naval Operations Admiral       F/A-18 aircraft assigned to Air Wing 1 at Naval Air Station Oceana,
Gary Roughead watch parade participants march by the reviewing     VA perform a flyover during the commissioning ceremony for the
stand during the Presidential Inaugural Parade. Washington, DC –   10th and final nuclear-powered Nimitz-class carrier, USS George
January 2009                                                       H.W. Bush (CVN 77). Norfolk, VA – January 2009



10
                                                                                                   Apr 2009 – Jun 2009




Seabees assigned to Naval Mobile Construction Battalion (NMCB) 7 depart an Air Force C-17 aircraft following its arrival at a forward operating
base. Helmand Province, Afghanistan – January 2009




Hospital Ship USNS Comfort (T-AH 20) departs for a four-month              Secretary of the Navy Ray Mabus addresses guests during his public
humanitarian mission to the U.S. Southern Command. Norfolk, VA             Oath of Office ceremony at the Naval Support Activity Washington.
– April 2009                                                               Washington Navy Yard, DC - June 2009.




                                                           Fiscal Year 2009 Department of the Navy Annual Financial Report | 11
Jul 2009 – Sep 2009




The amphibious assault ship Pre-Commissioning Unit Makin Island (LHD 8) sails through the Strait of Magellan on its way to its new homeport
in San Diego, CA. Strait of Magellan – September 2009




During exercise Stellar Avenger, the Aegis-class destroyer USS           The Los Angeles-class attack submarine USS Annapolis (SSN 760)
Hopper (DDG 70) launches a standard missile (SM) 3 Blk IA,               was featured in “At Sea,” a three-part documentary on the U.S.
successfully intercepting a sub-scale short range ballistic missile,     Navy. Military Channel – August 2009
launched from the Kauai Test Facility, Pacific Missile Range Facility,
Barking Sands, Kauai. Pacific Ocean – July 2009


12
T   o maintain, train, and equip combat-ready Naval forces
    capable of winning wars, deterring aggression, and
maintaining freedom of the seas.
                                                                                   - Department of the Navy Mission




                                                      responsiveness to allies and support for
Introduction                                          Sailors and Marines on the front lines. The
During Fiscal Year (FY) 2009, the Department          DON is a large and complex organization
of the Navy (DON) maintained its capabilities,        with nearly 640,000 U.S. Navy and U.S.
which included fighting two wars, while               Marine Corps personnel and over 196,000
putting in place policies, procedures, and            Navy and Marine Corps civilians located
assets necessary for the years and challenges         worldwide. Headquartered at the Pentagon,
ahead. The theme of this report, “Prevailing          DON is organized under the Secretary
Today, Preparing for Tomorrow,” underlies all         of the Navy, a civilian appointed by the
the actions and decisions at the DON. From            President, who conducts all Department
a shift in force levels in Iraq and Afghanistan       affairs under the authority, direction, and
to evaluations of unmanned systems, DON               control of the Secretary of Defense. Under
takes actions to maintain its naval capabilities      the purview of the Secretary of the Navy
around the world. The DON continually                 are the Under Secretary of the Navy, four
prepares for future challenges at home and            Assistant Secretaries of the Navy, the General
abroad to assure a positive impact wherever,          Counsel, and two key military leaders—the
and whenever, it is needed.                           Chief of Naval Operations, a four-star
                                                      Admiral, responsible for the command and
The FY 2009 Management’s Discussion and               operating efficiency of the U.S. Navy, and the
Analysis (MD&A) that follows provides                 Commandant of the Marine Corps, a four-star
perspective on the breadth and depth of the           General, responsible for the performance of the
DON’s mission and the resources appropriated          U.S. Marine Corps.
to it. The FY 2009 MD&A is organized as
follows:                                              The U.S. Navy and the U.S. Marine Corps
                                                      have numerous commands that operate
   n	   Organization and Mission                      under the authority and responsibility of a
   n	   Strategic Management                          commander or other designated official and
   n	   Management Assurances                         typically support a network of subordinate
   n	   Financial Condition and Results of            commands. Each command has a clearly
        Operations                                    defined mission that supports the overall
                                                      DON mission in support of the Department
   n	   Looking Forward
                                                      of Defense’s responsibilities. Both Services
                                                      provide ready forces to support the U.S.
Organization and Mission                              joint military commands in conducting their
The DON’s ability to effectively answer the           worldwide missions (www.defenselink.mil/
call of duty around the world depends on              specials/unifiedcommand) .
an organizational structure designed for



                                          Fiscal Year 2009 Department of the Navy Annual Financial Report | 13
                                                       Founded April 30, 1798
                                                      Title 10 U.S. Code, Section 5061



                                                      SECRETARY OF THE NAVY
                                                        UNDER SECRETARY OF THE NAVY




  Assistant Secretary               Assistant Secretary               Assistant Secretary             Assistant Secretary             General Counsel of
     of the Navy                        of the Navy                       of the Navy                     of the Navy                  the Department
 (Research, Development                   (Manpower                  (Financial Management                  (Installations               of the Navy
      & Acquisition)                   & Reserve Affairs)                 & Comptroller)                   & Environment)




                             CHIEF OF NAVAL                                                                COMMANDANT OF THE
                              OPERATIONS                                                                     MARINE CORPS




                                                                                                                                          U.S. Marine Corps
      U.S. Navy                     U.S. Navy                 U.S. Navy                U.S. Marine Corps          U.S. Marine Corps
                                                                                                                                             Supporting
  Shore Establishment               Reserves                Operating Forces           Operating Forces               Reserves
                                                                                                                                            Establishment



*Dashed line signifies collaboration of the U.S. Navy and the U.S. Marine Corps operating forces.


The chart above is a simplified illustration of the DON organizational structure. The full structure
is shown online at www.navy.mil under “About the Navy.”



                               United States Navy                                             United States Marine Corps

                          Founded October 13, 1775                                            Founded November 10, 1775
                        Title 10 U.S. Code, Section 5062                                   Title 10 U.S. Code, Section 5063




14
                                                                        Navy Civilians: 176,026
                                                                        (Full-time Equivalents)

                                                                        Marine Corps Civilians: 20,866
                                                                        (Full-time Equivalents)

                                                                        U.S. Navy Active: 329,304
                                                                        (Officers, Enlisted, & Midshipmen)

                                                                        U.S. Marine Corps Active: 203,095
                                                                        (Officers & Enlisted)

                                                                        U.S. Navy Reserve: 66,474
                                                                        (Drilling Reserve & Full-time Support)

                                                                        U.S. Marine Corps Reserve: 38,510
                                                                        (Drilling Reserve & Full-time Support)

                                                                        Personnel Data as of Fiscal Year Ended September 30, 2009




Sailors assigned to Beach Master Unit (BMU) Detachment Westpac, based in Sasebo, Japan, come ashore from Landing Craft Unit (LCU) 1627
toward Freshwater Beach during Exercise Talisman Saber - July 2009



                                                                        to be a unified and enduring strategy that
Strategic Management                                                    will apply maritime power to the crucial
The DON is committed to improving core                                  responsibility of protecting U.S. vital interests
capabilities that support the U.S. maritime                             in an increasingly interconnected and
strategy, A Cooperative Strategy for 21st Century                       uncertain world. It binds the three maritime
Seapower. These core capabilities are critical to                       services—U.S. Navy, U.S. Marine Corps, and
U.S. maritime power and reflect an increased                            U.S. Coast Guard—closer together than ever
emphasis on activities that prevent war                                 before in a mission to more fully safeguard
and build partnerships—forward presence,                                maritime interests at home and abroad.
deterrence, sea control, power projection,
maritime security, humanitarian assistance,                             The Department of the Navy Objectives for
and disaster response.                                                  FY 2008 and Beyond (listed below) support the
                                                                        U.S. maritime strategy by focusing on key
The cooperative strategy, guided by the                                 efforts that will increase the Department’s
objectives articulated in the National Strategy                         effectiveness, improve the lives of Sailors and
for Maritime Security, National Security                                Marines, and result in greater security for the
Strategy, National Defense Strategy, and                                U.S. A summary of key accomplishments by
National Military Strategy, was developed                               objective is provided below.




                                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 15
                                                                   professional growth, and ensure the type
                                                                   of workforce needed for the 21st century.
                                                                   Recruitment and retention efforts focused on
                                                                   active and reserve personnel “low density/
                                                                   high demand” skill sets, such as Naval Special
                                                                   Warfare, Seabees, reconnaissance Marines,
                                                                   explosive ordnance disposal, and medical
                                                                   specialties. Using advanced technologies,
                                                                   DON has shifted training from the traditional
                                                                   classroom to the use of simulators, trainers,
                                                                   computer-based interactive curriculums, and
                                                                   other media-based approaches. This initiative
                                                                   provided the total naval force with appropriate
                                                                   training in a more efficient manner and
                                                                   prepared naval personnel to better perform
                                                                   mission-critical tasks.

                                                                   The DON also continued to ensure that
                                                                   wounded Sailors and Marines and their
                                                                   families receive the highest priority care,
                                                                   respect, and treatment for their sacrifices.
                                                                   Representative examples of DON quality of
                                                                   life and service initiatives include Navy Safe
                                                                   Harbor; Marine Corps Wounded Warrior
During Northern Edge 2009, Navy SEALS worked with                  Regiment; National Naval Medical Center’s
the Northern Warfare Training Center on river crossing
techniques and rope handling to prepare them for overseas          state-of-the art treatment for traumatic brain
contingency operations. Fort Wainwright, Alaska - June 2009        injuries; and Bureau of Medicine and Surgery’s
                                                                   Operational Stress Control program to address
                                                                   post-traumatic stress disorders and other
Objective 1: Provide a Total Naval
Workforce Capable and Optimized to                                 psychological conditions.
Support the National Defense Strategy
                                                                   U.S. Navy
The DON continued to invest in recruiting,
retaining, and training naval personnel to                         The Navy continued to resize and reshape its
provide opportunity, promote personal and                          forces to meet deployment requirements of

                                                U.S. Navy End Strength
     400000     362,941
                                    350,197             337,547            332,228            329.304

     300000

     200000

     100000               76,473              70,500              69,933             68,136             66,474


           0
                     2005                2006                 2007              2008              2009

                                                Fiscal Year Ending September 30                          Active
                                                                                                         Reserve



16
continuing Overseas Contingency Operations,                                    Navy and Marine Corps Civilian Personnel
Homeland Defense, and stability operations.                                    The size of the civilian workforce, which has
From FY 2005 to FY 2009, the Navy reduced                                      increased by 3% over the last five fiscal years,
the size of its active and reserve components                                  continued to support the mission and daily
by 9% and 13%, respectively. All assigned                                      functions of the Navy and Marine Corps.
missions were accomplished at this level as a                                  Civilian personnel provide various types of
result of force structure changes, efficiencies                                support, such as research and development;
gained through technology, altering the                                        engineering; acquisition; depot maintenance;
workforce mix, and new manning practices.                                      and financial management and budget.

U.S. Marine Corps                                                              Objective 2: Use the Navy-Marine Corps
The Marine Corps continued to grow the                                         Team to Aggressively Prosecute Overseas
active force to meet the increasing demands of                                 Contingency Operations
Overseas Contingency Operations. From FY                                       The Navy and Marine Corps team continued
2005 to FY 2009, the Marine Corps increased                                    to answer our Nation’s call in Overseas
the size of its active component by 13%. This                                  Contingency Operations. From combat
growth in force should begin to reduce the                                     operations in Iraq and Afghanistan to
strain on individual Marines assigned to                                       humanitarian assistance and disaster relief
continually high operational tempo units, such                                 throughout the world, DON has proven ready
as amphibious assault, reconnaissance, combat                                  to meet any task and answer any challenge.
service support, and explosive ordnance
disposal.

  400000
                                                    U.S. Marine Corps End Strength
  300000
                                                                                           198,505                    203,095
            180,029                  178,923                    186,492
  200000

  100000
                      39,858                     39,486                     38,557                     37,523                     38,510

       0
                 2005                       2006                       2007                       2008                       2009

                                                     Fiscal Year Ending September 30                                                Active
                                                                                                                                    Reserve
  400000

  300000                                  Civilian Personnel (Full-Time Equivalents*)

  200000    172,509                   170,785                   168,126                    170,995                    176,026


  100000
                      17,794                     18,147                     18,687                     19,209                     20,866
       0
                 2005                       2006                       2007                       2008                       2009

                                                     Fiscal Year Ending September 30                                         Navy
                                                                                                                             Marine Corps

             * Full-time equivalents are the total number of regular straight-time hours (i.e., not including overtime or holiday hours) worked by
             employees divided by the number of compensable hours applicable to each fiscal year.




                                                            Fiscal Year 2009 Department of the Navy Annual Financial Report | 17
                                                                    of providing a substantial surge force. The
                                                                    Fleet Response Plan (FRP), which supports
                                                                    the National Military Strategy, provides the
                                                                    readiness for this capability. FRP provides
                                                                    adaptable, flexible, and sustainable naval
                                                                    forces necessary not only to fight current
                                                                    ongoing contingencies, but also to support
                                                                    the needs of the Combatant Commanders
                                                                    maintaining a global forward presence and any
                                                                    other evolving national defense requirements.

                                                                    Marine Corps Operating Forces
                                                                    During 2009, Marines operated from Iraq to
                                                                    Afghanistan to the Horn of Africa displaying
                                                                    the flexibility and responsiveness of the Marine
                                                                    Air-Ground Task Force. They maintained a
                                                                    forward presence and security cooperation
                                                                    deterrence in the Western Pacific and the
                                                                    Central Command Area of Responsibility.
                                                                    These forces, along with numerous Fleet
                                                                    Anti-terrorism Security Teams, at all times
                                                                    displayed the versatility and dependability of
                                                                    Marine Forces.
The aircraft carrier USS John C. Stennis (CVN 74) transits
Singapore harbor during a six-month deployment to the               Marine Expeditionary Forces (MEFs) provide
western Pacific Ocean. Singapore Harbor, Singapore – April          highly trained, versatile expeditionary
2009
                                                                    forces capable of rapid response to global
                                                                    contingencies. Each MEF consists of a
Fleet Response Plan                                                 command element, one infantry division, one
The Navy continued to focus on providing                            aircraft wing, and one Marine logistics group.
forward deployed ready forces, from                                 Embedded within each MEF are three Marine
individual units to strike groups, capable                          Expeditionary Units, which deploy regularly



                                                    Battle Force Ships
                      281                 280                 279               282              287
       300


       200


       100


          0
                     2005                2006                2007               2008            2009

                                                Fiscal Year Ending September 30


18
                                                                   Objective 3: Build the Navy-Marine Corps
                                                                   Force for Tomorrow
                                                                   The DON is committed to finding solutions
                                                                   that allow the Navy and Marine Corps to
                                                                   balance current requirements and operational
                                                                   realities with the likely needs of the future.
                                                                   The DON strives to maintain an agile and
                                                                   flexible force that not only contributes to
                                                                   winning the Nation’s wars, but also deters
                                                                   future conflict to the maximum extent
                                                                   possible—whether persuading by strength or
                                                                   supporting humanitarian relief.

                                                                   Ship Construction
                                                                   The future fleet of ships will sustain operations
                                                                   in forward areas longer, be able to respond
                                                                   more quickly to emerging contingencies,
                                                                   and generate more sorties and simultaneous
                                                                   attacks against a greater number of multiple




Marines from the 31st Marine Expeditionary Unit aboard the
amphibious assault ship USS Essex (LHD 2) board a CH-53E
Sea Stallion helicopter during a joint exercise between the U.S.
and the Australian Defense Force. Coral Sea – July 2009


in the Expeditionary Strike Groups. Each MEF
also has an embedded capability to source a
Marine Expeditionary Brigade.

 Marine Corps Land
 Forces                          2007       2008       2009

 Marine Expeditionary
 Forces                             3          3         3

 Active Infantry
 Battalions                        26         27         27

 Reserve Infantry
 Battalions                         9          9         9




                                                                   USNS Matthew Perry (T-AKE 9) is scheduled to be delivered
                                                                   to Military Sealift Command in early 2010. San Diego,
                                                                   California – August 2009



                                                       Fiscal Year 2009 Department of the Navy Annual Financial Report | 19
                                                         program for long-term consolidation and
                                                         recapitalization of all naval aircraft in order
                                                         to develop the optimum balance between
                                                         requirements and usage. Examples of aircraft
                                                         procured are listed below.

                                                         Navy Aircraft:
                                                           n	 F/A-18 E/F Super Hornet – long-
                                                               range, multi-mission, all-weather strike
                                                               fighter
                                                           n	 EA-18G Growler – next-generation
                                                               electronic attack aircraft
                                                           n	 MH-60S Knighthawk, MH-60R
                                                               Seahawk – multi-mission support/
                                                               combat helicopters
                                                           n	 MQ-8B Fire Scout – vertical take-off
                                                               and landing tactical unmanned aerial
                                                               vehicle




The Littoral Combat Ship Independence (LCS 2) underway
during builder’s trials. Gulf of Mexico – July 2009



targets and with greater effect than the current
fleet. Examples of ship construction programs
include:

     n	   Dry cargo and ammunition ship
          (T-AKE)
     n	   Guided missile destroyers (DDG)
     n	   Ford Class (CVN 21), next generation
          of aircraft carrier
     n	   Nuclear-powered attack submarine
          (SSN)
     n	   Amphibious platform dock ship (LPD
          17)
     n	   Littoral combat ship (LCS)

Aircraft Procurement
                                                         An F/A-18F Super Hornet (U.S. Navy). Gulf of Oman –
To sustain global air superiority, DON                   September 2009
has invested in naval aviation acquisition
programs. The DON has an extensive



20
An MH-60R Sea Hawk helicopter (U.S. Navy). Pacific Ocean     An AH-1Z Super Cobra (U.S. Marine Corps). Pacific Ocean –
– May 2009                                                   January 2009



Marine Corps Aircraft:                                       Towards this end, DON has markedly
  n	 MV-22B Osprey – vertical/short take-                    increased the requirement for trained and
       off and landing, multi-purpose tactical               certified acquisition personnel (civilian and
       transport                                             military) in several specialties including cost
  n	 AH-1Z / UH-1Y – utility and attack                      analysis. This focus corresponds with an
       helicopters                                           expansion of the Acquisition Intern program
                                                             and the active recruitment and retention
  n	 KC-130J – multi-mission, tactical aerial
                                                             of qualified personnel at the middle and
       refueler/transport aircraft
                                                             senior career levels. Resources from the
                                                             Department of Defense Acquisition Workforce
Acquisition Reform                                           Development Fund (DAWDF) support
Future DON capabilities depend on adequate                   the expansion of recruitment at all levels
and continual acquisitions. The DON has                      including interns, journeymen, and highly
made a renewed commitment to invest in its                   qualified experts. DON also uses DAWDF for
acquisition workforce and realize a measurable               the retention and credentialing of personnel
return defined in terms of acquisition process               through educational and developmental
improvements. Through an improved                            activities.
acquisition process, DON can better measure
and evaluate the implications of specific unit               As part of acquisition reform, DON is
procurement costs on total future force levels               committed to better cost control and
under likely constrained future budgets.                     evaluation for shipbuilding and conversion,


                                                 Fiscal Year 2009 Department of the Navy Annual Financial Report | 21
one of DON’s major acquisition programs.                         Objective 4: Safeguard the People and
Achieving a cost-effective fleet and a fleet that                Resources of the Navy-Marine Corps
is less costly to operate requires acquisition                   Team
reforms, such as stabilizing requirements and                    The Secretary of Defense has challenged
shipboard automation, as well as long-term                       each of the military departments to achieve
industry investments.                                            a 75% rate reduction in mishaps by the end
                                                                 of FY 2012. As a result, DON promulgated
Also required is a better understanding of                       its safety vision effective in FY 2009. This
how speed, size, and complexity of weapons                       comprehensive document providing top-
systems affect future unit procurement costs                     down guidance offers the Fleet a road map to
and ultimately the size of future purchases and                  implement, track, and refine unit-level safety
force levels. The DON sharply increased its                      programs and improve its organizational
staff and will bring these improved estimates                    safety culture. The DON Safety Vision plots
more effectively into the design phase of the                    the Department’s course for the future, aimed
acquisition planning process.                                    at achieving world-class safety – being the best
                                                                 military safety organization in the world.

                                                                 In FY 2009, DON led the Department of
                                                                 Defense (DoD) in developing and expanding
                                                                 a new DON Military Sport Bike Rider Course
                                                                 and initiating a Marine Corps Sport Bike
                                                                 Track Day training program to target one of
                                                                 the leading causes of death for its personnel.
                                                                 These and other DON-wide efforts led to
                                                                 dramatic reductions in automobile and
                                                                 motorcycle fatalities in FY 2009.

                                                                 Additionally, DON made a number of
                                                                 improvements in the development of its Risk
                                                                 Management Information System (RMIS).
                                                                 Going forward, RMIS will dramatically
                                                                 improve safety data reporting, analysis, and
                                                                 rapid dissemination of safety hazards/lessons
                                                                 learned. RMIS will eventually improve
                                                                 DON’s overall safety culture by facilitating
                                                                 more efficient safety program management at
                                                                 individual DON units.

                                                                 Objective 5: Strengthen Ethics as a
                                                                 Foundation of Exemplary Conduct within
                                                                 the Department of the Navy
                                                                 The DON implemented a wide range of
                                                                 initiatives to promote and enhance DON’s
                                                                 ethics culture. For example, DON instituted
                                                                 the Ethics Counselor Certification and Training
Rear Admiral Arthur Johnson, Commander, Naval Safety
Center, left, discusses on- and off-duty safety with Naval Air   Program, ensuring enhanced professionalism
Station Whidbey Island leadership. Oak Harbor, Washington        among counselors who can now offer more
– May 2009
                                                                 consistent and appropriate advice for clients.

22
The DON also built and launched, via Navy
Knowledge Online, a Department-wide Core
Values Training Program to ensure personnel
more fully understand DON’s guiding
principles. The Navy General Counsel, the
Judge Advocate General, and the Staff Judge
Advocate to the Commandant joined together
to merge websites into a single web-based
source called the Ethics Compass, for ethics
information in DON (http://ethics.navy.mil/)
and to promote consistency in a user-friendly,
technologically advanced way. The DON
also recently completed an organizational
ethics culture assessment after canvassing
over 137,000 personnel, the results of which
will be made available in late 2009. Finally,
DON instituted the DON Ethics Leadership
Award Program to recognize those within the
Department who best exemplify the highest
standards of ethical conduct.

Objective 6: Provide First-Rate Facilities
to Support Stationing, Training, and
Operations of Naval Forces
                                                     Secretary of the Navy, the Honorable Ray Mabus, left,
The DON continued to invest in military              is greeted at Kadena Air Base in Okinawa, Japan before
construction projects to keep pace with              speaking to Marines and Sailors about the move to Guam in
                                                     2014. Okinawa, Japan – August 2009
evolving mission requirements and quality of
life initiatives. As part of the Defense Policy
Review Initiative, an international alliance         Construction of wounded warrior barracks
to enhance the security environment was              at Camp Lejeune, North Carolina and Camp
initiated with the U.S. and the Government of        Pendleton, California began in 2009. The
Japan signing an agreement for the relocation        barracks will accommodate the specific needs
of approximately 8,000 U.S. Marines and their        of wounded Marines and be located near the
families from Okinawa to Guam. Expansion,            Marine Corps bases’ respective naval hospitals.
upgrades, and repairs of existing infrastructure
at Guam military bases will support the              Business Transformation
impending move.                                      As a separate and supporting element of its
                                                     strategic objectives, DON is committed to
Investments in new construction on                   transforming the way it does business by
Marine Corps installations within the U.S.           using its people, processes, and systems more
support authorized increases in Marine               effectively. The DON Financial Improvement
Corps personnel. The funding will provide            Program is the integrating financial element
permanent barracks, mess facilities, operations      of DON’s business transformation strategy
centers, training ranges, and other supporting       and a supporting initiative of the Department
facilities.                                          of Defense (DoD) Financial Improvement and
                                                     Audit Readiness (FIAR) Plan, which organizes
                                                     and prioritizes the financial improvement
                                                     efforts of DoD Components. Navy Enterprise


                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 23
Resource Planning (ERP) is the key system       goal of the FIP and FII is to produce financial
driver of DON business transformation and a     management information with greater
key enabler of the DoD Enterprise Transition    accuracy, reliability, and accessibility. With
Plan, which organizes and prioritizes efforts   improved information, DON managers can
to modernize DoD business and financial         allocate the Department’s resources in a more
systems. Continuous Process Improvement/        precise way. Also, with improved financial
Lean Six Sigma (CPI/LSS) initiatives, part of   information, DON will move closer to audit
the DoD-wide CPI/LSS program, enable more       readiness.
effective and efficient operations across the
DON enterprise.                                 Accomplishments for FY 2009 are identified
                                                below.
DON Financial Improvement Program
The DON Financial Improvement Program              n	   Received a favorable audit review
(FIP) and the Marine Corps Financial                    from the DoD Inspector General on the
Improvement Initiative (FII) are multi-year             Weapons Systems component of the
Department-wide efforts to modernize Navy-              Environmental and Disposal Liabilities
Marine Corps financial processes and systems            line item on the DON General Fund
to better serve worldwide operations. The               Balance Sheet.



24
n	   Asserted audit readiness of the                     Working Capital Fund Transportation
     Appropriations Received line item on                business area.
     the DON General Fund Statement of
     Budgetary Resources.                       Marine Corps Financial Improvement and
n	   Asserted audit readiness of                Audit Readiness Initiative
     components of the Environmental and
                                                The Marine Corps, a subsidiary reporting
     Disposal Liabilities line item on the
                                                entity within DON, has strengthened business
     DON General Fund Balance Sheet,
                                                processes to improve the accuracy, timeliness,
     specifically Defense Environmental
                                                and reliability of financial information. The
     Restoration Program, Other
                                                Marine Corps’ near-term goal is to achieve a
     Environmental Liabilities, and Base
                                                favorable audit opinion on its General Fund
     Realignment and Closure.
                                                FY 2010 Statement of Budgetary Resources
n	   Completed Naval Audit Service              (SBR) as well as the financial statement
     agreed-upon procedures at Military         compilation process and the Fund Balance
     Sealift Command (MSC), moving              with Treasury, which were asserted as being
     MSC toward audit for September 30,         audit ready in FY 2009.
     2009. MSC is a component of the Navy




                                    Fiscal Year 2009 Department of the Navy Annual Financial Report | 25
During the financial improvement and audit          heavily used and therefore, most heavily relied
readiness preparation process, a study was          upon in the day-to-day management of its
conducted to measure the direct costs and           resources. The Marine Corps’ audit readiness
savings associated with the Marine Corps            efforts also provide a meaningful pilot for
efforts. The results of the study showed that       DON as it continues to discover how to use
for every dollar invested, nearly three dollars     the audit process to improve DON resource
in value were created. These improvements           management.
mean the audit preparation process holds
the potential to achieve a considerable and         Navy Enterprise Resource Planning
measurable return on investment for every           Navy ERP is an integrated business
dollar appropriated by Congress.                    management system that updates and
                                                    standardizes Navy business operations,
The Marine Corps is the first major operational     provides financial transparency and total asset
war-fighting organization to achieve audit          visibility across the enterprise, and increases
readiness for any of the four financial             effectiveness and efficiency. Naval Air Systems
statements and therefore, over a broad part         Command, Naval Supply Systems Command
of its business operations. The Marine Corps        (NAVSUP), and Space and Naval Warfare
selected the SBR as the first statement to assert   Systems Command have implemented Navy
for audit readiness because it is the most


26
ERP Release 1.0 (Financial, Acquisition, and          Continuous Process Improvement
Workforce Management Capability). DON                 Continuous Process Improvement (CPI) is a
will deploy Navy ERP Release 1.1 (Single              primary enabler for managing the effectiveness
Supply Solution), which will consolidate              and efficiency of DON processes in support of
wholesale and retail supply functions, in             the Warfighter and Business Operations. CPI
February 2010.                                        provides the DON workforce with proven
                                                      performance improvement tools to build a
The Navy will continue to expand Navy ERP             strong warfighter support foundation for
throughout the enterprise. Other Commands             improving cycle time and reliability, aligning
scheduled for implementation are Naval Sea            the work of subordinate organizations
Systems Command (General Fund operations,             to enterprise-wide goals, and optimizing
October 2010; and Working Capital Fund                costs. DON established the Deputy Under
operations, October 2011); Strategic Systems          Secretary of the Navy for Business Operations
Programs (October 2012); and Office of Naval          and Transformation, who also serves as
Research (October 2012). More information on          Deputy Chief Management Officer, to bring
Navy ERP is available at http://www.erp.navy.mil.     together processes and organizations for the
                                                      accomplishment of strategic and corporate
                                                      business objectives.


                                          Fiscal Year 2009 Department of the Navy Annual Financial Report | 27
The DON Continuous Process Improvement                       now processes 99.07% of patient
Management System (CPIMS) measures                           records within the required 30-day
progress and facilitates replication of process              period.
improvements and results. CPIMS gained                  n	   Marine Recruit Training Cycle Time
momentum in FY 2009 with the addition of                     – Discharging a training recruit from
hundreds of new projects and the participation               Marine Corps Recruit Depot (MCRD)
of all DON commands. Below are some                          San Diego took 12 to 45 days. A Lean
examples of successful CPI projects in FY 2009.              Six Sigma team analyzed the process
                                                             and made changes that reduced the
     n	   Civilian Base Check-In and Check-Out               discharge cycle time by 62%. Fewer
          Processes – The Naval Air Systems                  days spent on the depot for each of the
          Command (NAVAIR) completed two                     approximately 1,400 recruits resulted
          projects that focused on civilian base             in $800,000 savings in FY 2009.
          check-in and check-out processes.
          Both projects identified long cycle        Management Assurances
          times, excessive labor costs, disjointed
          processes, and network accounts            Commanders and managers throughout DON
          remaining open after completion            must ensure the integrity of their programs
          of check-out procedures. NAVAIR            and operations. Part of this responsibility
          streamlined both processes with a          entails compliance with Federal requirements
          one-stop check-in and phone check-         for financial reporting, financial management
          out and identified a new process for       systems, and internal controls. These
          termination or transfer of network         requirements promote the production of
          accounts. NAVAIR reduced cycle times       more timely, reliable, and accessible financial
          for check-in and check-out processes       information, supported by the development
          by 28% and 38%, respectively.              and implementation of more effective internal
     n	   Hostile Area Deployment – The Space        controls. More useful financial information
          and Naval Warfare Systems Center           and effective controls save money and
          (SSC) Atlantic identified inefficiencies   improve efficiency, thereby enhancing public
          in the support and administrative          confidence in DON’s stewardship of public
          processes for preparing travelers          resources, which are critical for the protection
          who support the warfighter in hostile      and sustainment of our Nation and vital U.S.
          threat areas. SSC Atlantic streamlined     interests.
          and standardized the processes for
          preparing the hostile area deployment      Below is a brief discussion of DON compliance
          packages, which had taken as long          with Federal requirements in FY 2009.
          as 100 days. SSC Atlantic also
          standardized contents of the package       Federal Financial Management
          by 40% and reduced the review              Improvement Act
          process. Additionally, SSC Atlantic
                                                     The Federal Financial Management
          reduced submission of packages by
                                                     Improvement Act (FFMIA) of 1996 requires
          50% by eliminating redeployment
                                                     agencies to implement and maintain
          packages for employees remaining in
                                                     financial management systems that
          the hostile area.
                                                     comply substantially with Federal financial
     n	   Patient Records Process – The Bureau       management systems requirements, applicable
          of Medicine and Surgery (BUMED)            Federal accounting standards, and the U.S.
          identified inefficiencies in processing
                                                     Standard General Ledger (USSGL) at the
          records of discharged patients. By
                                                     transaction level. FFMIA supports the same
          utilizing various CPI tools, BUMED


28
objectives as the Chief Financial Officers Act         unresolved prior year material weaknesses,
of 1990 but with a systems emphasis. The               that controls are in place, operating effectively,
DON legacy financial management systems                and being used. There were no new material
and feeder systems are not yet substantially           weaknesses reported in FY 2009. DON
compliant with Federal financial management            has planned aggressive corrective action
systems requirements, generally accepted               to strengthen internal controls, including
accounting principles, and the USSGL at the            targeting the two unresolved material
transaction level. While FFMIA compliancy              weaknesses for closure. DON will continue to
requires a solid systems element, the                  emphasize internal controls in its operational
improvements in process documentation                  and business processes to improve operating
and internal control testing being made                efficiency, promote good stewardship, enhance
through DON FIP, combined with the ongoing             decision-making capability, and comply with
deployment of Navy ERP, will move DON                  Office of the Secretary of Defense policy. The
toward these goals over the next several years.        increased self-reporting activity and resulting
Navy ERP will be compliant with the DoD                transparency of the reporting process have
Standard Financial Information Structure               served to ensure DON controls are reasonably
(SFIS), which includes support for the                 sound and relevant to the overall DON
USSGL at the transaction level. SFIS is DoD’s          mission.
common business language that supports
standardization of financial reporting across          Internal Controls Over Financial Reporting
DoD Components.                                        Through its Financial Improvement Program
                                                       (FIP), DON conducted an assessment of
Federal Managers’ Financial Integrity Act              internal controls over financial reporting
The Federal Managers’ Financial Integrity              in various areas of the DON General Fund
Act (FMFIA) of 1982 requires agencies to               in FY 2009. Based on the results of control
evaluate their system of internal accounting           assessments in the DON General Fund,
and administrative controls and to report on           DON provided qualified assurance that
the effectiveness of these controls in an annual       internal controls over financial reporting,
statement of assurance. The FMFIA was the              as of June 30, 2009, were operating
model for the Sarbanes-Oxley Act of 2002,              effectively with the exception of six material
which applies to publicly traded companies.            weaknesses. Material weaknesses were noted
Application of the Sarbanes-Oxley Act led              in the following segments: Collections and
to the Federal Government’s reevaluation               Disbursements, Procure to Pay Processes,
of internal control policies under FMFIA,              Real Property, General Equipment, Military
including the addition of Appendix A to Office         Equipment, and Operating Materiel and
of Management and Budget (OMB) Circular                Supplies.
A-123 in December 2004, “Management’s
Responsibility for Internal Control.” Appendix         Similarly, based on the results of control
A of the revised circular requires agencies to         assessments in Navy Working Capital Fund,
provide a separate statement of assurance              DON provided qualified assurance that
on the effectiveness of internal controls over         internal controls over financial reporting, as
financial reporting.                                   of June 30, 2009, were operating effectively
                                                       with the exception of five material
Internal Controls Over Non-Financial                   weaknesses. Material weaknesses were noted
Operations                                             in the following segments: Collections and
DON’s system of non-financial internal                 Disbursements, Procure to Pay Processes,
controls, in effect as of June 30, 2009, provided      Inventory, Real Property, and General
qualified assurance, with the exception of two         Equipment.



                                           Fiscal Year 2009 Department of the Navy Annual Financial Report | 29
It is important to note that the DON could        The FY 2009 FMFIA Annual Statement of
provide no assurance for the internal controls    Assurance is available at http://www.fmo.navy.
over financial reporting for segments in either   mil/mic/soa_index.htm.
fund where assessments were not conducted.

The Marine Corps, a subsidiary reporting
                                                  Financial Condition and
entity within DON, documented and
                                                  Results of Operations
strengthened financial and business practices     The accompanying financial statements and
to improve the accuracy, timeliness, and          related disclosures represent DON’s enduring
reliability of reported financial information.    commitment to fiscal accountability and
Through recently concluded internal control       transparency. Through the DON FIP and
assessments, the Marine Corps is able to          related business transformation initiatives
                                                  discussed earlier, DON has made significant
highlight financial and business practice
                                                  progress toward improving the quality
reliability for material lines of the Balance
                                                  and timeliness of its financial information.
Sheet and Statement of Budgetary Resources.       However, DON is currently unable to fully
The scope of testing and the degree of            implement all elements of generally accepted
confidence achieved also enabled Marine           accounting principles and OMB Circular
Corps to assert audit readiness in FY 2009.       A-136, Financial Reporting Requirements, due to



30
limitations of its financial and non-financial       the budgetary information used for decision-
management processes and systems feeding             making is accurate and reliable.
into the financial statements. Because of
these limitations, the Department of Defense,        For financial reporting purposes, DON is
Office of Inspector General, was unable to           organized into two reporting entities: DON
express an opinion on the FY 2009 DON                General Fund (GF) and Navy Working Capital
financial statements. It should be noted             Fund (NWCF), which include financial
that these limitations exist primarily in our        information for both the U.S. Navy and the
proprietary accounting processes and less            U.S. Marine Corps (USMC). Each reporting
so in the budgetary accounting performed             entity has its own set of financial statements
to manage and report on the application              and related notes. USMC also has a separate
of budget authority to the purposes and              set of subsidiary financial statements and
programs approved in appropriations acts.            related notes, which are included in this
In fact, the U.S. Marine Corps achieved full         annual financial report.
audit readiness for its General Fund Statement
of Budgetary Resources (SBR) and DON has             DON General Fund
revised its strategy to place first priority on      The DON GF supports overall Departmental
its SBR as well. Despite documented material         operations. Enacted appropriations comprise
weaknesses and because of compensating
measures and close oversight, DON believes


                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 31
the majority of the GF account structure, which         resources. Enacted appropriations increased
includes five major appropriation groups:               $2.5 billion, 2%, for a total of $165.3 billion,
                                                        when compared to FY 2008. The majority
     n	    Operation and Maintenance                    of the increase, 69%, was in the Operation
     n	    Military Personnel                           and Maintenance; Military Personnel; and
     n	    Procurement                                  Research, Development, Test, and Evaluation
     n	    Research, Development, Test, and             appropriation accounts. DON obligated
           Evaluation                                   $197.0 billion of the $223.9 billion total
     n	    Military Construction                        resources in FY 2009, an increase of $9.2 billion,
                                                        5%, over FY 2008.
Enacted appropriations flow through OMB
and the Office of the Secretary of Defense to                 DON GF Sources of Funds, FY 2009
the Office of the Secretary of the Navy, where                         ($ in Billions)
they are allocated to administering offices
and major commands. The administering
                                                                              $21.3
offices and major commands, which in turn
obligate the appropriations to fund operational
expenses and capital investments, are required                       $28.0

to exercise a system of effective control over
financial operations.                                             $7.7


Results of Operations
                                                                                             $167.0
The Combined Statement of Budgetary
Resources presents total budgetary resources
of $223.9 billion that were available to
the DON GF during FY 2009 and the
status of those resources at fiscal year-
end. Total budgetary resources were up                              Appropriations and Net Transfers
$8.1 billion, 4%, in FY 2009 over FY 2008.                          Earned Reimbursements
                                                                    Unobligated Balance Forward from Prior Years
Most of the increase came from increased                            Other
budgetary authority from appropriations,
which comprised 74% of total budgetary



                            DON GF Net Cost of Operations, FY 2005 – 2009
                                            ($ in Billions)
          $200
                                                         $147.8                                  $144.0
          $150                         $125.6                                $132.7
                       $115.4

          $100

           $50

            $0
                    2005           2006              2007                2008*               2009

                                          Fiscal Year Ending September 30                        * Restated



32
The Combined Statement of Net Cost presents                       DON GF Total Assets, FY 2009
net cost of operations of $144.0 billion during                          ($ in Billions)
FY 2009. Net cost of operations represents
gross costs incurred by the DON GF less
                                                                             $34.7
earned revenue. Net cost of operations
increased $11.3 billion, 9%, when compared to
                                                                                                 $125.1
FY 2008.

Financial Position
The DON GF continued to report a positive
                                                                 $218.5
net position on its Consolidated Balance Sheet.                                                             $4.1
Net position is the difference between total
                                                                                                 $62.4
assets (what is owned) and total liabilities
(what is owed). As of September 30, 2009,
net position totaled $409.2 billion, which
represents an increase of $24.8 billion, or 7%,
from FY 2008. An increase of $23.4 billion in                     Fund Balance with Treasury
                                                                  Accounts Receivable
total assets attributed to the overall increase in                Inventory & Related Property
net position. Total liabilities decreased by $1.5                 General Property, Plant, & Equipment
                                                                  Remaining Assets
billion.

                                                                DON GF Total Liabilities, FY 2009
Primary contributors of the increase in total
                                                                         ($ in Billions)
assets were General Property, Plant, and
Equipment (GPP&E); and Fund Balance
with Treasury (FBWT). The addition of                                                     $3.9
new aircraft and ships during FY 2009                                                               $1.5

resulted in a $14.0 billion increase in Military
Equipment, a component of GPP&E. Enacted                            $11.6

appropriations for FY 2009 contributed to
$2.5 billion of the increase in FBWT.

Primary contributors of the decrease in total
liabilities were Other Liabilities, Nonfederal;
and Accounts Payable, Nonfederal. A change
                                                                                            $18.6
in accrual methodology for tort claims resulted
in a $2.7 billion decrease in legal liabilities, a
component of Other Liabilities, Nonfederal.
Partially offsetting this decrease in Other                        Accounts Payable
Liabilities was a $0.9 billion increase in                         Military Retirement and
                                                                   Other Federal Employment Benefits
Accounts Payable, Nonfederal. This increase is                     Environmental and Disposal Liabilities
primarily attributable to a $0.6 billion increase                  Remaining Liabilities
in Aircraft Procurement.




                                            Fiscal Year 2009 Department of the Navy Annual Financial Report | 33
Navy Working Capital Fund                                      NWCF Sources of Funds, FY 2009
                                                                       ($ in Billions)
NWCF is a revolving fund established to
meet the diverse requirements of the Navy
and Marine Corps operating forces. Under
the revolving fund concept, an appropriation                                   ($5.0)
                                                                                                    $6.7
or a transfer of funds finances initial NWCF
operations. General or appropriated fund                        $2.8
payments from customers for goods delivered
or services performed subsequently replenish
this initial working capital investment and
sustain a continuous cycle of operations,
minimizing the need for additional annual
appropriations by Congress. The goal
of NWCF is to break even over time by
matching revenues earned to costs incurred.                                              $25.5
Achievement of this goal is occasionally
complicated by the requirement that NWCF
business areas maintain stable budget-driven
prices for goods and services, to protect                         Contract Authority, Appropriations,
                                                                  and Net Transfers
customers from unforeseen price fluctuations.                     Earned Reimbursements
                                                                  Unobligated Balance Forward from Prior Years
Results of Operations                                             Other

The Combined Statement of Budgetary                 Note: In the above chart, Other includes budgetary resources permanently
Resources presents total budgetary resources        not available of $6.4 billion, which is offset against the $1.4 billion sum total of
                                                    Recoveries of prior year unpaid obligations and Change in unfilled customer
of $30.0 billion that were available to NWCF        orders.

during FY 2009 and the status of those
resources at fiscal year-end. Total budgetary       from offsetting collections, which comprised
resources were up $2.6 billion, 10%, in             89% of total budgetary resources. Spending
FY 2009 over FY 2008. Most of the increase          authority increased $1.4 billion, 5%, for a total
came from increased spending authority              of $26.7 billion, when compared to FY 2008.

                   Navy Working Capital Fund Business Activities By Business Area

Supply Management                                 Depot Maintenance
Supply Management, Navy                           Depot Maintenance, Aviation
(https://www.navsup.navy.mil)                     (http://www.navair.navy.mil)
Supply Management, Marine Corps                   Depot Maintenance, Marine Corps
(http://www.logcom.usmc.mil)                      (http://www.logcom.usmc.mil)
Base Support                                      Transportation
Facilities Engineering Commands
(https://portal.navfac.navy.mil)                  Military Sealift Command
Naval Facilities Engineering Service Center       (http://www.msc.navy.mil)
(https://portal.navfac.navy.mil)
Research and Development
Naval Research Laboratory*                        Naval Air Warfare Center
(http://www.nrl.navy.mil)                         (http://www.navair.navy.mil)
Naval Surface Warfare Center                      Space and Naval Warfare Systems Centers
(http://www.navsea.navy.mil)                      (http://enterprise.spawar.navy.mil)
Naval Undersea Warfare Center                     *Also see Office of Naval Research
(http://www.navsea.navy.mil)                      (http://www.onr.navy.mil)



34
NWCF business activities obligated                          assets, when compared to total liabilities.
$26.5 billion of the $30.0 billion total resources          Accounts Receivable, Intragovernmental
in FY 2009, an increase of $1.9 billion, 8%,                decreased $0.3 billion primarily due to delayed
over FY 2008.                                               FY 2008 billings, resulting in collections
                                                            being processed through the U.S. Treasury in
The Combined Statement of Net Cost presents                 October 2008 (FY 2009). GPP&E decreased
net cost of operations of $1.6 billion during               $0.4 billion primarily due to an increase
FY 2009. Net cost of operations represents                  in accumulated depreciation for NAVFAC
gross costs incurred by NWCF less earned                    buildings attributable to the reconciliation of
revenue. Sources of earned revenue include                  their legacy property system to the DON’s
DON, Army, and Air Force General Funds;                     authoritative real property inventory system.
Defense Working Capital Funds; other Navy                   Based on their reconciliation, NAVFAC
and DoD appropriations; and non-DoD fund                    determined that accumulated depreciation had
sources. Net cost of operations decreased $1.5              been understated in FY 2008.
billion, 47%, when compared to FY 2008.
                                                            An overall increase of $0.4 billion in Other
Financial Position                                          Liabilities (Intragovernmental and Nonfederal)
The NWCF continued to report a positive net                 primarily contributed to the increase in
position on its Consolidated Balance Sheet.                 total liabilities. Of this $0.4 billion increase,
Net position is the difference between total                $0.2 billion was attributable to Other Liabilities,
assets (what is owned) and total liabilities                Intragovernmental for advances from other
(what is owed). As of September 30, 2009, net               Federal entities to the Space and Naval Warfare
position totaled $10.4 billion, which represents            Systems Centers (SSC). SSC performed
a decrease of $0.5 billion, or 5%, from FY 2008.            intelligence; and command, control, computer,
Total assets increased $0.01 billion while total            communication, and information assurance
liabilities increased $0.5 billion. The larger              services in order to enable the coordination of
increase in total liabilities, when compared to             operations for these entities. Also, $0.1 billion
total assets, drove the overall decrease in net             was attributable to Accrued Funded Payroll
position.                                                   and Benefits, a component of Other Liabilities,
                                                            Nonfederal, as a result of more days of accrued
Decreases in Accounts Receivable,                           payroll and leave, and new employees at Naval
Intragovernmental; and General Property,                    Supply Systems Command, Naval Air Warfare
Plant, and Equipment (GPP&E) primarily                      Center, Naval Surface Warfare Center, and
contributed to the smaller increase in total                NAVFAC.


                           NWCF Net Cost of Operations, FY 2005 – 2009
                                          ($ in Billions)
       $4
                                                                                $3.1
       $3           $2.6


       $2                            $1.7
                                                                                              $1.6
                                                            $1.3
       $1

       $0
                 2005            2006                2007                2008             2009

                                        Fiscal Year Ending September 30


                                            Fiscal Year 2009 Department of the Navy Annual Financial Report | 35
          NWCF Total Assets, FY 2009                                                       NWCF Total Liabilities, FY 2009
                ($ in Billions)                                                                   ($ in Billions)
                            $0.4

                                     $1.2
                                             $0.7
               $2.8

                                                                                                 $2.4



                                                                                                                                           $3.5




                                                                                                        $0.9

                                   $12.2


                                                                                              Accounts Payable
          Fund Balance with Treasury
                                                                                              Military Retirement and
          Accounts Receivable
          Inventory & Related Property                                                        Other Federal Employment Benefits
          General Property, Plant & Equipment                                                 Remaining Liabilities
          Remaining Assets



Cash Management                                                                FY 2009, the seven-day cash requirement was
The DON manages working capital fund cash                                      $753 million and the ten-day requirement was
at the Departmental level. It must maintain                                    $1.034 billion.
cash levels at seven to ten days of operational
costs, plus have sufficient cash reserves to                                   Due to the transition to Navy ERP on
meet six months of projected capital outlays,                                  October 1, 2009, SPAWAR collected non-Navy
as required by the Department of Defense                                       orders up front and minimized as many carry
Financial Management Regulation. For                                           over financial transactions as possible causing


                                     Navy Working Capital Fund Cash Balances
                                      October 1, 2008 to September 30, 2009
                                                   ($ in Millions)
     1200

      900

      600

      300

         0
               Oct        Nov        Dec       Jan       Feb        Mar        Apr       May        Jun        Jul      Aug         Sep

                                                       Fiscal Year Ending September 30

     *Note: Cash balances above represent the combined total of monthly cash balances for five business areas and the corporate account.



36
an end of year growth in cash over the ten-day
goal. Supply Management, Navy received
Inventory Augmentation funding of $1.6
million. The Military Sealift Command had
Capital Purchase Hires of $16.6 million.

Looking Forward
The DON’s achievements during FY 2009
established a firm foundation that will
assure future success in executing its mission
and building a sound business operating
environment. In FY 2010 and beyond, DON
will remain focused on areas that increase its
effectiveness and efficiency, improve the lives
of Sailors and Marines, and result in greater
security for the U.S. Below is a brief discussion
of some key priorities.

Maritime Strategy
The U.S. maritime services—Navy, Marine
Corps, and Coast Guard—will continue
to operate closely with other joint forces,
allies, and coalition partners to prevent war
and build partnerships pursuant to the U.S.
                                                      The guided-missile destroyer USS Ramage (DDG 61)
maritime strategy, A Cooperative Strategy             transits through the Persian Gulf as part of the Iwo Jima
for 21st Century Seapower. Building upon              Expeditionary Strike Group supporting maritime security
numerous achievements in support of this              operations in the U.S. 5th Fleet area of operations. Persian
                                                      Gulf – December 2008
strategy, such as Combined Task Force 151
(a multinational effort to deter, disrupt, and
suppress piracy near the Horn of Africa)
and Sector Command Center-Joint (a Navy-              interoperable network-centric capabilities.
Coast Guard Command Center to coordinate              These programs include the Next Generation
operations and planning for maritime domain           Enterprise Network, which will replace the
awareness), the U.S. maritime sevices will            Navy Marine Corps Intranet, and the Marine
further expand capabilities that comprise             Corps’ Command and Control Harmonization
the core of U.S. maritime power—forward               Strategy. These emerging capabilities will
presence, deterrence, sea control, power              ensure naval forces have accurate situational
projection, maritime security, humanitarian           awareness to enable superior decision-making
assistance, and disaster response. More               within a secure information environment.
information on our maritime strategy is
available at http://www.navy.mil/maritime.            Environmental Stewardship
                                                      The DON is committed to developing greater
Infrastructure Investment                             energy independence and conservation ashore
Support for DON’s 21st century mission                and afloat. Energy costs siphon resources
depends on a reliable, capable, and secure            away from vital areas. The potential for
information technology infrastructure. The            disruption and the possible vulnerability of
Navy and Marine Corps will continue to                energy supplies could threaten U.S. naval
invest in programs that deliver agile and             forces’ ability to perform in battle.


                                          Fiscal Year 2009 Department of the Navy Annual Financial Report | 37
The DON has made progress in increasing                  for the Atlantic Fleet Active Sonar Training
energy efficiency, reducing energy                       area, the Southern California Range Complex,
consumption, and capitalizing on renewable               and the Hawaii Range Complex.
energy sources. The DON is the DoD lead
for solar, geothermal, and ocean energy, and             Business Transformation
today, 17% of DON’s total energy requirements            The DON is implementing meaningful and
are provided through alternative or renewable            sustainable changes in Navy-Marine Corps
sources.                                                 business management in order to continue
                                                         the drive to improve effectiveness, realize
The DON will continue to afford significant              efficiencies, and provide a more straight-
protection to marine mammals while                       forward and tighter focus on business
preserving its ability to train using mid-               transformation.
frequency active (MFA) sonar. The tactical use
of MFA sonar is the best means of detecting              A top priority of the Under Secretary of the
potentially hostile, quiet, diesel-electric              Navy is to ascertain DON’s achievements
submarines. The Navy, working with the                   toward implementing the business
National Marine Fisheries Service (NMFS),                transformation guidance provided in the
is on track to have environmental impact                 National Defense Authorization Act (NDAA)
statements (EISs) for all at-sea training ranges         for FY 2008 and FY 2009. The DON leadership
and operating areas by 2010. The Navy and                fully understands the intent of and strongly
NMFS have already completed the first EISs               supports NDAA. It will take time to align
                                                         and integrate efforts throughout DON into a
                                                         comprehensive business transformation plan
                                                         that will guide the development of enterprise-
                                                         wide business performance improvement. The
                                                         DON is confident that the implementation of
                                                         NDAA for FY 2009 will further mature and
                                                         advance business transformation efforts.

                                                         Additionally, DON plans to develop
                                                         and implement an audit-driven business
                                                         process improvement strategy. Among the
                                                         objectives DON plans to work towards are
                                                         evaluating and managing corrective action
                                                         plans for material weaknesses and reportable
                                                         conditions; developing a process to duplicate
                                                         the audit assertion model developed by the
                                                         Marine Corps; and collaborating with Navy
                                                         commands and activities and DoD to develop
                                                         an audit materiality strategy.




Solar panels supply energy to Marine Corps Air Ground
Combat Center. Twentynine Palms, California – February
2009



38
General Fund Principal Statements




                               39
 Fiscal Year 2009 Department of the Navy Annual Financial Report
                    Limitations to the Financial Statements
                    The principal financial statements have been prepared to report the
                    financial position and results of operations of the entity, pursuant
                    to the requirements of 31 United States Code 3515 (b). While the
                    statements have been prepared from the books and records of the
                    entity in accordance with Generally Accepted Accounting Principles for
                    Federal entities and the formats prescribed by Office of Management
                    and Budget, the statements are in addition to the financial reports used
                    to monitor and control budgetary resources which are prepared from
                    the same books and records. The statements should be read with the
                    realization that they are for a component of the U.S. Government, a
                    sovereign entity.


                    Principal Statements
                    The Fiscal Year 2009 Department of the Navy General Fund principal
                    statements and related notes are presented in the format prescribed by
                    the Department of Defense Financial Management Regulation 7000.14,
                    Volume 6B. The statements and related notes summarize financial
                    information for individual funds and accounts within the General Fund
                    for the fiscal year ending September 30, 2009, and are presented on a
                    comparative basis with information previously reported for the fiscal
                    year ending September 30, 2008.

                    The following statements comprise the Department of the Navy General
                    Fund principal statements:

                       n	   Consolidated Balance Sheet
                       n	   Consolidated Statement of Net Cost
                       n	   Consolidated Statement of Changes in Net Position
                       n	   Combined Statement of Budgetary Resources

                    The principal statements and related notes have been prepared to report
                    financial position pursuant to the requirements of the Chief Financial
                    Officers Act of 1990, as amended by the Government Management
                    Reform Act of 1994. The accompanying notes should be considered an
                    integral part of the principal statements.




40 | General Fund
     Department of Defense
     Department of the Navy General Fund
     CONSOLIDATED BALANCE SHEET
    As of September 30, 2009 and 2008
    Department of Defense
      ($ in Thousands)
    Department of the Navy General Fund                                                                                             Restated
    CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                               2009 Consolidated                                                               2008 Consolidated
    For the Years Ended
         ASSETS    (NoteSeptember
                         2)       30, 2009 and 2008
      ($ in Thousands)
          Intragovernmental:
           Fund Balance with Treasury (Note 3)                                                     $        125,074,999    $           118,168,348
           Investments (Note 4)                                                                2009 Earmarked Funds
                                                                                                                  9,621        2009 Other Funds
                                                                                                                                            10,356
        CUMULATIVE         RESULTS
           Accounts Receivable          OF5)OPERATIONS
                                    (Note                                                                       373,313                    393,989
         Beginning    Balances
           Other Assets   (Note 6)                                                         $                  24,229
                                                                                                                418,505$                235,972,388
                                                                                                                                           302,751
         Prior
         Total Period   Adjustments
               Intragovernmental       Assets                                                                      -
                                                                                                            125,876,438                      (94,740)
                                                                                                                                       118,875,444
         Beginning Balances, as adjusted                                                                      24,229                    235,877,648
         Budgetary    Financing
         Cash and Other     MonetarySources:
                                         Assets (Note 7)                                                        160,509                    137,277
         Accounts    Receivable,
          Appropriations     usedNet (Note 5)                                                                      -
                                                                                                              3,681,949                 159,052,821
                                                                                                                                         3,688,790
         Inventory
          Nonexchangeand Related
                           revenueProperty, Net (Note 9)                                                         319
                                                                                                             62,424,699                         (145)
                                                                                                                                        60,804,137
         General
          DonationsProperty,  Plant, and
                       & forfeitures        Equipment,
                                       of cash           Net (Note 10)
                                                & cash equivalents                                            23,896
                                                                                                            218,470,785                          155
                                                                                                                                       202,508,235
         Other  Assets
          Transfers      (Note
                     in/out     6)
                              without   reimbursement (+/-)                                                        -
                                                                                                             34,153,251                 35,385,429 -
         Other Financing
        TOTAL    ASSETS Sources:                                                                            444,767,631                421,399,312
          Donations and
        Stewardship         forfeitures
                       Property,    Plant,ofand
                                             property
                                                Equipment (Note 10) *                                              -                            (667)
          Transfers in/out without reimbursement (+/-)                                                             -                        208,053
        LIABILITIES     (Note 11)
          Imputed ﬁnancing       from costs absorbed by others                                                     -                        779,646
         Intragovernmental:
          Other (+/-)                                                                                              5                      4,046,447
           Accounts
         Total        Payable
               Financing        (Note 12)
                            Sources                                                                           24,220
                                                                                                              1,289,644                 164,086,310
                                                                                                                                         1,434,076
           Other
         Net  CostLiabilities (Note 15
                    of Operations        & Note 16)
                                      (+/-)                                                                   22,278
                                                                                                              4,786,951                 143,990,916
                                                                                                                                         4,767,298
         TotalChange
         Net   Intragovernmental Liabilities                                                                   1,942
                                                                                                              6,076,595                  20,095,394
                                                                                                                                         6,201,374
         Cumulative Results of Operations                                                  $                  26,171 $                  255,973,042
         Accounts Payable (Note 12)                                                                           2,583,642                  1,732,477
         Military Retirement
        UNEXPENDED               and Other Federal
                           APPROPRIATIONS
             Employment
         Beginning Balances Beneﬁts    (Note 17)                                           $                       - $
                                                                                                              1,494,427                 121,305,364
                                                                                                                                         1,650,038
         Environmental     and   Disposal
         Prior Period Adjustments (+/-)     Liabilities (Note 14)                                                  -
                                                                                                             18,604,432                  27,184,971
                                                                                                                                        18,291,417
         Other Liabilities
         Beginning           (Note
                      Balances,    as15 & Note 16)
                                      adjusted                                                                     -
                                                                                                              6,796,504                 148,490,335
                                                                                                                                         9,131,795
        TOTAL    LIABILITIES
         Budgetary    Financing Sources:                                                                     35,555,600                 37,007,101
        Commitments
          Appropriations  and  Contingencies (Note 16) *
                             received                                                                              -                    165,233,492
         Appropriations transferred-in/out (+/-)                                                                   -                       1,711,873
        NET POSITION
         Other adjustments (rescissions, etc) (+/-)                                                                -                     (3,170,061)
         Unexpended  Appropriations
         Appropriations used         - Other Funds                                                                 -
                                                                                                            153,212,818                (159,052,821)
                                                                                                                                       148,490,335
         Cumulative
        Total       Results
              Budgetary     of Operations
                        Financing   Sources- Earmarked Funds                                                       -
                                                                                                                 26,171                   4,722,483
                                                                                                                                            24,230
         Cumulative Results
        Unexpended          of Operations - Other Funds
                     Appropriations                                                                                -
                                                                                                            255,973,042                 153,212,818
                                                                                                                                       235,877,646
        TOTAL  NET POSITION
        Net Position                                                                       $                  26,171 $
                                                                                                            409,212,031                 409,185,860
                                                                                                                                       384,392,211

        TOTAL LIABILITIES AND NET POSITION                                                        $         444,767,631    $           421,399,312




        * - Disclosure but no value required per Federal Accounting Standards.




        The accompanying notes are an integral part of the statements.




        The accompanying notes are an integral part of the statements. Fiscal    Year 2009 Department of the Navy Annual Financial Report | 41
The accompanying notes are an integral part of these statements.
    Department of Defense
    Department of the Navy General Fund
    CONSOLIDATED STATEMENT OF NET COST
    For the Years Ended September 30, 2009 and 2008
      ($ in Thousands)
                                                                                                        Restated
                                                                            2009 Consolidated      2008 Consolidated
       Program Costs
         Gross Costs                                                    $          148,794,460 $          137,348,817
         Less: Earned Revenue                                                       (4,781,266)            (4,606,524)
         Net Program Costs                                                         144,013,194            132,742,293
       Net Cost of Operations                                           $          144,013,194 $          132,742,293




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.


    42 | General Fund
    Department of Defense
    Department of the Navy General Fund
    CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
    For the Years Ended September 30, 2009 and 2008
      ($ in Thousands)


                                                                                           2009 Earmarked Funds        2009 Other Funds
       CUMULATIVE RESULTS OF OPERATIONS
        Beginning Balances                                                             $                  24,229   $            235,972,388
        Prior Period Adjustments                                                                               -                    (94,740)
        Beginning Balances, as adjusted                                                                   24,229                235,877,648
        Budgetary Financing Sources:
         Appropriations used                                                                                   -                159,052,821
         Nonexchange revenue                                                                                 319                       (145)
         Donations & forfeitures of cash & cash equivalents                                               23,896                        155
         Transfers in/out without reimbursement (+/-)                                                          -                          -
        Other Financing Sources:
         Donations and forfeitures of property                                                                 -                       (667)
         Transfers in/out without reimbursement (+/-)                                                          -                    208,053
         Imputed ﬁnancing from costs absorbed by others                                                        -                    779,646
         Other (+/-)                                                                                           5                  4,046,447
        Total Financing Sources                                                                           24,220                164,086,310
        Net Cost of Operations (+/-)                                                                      22,278                143,990,916
        Net Change                                                                                         1,942                 20,095,394
        Cumulative Results of Operations                                               $                  26,171   $            255,973,042

       UNEXPENDED APPROPRIATIONS
        Beginning Balances                                                             $                       -   $            121,305,364
        Prior Period Adjustments (+/-)                                                                         -                 27,184,971
        Beginning Balances, as adjusted                                                                        -                148,490,335
        Budgetary Financing Sources:
         Appropriations received                                                                               -                165,233,492
         Appropriations transferred-in/out (+/-)                                                               -                  1,711,873
         Other adjustments (rescissions, etc) (+/-)                                                            -                 (3,170,061)
         Appropriations used                                                                                   -               (159,052,821)
        Total Budgetary Financing Sources                                                                      -                  4,722,483
        Unexpended Appropriations                                                                              -                153,212,818
        Net Position                                                                   $                  26,171   $            409,185,860




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.


                                                                        Fiscal Year 2009 Department of the Navy Annual Financial Report | 43
    Department of Defense
    Department of the Navy General Fund
    CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
    For the Years Ended September 30, 2009 and 2008
      ($ in Thousands)
                                                                                                            Restated
                                                                            2009 Consolidated          2008 Consolidated
       CUMULATIVE RESULTS OF OPERATIONS
        Beginning Balances                                              $            235,996,617 $              221,854,870
        Prior Period Adjustments                                                         (94,740)                   (94,740)
        Beginning Balances, as adjusted                                              235,901,877                221,760,130
        Budgetary Financing Sources:
         Appropriations used                                                         159,052,821                143,328,499
         Nonexchange revenue                                                                 174                        620
         Donations & forfeitures of cash & cash equivalents                               24,051                     24,216
         Transfers in/out without reimbursement (+/-)                                          -                    102,833
        Other Financing Sources:
         Donations and forfeitures of property                                              (667)                         -
         Transfers in/out without reimbursement (+/-)                                    208,053                    348,312
         Imputed ﬁnancing from costs absorbed by others                                  779,646                    678,845
         Other (+/-)                                                                   4,046,452                  2,400,714
        Total Financing Sources                                                      164,110,530                146,884,039
        Net Cost of Operations (+/-)                                                 144,013,194                132,742,293
        Net Change                                                                    20,097,336                 14,141,746
        Cumulative Results of Operations                                $            255,999,213 $              235,901,876

       UNEXPENDED APPROPRIATIONS
        Beginning Balances                                              $            121,305,364   $            109,221,611
        Prior Period Adjustments (+/-)                                                27,184,971                 20,021,907
        Beginning Balances, as adjusted                                              148,490,335                129,243,518
        Budgetary Financing Sources:
         Appropriations received                                                     165,233,492                162,715,443
         Appropriations transferred-in/out (+/-)                                       1,711,873                  2,403,645
         Other adjustments (rescissions, etc) (+/-)                                   (3,170,061)                (2,543,772)
         Appropriations used                                                        (159,052,821)              (143,328,499)
        Total Budgetary Financing Sources                                              4,722,483                 19,246,817
        Unexpended Appropriations                                                    153,212,818                148,490,335
        Net Position                                                    $            409,212,031 $              384,392,211




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.


    44 | General Fund
    Department of Defense
    Department of the Navy General Fund
    COMBINED STATEMENT OF BUDGETARY RESOURCES
    For the Years Ended September 30, 2009 and 2008
      ($ in Thousands)

                                                                                              2009 Combined            2008 Combined
       BUDGETARY FINANCING ACCOUNTS
       Budgetary Resources:
        Unobligated balance, brought forward, October 1                                  $           28,028,796    $         23,934,546
        Recoveries of prior year unpaid obligations                                                  24,029,026              20,966,590
        Budget Authority:
          Appropriations received                                                                   165,257,844             162,740,229
          Spending authority from offsetting collections:
             Earned
               Collected                                                                              7,806,105               7,252,127
               Change in receivables from Federal sources                                              (144,220)                262,649
             Change in unﬁlled customer orders
               Advances received                                                                        323,916                 435,937
               Without advance from Federal sources                                                      78,479                 305,473
           Subtotal                                                                                 173,322,124             170,996,415
        Nonexpenditure Transfers, net, anticipated and actual                                         1,711,873               2,506,478
        Permanently not available                                                                    (3,170,061)             (2,543,773)
       Total Budgetary Resources                                                                    223,921,758             215,860,256

       Status of Budgetary Resources:
        Obligations incurred:
          Direct                                                                                    186,801,435             179,361,449
          Reimbursable                                                                               10,215,890               8,470,011
          Subtotal                                                                                  197,017,325             187,831,460
        Unobligated balance:
          Apportioned                                                                                23,899,972              25,329,935
          Exempt from apportionment                                                                           -                       -
          Subtotal                                                                                   23,899,972              25,329,935
        Unobligated balances not available                                                            3,004,461               2,698,861
       Total Status of Budgetary Resources                                               $          223,921,758    $        215,860,256




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.


                                                                    Fiscal Year 2009 Department of the Navy Annual Financial Report | 45
    Department of
    Department of Defense
                  Defense
    Department of
    Department of the
                  the Navy
                      Navy General
                           General Fund
                                   Fund
    CONSOLIDATED
    COMBINED     STATEMENT
             STATEMENT     OF CHANGES
                       OF BUDGETARY   IN NET POSITION
                                    RESOURCES
    For the
    For the Years
             Years Ended
                   Ended September
                         September 30,
                                   30, 2009
                                       2009 and
                                            and 2008
                                                2008
       ($ in
      ($  in Thousands)
             Thousands)
                                                                                                             Restated
                                                                             2009 Consolidated
                                                                                  2009 Combined         2008 Consolidated
                                                                                                          2008 Combined
       RELATIONSHIP
       CUMULATIVE RESULTSOF OBLIGATIONS         TO OUTLAYS
                                    OF OPERATIONS
       Change  in Obligated
        Beginning   Balances Balance:                                    $           235,996,617 $               221,854,870
        Obligated
        Prior      balance,
              Period         net
                      Adjustments                                                         (94,740)                    (94,740)
           Unpaid Balances,
        Beginning   obligations,
                               as brought
                                  adjustedforward, October 1                 $           93,776,544 $
                                                                                     235,901,877                  86,191,077
                                                                                                                 221,760,130
           Less: Uncollected
        Budgetary   Financing customer
                                Sources: payments from
               Federal sources,
         Appropriations   used brought forward, October 1                                (3,864,218)
                                                                                     159,052,821                  (3,296,095)
                                                                                                                 143,328,499
           Total Unpaid   Obligated Balance
         Nonexchange revenue                                                             89,912,326
                                                                                             174                  82,894,982
                                                                                                                          620
        Obligations  incurred,
         Donations & forfeituresnetof(+/-)
                                       cash & cash equivalents                          197,017,325
                                                                                          24,051                187,831,460
                                                                                                                       24,216
        Less:  Gross  outlays
         Transfers in/out without reimbursement (+/-)                                  (165,217,414)
                                                                                                -              (159,279,403)
                                                                                                                      102,833
        Less: Recoveries of prior year unpaid obligations, actual                       (24,029,026)            (20,966,590)
        Other Financing Sources:
        Change in uncollected customer                                                       (667)                          -
         Donations and forfeitures of property
           payments from Federal sources (+/-)                                                65,742
                                                                                         208,053                    (568,123)
                                                                                                                      348,312
         Transfers in/out without reimbursement (+/-)
        Obligated balance, net, end of period
         Imputed ﬁnancing from costs absorbed by others                                  779,646                      678,845
           Unpaid obligations                                                          101,547,429                93,776,544
         Other (+/-)                                                                   4,046,452                    2,400,714
           Less: Uncollected customer payments from
        Total Financing Sources                                                      164,110,530                 146,884,039
               Federal sources                                                           (3,798,476)              (3,864,218)
        Net Cost of Operations (+/-)                                                 144,013,194                 132,742,293
           Total Unpaid Obligated Balance, net, end of period                            97,748,953               89,912,326
        Net Change                                                                    20,097,336                  14,141,746
        Cumulative Results of Operations                                 $           255,999,213 $               235,901,876
       Net Outlays:
        Gross Outlays                                                                  165,217,414              159,279,403
       UNEXPENDED
        Less: OffsettingAPPROPRIATIONS
                          collections                                                    (8,130,022)              (7,688,063)
        Beginning   Balances
        Less: Distributed  Offsetting receipts                           $           121,305,364
                                                                                           (321,451)$            109,221,611
                                                                                                                      98,060
        Prior
       Net    Period Adjustments (+/-)
           Outlays                                                           $        27,184,971
                                                                                       156,765,941 $              20,021,907
                                                                                                                151,689,400
        Beginning Balances, as adjusted                                              148,490,335                129,243,518
        Budgetary Financing Sources:
         Appropriations received                                                     165,233,492                 162,715,443
         Appropriations transferred-in/out (+/-)                                       1,711,873                   2,403,645
         Other adjustments (rescissions, etc) (+/-)                                   (3,170,061)                 (2,543,772)
         Appropriations used                                                        (159,052,821)               (143,328,499)
        Total Budgetary Financing Sources                                              4,722,483                  19,246,817
        Unexpended Appropriations                                                    153,212,818                 148,490,335
        Net Position                                                     $           409,212,031 $               384,392,211




        The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.


    46 | General Fund
          General Fund
Notes to the Principal Statements




                                47
 Fiscal Year 2009 Department of the Navy Annual Financial Report


                           Fiscal Year 2009 Department of the Navy Annual Financial Report | 47
Note 1.	Significant Accounting Policies
1.A.	 Basis of Presentation
These financial statements have been prepared to report the financial position and results of
operations of the Department of the Navy (DON) General Fund (GF), as required by the Chief
Financial Officers Act of 1990, expanded by the Government Management Reform Act of 1994,
and other appropriate legislation. The financial statements have been prepared from the books
and records of DON GF in accordance with, and to the extent possible, U.S. generally accepted
accounting principles (USGAAP) promulgated by the Federal Accounting Standards Advisory
Board (FASAB); the Office of Management and Budget (OMB) Circular A-136, Financial Reporting
Requirements; and the Department of Defense (DoD), Financial Management Regulation (FMR).
The accompanying financial statements account for all resources for which DON GF is responsible
unless otherwise noted.

Information relative to classified assets, programs, and operations is excluded from the statements
or otherwise aggregated and reported in such a manner that it is not discernable.

The DON GF financial statements include information from both financial systems and
nonfinancial feeder systems. The Defense Finance and Accounting Service, Cleveland (DFAS-CL)
collects the financial system information and incorporates it into the financial statements for DON
GF. The DON GF collects financial information from nonfinancial feeder systems through a data
call process and submits it to DFAS-CL for incorporation into the financial statements. On behalf
of DON GF, DFAS-CL also collects information from multiple sources, such as intragovernmental
data from DON GF’s trading partners, which is incorporated into the financial statements.
Beginning Fiscal Year (FY) FY 2007, DON GF completed migration from the DON Data Collection
Instrument to the Defense Departmental Reporting System (DDRS) Data Collection Module
(DCM). The DDRS DCM captures certain required financial information from feeder systems
for the DON GF financial statements. The DDRS DCM identifies the information requirements
to the source provider, provides an audit trail, and integrates data into the financial statement
preparation process.

The DON GF is unable to fully implement all elements of USGAAP and the OMB Circular A-136,
due to limitations of its financial and nonfinancial management processes and systems that support
the financial statements. The DON GF derives reported values and information for major asset
and liability categories largely from nonfinancial systems, such as inventory and logistic systems.
These systems were designed to support reporting requirements for maintaining accountability
over assets and reporting the status of federal appropriations rather than preparing financial
statements in accordance with USGAAP. The DON GF continues to implement process and system
improvements addressing these limitations.

The Department of Defense Inspector General (DoDIG) issued an audit report dated November
8, 2008 and identified several financial statement material weaknesses: Financial Management
Systems; Fund Balance with Treasury; Accounts Receivable; Inventory and Related Property;
General Plant, Property, and Equipment (GPP&E); Accounts Payable; Environmental Liabilities;
Statement of Net Cost; Problem Disbursements; and Unobligated Balances. The DON GF (as
identified in the DON FY 2009 Annual Statement of Assurance dated August 25, 2009) recognizes
those weaknesses as well as weaknesses associated with Collections and Disbursements, Procure
to Pay Processes, General Equipment, Military Equipment, and Real Property as related to the
GPP&E line on the Balance Sheet and Operating Materiel and Supplies (OM&S) (and the associated
weaknesses with Inventory).

48 | General Fund
1.B.	Mission of the Reporting Entity
The DON was created on April 30, 1798 by an act of Congress (I Stat. 533; 5 U.S.C. 411-12). The
overall mission of DON is to maintain, train, and equip combat-ready Navy and Marine Corps
forces capable of winning wars, deterring aggression, and maintaining freedom of the seas.

1.C.	 Appropriations and Funds
The DON receives appropriations and funds as general, working capital (revolving), trust, special,
and deposit funds. The DON uses these appropriations and funds to execute its missions and
subsequently report on resource usage.

General funds are used for financial transactions funded by congressional appropriations,
including personnel, operation and maintenance, research and development, procurement, and
military construction.

The National Defense Sealift Fund is DON GF’s only revolving fund. Revolving funds are
generally established for the purpose of carrying out specific activities. Revolving funds are
financed through an appropriation or a transfer to establish a corpus and are replenished through
charges made for goods or services without fiscal year limitations. The National Defense Sealift
Fund is unique because it receives an annual appropriation and has no corpus.

Trust funds contain receipts and expenditures of funds held in trust by the government for use
in carrying out specific purposes or programs in accordance with the terms of the donor, trust
agreement, or statute. Special fund accounts are used to record government receipts reserved
for a specific purpose. Certain trust and special funds may be designated as earmarked funds.
Earmarked funds are financed by specifically identified revenues, required by statute to be used
for designated activities, benefits, or purposes, and remain available over time. The DON GF is
required to separately account for and report on the receipt, use, and retention of revenues and
other financing sources for earmarked funds.

Special fund accounts are used to record government receipts reserved for a specific purpose.

Deposit funds are used to record amounts held temporarily until paid to the appropriate
government or public entity. They are not DON GF funds, and as such, are not available for DON
GF’s operations. The DON GF is acting as an agent or a custodian for funds awaiting distribution.

The DON GF is a party to allocation transfers with other federal agencies as a transferring (parent)
entity or receiving (child) entity. Allocation transfers are an entity’s legal delegation of authority
to obligate budget authority and outlay funds to another entity. Generally, all financial activity
related to allocation transfers (e.g. budget authority, obligations, outlays) is reported in the financial
statements of the parent entity. Exceptions to this general rule apply to specific funds for which
OMB has directed that all activity be reported in the financial statements of the child entity. These
exceptions include all U.S. Treasury-Managed Trust Funds, Executive Office of the President (EOP),
and all other funds specifically designated by OMB.

Additionally, DON GF receives allocation transfers from certain funds meeting the OMB exception:
the EOP for the Foreign Military Financing Program, as well as for the International Military
Education and Training program. These funds meet the OMB exception; however, activities for


                                           Fiscal Year 2009 Department of the Navy Annual Financial Report | 49
these funds are reported separately from the DoD financial statements. The DON GF also receives
allocation transfers from the U.S. Forest Service and the Federal Highway Administration and
reports financial activity for those funds to the parent.

1.D.	 Basis of Accounting
The DON GF’s financial management systems are unable to meet all full accrual accounting
requirements. Many of DON’s financial and nonfinancial feeder systems and processes were
designed and implemented prior to the issuance of USGAAP. These systems were not designed
to collect and record financial information on the full accrual accounting basis as required by
USGAAP. Most of DON’s financial and nonfinancial legacy systems were designed to record
information on a budgetary basis.

The DoD’s Agencywide financial statements and supporting trial balances are compiled from the
underlying financial data and trial balances of the Military Services and Defense Agencies and
their sub-entities. The underlying data is largely derived from budgetary transactions (obligations,
disbursements, and collections), from nonfinancial feeder systems, and accruals made for major
items such as payroll expenses, accounts payable, and environmental liabilities. Some of the sub-
entity level trial balances may reflect known abnormal balances resulting largely from business and
system processes. At the consolidated Military Service and Defense Agency level these abnormal
balances may not be evident. Disclosures of abnormal balances are made in the applicable
footnotes, but only to the extent that the abnormal balances are evident at the consolidated level.

1.E.	 Revenues and Other Financing Sources
The DON GF receives congressional appropriations as financing sources for general funds that
expire annually, on a multi-year basis, or do not expire. When authorized by legislation, these
appropriations are supplemented by revenues generated by sales of goods or services. The DON
GF recognizes revenue as a result of costs incurred for goods and services provided to other federal
agencies and the public. Full cost pricing is DON GF’s standard policy for services provided as
required by OMB Circular A-25, User Charges. The DON GF recognizes revenue when earned
within the constraints of its current system capabilities. In some instances, revenue is recognized
when bills are issued.

The DON GF does not include nonmonetary support provided by U.S. allies for common
defense and mutual security in amounts reported in the Statement of Net Cost and the Note 21,
Reconciliation of Net Cost of Operations to Budget. The U.S. has cost sharing agreements with
countries having a mutual or reciprocal defense agreement, or where U.S. troops are stationed, or
where the U.S. Fleet is in a port.

1.F.	Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the
period incurred. Current financial and nonfinancial feeder systems were not designed to collect
and record financial information on the full accrual accounting basis. Estimates are made for
major items such as payroll expenses, accounts payable, environmental liabilities, and unbilled
revenue. In the case of Operating Materiel and Supplies (OM&S), operating expenses are generally
recognized when the items are purchased. Efforts are underway to transition to the consumption
method for recognizing OM&S expenses. Under the consumption method, OM&S would be
reported as expenses when consumed. Due to system limitations, in some instances expenditures


50 | General Fund
for capital and other long-term assets may be recognized as operating expenses. The DON GF
continues to implement process and system improvements to address these limitations.

1.G.	 Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from
consolidated financial statements in order to prevent overstatement for business with itself.
However, DON GF cannot accurately identify intragovernmental transactions by customer because
DON GF’s systems do not track buyer and seller data at the transaction level. Generally, seller
entities within DoD provide summary seller-side balances for revenue, accounts receivable, and
unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side
records are adjusted to agree with DoD seller-side balances and are then eliminated. The volume of
intragovernmental transactions is so large that reconciliations cannot be accomplished effectively.
The DoD is developing long-term system improvements to ensure accurate intragovernmental
information, including developing sufficient up-front edits and controls eliminating the need for
reconciliations.

The U.S. Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide” and
Treasury Financial Manual Part 2 – Chapter 4700, “Agency Reporting Requirements for the
Financial Report of the United States Government,” provide guidance for reporting and reconciling
intragovernmental balances. While DON GF is unable to fully reconcile intragovernmental
transactions with all federal agencies, DON GF is able to reconcile balances pertaining to
investments in federal securities, borrowings from the U.S. Treasury and the Federal Financing
Bank, Federal Employees’ Compensation Act transactions with the Department of Labor, and
benefit program transactions with the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government
is not included. The Federal Government does not apportion debt and its related costs to federal
agencies. The DoD’s financial statements do not report any public debt, interest, or source of
public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To
the extent this financing ultimately may have been obtained through the issuance of public debt,
interest costs have not been capitalized since the U.S. Treasury does not allocate such costs to DoD.

1.H. 	Transactions with Foreign Governments and International Organizations
Each year, DON sells defense articles and services to foreign governments and international
organizations under the provisions of the Arms Export Control Act of 1976. Under the provisions
of the Act, DoD has authority to sell defense articles and services to foreign countries and
international organizations generally at no profit or loss to the Federal Government. Payment in
U.S. dollars is required in advance.

1.I.	 Funds with the U.S. Treasury
The DON GF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing
offices of the Defense Finance and Accounting Service (DFAS), the Military Departments, the
U.S. Army Corps of Engineers (USACE), and the Department of State’s financial service centers
process the majority of DON’s cash collections, disbursements, and adjustments worldwide. Each
disbursing station prepares monthly reports to the U.S. Treasury on checks issued, electronic fund
transfers, interagency transfers, and deposits.


                                          Fiscal Year 2009 Department of the Navy Annual Financial Report | 51
In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by
appropriation on interagency transfers, collections received, and disbursements issued. The U.S.
Treasury records these transactions to the applicable Fund Balance with Treasury (FBWT) account.
On a monthly basis, DON GF’s FBWT is adjusted to agree with the U.S. Treasury accounts.

1.J.	 Foreign Currency
Cash is the total of cash resources under the control of DoD, which includes coin, paper currency,
negotiable instruments, and amounts held for deposit in banks and other financial institutions.
Foreign currency consists of the total U.S. dollar equivalent of both purchased and nonpurchased
foreign currencies held in foreign currency fund accounts. Foreign currency is valued using the
U.S. Treasury prevailing rate of exchange.

The majority of cash and all foreign currency is classified as “nonentity” and is restricted. Amounts
reported consist primarily of cash and foreign currency held by disbursing officers to carry out
their paying, collecting, and foreign currency accommodation exchange missions.

The DON GF conducts a significant portion of operations overseas. Congress established a special
account to handle the gains and losses from foreign currency transactions for five general fund
appropriations: operation and maintenance, military personnel, military construction, family
housing operation and maintenance, and family housing construction. The gains and losses are
calculated as the variance between the exchange rate current at the date of payment and a budget
rate established at the beginning of each fiscal year. Foreign currency fluctuations related to other
appropriations require adjustments to the original obligation amount at the time of payment. The
DON GF does not separately identify foreign currency fluctuation transactions.

1.K.	 Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable, claims
receivable, and refunds receivable. Allowances for uncollectible accounts due from the public
are based upon analysis of collection experience by fund type. The DoD does not recognize an
allowance for estimated uncollectible amounts from other federal agencies. Claims against other
federal agencies are to be resolved between the agencies in accordance with dispute resolution
procedures defined in the Intragovernmental Business Rules published in the Treasury Financial
Manual at http://www.fms.treas.gov/tfm/vol1/07-03.pdf.

1.L.	 Direct Loans and Loan Guarantees
Not applicable.

1.M.	Inventories and Related Property
The DON GF manages only military or government-specific materiel under normal conditions.
Materiel is a unique term that relates to military force management, and includes items such as
ships, tanks, self-propelled weapons, aircraft, etc., and related spares, repair parts, and support
equipment. Items commonly used in and available from the commercial sector are not managed
in DON GF’s materiel management activities. Operational cycles are irregular and the military
risks associated with stock-out positions have no commercial parallel. The DON GF holds
materiel based on military need and support for contingencies. The DoD is currently developing a
methodology to be used to account for “inventory held for sale” and “inventory held in reserve for
future sale” with a completion date of year-end FY 2010 reporting.


52 | General Fund
Related property includes OM&S and stockpile materiels. The DON GF uses both the
consumption method and the purchase method of accounting for OM&S. Items that are
centrally managed and stored, such as ammunition and engines, are generally recorded using the
consumption method and are reported on the Balance Sheet as OM&S. When current systems
cannot fully support the consumption method, DON GF uses the purchase method. Under this
method, materiel and supplies are expensed when purchased. During FY 2009 and FY 2008,
DON GF expensed significant amounts using the purchase method because the systems could not
support the consumption method or management deemed that the item was in the hands of the
end user. This is a material weakness for DoD and long-term system corrections are in process.
Once the proper systems are in place, these items will be accounted for using the consumption
method of accounting.

The DON GF values OM&S assets using several cost valuation methods. Most OM&S is valued
at an approximation of historical cost using latest acquisition cost adjusted for holding gains and
losses. The latest acquisition cost method is used because legacy logistics systems were designed
for materiel management rather than accounting purposes. Although these systems provide
visibility and accountability over inventory and related property items, they do not maintain
historical cost data necessary to comply with SFFAS No. 3, “Accounting for Inventory and Related
Property.” Additionally, these legacy inventory systems cannot produce financial transactions
using the USSGL, as required by the Federal Financial Management Improvement Act of 1996
(P.L. 104-208). The DON is continuing to transition OM&S to the moving average cost method.
Most transitioned balances, however, were not baselined to auditable historical cost, and remain
noncompliant with SFFAS No. 3.

The DON determined that the recurring high dollar value of OM&S in need of repair is material to
the financial statements and required a separate reporting category. Many high dollar items, such
as aircraft engines, are categorized as OM&S rather than military equipment.

Excess, obsolete, or unserviceable operating materiels and supplies are reported at their net
realizable value. The DON GF recognizes condemned materiel in this category. The cost of
disposal is greater than the potential scrap value; therefore, the net value of condemned materiel is
zero.

1.N.	 Investments in U.S. Treasury Securities
The DON GF reports investments in U.S. Treasury securities at cost, net of amortized premiums
or discounts. Premiums or discounts are amortized over the term of the investments using
the effective interest rate method or another method obtaining similar results. The DON GF’s
intent is to hold investments to maturity, unless they are needed to finance claims or otherwise
sustain operations. Consequently, a provision is not made for unrealized gains or losses on these
securities.

The DON GF invests in nonmarketable market-based U.S. Treasury securities, which are issued
to federal agencies by the U.S. Treasury’s Bureau of Public Debt. They are not traded on any
securities exchange but mirror the prices of particular U.S. Treasury securities traded in the
government securities market.




                                          Fiscal Year 2009 Department of the Navy Annual Financial Report | 53
1.O.	 General Property, Plant, and Equipment
The DON GF uses the estimated historical cost for valuing military equipment. The DoD identified
the universe of military equipment by accumulating information relating to program funding
and associated military equipment, equipment useful life, program acquisitions, and disposals to
establish a baseline. The military equipment baseline is updated using expenditure, acquisition,
and disposals information.

The DoD’s General Property, Plant, and Equipment (PP&E) capitalization threshold is $100
thousand except for real property, which is $20 thousand. The DoN has not fully implemented the
threshold for real property; therefore, DoN is primarily using the capitalization threshold of $100
thousand for General PP&E and most real property.

General PP&E assets are capitalized at historical acquisition cost when an asset has a useful life of
two or more years and when the acquisition cost equals or exceeds DoD’s capitalization threshold.
The DoD also requires the capitalization of improvements to existing General PP&E assets if the
improvements equal or exceed the capitalization threshold and extend the useful life or increase
the size, efficiency, or capacity of the asset. The DoD depreciates all General PP&E, other than
land, on a straight-line basis.

When it is in the best interest of the government, DON GF provides government property to
contractors when deemed necessary to complete contract work. The DON GF either owns or
leases such property, or it is purchased directly by the contractor for the government based on
contract terms. When the value of contractor-procured General PP&E meets or exceeds the DoD
capitalization threshold, federal accounting standards require that it be reported on DON GF’s
Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished
equipment that provides appropriate General PP&E information for financial statement reporting.
The DoD requires DON to maintain, in their property systems, information on all property
furnished to contractors. These actions are structured to capture and report the information
necessary for compliance with federal accounting standards. The DON GF has not fully
implemented this policy primarily due to system limitations.

1.P.	Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, the DoD’s
policy is to record advances or prepayments in accordance with USGAAP. As such, payments
made in advance of the receipt of goods and services should be reported as an asset on the Balance
Sheet. The DoD’s policy is to expense and/or properly classify assets when the related goods
and services are received. The DON GF has not implemented this policy primarily due to system
limitations.

1.Q.	Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital
or operating leases. When a lease is essentially equivalent to an installment purchase of property
(a capital lease), and the value equals or exceeds the current capitalization threshold, DON GF
records the applicable asset as though purchased, with an offsetting liability, and depreciates it.
The DON GF records the asset and the liability at the lesser of the present value of the rental and


54 | General Fund
other lease payments during the lease term (excluding portions representing executory costs paid
to the lessor) or the asset’s fair market value. The discount rate for the present value calculation
is either the lessor’s implicit interest rate or the government’s incremental borrowing rate at
the inception of the lease. The DON GF, as the lessee, receives the use and possession of leased
property, for example real estate or equipment, from a lessor in exchange for a payment of funds.
An operating lease does not substantially transfer all the benefits and risk of ownership. Payments
for operating leases are expensed over the lease term as they become payable.

Office space and leases entered into by DON GF are the largest component of operating leases and
are based on costs gathered from existing leases, General Service Administration (GSA) bills, and
interservice support agreements. Future year projections use the Consumer Price Index.

1.R.	Other Assets
Other assets include those assets, such as military and civil service employee pay advances, travel
advances, and certain contract financing payments that are not reported elsewhere on DON GF’s
Balance Sheet.

The DON GF conducts business with commercial contractors under two primary types of contracts:
fixed price and cost reimbursable. To alleviate the potential financial burden on the contractor
that long-term contracts can cause, DON GF may provide financing payments. Contract financing
payments are defined in the Federal Acquisition Regulations, Part 32, as authorized disbursements
to a contractor prior to acceptance of supplies or services by the Government. Contract financing
payments clauses are incorporated in the contract terms and conditions and may include advance
payments, performance-based payments, commercial advances and interim payments, progress
payments based on cost, and interim payments under certain cost-reimbursement contracts. It is
DoD policy to record certain contract financing payments as other assets. The DON GF has not
fully implemented this policy primarily due to system limitations.

Contract financing payments do not include invoice payments, payments for partial deliveries,
lease and rental payments, or progress payments based on a percentage or stage of completion.
The Defense Federal Acquisition Regulation Supplement authorizes progress payments based on
a percentage or stage of completion only for construction of real property, shipbuilding, and ship
conversion, alteration, or repair. Progress payments based on percentage or stage of completion
are reported as Construction in Progress.

1.S.	 Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS
No. 12, “Recognition of Contingent Liabilities Arising from Litigation,” defines a contingency as an
existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain
or loss. The uncertainty will be resolved when one or more future events occur or fail to occur.
The DON GF recognizes contingent liabilities when past events or exchange transactions occur, a
future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition
do not exist but there is at least a reasonable possibility of incurring a loss or additional losses.
The DON GF’s risk of loss and resultant contingent liabilities arise from pending or threatened




                                           Fiscal Year 2009 Department of the Navy Annual Financial Report | 55
litigation or claims and assessments due to events such as aircraft, ship and vehicle accidents;
medical malpractice; property or environmental damages; and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for DON’s GF assets. Consistent
with SFFAS No. 6, “Accounting for Property, Plant, and Equipment,” recognition of an anticipated
environmental disposal liability begins when the asset is placed into service. Based upon
DoD policy, which is consistent with SFFAS No. 5, “Accounting for Liabilities of the Federal
Government,” nonenvironmental disposal liabilities are recognized when management decides
to dispose of an asset. The DoD recognizes nonenvironmental disposal liabilities for military
equipment nuclear-powered assets when placed into service. These amounts are not easily
distinguishable and are developed in conjunction with environmental disposal costs.

1.T.	 Accrued Leave
The DON GF reports liabilities for military leave and accrued compensatory and annual leave
for civilians. Sick leave for civilians is expensed as taken. The liabilities are based on current pay
rates.

1.U.	Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.
Unexpended Appropriations represent the amounts of budget authority that are unobligated
and have not been rescinded or withdrawn. Unexpended appropriations also represent amounts
obligated for which legal liabilities for payments have not been incurred. Cumulative Results
of Operations represent the net difference between expenses and losses, and financing sources
(including appropriations, revenue, and gains), since inception. Beginning with FY 1998, the
cumulative results of operations also include donations and transfers in and out of assets that were
not reimbursed.

1.V.	Treaties for Use of Foreign Bases
The DoD has the use of land, buildings, and other overseas facilities that are obtained through
various international treaties and agreements negotiated by the Department of State. The DON
purchases capital assets overseas with appropriated funds; however, the host country retains title
to the land and capital improvements. Treaty terms generally allow DON GF continued use of
these properties until the treaties expire. In the event treaties or other agreements are terminated,
use of the foreign bases is prohibited and losses are recorded for the value of any nonretrievable
capital assets. The settlement due to the U.S. or host nation is negotiated and takes into account the
value of capital investments and may be offset by the cost of environmental cleanup.

1.W.	Unexpended Obligations
The DON GF obligates funds to provide goods and services for outstanding orders not yet
delivered. Unless the title has passed, the financial statements do not reflect a liability for payment
for goods and services not yet delivered. Unexpended obligations includes both obligations
for which goods and services have been delivered (title passed) and a liability recognized, and
obligations for which no delivery has occurred and no liability recognized. The balance of
unexpended obligations appears immediately before net outlays in the Statement of Budgetary
Resources, and is referred to as, “Total, unpaid obligated balances, net, end of period.”




56 | General Fund
1.X.	 Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and
collections matched at the transaction level to specific obligations, payables, or receivables in the
source systems and those reported by the U.S. Treasury.

Supported disbursements and collections are evidenced by collaborating documentation.
Unsupported disbursements and collections do not have supporting documentation for the
transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between
federal and nonfederal categories based on the percentage of distributed federal and nonfederal
accounts payable and accounts receivable. Supported undistributed disbursements and
collections are then applied to reduce accounts payable and receivable accordingly. Unsupported
undistributed disbursements are recorded as disbursements intransit and reduce nonfederal
accounts payable. Unsupported undistributed collections are recorded in nonfederal other
liabilities.

1.Y.	 Significant Events
In FY 2009, Naval Supply Systems Command converted to Navy Enterprise Resource Planning
(ERP). It is expected that the standardization of systems and processes in financial functions and
acquisition programs is the backbone of Navy ERP and will provide the foundation for subsequent
releases. The system will provide financial transparency and total asset visibility, key ingredients
for improved enterprise management.

1.Z.	 Fiduciary Activities
Fiduciary cash and other assets are not assets of DON GF and are not recognized on the balance
sheet. Fiduciary activities are reported on the financial statement note schedules.


Note 2.	Nonentity Assets
As of September 30                                                        2009                   2008
(Amounts in thousands)

1. Intragovernmental Assets
      A. Fund Balance with Treasury                               $               289,564    $           417,049
      B. Accounts Receivable                                                            0                      0
      C. Total Intragovernmental Assets                           $               289,564    $           417,049

2. Nonfederal Assets
     A. Cash and Other Monetary Assets                            $                160,509   $            137,277
     B. Accounts Receivable                                                      3,462,365              3,365,103
     C. Other Assets                                                                     0                      0
     D. Total Nonfederal Assets                                   $              3,622,874   $          3,502,380

3. Total Nonentity Assets                                         $              3,912,438   $          3,919,429

4. Total Entity Assets                                            $         440,855,193      $      417,479,883

5. Total Assets                                                   $         444,767,631      $      421,399,312



                                          Fiscal Year 2009 Department of the Navy Annual Financial Report | 57
Nonentity assets are assets for which the Department of the Navy (DON) maintains stewardship
accountability and reporting responsibility, but are not available for DON’s normal operations.

Intragovernmental Fund Balance with Treasury
This nonentity asset category primarily represents amounts in DON’s Suspense Funds, Withheld
State and Local Taxes Fund, and Withheld Allotment of Compensation for Payment of Employee
Organization Dues Fund.

Cash and Other Monetary Assets
This nonentity asset category represents disbursing officers’ cash, foreign currency, and
undeposited collections as reported on the Disbursing Officer’s Statement of Accountability. These
assets are held by DON disbursing officers as agents of the U.S. Treasury and are not available for
DON’s use in normal operations.

Nonentity Nonfederal Accounts Receivable (Public)
The primary component of nonentity accounts receivable is an advance payment made to a
contractor, which remains in litigation and includes associated accrued interest. These receivable
balances are being reported in nonentity accounts receivable since the original appropriation year
has been cancelled, and any funds collected as a result of this litigation would be remitted to the
U.S. Treasury.


Note 3.	Fund Balance with Treasury
As of September 30                                                    2009                   2008
(Amounts in thousands)

1. Fund Balances
     A. Appropriated Funds                                    $         123,186,669      $     116,157,423
     B. Revolving Funds                                                   1,580,966              1,574,364
     C. Trust Funds                                                          15,400                 17,171
     D. Special Funds                                                         2,400                  2,341
     E. Other Fund Types                                                    289,564                417,049
     F. Total Fund Balances                                   $         125,074,999      $     118,168,348

2. Fund Balances Per Treasury Versus Agency
     A. Fund Balance per Treasury                             $         126,394,135      $     119,501,677
     B. Fund Balance per DON                                            125,074,999            118,168,348

3. Reconciling Amount                                         $              1,319,136   $          1,333,329




The total reconciling amount of $1.3 billion in Fund Balance with Treasury (FBWT) is due to
cancelled appropriations ($1.3 billion). Cancelled appropriations are not available as of the end of
the reporting period; therefore, they are excluded from the Department of the Navy’s (DON) FBWT
but remained in fund balance reported by U.S. Treasury.

Other Fund Types (Line 1.E) consists primarily of amounts in the following deposit and receipt
accounts: General Fund Proprietary Receipts, Pay of the Navy Deposit Fund, and Pay of the
Marine Corps Deposit Fund.



58 | General Fund
Status of Fund Balance with Treasury
As of September 30                                                       2009                   2008
(Amounts in thousands)

1. Unobligated Balance
     A. Available                                                $          23,899,972    $         25,329,935
     B. Unavailable                                                          3,004,461               2,698,861

2. Obligated Balance not yet Disbursed                           $         101,547,429    $         93,776,544

3. Nonbudgetary FBWT                                             $              431,148   $            237,359

4. NonFBWT Budgetary Accounts                                    $           (3,808,011) $          (3,874,351)

5. Total                                                         $         125,074,999    $        118,168,348




The Status of FBWT reflects the budgetary resources to support the FBWT and is a reconciliation
between budgetary and proprietary accounts. It primarily consists of unobligated and obligated
balances. The balances reflect the budgetary authority remaining for disbursement against current
or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative
amount of budgetary authority that has not been set aside to cover outstanding obligations.
The unavailable balance consists primarily of funds invested in U.S. Treasury securities that are
temporarily precluded from obligation by law. Certain unobligated balances are restricted for
future use and are not apportioned for current use. Unobligated balances for trust fund accounts
are restricted for use by the public law that established the funds.

Obligated balance not yet disbursed represents funds that have been obligated for goods and
services not received, and those received but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as unavailable
receipt accounts or clearing accounts. For DON General Fund (GF), Nonbudgetary FBWT consists
of balances in receipt accounts and clearing accounts.

NonFBWT Budgetary Accounts reduces the Status of FBWT. For DON GF, NonFBWT Budgetary
Accounts include Trust Fund investments in U.S. Treasury securities, unfilled customer orders
without advance, and reimbursements receivable.

Unobligated balances are segregated to show available and unavailable amounts in the note
schedule. Unobligated, Unavailable balances are restricted to future use and are not apportioned
for current use.

Although funds have been appropriated, expired single year appropriations, such as Operation
and Maintenance and Military Personnel accounts, are not generally available for obligation
because the period for obligation established by law in the applicable appropriation act has lapsed.
Multi-year accounts and “X” or no year accounts are restricted based on their appropriation type.
Trust funds and Earmarked funds are restricted to their intended use.


                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 59
Note 4.	Investments and Related Interest
As of September 30                                                                              2009
                                                                                          Amortized
                                                                      Amortization                                                 Market Value
                                                         Cost                            (Premium) /        Investments, Net
                                                                        Method                                                      Disclosure
                                                                                           Discount

(Amounts in thousands)

1. Intragovernmental Securities
    A. Nonmarketable, Market-Based
     1. Military Retirement Fund                     $           0                   $             0    $                 0    $              0
     2. Medicare Eligible Retiree Health Care Fund               0                                 0                      0                   0
     3. US Army Corps of Engineers                               0                                 0                      0                   0
     4. Other Funds                                         9,631                                (40)                 9,591                9,601
     5. Total Nonmarketable, Market-Based            $      9,631                    $           (40)   $             9,591    $           9,601


  B. Accrued Interest                                            30                                0                     30                  30
  C. Total Intragovernmental
     Securities                                      $      9,661                    $           (40)   $             9,621    $           9,631


2. Other Investments
   A. Total Other Investments                        $           0                   $             0    $                 0    $           N/A




As of September 30                                                                              2008
                                                                                          Amortized
                                                                      Amortization                                                 Market Value
                                                         Cost                            (Premium) /        Investments, Net
                                                                        Method                                                      Disclosure
                                                                                           Discount

(Amounts in thousands)

1. Intragovernmental Securities
    A. Nonmarketable, Market-Based
     1. Military Retirement Fund                     $           0                   $             0    $                 0    $              0
     2. Medicare Eligible Retiree Health Care Fund               0                                 0                      0                   0
     3. US Army Corps of Engineers                               0                                 0                      0                   0
     4. Other Funds                                        10,301                                (51)                10,250               10,279
     5. Total Nonmarketable, Market-Based            $     10,301                    $           (51)   $            10,250    $          10,279


  B. Accrued Interest                                           106                                0                    106                 106
  C. Total Intragovernmental
     Securities                                      $     10,407                    $           (51)   $            10,356    $          10,385


2. Other Investments
   A. Total Other Investments                        $           0                   $             0    $                 0    $           N/A




Intragovernmental Investments for Earmarked Funds
The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with earmarked funds. The cash generated from earmarked funds is deposited in the
U.S. Treasury, which uses the cash for general Government purposes. The U.S. Treasury securities
are issued to the earmarked funds as evidence of its receipts and are an asset to the Department of
the Navy (DON) and a liability to the U.S. Treasury. Since the DON and the U.S. Treasury are both
part of the Federal Government, these assets and liabilities offset each other from the standpoint of
the Federal Government as a whole. For this reason, they do not represent an asset or a liability in
the U.S. Governmentwide financial statements.




60 | General Fund
The U.S. Treasury securities provide DON with the authority to draw upon the U.S. Treasury to
make future benefit payments or other expenditures. When DON requires redemption of these
securities to make expenditures, the Government finances the securities out of accumulated cash
balances, by raising taxes or other receipts, borrowing from the public or repaying less debt, or
curtailing other expenditures. The Federal Government used the same method to finance all other
expenditures.

Other Funds (Line 1.A.4) represents DON Trust Fund holdings in interest-bearing securities for
the Naval Academy General Gift Fund and the Navy General Gift Fund. These investments are
Nonmarketable Market-Based U.S. Treasury securities reported at cost, net of amortized premiums
and discounts. In accordance with the Statement of Federal Financial Accounting Standards No.
27, “Identifying and Reporting Earmarked Funds,” DON Trust Funds are reported as earmarked
funds.


Note 5.	Accounts Receivable
As of September 30                                                                    2009
                                                                                  Allowance For
                                                                                                     Accounts Receivable,
                                                         Gross Amount Due           Estimated
                                                                                                            Net
                                                                                  Uncollectibles
(Amounts in thousands)

1. Intragovernmental Receivables                         $          373,313                    N/A $             373,313
2. Nonfederal Receivables (From the Public)              $        3,714,338   $              (32,389) $        3,681,949

3. Total Accounts Receivable                             $        4,087,651   $              (32,389) $        4,055,262



As of September 30                                                                    2008
                                                                                  Allowance For
                                                                                                     Accounts Receivable,
                                                         Gross Amount Due           Estimated
                                                                                                            Net
                                                                                  Uncollectibles
(Amounts in thousands)

1. Intragovernmental Receivables                         $          393,989                    N/A $             393,989
2. Nonfederal Receivables (From the Public)              $        3,718,115   $              (29,325) $        3,688,790

3. Total Accounts Receivable                             $        4,112,104   $              (29,325) $        4,082,779




During 3rd Quarter, FY 2009, Navy implemented an automated interface from the monthly
reporting system to the quarterly reporting system. Previously, amounts were manually cross
walked to accounts for quarterly reporting. During the implementation, it was discovered that the
crosswalk logic for many accounts was flawed, resulting in incorrect ending balances from FY 2008.
A prior period adjustment was recognized to correct the beginning 2009 balances. This affected
Accounts Receivable and Interest Receivable and increased the overall balance by $40.8 million.
Accounts Receivable increased $15.5 million and Interest Receivable increased $25.3 million. Refer
to Note 26, Restatements, for additional details.




                                              Fiscal Year 2009 Department of the Navy Annual Financial Report | 61
Note 6.	Other Assets
As of September 30                                                    2009                 2008
(Amounts in thousands)

1. Intragovernmental Other Assets
      A. Advances and Prepayments                              $             418,505   $          302,751
      B. Other Assets                                                              0                    0
      C. Total Intragovernmental Other Assets                  $             418,505   $          302,751

2. Nonfederal Other Assets
     A. Outstanding Contract Financing Payments                $         33,744,724    $      34,631,265
     B. Advances and Prepayments                                            398,873              743,841
     C. Other Assets (With the Public)                                        9,654               10,323
     D. Total Nonfederal Other Assets                          $         34,153,251    $      35,385,429

3. Total Other Assets                                          $         34,571,756    $      35,688,180




The Department of the Navy (DON) restated the Fiscal Year (FY) 2008 balance in Outstanding
Contract Financing Payments (OCFP) by $26.8 billion. The DON incorrectly reported shipbuilding
payments as expenses rather than assets through FY 2008. These payments include progress
payments based on percentage or stage of completion, which cannot be identified due to systems
limitations.

During 3rd Quarter, FY 2009, Navy implemented an automated interface from the monthly
reporting system to the quarterly reporting system. Previously, amounts were manually cross
walked to accounts for quarterly reporting. During the implementation it was discovered that the
crosswalk logic for many accounts was flawed, resulting in incorrect ending balances from FY 2008.
A prior period adjustment was recognized to correct the beginning 2009 balances. Refer to Note 26,
Restatements, for additional details. This caused a restatement of Other Assets (with the Public) by
$317.3 thousand.

Nonfederal Other Assets - Outstanding Contract Financing Payments
Contract terms and conditions for certain types of contract financing payments convey certain
rights to DON that protect the contract work from state or local taxation, liens or attachment by
the contractor’s creditors, transfer of property, or disposition in bankruptcy; however, these rights
should not be misconstrued to mean that ownership of the contractor’s work has transferred to the
Federal Government. The Federal Government does not have the right to take the work, except
as provided in contract clauses related to termination or acceptance, and DON is not obligated to
make payment to the contractor until delivery and acceptance. Some of the amounts reported as
OCFP may be progress payments based on percentage or stage of completion. However, DON is
unable to identify these due to system limitations and all amounts are reported as OCFP.

The OCFP balance of $33.7 billion is comprised of $33.3 billion in contract financing payments and
an additional $400.0 million in estimated future payments that will be paid to the contractor upon
future delivery and Government acceptance of a satisfactory product. (See additional discussion in
Note 15, Other Liabilities).



62 | General Fund
Nonfederal Other Assets, Other Assets (With the Public)
Other Assets (With the Public) includes advance pay to DON military personnel, travel advances to
military and civilian personnel, and miscellaneous advances to contractors that are not considered
outstanding contract financing payments.


Note 7.	Cash and Other Monetary Assets
As of September 30                                                           2009                   2008
(Amounts in thousands)

1. Cash                                                              $               65,429   $            106,883
2. Foreign Currency                                                                  95,080                 30,394
3. Other Monetary Assets                                                                  0                      0

4. Total Cash, Foreign Currency, & Other Monetary Assets             $              160,509   $            137,277




Cash and Foreign Currency consists primarily of cash held by Department of the Navy (DON)
Disbursing Officers to carry out their payment, collection, and foreign currency accommodation
exchange mission. Foreign currency is also held in overseas banks in support of contingency
operations. The primary source of the amounts reported is the Disbursing Officers Statements of
Accountability. DON Disbursing Officers are agents of the U.S. Treasury.

Restriction on Cash, Foreign Currency, and Other Monetary Assets
Total cash, foreign currency, and other monetary assets reported are nonentity assets that are not
available for DON’s use in normal operations. Therefore, the $160.5 million in cash and foreign
currency is restricted as to its use.


Note 8.	Direct Loan and Loan Guarantees
Not applicable.

Note 9.	Inventory and Related Property
As of September 30                                                           2009                   2008
(Amounts in thousands)

1. Inventory, Net                                                    $                   0    $                  0
2. Operating Materiel & Supplies, Net                                           62,424,699              60,804,137
3. Stockpile Materiel, Net                                                               0                       0

4. Total                                                             $          62,424,699    $         60,804,137



Inventory, Net
Not applicable.




                                             Fiscal Year 2009 Department of the Navy Annual Financial Report | 63
Operating Materiel and Supplies, Net

As of September 30                                                                2009
                                                OM&S                Revaluation                               Valuation
                                              Gross Value           Allowance                OM&S, Net         Method
(Amounts in thousands)

1. OM&S Categories
     A. Held for Use                      $        57,668,809   $                  0     $       57,668,809   SP, LAC, MAC
     B. Held for Repair                             6,414,636              (1,658,746)            4,755,890   SP, LAC, MAC
     C. Excess, Obsolete, and
        Unserviceable                                809,170                (809,170)                    0       NRV


      D. Total                            $        64,892,615   $          (2,467,916) $         62,424,699




As of September 30                                                                2008
                                                OM&S                Revaluation                               Valuation
                                              Gross Value           Allowance                OM&S, Net         Method
(Amounts in thousands)

1. OM&S Categories
     A. Held for Use                      $        54,867,199   $                  0     $       54,867,199   SP, LAC, MAC
     B. Held for Repair                             7,296,002              (1,359,064)            5,936,938   SP, LAC, MAC
     C. Excess, Obsolete, and
        Unserviceable                                597,471                (597,471)                    0       NRV


      D. Total                            $        62,760,672   $          (1,956,535) $         60,804,137


Legend for Valuation Methods:
   LAC = Latest Acquistion Cost                                 NRV = Net Realizable Value
   SP = Standard Price                                          MAC = Moving Average Cost




Restrictions on the Use of Operating Materiel and Supplies (OM&S)
There are no known restrictions on the use of OM&S.

General Composition of OM&S
OM&S includes spare and repair parts, ammunition, conventional missiles, torpedoes, aircraft
configuration pods, and centrally managed aircraft engines. The categories of OM&S are
Ammunitions and Munitions, Principal End and Secondary Items, Sponsor Owned Materiel
(SOM), Realtime Reutilization Asset Management (RRAM) Materiel and Other OM&S.

Ammunition and Munitions are maintained in the Department of the Navy (DON) Ordnance
Information System and valued at latest acquisition cost.

Principal End and Secondary Items include OM&S such as shipboard hull, mechanical and
electronic equipment, and uninstalled aircraft engines. They are items of such importance that
central inventory control is required. They normally possess one of the following characteristics:
essential for combat or training; high dollar value; difficult to procure or produce; or critical basic
materiel or components.



64 | General Fund
SOM is defined as programmatic materiel required in support of Program Managers’ mission
requirements for production, life cycle maintenance, and installation of systems and equipment.
The materiel usage may involve, but is not limited to: item fabrication, assembly, testing,
manufacture, development, repair, or research and development.

Materiel maintained and valued in RRAM is considered excess to the owner, or materiel manager
responsible for the materiel, but may not be excess to DON. Standard price is used to value all
stock-numbered items. Part-numbered items are valued by best available information. Stock-
numbered items represent common items available in the supply system. Part-numbered items are
older, unique items only used in specific types of OM&S.

Other OM&S consists primarily of Fleet Hospitals held by the Bureau of Medicine and Surgery and
War Reserve materiel in possession of the U.S. Coast Guard.

Decision Criteria for Identifying the Category to Which Operating Materiel and Supplies Are
Assigned
The DON General Fund assigns OM&S items to a category based upon the type and condition of
the asset. OM&S Available and Purchased for Resale includes spare and repair parts, clothing and
textiles, and petroleum products. OM&S Held for Repair consists of damaged materiel held as
inventory that is more economical to repair than to dispose. Excess, Obsolete, and Unserviceable
OM&S consists of scrap materiel or items that cannot be economically repaired and are awaiting
disposal. Raw Materials consists of items consumed in the production of goods for sale or in the
provision of services for a fee.

Stockpile Materiel, Net
Not applicable.




                                        Fiscal Year 2009 Department of the Navy Annual Financial Report | 65
Note 10.	General PP&E, Net
As of September 30                                                                          2009
                                                 Depreciation/                                           (Accumulated
                                                 Amortization    Service Life   Acquisition Value        Depreciation/         Net Book Value
                                                   Method                                                Amortization)
(Amounts in thousands)


1. Major Asset Classes
      A. Land                                        N/A            N/A         $         576,770                   N/A $              576,770
      B. Buildings, Structures, and Facilities       S/L           20 Or 40             34,992,199   $        (21,019,586)           13,972,613
      C. Leasehold Improvements                      S/L          lease term                 6,530                 (1,768)                4,762
      D. Software                                    S/L          2-5 Or 10                 11,594                (10,363)                1,231
      E. General Equipment                           S/L           5 or 10              11,565,043             (6,152,590)            5,412,453
      F. Military Equipment                          S/L           Various            348,505,864            (153,186,170)          195,319,694
      G. Shipbuilding (Construction-in-
           Progress)                                 N/A            N/A                         0                        0                      0
      H. Assets Under Capital Lease                  S/L          lease term                    0                        0                      0
      I. Construction-in-Progress (Excludes
           Military Equipment)                       N/A            N/A                  3,183,262                  N/A               3,183,262
      J. Other                                                                                  0                        0                      0
      K. Total General PP&E                                                     $     398,841,262    $       (180,370,477) $        218,470,785


As of September 30                                                                          2008
                                                 Depreciation/                                           (Accumulated
                                                 Amortization    Service Life   Acquisition Value        Depreciation/         Net Book Value
                                                   Method                                                Amortization)
(Amounts in thousands)




1. Major Asset Classes
      A. Land                                        N/A            N/A         $         601,649                   N/A $              601,649
      B. Buildings, Structures, and Facilities       S/L           20 Or 40             33,163,260   $        (20,582,861)           12,580,399
      C. Leasehold Improvements                      S/L          lease term                 7,283                 (1,457)                5,826
      D. Software                                    S/L          2-5 Or 10                 11,171                 (9,571)                1,600
      E. General Equipment                           S/L           5 or 10              11,048,453             (5,994,156)            5,054,297
      F. Military Equipment                          S/L           Various            326,702,773            (145,367,183)          181,335,590
      G. Shipbuilding (Construction-in-
           Progress)                                 N/A            N/A                         0                        0                      0
      H. Assets Under Capital Lease                  S/L          lease term                    0                        0                      0
      I. Construction-in-Progress (Excludes
           Military Equipment)                       N/A            N/A                  2,928,874                  N/A               2,928,874
      J. Other                                                                                  0                        0                      0
      K. Total General PP&E                                                     $     374,463,463    $       (171,955,228) $        202,508,235


Legend for Valuation Methods:
   S/L = Straight Line                                           N/A = Not Applicable


During 3rd Quarter, FY 2009, Navy implemented an automated interface from the monthly
reporting system to the quarterly reporting system. Previously, amounts were manually cross
walked to accounts for quarterly reporting. During the implemented it was discovered that the
crosswalk logic for many accounts was flawed, resulting in incorrect ending balances from FY 2008.
This affected Accumulated Depreciation on Equipment and increased the balance by $23.9 million.
Refer to Note 26, Restatements, for additional details.




66 | General Fund
Restrictions on the Use or Convertibility of General Property, Plant, & Equipment (PP&E)
The DON has the use of land, buildings, and other overseas facilities that are obtained through
various international treaties and agreements negotiated by the Department of State. Generally,
treaty terms allow DON continued use of these properties until the treaties expire. There are no
other known restrictions on General PP&E.

Accounting Standards for Military Equipment
DON estimates values for Capitalized Military Equipment using department internal records. The
Capital Asset Management System-Military Equipment (CAMS-ME) is a Department of Defense
wide system used to provide DON’s Military Equipment valuations. The DoD identified the
universe of military equipment by accumulating information relating to program funding and
associated military equipment, equipment useful life, program acquisitions, and disposals to
establish a baseline. The military equipment baseline is updated using expenditure, acquisition,
and disposals information.

Heritage Assets and Stewardship Land
The Federal Accounting Standards Advisory Board’s SFFAS No. 29, “Heritage Assets and
Stewardship Land,” requires note disclosures for these types of assets. The DON’s policy is
to preserve its heritage assets, which are items of historical, cultural, educational, or artistic
importance.

Heritage assets within DON consist of buildings and structures, archeological sites, and museum
collections. The DON defines these as follows:

   n	        Buildings and Structures. Buildings and structures that are listed on, or eligible for listing
             on, the National Register of Historic Places, including Multi-Use Heritage Assets.
   n	        Archeological Sites. Sites that have been identified, evaluated, and determined to be
             eligible for or are listed on the National Historical Places in accordance with Section 110
             National Historical Preservation Act.
   n	        Museum Collection Items. Items which are unique for one or more of the following
             reasons: historical or natural significance; cultural, educational, or artistic importance; or
             significant technical or architectural characteristics.

The DON holds the following quantities of heritage assets at September 30, 2009.
                                                             Measure      As of September                                            As of September
Categories                                                   Quantity         30, 2008          Additions       Deletions                30, 2009

Buildings and Structures                                     Each                    4,389              -                   -                  4,389
Archaeological Sites                                         Each                    1,460              -                   -                  1,460

Museum Collection Items (Objects, Not Including Fine Art)    Each                1,141,275           21,261          596,452                 566,084

Museum Collection Items (Objects, Fine Art)                  Each                   31,131              427            2,729                  28,829




                                                              (acres in Thousands)
                                                                           As of September                                           As of September
Facility Code     Facility Title                                               30, 2007         Additions       Deletions                30, 2008
9110              Government Owned Land                                              1,370                  9               -                  1,379
9111              State Owned Land                                                     -                -                   -                    -
9120              Withdrawn Public Land                                              2,032              -                       46             1,986
9130              Licensed and Permitted Land                                              92           -                       18                   74
9140              Public Land                               Fiscal Year 2009 Department
                                                                                   694
                                                                                        of the Navy
                                                                                                 -
                                                                                                    Annual Financial
                                                                                                               -
                                                                                                                     Report | 694
                                                                                                                              67
9210              Land Easement                                                       100               -                       28                   72
9220              In-Leased Land                                                      124               -                        1              123
                                                               Measure      As of September                                            As of September
Categories                                                     Quantity         30, 2008          Additions       Deletions                30, 2009

Buildings and Structures                                       Each                    4,389              -                   -                  4,389
Archaeological Sites                                           Each                    1,460              -                   -                  1,460

Museum Collection Items (Objects, Not Including Fine Art)      Each                1,141,275           21,261          596,452                 566,084
The  DON’s stewardship land consists mainly
 Museum Collection Items (Objects, Fine Art) Each
                                                  of mission essential
                                                               31,131
                                                                       land acquired by donation or
devise. Fiscal Year Ended September 30, 2009 stewardship land data is not yet available due to
                                                                              427       2,729       28,829


limitations of DON’s financial and nonfinancial management processes and systems that feed into
the financial statements. The DON held the following acres of land as of September 30, 2008.

                                                                (acres in Thousands)
                                                                             As of September                                           As of September
Facility Code       Facility Title                                               30, 2007         Additions       Deletions                30, 2008
9110                Government Owned Land                                              1,370                  9               -                  1,379
9111                State Owned Land                                                     -                -                   -                    -
9120                Withdrawn Public Land                                              2,032              -                       46             1,986
9130                Licensed and Permitted Land                                              92           -                       18                   74
9140                Public Land                                                         694               -                   -                   694
9210                Land Easement                                                       100               -                       28                   72
9220                In-Leased Land                                                      124               -                        1              123
9230                Foreign Land                                                        136               -                   -                   136
                                                                                                                   Grand Total                   4,464
                                                                                                       TOTAL - All Other Lands                   1,784
                                                                                                     TOTAL - Stewardship Lands                   2,680


Note: FY 2009 data will be available after December 15, 2009


Relationship of Heritage Assets to DON’s Mission
The overall mission of DON is to control and maintain freedom of the seas, project power beyond
the sea, and influence events and advance U.S. interests across the full spectrum of military
operations. As this mission has been executed, DON has become a large-scale owner of historic
buildings, structures, districts, archeological sites and artifacts, ships, aircraft, other cultural
resources, and several hundred installations to include stewardship land. Protection of these
components of the nation’s heritage assets and stewardship land is an essential part of DON’s
mission; DON is committed to responsible cultural resources stewardship.

Assets under Capital Lease
Not applicable.




68 | General Fund
Note 11.	Liabilities Not Covered by Budgetary Resources
As of September 30                                                             2009                   2008
(Amounts in thousands)

1. Intragovernmental Liabilities
      A. Accounts Payable                                              $                    0   $                    0
      B. Debt                                                                               0                        0
      C. Other                                                                        449,392                4,236,508
      D. Total Intragovernmental Liabilities                           $              449,392   $            4,236,508

2. Nonfederal Liabilities
     A. Accounts Payable                                               $               43,148   $              60,712
     B. Military Retirement and Other Federal Employment
          Beneﬁts                                                                  1,494,427               1,650,038
     C. Environmental Liabilities                                                 18,604,432              18,291,417
     D. Other Liabilities                                                          4,524,248               7,114,127
     E. Total Nonfederal Liabilities                                   $          24,666,255    $         27,116,294

3. Total Liabilities Not Covered by Budgetary Resources                $           25,115,647   $         31,352,802

4. Total Liabilities Covered by Budgetary Resources                    $          10,439,953    $            5,654,299

5. Total Liabilities                                                   $          35,555,600    $         37,007,101




Liabilities Not Covered by Budgetary Resources are those liabilities that are not considered covered
by realized budgetary resources as of the balance sheet date. Budgetary Authority to satisfy these
liabilities is expected to be provided in a future Department of Defense Appropriations Act.

Conversely, Liabilities Covered by Budgetary Resources are those that are incurred by the reporting
entity, which are covered by realized budgetary resources as of the balance sheet date. Budgetary
resources encompass not only new budget authority, but also other resources available to cover
liabilities for specified purposes in a given year.

Realized budgetary resources include:

  n	     New budget authority
  n	     Spending authority from offsetting collections (credited to an appropriation or fund
         account)
  n	     Recoveries of unexpired budget authority through downward adjustments of prior year
         obligations
  n	     Unobligated balances of budgetary resources at the beginning of the year or net transfers of
         prior year balances during the year, and
  n	     Permanent indefinite appropriations or borrowing authority, which have been enacted
         and signed into law as of the balance sheet date, provided that the resources may be
         apportioned by the Office of Management and Budget without further action by the
         Congress or without a contingency first having to be met.




                                               Fiscal Year 2009 Department of the Navy Annual Financial Report | 69
Accounts payable not covered by budgetary resources is related to cancelled year accounts payable
that are not budgeted. Military retirement and other federal employment benefits are future
actuarial liabilities. Environmental liabilities are estimates related to future events, such as cleanup
of nuclear powered assets that will be budgeted for when those assets are removed from service.
Finally, other liabilities for annual leave, estimated legal contingent liabilities, and the disposal of
excess structures are not currently budgeted for but will become funded as future events occur.

Intragovernmental Liabilities – Other (Not Covered by Budgetary Resources) (Line 1.C) consists
primarily of liabilities to U.S. Treasury related to nonentity assets, and Federal Employees’
Compensation Act (FECA) liabilities due to the Department of Labor.

Military Retirement and Other Federal Employment Benefits consists of FECA actuarial liabilities
not due and payable during the current fiscal year. Refer to Note 17, Military Retirement and
Other Federal Employment Benefits, for additional details and disclosures.

Nonfederal Liabilities – Other (Not Covered by Budgetary Resources) (Line 2.D) consists primarily
of liabilities for annual leave, estimated legal contingencies, and for the disposal of excess and
obsolete structures.


Note 12.	Accounts Payable
As of September 30                                                               2009

                                                                        Interest, Penalties, and
                                                   Accounts Payable                                    Total
                                                                         Administrative Fees

(Amounts in thousands)

1. Intragovernmental Payables                  $            1,289,644   $         N/A              $       1,289,644
2. Nonfederal Payables (to the Public)                      2,583,632                        10            2,583,642
3. Total                                       $            3,873,276   $                    10    $       3,873,286



As of September 30                                                               2008

                                                                        Interest, Penalties, and
                                                   Accounts Payable                                    Total
                                                                         Administrative Fees

(Amounts in thousands)

1. Intragovernmental Payables                  $            1,434,076   $         N/A              $       1,434,076
2. Nonfederal Payables (to the Public)                      1,732,404                        73            1,732,477
3. Total                                       $            3,166,480   $                    73    $       3,166,553




During 3rd Quarter, FY 2009, Navy implemented an automated interface from the monthly
reporting system to the quarterly reporting system. Previously, amounts were manually cross
walked to accounts for quarterly reporting. During the implementation it was discovered that the
crosswalk logic for many accounts was flawed, resulting in incorrect ending balances from FY 2008.
This affected Accounts Payable and decreased the balance by $538.3 million. Refer to Note 26,
Restatements, for additional details.


70 | General Fund
Accounts Payable include amounts owed to federal and nonfederal entities for goods and services
received by DON. The DON General Fund’s accounting systems do not track intragovernmental
transactions by customer at the transaction level. Buyer-side accounts payable are adjusted to
agree with internal seller-side accounts receivable. This is accomplished by reclassifying amounts
between federal and nonfederal cost categories, and accruing additional costs when necessary.


Note 13.	Debt
Not applicable.


Note 14.	Environmental Liabilities
As of September 30                                                                            2009                   2008
(Amounts in thousands)


1. Environmental Liabilities--Nonfederal
   A. Accrued Environmental Restoration Liabilities
      1. Active Installations—Installation Restoration Program (IRP) and
           Building Demolition and Debris Removal (BD/DR)                              $             2,267,235   $          2,372,933
      2. Active Installations—Military Munitions Response Program (MMRP)                              895,417                899,949
      3. Formerly Used Defense Sites—IRP and BD/DR                                                          0                      0
      4. Formerly Used Defense Sites--MMRP                                                                  0                      0


   B. Other Accrued Environmental Liabilities—Non-BRAC
      1. Environmental Corrective Action                                                              127,947                125,917
      2. Environmental Closure Requirements                                                           575,754                624,958
      3. Environmental Response at Operational Ranges                                                  14,035                 19,767
      4. Asbestos                                                                                      46,784                      0
      5. Non-Military Equipment                                                                        79,667                 60,023
      6. Other                                                                                            922                    990


   C. Base Realignment and Closure Installations
      1. Installation Restoration Program                                                            1,588,246              1,563,633
      2. Military Munitions Response Program                                                          107,492                131,437
      3. Environmental Corrective Action / Closure Requirements                                        34,071                 38,672
      4. Asbestos                                                                                           0                      0
      5. Non-Military Equipment                                                                             0                      0
      6. Other                                                                                              0                      0


   D. Environmental Disposal for Military Equipment / Weapons Programs
      1. Nuclear Powered Military Equipment / Spent Nuclear Fuel                                  12,672,448            12,255,741
      2. Non-Nuclear Powered Military Equipment                                                             0                      0
      3. Other National Defense Weapons Systems                                                       194,414                197,397
      4. Other                                                                                              0                      0


   E. Chemical Weapons Disposal Program
      1. Chemical Demilitarization - Chemical Materials Agency (CMA)                                        0                      0
      2. Chemical Demilitarization - Assembled Chemical Weapons Alternatives
           (ACWA)                                                                                           0                      0
      3. Other                                                                                              0                      0


2. Total Environmental Liabilities                                                     $          18,604,432     $      18,291,417




                                                           Fiscal Year 2009 Department of the Navy Annual Financial Report | 71
The unrecognized portion of the estimated total cleanup costs associated with general property,
plant, and equipment was $1.7 billion for Fiscal Year (FY) 2009 and $1.6 billion for FY 2008.

The “Other” type of environmental liabilities under Other Accrued Environmental Costs (Line
1.B.6) represents an environmental estimate for disposal of Polychlorinated Biphenyls (PCBs)
transformers located at various Naval installations.

In addition to the liabilities reported above, Department of the Navy (DON) has the potential to
incur costs for restoration initiatives in conjunction with returning overseas Defense facilities to
host nations. The DON is unable to provide a reasonable estimate at this time because the extent of
restoration required is not known.

1. Applicable Laws and Regulations of Cleanup Requirements
The following is a list of significant laws that affect DON’s conduct of environmental policy and
regulations.

   n	   The Comprehensive Environmental Response, Compensation, and Liability Act of 1980,
        commonly referred to as the Superfund legislation
   n	   The Resource Conservation and Recovery Act of 1976 as amended by the Hazardous and
        Solid Waste Amendments of 1984
   n	   The Clean Water Act of 1977, amended the Federal Water Pollution Control Act
   n	   The Atomic Energy Act of 1954
   n	   The Nuclear Waste Policy Act of 1982
   n	   The Low Level Radioactive Waste Policy Amendments Act of 1986
   n	   The National Environmental Policy Act of 1970 (BRAC only)

2. Methods for Assigning Total Cleanup Costs to Current Operating Periods
Accrued Environmental Restoration (Defense Environmental Restoration Program (DERP) Funded
Liabilities).

Environmental Restoration: Accrued restoration (cleanup) liabilities represent the cost to correct
past environmental areas that are funded under the Defense Environmental Restoration Program in
accordance with “Management Guidance for DERP,” and “Environmental and Non-Environmental
Liabilities,” Chapter 13 of Volume 4 of Department of Defense Financial Management Regulation
(DoD FMR). These liabilities relate to Plant, Property, and Equipment, including acquired land
and Stewardship Land, as those major asset categories are described in Chapter 6 of Volume 4 of
DoD FMR. Environmental restoration activities may be conducted at operating installations, and
at Closed, Transferred, and Transferring Ranges. Environmental restoration measurements involve
the use of cost estimates that consider, on a current cost basis, the anticipated costs of the level of
effort required to affect the restoration, as well as applicable legal and/or regulatory requirements.
Program management and support costs are included in the estimates. The estimates are based on
DON’s cost-to-complete (CTC) module of the Normalization of Data System (NORM) and other
Verified, Validated and Accredited (VAA’d) systems. Verification, validation, and accreditation of
CTC module was completed in FY 2002. Such cost estimates are based on the current technology
available. The DON, as the baseline for environmental restoration (cleanup) liability measurement
(i.e., the current cost to acquire the required services), used the site inventory and estimated cost
data prepared for DERP report to the Congress. The Accrued Environmental Restoration (Cleanup)


72 | General Fund
Costs do not include the costs of environmental compliance; pollution prevention, conservation
activities, contamination, or spills associated with current operations or treaty obligations, all of
which are accounted for as part of ongoing operations.

The DON Environmental Restoration Program includes 3,981 clean-up sites at active installations
while those installations covered by Base Realignment and Closure (BRAC) funding include 1,130
IRP sites and 32 MMRP sites. The Marine Corps is included in these programs. In addition, the
DON Environmental Corrective Action Program at BRAC installations includes 612 sites.

Military Munitions Response Program: This area represents the environmental liabilities
associated with the identification, investigation and removal and remedial actions to address
environmental contamination at ranges that were closed prior to September 30, 2002. The
contamination may include munitions, chemical residues from military munitions and munitions
scrap at ranges on active installations that pose a threat to human health or the environment.
The amount reported is the portion of the liability that can be estimated based on site level
investigations and characterizations. The estimate produced is based on site-specific information
and use of cost models validated in accordance with DoD Instruction 5000.61, “DoD Modeling
and Simulation, Verification, Validation, and Accreditation” of May 2003. Cost of Complete (CTC)
are not estimated until there is sufficient site-specific data available to estimate the total cost to
complete for Military Munitions Response Program (MMRP-eligible sites. However, DON uses the
cost of the study as the estimate until the study is completed. Beginning in FY 2001, DON began
an inventory of closed ranges and transferring ranges and individual restoration sites under the
Military Munitions Response Program (MMRP) or Unexploded Ordnance (UXO) program and
completed it in September 2002. Currently there are 257 closed range sites at active installations
and 32 MMRP sites at BRAC installations.

Environmental Disposal for Weapons Systems Programs: This area represents environmental
liabilities associated with the Nuclear Powered Aircraft Carriers and Submarines, Other Nuclear
Powered Ships, Conventional Ships, and Spent Nuclear Fuel. During FY 2006, under DON
Financial Improvement Program (FIP), DON completed a review of the estimating methodology
for determining the cost for disposal of ships and submarines. This review resulted in an
environmental and non-environmental liability estimate that more accurately reflects the true costs
of disposal. The estimating methodology is based on average cost per class of ship rather than an
average applied to all ships regardless of class.

3. Description of the Types of Environmental Liabilities and Disposal Liabilities
Accrued Environmental Restoration (DERP Funded) Liabilities.
The DON Environmental Restoration includes those sites that have been identified as legacy
cleanup sites. For FY 2009, DON estimated and reported $3.2 billion for environmental restoration
liabilities. This amount is comprised of $2.3 billion in Active Installations – Installation Restoration
Program (IRP) liabilities and $895.4 million in Active Installations – MMRP, liabilities, which
represents UXO. The DoD FMR, Volume 6B, Chapter 10 requires that “any estimate produced
must be based on site specific information and use cost models validated in accordance with DoD
Instruction 5000.61.” The DON is supporting this requirement by continuing to validate its range
inventory as well as by pursuing the process of obtaining valid cost estimates for each range.




                                           Fiscal Year 2009 Department of the Navy Annual Financial Report | 73
Other Accrued Environmental Costs (Non-BRAC funds).
The DON defines Non-BRAC environmental units as those sites associated with on-going
operations such as solid waste management unit cleanup, landfill closure, permitted facilities,
removal, replacement, retro fill, and/or disposal of PCBs transformers, underground storage tank
remedial investigation and closure. As part of the DON FIP efforts, the Navy completed surveying,
identifying, and estimating, Non-BRAC units and began recognizing the estimated environmental
liability 1st Quarter, FY FY 2007. For FY 2009, the total Other Accrued Environmental Liabilities is
$845.1 million. Of the total, the Navy portion is $594.2 million while the Marine Corps portion is
$250.9 million.

Base Realignment and Closure.
BRAC environmental sites are environmental sites at DON installations that are or will be closed
under the congressionally mandated BRAC process. For FY 2009, DON estimated and reported
$1.7 billion for BRAC funded environmental liabilities. This amount includes $1.6 billion for
IRP, $107.5 million for MMRP, and $34.1 million for environmental corrective action and closure
requirements. MMRP includes military munitions, chemical residues from military munitions, and
munitions scrap at locations on a BRAC installation.

Environmental Disposal for Weapons Systems Programs.
Environmental Disposal for Weapons Systems are those estimates associated with the
environmental disposal costs for DON Nuclear Weapons Programs that includes Nuclear Powered
Aircraft Carriers and Submarines and Other Nuclear Powered Ships, Conventional Ships, and
Spent Nuclear Fuel. The DON reported an environmental disposal liability for Weapons Systems
Programs of $12.9 billion in FY 2009. This amount includes Nuclear Powered Military Equipment
of $10.0 billion, Spent Nuclear Fuel (Other) of $2.7 billion, and Other Weapons Systems of
$194.4 million.

4. Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to
Inflation, Deflation, Technology, or Applicable Laws and Regulations
Estimated environmental liabilities are adjusted for price growth (inflation) and increases in labor
rates and materials. Currently, there are no indications that any of the environmental liabilities
for any category will be adjusted due to deflation. As of FY 2009, there are no changes to the
environmental liability estimates due to changes in laws, regulations, and agreements with
regulatory agencies. The DON does not have any estimates that were changed due to advances in
technology.

5. Description of the Level of Uncertainty Regarding the Accounting Estimates used to calculate
the Reported Environmental Liabilities
The environmental liabilities for DON are based on accounting estimates that require certain
judgments and assumptions that DON believes are reasonable based upon information available
to us at the time of calculating the estimates. The actual results may vary materially from the
accounting estimates if regulatory agencies require remediation to a different degree than when
the original estimates were calculated. The liabilities can be further impacted if subsequent
investigation discloses different contamination levels, the type of contaminates have changed, and
other site characteristics were confirmed.

Overall, DON has a reasonable level of confidence in the estimates recognized on the financial
statements. This reasonable level of confidence in the estimates is because the estimates for


74 | General Fund
DERP/BRAC programs are based on the CTC module of the NORM System. A verification,
validation, and accreditation were completed by a third party for CTC module of NORM, while the
environmental program managers continue to validate the data.

For the Weapons systems, the environmental program managers base their environmental disposal
estimates on actual costs for similar projects. A change in the overall methodology in weapons
systems reflects a more accurate estimate of what it will cost to dispose of the weapons systems.
Given the fact that the planned date for opening DOE’s planned waste repository has been
delayed, there is uncertainty associated with the estimate for spent nuclear fuel. As DOE’s plans
are solidified, DON’s estimates for spent nuclear fuel will change accordingly.

The DON believes that the total current environmental liabilities for BRAC are reasonable, based
upon information available at the time in calculating the estimates. However, as the FY 2005
BRAC closure activities are implemented over the next several fiscal years, the actual results may
vary materially from the required reportable estimates. The variance will depend on additional
information obtained from planned or ongoing studies of the extent and concentration of site
environmental contamination. In addition to the possibility of the estimates changing on current
identified sites, DON may incur additional environmental cleanup and restoration costs if new
sites are identified as BRAC activities are implemented.

The DON believes that the current environmental liabilities for Other Accrued Environmental
Liabilities (Non-DERP) for FY 2009 are reasonable, based upon the information available at the
time in calculating the estimates and completing the fence to fence survey. However, as internal
controls are implemented to sustain this effort, changes to some of the estimates could occur. In
addition to the possibility of some of the estimates changing for the current list of identified units,
DON may incur additional units and changes to estimates as the inventory of units are reviewed
annually. BRAC PMO has been notified that a status change was made in the OEL database.
BRAC is developing eligibility criteria for the reporting of these OEL units.




                                           Fiscal Year 2009 Department of the Navy Annual Financial Report | 75
Note 15.	Other Liabilities
As of September 30                                                                       2009
                                                              Current                 Noncurrent
                                                                                                           Total
                                                              Liability                Liability
(Amounts in thousands)

1. Intragovernmental
      A. Advances from Others                             $         326,674       $                -   $       326,674
      B. Deposit Funds and Suspense Account Liabilities             289,564                        -           289,564
      C. Disbursing Ofﬁcer Cash                                     162,411                        -           162,411
      D. Judgment Fund Liabilities                                           -                     -                    -
      E. FECA Reimbursement to the Dept. of Labor                   152,214                 196,915            349,129
      F. Custodial Liabilities                                     3,460,463                       -          3,460,463
      G. Employer Contribution and
           Payroll Taxes Payable                                     65,521                        -               65,521
      H. Other Liabilities                                          133,189                        -           133,189


     I. Total Intragovernmental Other Liabilities         $        4,590,036      $         196,915    $      4,786,951


2. Nonfederal
     A. Accrued Funded Payroll and Beneﬁts                $        1,040,336      $                -   $      1,040,336
     B. Advances from Others                                        689,214                        -           689,214
     C. Deferred Credits                                                  (298)                    -                 (298)
     D. Deposit Funds and Suspense Accounts                                  -                     -                    -
     E. Temporary Early Retirement Authority                                 -                     -                    -
     F. Nonenvironmental Disposal Liabilities                                                                           -
             (1) Military Equipment (Nonnuclear)                      3,484                 262,383            265,867
             (2) Excess/Obsolete Structures                         105,559                 598,971            704,530
             (3) Conventional Munitions Disposal                             -                     -                    -
     G. Accrued Unfunded Annual Leave                              2,706,765                       -          2,706,765
     H. Capital Lease Liability                                              -                     -                    -
      I. Contract Holdbacks                                         109,884                        -           109,884
     J.    Employer Contribution and                                                                                    -
            Payroll Taxes Payable                                     2,257                        -                2,257
     K. Contingent Liabilities                                        9,947                1,237,052          1,246,999
     L. Other Liabilities                                            30,950                        -               30,950


     M. Total Nonfederal Other Liabilities                $        4,698,098      $        2,098,406   $      6,796,504


3. Total Other Liabilities                                $        9,288,134      $        2,295,321   $     11,583,455




76 | General Fund
As of September 30                                                                               2008
                                                                        Current               Noncurrent
                                                                                                                   Total
                                                                        Liability              Liability
(Amounts in thousands)

1. Intragovernmental
      A. Advances from Others                                       $          57,613     $                0   $           57,613
      B. Deposit Funds and Suspense Account Liabilities                       417,049                      0           417,049
      C. Disbursing Ofﬁcer Cash                                               139,608                      0           139,608
      D. Judgment Fund Liabilities                                                  0                      0                   0
      E. FECA Reimbursement to the Dept. of Labor                             152,091               198,470            350,561
      F. Custodial Liabilities                                               3,674,748                     0          3,674,748
      G. Employer Contribution and
           Payroll Taxes Payable                                               54,414                      0               54,414
      H. Other Liabilities                                                     73,305                      0               73,305


     I. Total Intragovernmental Other Liabilities                   $        4,568,828    $         198,470    $      4,767,298


2. Nonfederal
     A. Accrued Funded Payroll and Beneﬁts                          $         981,665     $                0   $       981,665
     B. Advances from Others                                                  634,361                      0           634,361
     C. Deferred Credits                                                            0                      0                   0
     D. Deposit Funds and Suspense Accounts                                     (9,152)                    0               (9,152)
     E. Temporary Early Retirement Authority                                        0                      0                   0
     F. Nonenvironmental Disposal Liabilities                                                                                  0
             (1) Military Equipment (Nonnuclear)                                7,748               244,509            252,257
             (2) Excess/Obsolete Structures                                   116,171               616,611            732,782
             (3) Conventional Munitions Disposal                                    0                      0                   0
     G. Accrued Unfunded Annual Leave                                        2,550,357                     0          2,550,357
     H. Capital Lease Liability                                                     0                      0                   0
      I. Contract Holdbacks                                                   104,823                11,077            115,900
     J.    Employer Contribution and                                                                                           0
            Payroll Taxes Payable                                               5,576                      0                5,576
     K. Contingent Liabilities                                                 10,539              3,857,510          3,868,049
     L. Other Liabilities                                                           0                      0                   0


     M. Total Nonfederal Other Liabilities                          $        4,402,088    $        4,729,707   $      9,131,795


3. Total Other Liabilities                                          $        8,970,916    $        4,928,177   $     13,899,093



The Department of the Navy (DON) completed a restatement to adjust beginning balances for
USSGL accounts 3100 and 3310. These accounts were adjusted as part of the implementation of
the DDRS-B/AFS export in 3rd Quarter, FY 2009. This affected the Custodial Liabilities (USSGL
- Liability for Non-Entity Assets) and increased the balance by $337.2 million. Refer to Note 26,
Restatements, for additional details.

Intragovernmental Other Liabilities (Line 1.H) consists primarily of Unemployment Compensation
unfunded liabilities.

Nonfederal Other Liabilities (Line 2.L) is currently being researched. After discussing the issue
with Budget Execution it appears that this potentially was erroneously cross walked into the
Nonfederal line.



                                                   Fiscal Year 2009 Department of the Navy Annual Financial Report | 77
Contingent Liabilities includes $399.9 million related to contracts authorizing Progress Payments
Based on Cost as defined in the Federal Acquisition Regulation (FAR). In accordance with contract
terms, specific rights to the contractors’ work vests with the Federal Government when a specific
type of contract financing payment is made. This action protects taxpayer funds in the event of
contract nonperformance. These rights should not be misconstrued as rights of ownership. The
DON General Fund (GF) is under no obligation to pay contractors for amounts greater than the
amounts authorized in contracts until delivery and government acceptance. Due to the probability
the contractors will complete their efforts and deliver satisfactory products, and because the
amount of potential future payments are estimable, DON GF has recognized a contingent
liability for estimated future payments which are conditional pending delivery and government
acceptance.

Total Contingent Liabilities for Progress Payments Based on Cost represent the difference between
the estimated costs incurred to date by contractors and amounts authorized to be paid under
Progress Payments Based on Cost provisions within the FAR. Estimated contractor-incurred costs
are calculated by dividing the cumulative unliquidated Progress Payments Based on Cost by
the contract-authorized progress payment rate. The balance of unliquidated Progress Payments
Based on Cost is deducted from the estimated total contractor-incurred costs to determine the
contingency amount.

Capital Lease Liability
Not applicable.


Note 16.	Commitments and Contingencies
The Department of the Navy (DON) is a party in various administrative proceedings and legal
actions related to claims for environmental damage, equal opportunity matters, and contractual
bid protests, which may ultimately result in settlements or decisions adverse to the Federal
Government. These proceedings and actions arise in the normal course of operations and their
ultimate disposition is unknown. The DON has accrued contingent liabilities for legal actions
where the Office of General Counsel (OGC) considers an adverse decision probable and the
amount of loss is measurable. In the event of an adverse judgment against the Government, some
of the liabilities may be payable from the U.S. Treasury Judgment Fund. Others may be payable
from DON’s resources, either directly or by reimbursement to the Judgment Fund. The DON
records Judgment Fund liabilities in Note 12, Accounts Payable; and Note 15, Other Liabilities.

For Fiscal Year (FY) 2009, DON General Fund (GF) materiality threshold for reporting litigation,
claims, or assessments is $41.3 million for Navy and $2.8 million for the US Marine Corps. The
DON OGC conducts a review of litigation and claims threatened or asserted involving DON
General Fund to which the OGC attorneys devoted substantial attention in the form of legal
consultation or representation.

The DON currently has 12 cases that meet the existing FY 2009 DON GF materiality thresholds.
DON legal counsel was unable to express an opinion concerning the likely outcome on 8 of 12
cases.




78 | General Fund
Due to the inherent uncertainties of litigation, lawyers generally refrain from expressing judgments
as to outcomes except in those relatively few clear cases. In response to a Department of Defense
(DoD), Inspector General Audit, “DoD Process for Reporting Contingent Legal Liabilities,” DON
developed a methodology to determine an estimate for contingent legal liabilities. Beginning with
1st Quarter, FY FY 2007, DON recognized and disclosed an estimate for contingent legal liabilities.
The methodology considers the likelihood of an unfavorable outcome or potential liability is
provided as an overall assessment of all cases currently pending and not on an individual case
basis. The likelihood of an unfavorable or potential liability was determined by using an average
of the data from the current year-to-date and the preceding two years. The total dollar amount of
the cases closed was divided by the total dollar amount claimed in those closed cases for each of
the last two years plus current year, which were then used to calculate the average. This average
is based entirely on historical data and represents the percentage that has historically been paid on
claims. The merits of each individual case have not been taken into consideration. The estimate
for those cases considered reasonably possible to result in an adverse judgment against DON is
$1.2 billion. Until sufficient historical data can be collected for the Navy Working Capital Fund, the
DON GF estimate will consider all DON funding sources together.

The DON is a party in numerous individual contracts that contain clauses, such as price escalation,
award fee payments, or dispute resolution, that may result in a future outflow of expenditures.
Currently, DON has limited automated system processes by which it captures or assesses these
potential contingent liabilities; therefore, the amounts reported may not fairly present DON’s
contingent liabilities.

The DON GF has recorded in Note 12 a contingent liability in the amount of $43.1 million for
obligations related to cancelled appropriations.

The DON GF has recorded in Note 15 a contingent liability in the amount of $150.5 million for
Contract Incentives.




                                          Fiscal Year 2009 Department of the Navy Annual Financial Report | 79
Note 17. 	Military Retirement and Other Federal
         Employment Benefits
As of September 30                                                                          2009
                                                                              Assumed            (Less: Assets
                                                          Liabilities       Interest Rate       Available to Pay       Unfunded Liabilities
                                                                                 (%)               Beneﬁts)
(Amounts in thousands)


1. Pension and Health Actuarial Beneﬁts
      A. Military Retirement Pensions                 $                 0                   $                      0   $                 0
      B. Military Retirement Health Beneﬁts                             0                                          0                     0
      C. Military Medicare-Eligible Retiree Beneﬁts                     0                                          0                     0
      D. Total Pension and Health Actuarial Beneﬁts   $                 0                   $                      0   $                 0


2. Other Actuarial Beneﬁts
      A. FECA                                         $         1,494,427                   $                      0   $          1,494,427
      B. Voluntary Separation Incentive Programs                        0                                          0                     0
      C. DoD Education Beneﬁts Fund                                     0                                          0                     0
      D. Total Other Actuarial Beneﬁts                $         1,494,427                   $                      0   $          1,494,427


3. Other Federal Employment Beneﬁts                   $                 0                   $                      0   $                 0

4. Total Military Retirement and Other Federal
     Employment Beneﬁts:                              $         1,494,427                   $                      0 $            1,494,427




As of September 30                                                                          2008
                                                                              Assumed            (Less: Assets
                                                          Liabilities       Interest Rate       Available to Pay       Unfunded Liabilities
                                                                                 (%)               Beneﬁts)
(Amounts in thousands)


1. Pension and Health Actuarial Beneﬁts
      A. Military Retirement Pensions                 $                 0                   $                      0   $                 0
      B. Military Retirement Health Beneﬁts                             0                                          0                     0
      C. Military Medicare-Eligible Retiree Beneﬁts                     0                                          0                     0
      D. Total Pension and Health Actuarial Beneﬁts   $                 0                   $                      0   $                 0


2. Other Actuarial Beneﬁts
      A. FECA                                         $         1,650,038                   $                      0   $          1,650,038
      B. Voluntary Separation Incentive Programs                        0                                          0                     0
      C. DoD Education Beneﬁts Fund                                     0                                          0                     0
      D. Total Other Actuarial Beneﬁts                $         1,650,038                   $                      0   $          1,650,038


3. Other Federal Employment Beneﬁts                   $                 0                   $                      0   $                 0

4. Total Military Retirement and Other Federal
     Employment Beneﬁts:                              $         1,650,038                   $                      0 $            1,650,038




Federal Employees’ Compensation Act
Actuarial Cost Method Used and Assumptions:
The Department of the Navy’s (DON) actuarial liability for workers’ compensation benefits is
developed by the Department of Labor and provided to DON only at the end of each fiscal year.
The liability for future workers’ compensation benefits includes the expected liability for death,


80 | General Fund
disability, medical, and miscellaneous costs for approved compensation cases, plus a component
for incurred but not reported claims. The liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. Consistent with past practice, these projected annual benefit
payments have been discounted to present value using the Office of Management and Budget’s
economic assumptions for 10-year U.S. Treasury notes and bonds. Interest rate assumptions
utilized for discounting were as follows:

	      Discount Rates
	      4.223% in Year 1
	      4.715% in Year 2, and thereafter

To provide more specifically for the effects of inflation on the liability for future workers
compensation benefits, wage inflation factors (cost of living adjustments or COLAs) and medical
inflation factors (consumer price index medical or CPIMs) were applied to the calculation of
projected future benefits. The actual rates for these factors for the charge back year (CBY) 2009
were also used to adjust the methodology’s historical payments to current year constant dollars.
The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

	      CBY 		          COLA 		         CPIM
	      2009 		         N/A		            N/A
	      2010 		         0.47% 		        3.42%
	      2011 		         1.40% 		        3.29%
	      2012		          1.50%		         3.48%
	      2013		          1.80%		         3.71%
	      2014+ 		        2.00%		         3.71%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The
analysis was based on four tests: (1) a sensitive analysis of the model to economic assumptions;

(2) a comparison of the percentage change in the liability amount by agency to the percentage
change in the actual incremental payments; (3) a comparison of the incremental paid losses per case
(a measure of case-severity) in CBY 2009 to the average pattern observed during the most current
three CBYs; and (4) a comparison of the estimated liability per case in the 2009 projection to the
average pattern for the projections of the most recent three years.

Other Federal Employment Benefits
Other federal employment benefits (Line 3) consist primarily of voluntary separation incentive pay
for former employees.




                                          Fiscal Year 2009 Department of the Navy Annual Financial Report | 81
Note 18. 	Disclosures Related to the Statement of Net
          Cost
Intragovernmental Costs and Exchange Revenue
As of September 30                                                 2009                 2008
(Amounts in thousands)

1. Intragovernmental Costs                                   $         44,524,564   $      42,702,854
2. Public Costs                                                       104,269,896          94,645,963
3. Total Costs                                               $        148,794,460   $     137,348,817

4. Intragovernmental Earned Revenue                          $         (3,343,323) $       (3,526,762)
5. Public Earned Revenue                                               (1,437,943)         (1,079,762)
6. Total Earned Revenue                                      $         (4,781,266) $       (4,606,524)

7. Net Cost of Operations                                    $        144,013,194   $     132,742,293




The Department of the Navy (DON) restated the Fiscal Year (FY) 2008 balance in Outstanding
Contract Financing Payments (OCFP) by $22.4 billion. The DON incorrectly reported this amount
as expenses rather than assets through FY 2008. These payments include progress payments based
on percentage or stage of completion, which cannot be identified due to systems limitations. For
the Statement of Net Cost (SNC), a credit to Operating Expenses reduced the Total Costs balance by
$7.2 billion. Refer to Note 26, Restatements, for additional details.

Intragovernmental costs and revenues are related to transactions made between the DON General
Fund (GF) and another federal entity within the Federal Government.

Public costs and revenues are exchange transactions made between DON GF and a nonfederal
entity.

The DON GF’s financial management systems are unable to meet all of the requirements for full
accrual accounting. Many of DON’s financial and nonfinancial feeder systems and processes
were designed and implemented prior to the issuance of generally accepted accounting principles
(GAAP) for federal agencies. Most of DON’s legacy systems were designed to record information
on a budgetary basis, and do not track intragovernmental transactions by customer at the
transaction level. Considering these systems limitations, DON GF is unable to accurately compare
its intragovernmental costs and revenues with the corresponding balances of its intragovernmental
trading partners. Buyer-side accounts payable and expenses were adjusted to match seller-side
accounts receivable and revenues. This is accomplished by reclassifying amounts between federal
and public cost categories, and accruing additional costs when necessary.

The SNC represents the net cost of programs and organizations of the Federal Government
supported by appropriations or other means. The intent of the SNC is to provide gross and net
cost information related to the amount of output or outcome for a given program or organization
administered by a responsible reporting entity. The DON’s current processes and systems do
not capture and report accumulated costs for major programs based upon the performance
measures as required by the Government Performance and Results Act. The DON is in the process
of reviewing available data and developing a cost reporting methodology as required by the


82 | General Fund
Statement of Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial Cost Accounting
Concepts and Standards for the Federal Government,” as amended by SFFAS No. 30, “Inter-entity
Cost Implementation.”

In conjunction with the Department of Defense, DON has undertaken efforts to determine
the actions required to bring its financial and nonfinancial feeder systems and processes into
compliance with all elements of GAAP. One such action is the revision of its accounting systems to
record transactions based on the U.S. Standard General Ledger. Until such time as all of the DON’s
financial and nonfinancial feeder systems and processes are updated to collect and report financial
information as required by GAAP, DON GF’s financial data will be largely based on budgetary
transactions (obligations, disbursements, and collections), transactions from nonfinancial feeder
systems, and adjustments for known accruals of major items such as payroll expenses, accounts
payable, and environmental liabilities.

The DON’s accounting systems generally do not capture information relative to Heritage Assets
separately and distinctly from normal operations.


Note 19.	Disclosures Related to the Statement of
         Changes in Net Position
The Department of the Navy (DON) restated its financial statements as of September 30, 2008 to
properly recognize payments related to Shipbuilding procurement costs from October 1, 2005
through June 30, 2008 as contract financing payments. These payments include progress payments
based on percentage or stage of completion, which cannot be identified due to systems limitations.
A prior period adjustment was recognized to correct the beginning 2009 balances. The error
impacted assets, expenses, unexpended appropriations, cumulative results of operations, and net
position. It impacted DON’s Balance Sheet, Statement of Net Cost, and Statement of Changes in
Net Position. Refer to Note 6, Other Assets, for additional details and disclosures.

During 3rd Quarter, FY 2009, Navy implemented an automated interface from the monthly
reporting system to the quarterly reporting system. Previously amounts were manually cross
walked to accounts for quarterly reporting. During the implementation it was discovered that the
crosswalk logic for many accounts was flawed, resulting in incorrect ending balances from FY 2008.
A prior period adjustment was recognized to correct the beginning 2009 balances. The adjustment
impacted assets, liabilities, unexpended appropriations, and cumulative results of operations.
It impacted the Balance Sheet and the Statement of Changes in Net Position. Refer to Note 26,
Restatements, for additional details on both Prior Period Adjustments.

The following chart reflects the cumulative effect on DON’s balances reported in the comparative
period (amounts in millions):




                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 83
                     FY 2008 Statement of Changes in Net Position
Cumulative Results of Operations
Prior Period Adjustments:
  Corrections of Errors                                           $                                 (94.7)
Budgetary Financing Sources:
  Expended Appropriations                                                                         7,163.1
Net Cost of Operations                                                                           (7,163.1)
Cumulative Results of Operations                                  $                                (94.7)

Unexpended Appropriations
Prior Period Adjustments:
  Corrections of Errors                                                           $             20,021.9
Budgetary Financing Sources:
  Expended Appropriations                                                                         7,163.1
Unexpended Appropriations                                                         $            27,185.0

Net Position                                                                      $            27,090.3

Appropriations Received on the Statement of Changes in Net Position (SCNP) do not agree with
Appropriations Received  FYon2009
                               the Statement
                                    Statementof Budgetary
                                                of Changes Resources
                                                              in Net (SBR)  due to differences
                                                                      Position
between  proprietary
Cumulative     Resultsandofbudgetary
                             Operationsaccounting concepts and reporting requirements. The
difference of $24.3
Prior Period        million is due to Trust Funds and Special Receipt Accounts included in the
               Adjustments:
Appropriations
   Corrections Received
                 of Errors line of the SBR. Refer to Note 20 for additional details.
                                                                                $              (94.7)
In the SCNP, all offsetting balances (i.e. transfers-in and transfers-out, revenues, and expenses)
for intradepartment
 Unexpended            activity between earmarked and other (nonearmarked) funds are reported
                  Appropriations
on the same lines. This results in an eliminations column, which appears to contain no balances.
 Prior Period   Adjustments:
In reality, the column
    Corrections         contains all appropriate elimination entries, but all net to$ zero within27,185.0
                   of Errors                                                                     each
respective line except for intraentity imputed financing costs.

Description of Other Lines on the SCNP
Other Financing Sources – Other (Line 5.D) represents net gains and losses recorded in relation to
the capitalization of assets such as Real Property, Construction in Progress, Operating Materiel and
Supplies, and Military Equipment.
Other Adjustments (Line 13.C) represents reductions to budget authority and rescissions in
accordance with Public Law.

Abnormal Balance
In 4th Quarter, FY 2009 an abnormal balance appeared in USSGL 5610 Donated Revenue –
Nonfinancial Resources in the amount of $667.4 thousand under the Navy General Fund. Account
5610 crosswalks into the Statement of Changes in Net Position Line 5.A Donations and Forfeitures
of Property. This balance is the result of a correcting entry to remove overstated cumulative
Donated Revenue. The abnormal balance will be cleared when year-end balances are rolled into
FY 2010 beginning balances.

In 4th Quarter, FY 2009, an abnormal balance appeared in USSGL 5993, Offsets to Non-Entity
Collections, in the amount of $145.2 thousand under the DON General Fund. Account 5993
crosswalks into the Statement of Changes in Net Position Line 4.C, Non-Exchange Revenue.
This abnormal was generated by an adjusting entry within DDRS-B to move prior period funds

84 | General Fund
from Unobligated Balance Not Available - Other to Unobligated Balance Apportioned Balance -
Currently Available. The abnormal balance will be cleared when year-end balances are rolled into
FY 2010 beginning balances.


Note 20.	Disclosures Related to the Statement of
         Budgetary Resources	
As of September 30                                                           2009                   2008
(Amounts in thousands)

1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                      $         130,649,021   $         124,099,586

2. Available Borrowing and Contract Authority at the End
     of the Period                                                                      0                       0




Apportionment Categories for Obligations Incurred.
On the Statement of Budgetary Resources (SBR): Obligations Incurred includes $186.8 billion of
Direct Program Obligations and $10.2 billion of Reimbursable Program Obligations.

On the Report on Budget Execution (SF-133):

  n	    Direct Obligations, Category A, amounts apportioned quarterly, are $105.7 billion.
  n	    Direct Obligations, Category B, amounts apportioned on a basis other than quarterly, are
        $81.1 billion.
  n	    Total Direct Obligations are therefore $186.8 billion.
  n	    The $16.2 million difference in direct obligations between the SBR and SF-133 is due to
        adjustments on the SBR to recognize fringe benefits, reclassify reimbursable obligations as
        noted below, and recognize other adjustments not captured in the field accounting systems.
  n	    Category B Reimbursable Obligations are $10.2 billion.
  n	    The $255 thousand difference in reimbursable obligations between the SBR and SF-133
        results from a reclassification adjustment to record trading partner data.

Other Disclosures
The SBR includes intraentity transactions because the statements are presented as combined.

As noted above, in terms of obligations, differences exist between the SF-133 and the SBR for a
number of reasons; including accruals recorded for fringe benefits, liabilities recorded for the
Judgment Fund, and accruals recorded for trading partner advances and liabilities.

Appropriations Received on the Statement of Changes in Net Position (SCNP) does not agree
with Appropriations Received on the SBR due to differences between proprietary and budgetary
accounting concepts and reporting requirements. The difference of $24.3 million is due to the
values for Trust Funds and Special Receipt Accounts not being included in the Appropriations
Received line of the SCNP.




                                             Fiscal Year 2009 Department of the Navy Annual Financial Report | 85
Legal limitations and restrictions affect the use of the unobligated balance of budget authority
based upon program and fiscal year in the applicable appropriation language or in the alternative
provisions section at the end of the appropriations act.

Permanent, Indefinite Appropriations
The National Defense Sealift Fund (NDSF) is operated under the authority of 10 U.S. Code
2218, which provides for the construction (including design of vessels), purchase, alteration,
and conversion of Department of Defense (DoD) sealift vessels; operation, maintenance, and
lease or charter of DoD vessels for national defense purposes; installation and maintenance of
defense features for national defense purposes on privately owned and operated vessels that are
constructed in the United States and documented under the laws of the United States; research
and development relating to national defense sealift; and expenses for maintaining the National
Defense Reserve Fleet, including the acquisition, alteration or conversion of vessels. For FY 2009,
no transfers to or from NDSF occurred.

The Environmental Restoration, Navy (ER, N) appropriation is a transfer account that funds
environmental restoration, reduction, and recycling of hazardous waste, removal of unsafe
buildings and debris, and similar purposes. Funds remain available until transferred and remain
available for the same purpose and same time period as the appropriations to which transferred.
For FY 2009, one transfer from ER, N for $294.8 million to the Operation and Maintenance, Navy
appropriation was recorded; no transfers to ER, N occurred.

The DON restated the FY 2008 balance in Outstanding Contract Financing Payments by $26.9
billion. The DON incorrectly reported this amount as expenses rather than assets through FY 2008.
These payments include progress payments based on percentage or stage of completion, which
cannot be identified due to systems limitations. On the SBR, the Prior Period Adjustment had a net
effect of zero. For Gross Outlays, a debit to Delivered Orders – Obligations, Paid was offset by a
credit to Undelivered Orders – Obligations, Prepaid. Refer to Note 26, Restatements, for additional
details.




86 | General Fund
Note 21.	Reconciliation of Net Cost of Operations to
Budget
As of September 30                                                                  2009                2008
(Amounts in thousands)

Resources Used to Finance Activities:
       Budgetary Resources Obligated:
              1. Obligations incurred                                        $       197,017,325    $     187,831,460
              2. Less: Spending authority from offsetting collections
                    and recoveries (-)                                               (32,093,306)         (29,222,776)
              3. Obligations net of offsetting collections and
                    recoveries                                                       164,924,019          158,608,684
              4. Less: Offsetting receipts (-)                                          (321,451)              98,060
              5. Net obligations                                                     164,602,568          158,706,744
       Other Resources:
              6. Donations and forfeitures of property                                      (667)                   -
              7. Transfers in/out without reimbursement (+/-)                            208,053              348,312
              8. Imputed ﬁnancing from costs absorbed by others                          779,646              678,845
              9. Other (+/-)                                                           4,046,452            2,400,715
              10. Net other resources used to ﬁnance activities                        5,033,484            3,427,872
11. Total Resources Used to Finance Activities                               $       169,636,052    $     162,134,616

Resources Used to Finance Items not Part of the Net Cost
     of Operations:
               12. Change in budgetary resources obligated for goods,
                    services, and beneﬁts ordered but not yet provided:
                      12a. Undelivered Orders (-)                            $       (33,444,096) $       (35,194,494)
                      12b. Unﬁlled Customer Orders                                       402,395              741,410
               13. Resources that fund expenses recognized in prior
                    periods (-)                                                       (2,992,872)            (750,198)
               14. Budgetary offsetting collections and receipts that
                    do not affect Net Cost of Operations                                 321,451              (98,060)
               15. Resources that ﬁnance the acquisition of assets (-)               (29,671,803)         (27,771,911)
               16. Other resources or adjustments to net obligated
                    resources that do not affect Net Cost of Operations:
                      16a. Less: Trust or Special Fund Receipts Related
                            to exchange in the Entity’s Budget (-)                             -                    -
                      16b. Other (+/-)                                                22,640,823           16,982,567
17. Total resources used to ﬁnance items not part of the
     Net Cost of Operations                                                  $       (42,744,102) $       (46,090,686)
18. Total resources used to ﬁnance the Net Cost of Operations                $       126,891,950    $     116,043,930



As of September 30                                                                  2009                2008
(Amounts in thousands)

Components of the Net Cost of Operations that will not
   Require or Generate Resources in the Current Period:
     Components Requiring or Generating Resources in Future
         Period:
           19. Increase in annual leave liability                             $          158,049 $            163,468
           20. Increase in environmental and disposal liability                          328,512               37,808
           21. Upward/Downward reestimates of credit subsidy
                 expense                                                                       0                    0
           22. Increase in exchange revenue receivable from the
                 public (-)                                                                    0                    0
           23. Other (+/-)                                                                81,906            1,952,276
           24. Total components of Net Cost of  Fiscal        thatDepartment of the Navy Annual Financial Report | 87
                                                       Year 2009
                                                  Operations
                 will Require or Generate Resources in future periods         $          568,467 $          2,153,552
  Components not Requiring or Generating Resources:
                            to exchange in the Entity’s Budget (-)                        -                    -
                      16b. Other (+/-)                                           22,640,823           16,982,567
17. Total resources used to ﬁnance items not part of the
     Net Cost of Operations                                                $    (42,744,102) $       (46,090,686)
18. Total resources used to ﬁnance the Net Cost of Operations              $    126,891,950     $    116,043,930



As of September 30                                                             2009                 2008
(Amounts in thousands)

Components of the Net Cost of Operations that will not
     Require or Generate Resources in the Current Period:
       Components Requiring or Generating Resources in Future
            Period:
              19. Increase in annual leave liability                       $          158,049   $          163,468
              20. Increase in environmental and disposal liability                    328,512               37,808
              21. Upward/Downward reestimates of credit subsidy
                    expense                                                                0                    0
              22. Increase in exchange revenue receivable from the
                    public (-)                                                              0                  0
              23. Other (+/-)                                                          81,906          1,952,276
              24. Total components of Net Cost of Operations that
                    will Require or Generate Resources in future periods   $          568,467   $      2,153,552
    Components not Requiring or Generating Resources:
              25. Depreciation and amortization                            $      9,404,125     $     11,958,197
              26. Revaluation of assets or liabilities (+/-)                      1,634,709             (519,521)
              27. Other (+/-)
                      27a. Trust Fund Exchange Revenue                                    0                    0
                      27b. Cost of Goods Sold                                             0                    0
                      27c. Operating Material and Supplies Used                   5,405,716            3,098,196
                      27d. Other                                                    108,227                7,939
              28. Total Components of Net Cost of Operations that
                    will not Require or Generate Resources                 $     16,552,777     $     14,544,811
29. Total components of Net Cost of Operations that will not
     Require or Generate Resources in the Current Period                   $     17,121,244     $     16,698,363
30. Net Cost of Operations                                                 $    144,013,194     $    132,742,293



The Reconciliation of Net Cost of Operations to Budget is designed to provide information about
the total resources used by an entity, to explain how those resources were used to finance orders
for goods and services not yet delivered, to acquire assets and liabilities, and to fund the entity’s
net cost of operations. It is designed to report the differences and facilitate the reconciliation of
accrual based amounts used in the Statement of Net Cost (SNC) and obligation-based amounts
used in the Statement of Budgetary Resources. The computations and presentation of items in the
Reconciliation of Net Cost of Operations to Budget demonstrate that the budgetary and proprietary
information in an entity’s financial management system agrees.

Due to the Department of the Navy financial system limitations, budgetary data is not in
agreement with proprietary expenses and assets capitalized. Differences between budgetary and
proprietary data are a previously identified deficiency. This causes a difference in net cost between
the SNC and the Reconciliation of Net Cost of Operations to Budget that requires an adjustment
to the Reconciliation of Net Cost of Operations to Budget. For 4th Quarter, Fiscal Year (FY) 2009,
an adjustment of $97 million was made to Resources that Finance the Acquisition of Assets so that
proprietary accounts reconcile with the budgetary accounts.

The Reconciliation of Net Cost of Operations to Budget is presented as a consolidated statement.
However, the following lines are presented as combined instead of consolidated due to interagency
budgetary transactions not being eliminated:




88 | General Fund
   n	   Obligations Incurred
   n	   Less: Spending Authority from Offsetting Collections and Recoveries
   n	   Obligations Net of Offsetting Collections and Recoveries
   n	   Less: Offsetting Receipts
   n	   Net Obligations
   n	   Undelivered Orders
   n	   Unfilled Customer Orders

Description of Other Lines
Resources Used to Finance Activities – Budgetary Resources Obligated:
The balance of $4.1 billion represents net gains and losses recorded in relation to the capitalization
of assets such as Real Property, Construction in Progress, Operating Materials and Supplies, and
Military Equipment.

Resources Used to Finance Items not Part of the Net Cost of Operations:
The balance of $22.6 billion reflects net gains and losses recorded in relation to the net change of the
value of assets such as Military Construction, Ammunition, Real Property, and Shipbuilding and
Conversion.

Components Requiring or Generating Resources in Future Periods:
The balance of $81.9 million consists primarily of accrued expenses for Non-Environmental
Liabilities and the Unemployment Unfunded Liability.

Components not Requiring or Generating Resources:
The balance of $108.2 million consists primarily of bad debt expense and expenses not requiring
budgetary resources.

Abnormal Balance
In 4th Quarter, FY 2009 an abnormal balance appeared in USSGL 5610 Donated Revenue –
Nonfinancial Resources in the amount of $667.4 thousand under the Navy General Fund. Account
5610 crosswalks into the Statement of Changes in Net Position Line 5.A Donations and Forfeitures
of Property. This balance is the result of a correcting entry to remove overstated cumulative
Donated Revenue. The abnormal balance will be cleared when year-end balances are rolled into
FY 2010 beginning balances.


Note 22. 	Disclosures Related to Incidental Custodial
          Collections
Not applicable.




                                           Fiscal Year 2009 Department of the Navy Annual Financial Report | 89
Note 23.	Earmarked Funds
                                                                                   2009
BALANCE SHEET
                                                             Medicare Eligible
As of September 30                              Military
                                                              Retiree Health
                                                                               Other Earmarked
                                                                                                  Eliminations       Total
(Amounts in thousands)                     Retirement Fund                          Funds
                                                               Care Fund

ASSETS
Fund balance with Treasury                 $            0                  0           17,800                    0       17,800
Investments                                             0                  0            9,621                    0        9,621
Accounts & Interest Receivable                          0                  0                0                    0            0
Other Assets                                            0                  0                0                    0            0
Total Assets                               $            0                  0           27,421                    0       27,421

LIABILITIES and NET POSITION
Military Retirement Beneﬁts and Other
     Federal Employment Beneﬁts            $            0                  0                  0                  0               0
Other Liabilities                                       0                  0              1,250                  0           1,250
Total Liabilities                          $            0                  0              1,250                  0           1,250

Unexpended Appropriations                               0                  0                0                    0            0
Cumulative Results of Operations                        0                  0           26,171                    0       26,171
Total Liabilities & Net Position           $            0                  0           27,421                    0       27,421


STATEMENT OF NET COST
For the period ended September 30
Program Costs                              $            0                  0           22,279                    0       22,279
Less Earned Revenue                                     0                  0                0                    0            0
Net Program Costs                          $            0                  0           22,279                    0       22,279
Less Earned Revenues Not Attributable to
      Programs                                          0                  0                0                    0            0
Net Cost of Operations                     $            0                  0           22,279                    0       22,279

STATEMENT OF CHANGES IN NET POSITION
For the period ended September 30
Net Position Beginning of the Period       $            0                  0           24,230                    0       24,230
Net Cost of Operations                                  0                  0           22,279                    0       22,279
Budgetary Financing Sources                             0                  0           24,215                    0       24,215
Other Financing Sources                                 0                  0                5                    0            5
Change in Net Position                     $            0                  0            1,941                    0        1,941

Net Position End of Period                 $            0                  0           26,171                    0       26,171




90 | General Fund
                                                                                   2008
BALANCE SHEET                                                Medicare Eligible
As of September 30                              Military                       Other Earmarked
                                                              Retiree Health                      Eliminations       Total
(Amounts in thousands)                     Retirement Fund                          Funds
                                                               Care Fund

ASSETS
Fund balance with Treasury                 $            0                  0           19,512                    0       19,512
Investments                                             0                  0           10,356                    0       10,356
Accounts & Interest Receivable                          0                  0                0                    0            0
Other Assets                                            0                  0               23                    0           23
Total Assets                               $            0                  0           29,891                    0       29,891

LIABILITIES and NET POSITION
Military Retirement Beneﬁts and Other
     Federal Employment Beneﬁts            $            0                  0                  0                  0               0
Other Liabilities                                       0                  0              5,661                  0           5,661
Total Liabilities                          $            0                  0              5,661                  0           5,661

Unexpended Appropriations                               0                  0                0                    0            0
Cumulative Results of Operations                        0                  0           24,230                    0       24,230
Total Liabilities & Net Position           $            0                  0           29,891                    0       29,891


STATEMENT OF NET COST
For the period ended September 30
Program Costs                              $            0                  0           24,863                    0       24,863
Less Earned Revenue                                     0                  0                0                    0            0
Net Program Costs                          $            0                  0           24,863                    0       24,863
Less Earned Revenues Not Attributable to
      Programs                                          0                  0                0                    0            0
Net Cost of Operations                     $            0                  0           24,863                    0       24,863

STATEMENT OF CHANGES IN NET POSITION
For the period ended September 30
Net Position Beginning of the Period       $            0                  0           24,258                    0       24,258
Net Cost of Operations                                  0                  0           24,863                    0       24,863
Budgetary Financing Sources                             0                  0           24,837                    0       24,837
Other Financing Sources                                 0                  0               (2)                   0           (2)
Change in Net Position                     $            0                  0              (28)                   0          (28)

Net Position End of Period                 $            0                  0           24,230                    0       24,230




Earmarked funds are financed by specifically identified revenues and are required by statute to
be used for designated activities or purposes. The Department of the Navy (DON) has seven
earmarked funds. Four are categorized as Special Funds and three are categorized as Trust Funds.
A list of these earmarked funds and a brief description of each follows below. There have been no
changes in legislation during or subsequent to the reporting period that significantly changes the
purpose of any of the seven funds or that redirects a material portion of the accumulated balances
of any of the seven funds. Generally, revenues for the DON’s earmarked funds are inflows of
resources to the Government.

Special Earmarked Funds
Wildlife Conservation, Military Reservations, Navy –
This fund, authorized by 16 United States Code 670b, provides for the development and
conservation of fish and wildlife and recreational facilities on military installations. Proceeds from
the sale of fishing and hunting permits are used for these programs at Navy and Marine Corps
installations charging such user fees. These programs are carried out through cooperative plans
agreed upon by the local representatives of the Secretary of Defense, the Secretary of the Interior,
and the appropriate agency of the State in which the installation is located.




                                           Fiscal Year 2009 Department of the Navy Annual Financial Report | 91
Kaho’olawe Island Conveyance, Remediation and Environmental Restoration Fund, Navy –
This fund, authorized by 107 Statute 1483, was established to recognize and fulfill the commitments
made on behalf of the United States to the people of Hawaii and to return to the State of Hawaii the
Island of Kaho’olawe. Congress has found it to be in the national interest and an essential element
in the Federal Government’s relationship with the State of Hawaii the conveyance, clearance,
or removal of unexploded ordnance, environmental restoration, control of access to the Island
and future use of the Island be undertaken in a manner consistent with the enhancement of that
relationship, the Department of Defense’s military mission, the federal interest, and applicable
provisions of law. This fund is financed by congressional appropriations.

Rossmoor Liquidating Trust Settlement Account –
The Rossmoor Liquidating Trust account was established by Section 2208 of Public Law 104-106;
the National Defense Authorization Act of 1996. Per the statute, monies awarded the United States
when litigation is settled in favor of the Rossmoor Liquidating Trust is deposited into this account.
The monies are made available to DON solely for the acquisition or construction of military family
housing in, or in the vicinity of, San Diego, California.

Ford Island Improvement Account –
The Ford Island Improvement fund is authorized by 10 United States Code 2814 and was
established to carry out improvements to property and facilities that will deliver overall benefits to
DON at the Pearl Harbor Naval Complex at Ford Island, Hawaii. Ford Island is a central feature
in the Pearl Harbor National Historic Landmark. The Ford Island legislation allows DON to sell or
lease properties in Hawaii and use the proceeds to develop Ford Island.

Trust Earmarked Funds
DON General Gift Fund –
This trust fund is authorized by 10 United States Code 2601. Under the provisions of this statute,
the Secretary of the Navy may accept, hold, administer, and spend any gift, devise, or bequest of
real or personal property, made on the condition that they be used for the benefit, or in connection
with the establishment, operation, or maintenance of a school, hospital, library, museum, cemetery,
or other institution under the jurisdiction of DON.

Ships Stores Profit, Navy –
This trust fund is authorized by 10 United States Code 7220. Deposits to this fund are derived
from profits realized through the operation of ships’ stores and from gifts accepted for providing
recreation, amusement, and contentment for enlisted members of the Navy and Marine Corps.

U.S. Naval Academy General Gift Fund –
This trust fund is authorized by 10 United States Code 6973. Under the provisions of this statute,
the Secretary of the Navy may accept, hold, administer, and spend any gift, devise, or bequest of
personal property, made on the condition that it be used for the benefit of, or in connection with,
the United States Naval Academy, or the Naval Academy Museum, its collections, or its services.




92 | General Fund
Note 24.	Fiduciary Activities
For the period ended September 30                                                                  2009
(Amounts in thousands)

1. Fiduciary net assets, beginning of year                                            $                       20,570

2. Fiduciary revenues                                                                                              0
3. Contributions                                                                                              39,680
4. Investment earnings                                                                                         2,211
5. Gain (Loss) on disposition of investments, net                                                                  0
6. Administrative and other expenses                                                                               0
7. Distributions to and on behalf of beneﬁciaries                                                            (35,730)
8. Increase/(Decrease) in ﬁduciary net assets                                         $                        6,161

9. Fiduciary net assets, end of period                                                $                       26,731


For the period ended September 30                                                                  2009
(Amounts in thousands)

Fiduciary Assets
     1. Cash and cash equivalents                                                     $                       26,731
     2. Investments                                                                                                0
     3. Other Assets                                                                                               0

Fiduciary Liabilities
     4. Less: Liabilities                                                             $                            0

Total Fiduciary Net Assets                                                            $                       26,731



The Department of the Navy’s Fiduciary Activity consists of funds in the Savings Deposit Program.
Under 10, USC, §1035, and Department of Defense Financial Management Regulation, Volume 7A,
Chapter 51, deployed service members of both the Navy and Marine Corps can earn 10 percent
interest on up to $10 thousand deposited into the program. Funds are held in the program during
the member’s tour of duty and are paid out within 90 days after the member leaves the eligible
region. The accounts included in the balance are 17X6025 for Navy and 17X6026 for Marine Corps.




                                                Fiscal Year 2009 Department of the Navy Annual Financial Report | 93
Note 25.	Other Disclosures
As of September 30
                                                                               2009

                                                       Land and
                                                                       Equipment       Other           Total
                                                       Buildings
(Amounts in thousands)

1. Entity as Lessee - Operating Leases
      Future Payments Due
         Fiscal Year
            2009                                   $               0   $       0   $           0   $           0
            2010                                            50,545             0               0          50,545
            2011                                            52,022             0               0          52,022
            2012                                            53,550             0               0          53,550
            2013                                            55,129             0               0          55,129
            2014                                            56,763             0               0          56,763
            After 5 Years                                   58,454             0               0          58,454


Total Future Lease Payments Due                    $       326,463     $       0   $           0   $     326,463




Note 26.	Restatements
The Department of the Navy (DON) restated its financial statements as of September 30, 2008 to
properly recognize payments related to Shipbuilding procurement costs from October 1, 2005
through June 30, 2008 as contract financing payments. These payments include progress payments
based on percentage or stage of completion, which cannot be identified due to systems limitations.
A prior period adjustment was recognized to correct the beginning 2009 balances. The error
impacted assets, expenses, unexpended appropriations, cumulative results of operations, and net
position. It impacted DON’s Balance Sheet, Statement of Net Cost, and Statement of Changes in
Net Position. Refer to Note 6, Other Assets, for additional details and disclosures.

During 3rd Quarter, Fiscal Year (FY) 2009, Navy implemented an automated interface from the
monthly reporting system to the quarterly reporting system. Previously amounts were manually
cross walked to accounts for quarterly reporting. During the implementation it was discovered
that the crosswalk logic for many accounts was flawed, resulting in incorrect ending balances from
FY 2008. A prior period adjustment was recognized to correct the beginning 2009 balances. The
adjustment impacted assets, liabilities, unexpended appropriations, and cumulative results of
operations. It impacted the Balance Sheet and the Statement of Changes in Net Position.

The following chart reflects the cumulative effect on DON’s balances reported in the comparative
period (amounts in millions):




94 | General Fund
                                              FY 2008 Balance Sheet
Accounts Receivable                                                                    $                      15.5
Interest Receivable                                                                                           25.3
Advances and Prepayments                                                                                  26,824.1
Accumulated Depreciation on Equipment - OCFP                                                                  23.9
Other Assets                                  FY 2008 Balance Sheet                                            0.3
Accounts   Receivable
Total Assets                                                                           $                      15.5
                                                                                                          26,889.1
Interest Receivable                                                                                           25.3
Advances    and Prepayments
Accounts Payable                                                                                          26,824.1
                                                                                                            (538.3)
Accumulated    Depreciation
Liability for Non-Entity    on Equipment - OCFP
                         Assets                                                                               23.9
                                                                                                             337.2
Other  Assets
Total Liabilities                                                                      $                       0.3
                                                                                                            (201.1)
Total Assets                                                                           $                  26,889.1
Unexpended Appropriations - Prior Period                                                                  20,021.9
Accounts
Unexpended Payable
               Appropriations - Used                                                                        (538.3)
                                                                                                           7,163.1
Liability
Cumulativefor Non-Entity  Assets
              Results of Operations                                                                          337.2
                                                                                                             (94.7)
Total Liabilities
Net Position                                                                           $                    (201.1)
                                                                                                          27,090.3

Unexpended Appropriations - Prior Period FY 2008 Statement of Net Costs                                   20,021.9
Unexpended
Gross Costs Appropriations - Used                                                      $                   7,163.1
                                                                                                          (7,163.1)
Cumulative Results of Operations                                                                             (94.7)
Net Position                       FY 2008 Statement of Changes in Net Position        $                  27,090.3
Cumulative Results of Operations
Prior Period Adjustments:                  FY 2008 Statement of Net Costs
Gross  Costs of Errors
   Corrections                                                                         $                  (7,163.1)
                                                                                                             (94.7)
Budgetary Financing Sources:
   Expended Appropriations         FY 2008 Statement of Changes in Net Position                            7,163.1
Net Cost of Operations
Cumulative   Results of Operations                                                                        (7,163.1)
Prior Period Adjustments:
Cumulative   Results of Operations                                                     $                     (94.7)
   Corrections of Errors                                                               $                     (94.7)
Budgetary
Unexpended Financing  Sources:
              Appropriations
   Expended
Prior        Appropriations
      Period Adjustments:                                                                                  7,163.1
NetCorrections
    Cost of Operations
               of Errors                                                               $                  (7,163.1)
                                                                                                          20,021.9
Cumulative   Results of
Budgetary Financing     Operations
                      Sources:                                                         $                     (94.7)
   Expended Appropriations                                                                                 7,163.1
Unexpended Appropriations                                                               $                 27,185.0
Prior Period Adjustments:
NetCorrections
    Position of Errors                                                                  $$                20,021.9
                                                                                                          27,090.3
Budgetary Financing Sources:
TheExpended
     following   chart reflects theFY
             Appropriations          cumulative
                                       2009 Statement of Changes in Net Position
                                                                                                           7,163.1
effect on DON’s
Unexpended
Cumulative   Resultsbalances
              Appropriations   reported in the
                     of Operations                                                      $                 27,185.0
current  period:
Prior Period Adjustments:
NetCorrections
    Position of Errors                                                                  $$                27,090.3
                                                                                                             (94.7)

Unexpended Appropriations          FY 2009 Statement of Changes in Net Position
Prior Period Adjustments:
Cumulative   Results of Operations
Prior Period Adjustments:
   Corrections of Errors                                                                $                 27,185.0
   Corrections of Errors                                                                $                    (94.7)

Unexpended Appropriations
Prior Period Adjustments:
   Corrections of Errors                                                                $                 27,185.0




                                              Fiscal Year 2009 Department of the Navy Annual Financial Report | 95
96 | General Fund
General Fund Required Supplementary
      Stewardship Information




                                  97
   Fiscal Year 2009 Department of the Navy Annual Financial Report


                             Fiscal Year 2009 Department of the Navy Annual Financial Report | 97
                          Investments in Research and Development
                        Yearly Investment in Research and Development
                               For Fiscal Years 2005 through 2009
                                           ($ in Millions)

Categories                                          FY09       FY08       FY07       FY06       FY05
Basic Research                                        $ 523     $ 452      $ 448      $ 449      $ 437
Applied Research                                        854       748        781        739        692
Development
    Advanced Technology Development                     883       752        801        912        951
    Advanced Component Development and
    Prototypes                                        3,464     3,329      3,229      3,223      3,030
    System Development and Demonstration              8,288     8,141      8,731      7,819      7,094
    Research, Development, Test, and Evaluation
    Management Support                                1,245     1,112      1,034      1,022        955
    Operational Systems Development                   4,249     3,943      3,810      3,399      3,775
Totals                                             $ 19,506   $ 18,477   $ 18,834   $ 17,563   $ 16,934

Narrative Statement:

Investments in Research and Development
Investment values are based on Research and Development outlays (expenditures). Outlays are
used because current Department of the Navy (DON) systems are unable to fully capture and
summarize costs in accordance with standards promulgated by the Federal Accounting Standards
Advisory Board.

Research and Development (R&D) programs are classified as Basic Research, Applied Research,
and Development. The definition of each R&D category and subcategory is explained below.

A. Basic Research
Basic Research is the systematic study to gain knowledge or understanding of the fundamental
aspects of phenomena and of observable facts without specific applications, processes, or products
in mind. Basic Research involves the gathering of a fuller knowledge or understanding of the
subject under study. Major outputs are scientific studies and research papers.

The following are two representative program examples for the Basic Research category.

   Environmentally Safe Hull Coatings
   Biofouling of ship hulls, primarily caused by the accretion of marine crustaceans, such as
   barnacles and tubeworms, poses a significant impediment to ship performance. Biofilm can add
   up to 20 percent drag and barnacles more than 60 percent.

   The Naval Surface Warfare Center, Carderock, estimates that vessel speed is reduced by up to
   10 percent from biofouling, which can require up to a 40 percent increase in fuel consumption to
   counter the added drag.

   The Office of Naval Research (ONR) is investing in environmentally friendly coatings for



98 | General Fund
ship hulls to prevent biofouling organisms from interfering with a ship’s hydrodynamic
performance. Current biofouling solutions generally rely on the use of biocides, which use
toxins to kill organisms that try to attach to the hull. Such toxins leach from the coatings and
may accumulate in the environment.

ONR’s research has yielded significant progress in the development of two powerful,
nontoxic biofouling prevention agents. The Sharklet™ coating, developed in partnership
with researchers at the University of Florida, mimics the inherent texture and antimicrobial
properties of shark skin. Zwitterionic or mixed charge compounds, developed in partnership
with the University of Washington, manipulate surface environments at the molecular level to
prevent proteins from binding to the ship’s surface.

By reducing microorganism build-up, both coatings stand to substantially improve ship
performance and fuel efficiency, while dramatically cutting fuel and maintenance costs. These
coatings may also reduce the transport of invasive species via ship hulls and eliminate the
discharge of biocides into surrounding environments.

Additionally, researchers have determined that the ONR-funded marine biofouling prevention
technologies also inhibit the growth of disease-causing bacteria. This unique attribute may have
applications in the design of medical devices or hygienic surfaces found in hospitals and food
preparation areas.

Video Game-Induced Enhancements in Adult “Fluid Intelligence”
ONR is unique among multiple players in the field of cognitive science. ONR is pursuing
mission-focused neuroscience and cognition research specifically applicable to human learning
and performance requiring adaptability.

Research on video games for training has proven to be highly fruitful with new and very
surprising findings showing that short periods of game-based training can increase “fluid
intelligence” in young, military age adults by as much as 40 to 50 percent. Fluid intelligence is
the fundamental ability to reason and solve problems in novel contexts.

This form of intelligence has long been thought to be a hard-wired, fixed trait in adulthood
that is not affected by training or experience. Showing training effects of this nature overturns
established dogma in cognitive science and shows great promise for training warfighters to
become more adaptive and resilient problem-solvers in fast-paced, unpredictable operational
environments. Other information processing capabilities now found, surprisingly, to show
training-induced cognitive improvements in adults are visual discrimination ability, memory
capacity, and the ability to concentrate.

It is believed that computer games achieve these effects by increasing the efficiency of
information flow in game players through the strengthening of executive attentional control
mechanisms in the prefrontal cortex.

Research in this area will contribute to three main operational capabilities:

n	   Human Systems Integration – systems, equipment optimized for human use, such as the
     perceptual ability of sailors in the Combat Information Center of warship on warship –
     very visually intensive environment



                                       Fiscal Year 2009 Department of the Navy Annual Financial Report | 99
  n	   Training – prepare Sailors and Marines to prevail and survive in combat – closing the gap
       between training and operations
  n	   Selection and Classification – putting the right people in the right job reduces training
       time, cost, and will ultimately save lives

B. Applied Research
Applied Research is the systematic study to gain knowledge or understanding necessary for
determining the means by which a recognized and specific need may be met. It is the practical
application of such knowledge or understanding for the purpose of meeting the recognized need.
This research points toward specific military needs with a view toward developing and evaluating
the feasibility and practicability of proposed solutions and determining their parameters. Major
outputs are scientific studies, investigations, and research papers, hardware components, software
codes, and limited construction of, or part of, a weapon system to include nonsystem specific
development efforts.

The following are two representative program examples for the Applied Research category.

   BioEngineered Systems
   Synthetic biology offers a path forward for development of autonomous “sense and respond”
   systems for environmental and possibly medical monitoring and intervention.

   Of particular interest are strategies for persistent surveillance of various environments
   for analytes, such as explosives, and of biomedical environments for pathogens or other
   disease-promoting elements. For example, plants have been genetically engineered to
   sense trinitrotoluene (TNT) and respond by having their leaves turn white – this has been
   accomplished by stopping the enzymatic production of pigment and increasing its degradation
   when the TNT trigger is sensed.

   The plant sensors can detect TNT at low parts-per-trillion in solution and parts-per-billion in the
   vapor phase and can be visualized using hyperspectral imaging. They may provide a stealthy
   way to monitor the placement of improvised explosive devices or facilities where they are
   made. The technology is flexible and will allow us to create plant sentinels for other chemical
   targets (e.g., pollutants).

   ONR has also used synthetic biology to genetically program a bacterium (E. coli) to enable it to
   detect and kill specific pathogenic bacteria. Genetic pathways were inserted that enabled the
   E. coli to sense small, specific signal molecules secreted by the targeted bacteria and then turn
   on other genetic programs that synthesize and secrete antibiotics to kill the pathogens.

   This system may provide a strategy for early delivery of the correct antibiotic in a healing
   wound. In the future, similar systems may be devised to help augment the immune system to
   enable it to fight recalcitrant infections.

   High Temperature Superconducting Degaussing for Ships
   Naval mine strikes are the root cause of 77 percent of U.S. Navy ship casualties occurring since
   1950. Most recently, the modern warships USS Samuel B. Roberts (FFG 58), USS Princeton
   (CG 59), and USS Tripoli (LPH 10) were severely damaged by mine warfare during Persian Gulf
   conflicts.




100 | General Fund
   With increased operations in the coastal areas (or littorals) of the world’s oceans, U.S. Navy
   ships face an increasing threat from naval mines. As the mine threat has become more
   sophisticated, degaussing systems have evolved in complexity. Copper coil based systems
   have impacted ship designs in terms of weight and size requirements. Utilization of High
   Temperature Superconducting (HTS) technology can alleviate to a large extent the weight and
   space impact to the ship of legacy degaussing system designs.

   In partnership with the Naval Surface Warfare Center Carderock Division’s Ship Engineering
   Station Philadelphia, an HTS degaussing coil system was installed on board the USS Higgins
   (DDG 76) in July 2008. The new HTS degaussing coil—the first of its kind to be installed on
   board a naval vessel—successfully produced a full “coil effect” and delivered the first-ever
   measurement of a degaussing system using superconductive materials on April 1, 2009 as the
   ship completed a pass over the U.S. Navy Magnetic Silencing Range in San Diego, California.

   The HTS degaussing coil system neutralizes a ship’s inherent magnetic field, interfering with
   undersea mines’ ability to detect and detonate when a large magnetic field – like the one created
   by a ship – comes within close proximity.

   HTS degaussing neutralizes a ship’s magnetic field by sending electrical currents through
   ceramic cables encircling all or part of a ship. HTS degaussing replaces legacy copper coils
   providing the same function, but much more efficiently due to the use of superconducting
   materials.

   HTS provides superior degaussing over legacy copper coils, is more efficient producing a great
   “coil effect” with less energy, and weighs significantly less than copper systems. Weight and
   space savings provide options to naval architects for added mission payload, additional fuel, or
   future systems to be added to the ship over its life cycle.

C. Development
Development takes what has been discovered or learned from basic and applied research and
uses it to establish technological feasibility, assessment of operability, and production capability.
Development is comprised of five stages, as defined below.

   1. 	 Advanced Technology Development is the systematic use of the knowledge or
        understanding gained from research directed toward proof of technological feasibility and
        assessment of operational and production rather than the development of hardware for
        service use. It employs demonstration activities intended to prove or test a technology or
        method.

   2. 	 Advanced Component Development and Prototypes evaluates integrated technologies
        in as realistic an operating environment as possible to assess the performance or cost
        reduction potential of advanced technology. Programs in this phase are generally system
        specific. Major outputs of Advanced Component Development and Prototypes are
        hardware and software components or complete weapon systems ready for operational
        and developmental testing and field use.




                                          Fiscal Year 2009 Department of the Navy Annual Financial Report | 101
  3. 	 System Development and Demonstration concludes the program or project and prepares
       it for production. It consists primarily of preproduction efforts, such as logistics and
       repair studies. Major outputs are weapons systems finalized for complete operational and
       developmental testing.

  4. 	 Research, Development, Test, and Evaluation Management Support is support for
       installations and operations for general research and development use. This category
       includes costs associated with test ranges, military construction maintenance support for
       laboratories, operation and maintenance of test aircraft and ships, and studies and analyses
       in support of the Research and Development program.

  5. 	 Operational Systems Development is concerned with development projects in support of
       programs or upgrades that are still in engineering and manufacturing development. These
       projects have received approval for production, for which production funds have been
       budgeted in subsequent fiscal years.

The following are representative program examples for the Development category—two for the
DON General Fund, and two for the U.S. Marine Corps General Fund.

  Integrated Topside
  The Integrated Topside (InTop) is an Innovative Naval Prototype (INP) program that will
  develop a scalable family of Electronic Warfare (EW), radar and communications capability to
  support multiple classes of ships and other Navy platforms. InTop will use a modular / open
  radio frequency (RF) design to facilitate best-of-breed technology and cost-effective upgrades.
  The InTop vision is to:

  n	   Dominate the RF spectrum
  n	   Enable innovation through a RF Open Architecture (hardware and software)
  n	   Create affordable systems that are scalable across platforms

  InTop plans to reduce the number of topside apertures present on Navy ships through the use
  of integrated, multi-function, multi-beam arrays. In the past, the topside design approach was
  based on developing separate systems and associated antennas for each individual RF function,
  which led to a significant increase in topside antennas. This increase led to problems with
  electro-magnetic interference, radar cross section, and the overall performance of critical ship
  EW and communication functions.

  InTop builds off of a past ONR effort, the Advanced Multi-Function RF Concept (AMRFC),
  which was a proof-of-principle demonstration that showed the feasibility of multi-beam, multi-
  function apertures capable of simultaneously supporting EW, communications and radar
  functions in two arrays (transmit and receive). The AMRFC test bed also provided a modular
  architecture where interfaces were sufficiently defined between units (arrays, signal processing,
  resource manager, etc.) that systems developed by different companies and government labs
  could be integrated and work together in one overall system.

  The InTop INP will use a teaming arrangement between Navy research, Navy acquisition,
  and industry to define RF form, fit, function, and interface standards, pursue different array
  architectures, and support development of component technology to reduce array cost. ONR


102 | General Fund
completed numerous site visits and meetings with industry to present the concepts for the
InTop INP and the attendant modular open scalable architecture approach that will be required.
Industry support and willingness to participate in this effort has been extremely positive and
proactive.

Closed-Loop Ventilation
Closed-Loop Control (CLC) software provides algorithms for mechanical ventilation of trauma
patients.

CLC systems automatically make adjustments in the supply of oxygen based on the
physiological status of the patient without outside intervention. CLC systems are force
multipliers and also reduce the logistical burden for oxygen cylinders and provide better
medical care since they are continuously monitoring the patient.

Results from a 50-patient study indicate the software algorithm was safe and effective. The
study also demonstrated:

n	   50 percent of patients do not need oxygen
n	   CLC enables patients to be weaned off the ventilator sooner
n	   Decreases risk of pneumonia, which will reduce length of stay in intensive care units and
     associated medical costs

Additional testing is planned for Fiscal Year 2011. After completion of the clinical trials,
the algorithms will be licensed for incorporation into the light trauma module currently in
development.

Expeditionary Fighting Vehicle Program
The Expeditionary Fighting Vehicle (EFV) Program will field a successor to the Marine Corps’
current amphibious vehicle, the Assault Amphibious Vehicle Model 7A1 (AAV7A1). The EFV
will provide the principal means of tactical surface mobility for the Marine Air Group Task
Force during both ship-to-objective maneuvers and sustained combat operations ashore.

The EFV program is an Acquisition Category-1D program managed by the Marine Corps.
The EFV is the next generation of Marine Corps Assault Vehicles being developed to satisfy
the requirements of the 21st Century Marine War Fighters. Along with the Landing Craft
Air Cushion and the MV-22 Osprey, the EFV will provide the Marine Corps with the tactical
mobility assets required within the Expeditionary Maneuver Warfare capstone. Acquisition of
the EFV is critical to the Marine Corps.

During FY 2009, the EFV program continued engineering and logistics efforts to support
design development, manufacturing planning, and design enhancements of both the EFV
Command and Personnel variants. The program continued developmental and reliability
test support as well as the design, integration, and testing of vehicle modifications that will
support the Milestone C Operational Assessment. Developmental Testing and Reliability/
Availability/Maintainability testing conducted during FY 2009 included riverine testing;
detection, acquisition, recognition, and identification testing; track and drivetrain durability
testing; and toxic fumes testing. The Design for Reliability effort was completed during this
period following the established systems engineering processes. The System Development



                                      Fiscal Year 2009 Department of the Navy Annual Financial Report | 103
  Demonstration (SDD) prototypes manufacturing continued. Also, the capstone System Critical
  Design Review and Integrated Baseline Review were completed.

  Efforts continued on the SDD-2 contract, awarded during FY 2008. This follow-on SDD Phase
  includes continued design, development, and reliability upgrades; increased Reliability/
  Availability/Maintainability testing; modification of existing SDD prototypes; and manufacture
  and testing of up to seven additional SDD prototype vehicles.

  Joint Light Tactical Vehicle
  The Joint Light Tactical Vehicle (JLTV) capabilities represent a shift to adapt from a threat based,
  Cold War garrison force focused on containment to a capabilities based, expeditionary force
  focused on flexibility, survivability, force protection, responsiveness, and agility. The JLTV is
  a joint Army/Marine Corps program, which consists of a family of vehicles with companion
  trailers capable of performing multiple mission roles. The JLTV family of vehicles must be
  capable of operating across a broad spectrum of terrain and weather conditions. The Military
  Services and the U.S. Special Operations Command require enhanced capabilities, greater than
  those provided by the existing High Mobility Multipurpose Wheeled Vehicle, to support the
  Joint Functional Concepts of Battlespace Awareness, Force Application, and Focused Logistics.
  The initial production of JLTVs will provide the Marine Air Group Task Force commander a
  family of tactical wheeled vehicles capable of providing combat forces protected, sustained, and
  netted mobility in irregular warfare operations and enhancing its contribution to the integrated
  Joint Task Force.

  In October 2008, the JLTV program awarded three Technology Development phase contracts.
  However, two competitors filed protests, which resulted in a work-stop until the Government
  Accountability Office (GAO) completed a protest review. In March 2009, the JLTV program
  office held Start of Work Meetings and System Requirements Reviews with the contractors.
  The Start of Work Meetings allowed the JLTV program office to develop joint team charters,
  establish communication lines, and establish metrics. The System Requirements Reviews
  ensured agreement on what each JLTV contract requires.

  During 2009, the JLTV program office awarded contracts for the incorporation of additional
  right hand operations versions because Australia had joined the JLTV program in January 2009.
  The additional test assets from each contractor benefits the U.S. by further reducing schedule
  risk, performance risk, and U.S. test costs, as well as improving the quality and depth of data
  from the Technology Development phase.

  During FY 2009, Preliminary Design Reviews were completed. Each contractor presented
  key design trades and decisions in the following performance parameter areas: mobility,
  transportability, net-ready, force protection, survivability, payload, and availability. The Army
  and Marine Corps Combat Developers also conducted Quarterly Knowledge Point reviews to
  evaluate these design trades in order to establish vehicle requirements that balance affordability
  with protection, payload, and performance within a transportable platform.

NON-FEDERAL PHYSICAL PROPERTY
The DON General Fund does not fund this type of Activity.




104 | General Fund
     General Fund Required
   Supplementary Information




                              105
Fiscal Year 2009 Department of the Navy Annual Financial Report


                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 105
                                   Department of the Navy
                            General Property, Plant, and Equipment
                        Real Property Deferred Maintenance and Repair
                          For Fiscal Year Ended September 30, 2009
                                       ($ in Thousands)

Property Type                       1. Plant Replacement        2. Required Work    3. Percentage
                                            Value             (Deferred Maintenance
                                                                   and Repair)
Category 1: Enduring Facilities
Navy                                          $ 92,091,361              $ 23,966,603         26.0%
Marine Corps                                  $ 40,569,794               $ 1,214,148          3.0%
Category 2: Excess Facilities or Planned for Replacement
Navy                                            $ 3,201,663                $ 836,418         26.1%
Marine Corps                                         $ 391                       $0           0.0%
Category 3: Heritage Assets
Navy                                          $ 28,287,751               $ 7,366,915         26.0%
Marine Corps                                      $ 14,662                    $ 440           3.0%

NOTE: In the table above, Navy real property deferred maintenance and repair data represent
both Department of the Navy General Fund and Navy Working Capital Fund (NWCF). Similarly,
Marine Corps real property deferred maintenance and repair data represent both the United States
Marine Corps General Fund and NWCF-Marine Corps.

Narrative Statement:

  1. 	 The method used to assess Navy facilities condition is a combination of commercial
       Infrastructure Condition Assessment Program software and facilities inspection. The
       method used to assess Marine Corps facilities condition is a facilities inspection, which
       categorizes buildings as Adequate, Substandard, or Inadequate. The Department of the
       Navy (DON) calculates quality rating (Q-rating) using the formula below.

                                  Q = 1 - (Requirements ) X 100
                                              PRV

DON’s Q-rating is represented by the following bands: 100%-90% Q1; 90%-80% Q2; 80%-60% Q3;
and less than 60% Q4.

  2. 	 The Navy models the “Requirements” value in the above formula from the condition rating
       and configuration rating. The condition rating is a measure (0 -100) of an asset’s physical
       condition at a particular point in time. The Navy uses condition modeling software to
       capture condition assessment data to model system/component condition ratings. The
       condition assessment data is supplemented by eyes-on condition assessments that capture
       accurate facility components and confirm as-built condition.




106 | General Fund
The configuration rating is a measure (0 - 100) of the asset’s capability to support the current
occupant or mission with respect to functionality. The configuration rating is calculated in the
internet Navy Facility Assets Data Store (iNFADS) from an algorithm that weights configuration
deficiency codes (code compliance, functional/space criteria, location/siting criteria or inadequate
capacity/coverage) collected during Asset Evaluations. Deficiency codes identify impacts to the
suitability of spaces for their intended use.

  3.	   During Fiscal Year (FY) 2008, the Navy used an interim configuration rating formula
        that did not consider iNFADS Deficiency Codes, which identify the type and severity of
        configuration deficiencies. The formula simply weighted measures (e.g., SF) assigned to
        Adequate, Substandard, and Inadequate spaces. During FY 2009, the Navy implemented
        an improved methodology for calculating the configuration rating that resulted in more
        accuracy and granularity.

  4. 	 The FY 2009 target Q-rating value representing full investment requirement for the
       Navy is Q1. DON follows the Office of the Secretary of Defense installation strategic
       plan goal of having facilities at a Q2 level on average as an acceptable rating. The table
       above shows that deferred maintenance for the Navy is valued at 26%, 26.1%, and 26%
       of plant replacement value (PRV) for categories 1 through 3, respectively. The deferred
       maintenance estimates are based on the facility Q-ratings found in the Navy’s real property
       inventory. The PRV and deferred maintenance estimates are reported for the following
       Maintenance Fund Sources:

  n	    Operation and Maintenance, Navy
  n	    Operation and Maintenance, Navy Reserve
  n	    Research, Development, Test, and Evaluation
  n	    Navy Working Capital Fund

The table above also shows that deferred maintenance for the Marine Corps is valued at
approximately 3.0% of PRV for categories 1 and 3. The percentage for category 1 and 3 facilities
is the same because Marine Corps cannot separate the deferred maintenance between those
categories at this time. Category 2 is zero because we do not hold deferred maintenance backlogs
on facilities to be demolished.

Description of Property Type categories:
  n	 Category 1 – Buildings, Structures, and Utilities that are enduring and required to support
        an ongoing mission, including multi-use Heritage Assets.
  n	 Category 2 – Buildings, Structures, and Utilities that are excess to requirements or planned
        for replacement or disposal, including multi-use Heritage Assets.
  n	 Category 3 – Buildings, Structures, and Utilities that are Heritage Assets.




                                        Fiscal Year 2009 Department of the Navy Annual Financial Report | 107
                            Military Equipment Deferred Maintenance
                            For Fiscal Year Ended September 30, 2009
                                          ($ in Thousands)


Major Category                                 OP30 Amounts       Adjustments          Totals
1. Aircraft                                                  $-               $-                  $-
2. Automotive Equipment                                       -                 -                  -
3. Combat Vehicles                                            -                 -                  -
4. Construction Equipment                                   514                 -                514
5. Electronics and Communications Systems                 2,177                 -            2,177
6. Missiles                                              47,343                 -           47,343
7. Ships                                                 80,353                 -           80,353
8. Ordnance Weapons and Munitions                        22,908                 -           22,908
9. General Purpose Equipment                                  -                 -                  -
10. All Other Items Not Identified Above                 97,754                 -           97,754
Total                                                 $251,049                $-         $251,049

Narrative Statement:

Aircraft Deferred Maintenance
Four sub-categories comprise aircraft deferred maintenance: airframe rework and maintenance
(active and reserve), engine rework and maintenance (active and reserve), component repair,
and software maintenance. The airframe rework deferred maintenance calculation reflects
unfunded requirements, which represent aircraft that failed Aircraft Service Period Adjustment
(ASPA) inspections or reached fixed Period End Date (PED) at year-end. The engine rework
deferred maintenance calculation reflects year-end actual requirements minus actual funded
units. Component repair deferred maintenance represents the difference between the validated
requirements minus corresponding funding.

Airframe rework and maintenance (active and reserve) is currently performed under both the
Standard Depot Level Maintenance (SDLM) and Integrated Maintenance Concept (IMC) programs.
Currently, the AV-8B, C-130, C-2, E-2, E-6, EA-6B, F-5, F/A-18, H-1, H-46, H-53, H-60, P-3, and S-3
aircraft programs have been incorporated under the IMC concept. The IMC concept uses Planned
Maintenance Intervals (PMI), performing more frequent depot maintenance, but with smaller work
packages, thereby reducing out-of-service time. The goal of this program is to improve readiness
while reducing operating and support costs. The Naval Air Systems Command’s (NAVAIR)
Industrial Strategy is to maintain the minimum level of organic capacity, consistent with force
levels, that is necessary to sustain peacetime readiness and maintain fighting surge capability.
NAVAIR works in partnership with private industry to make maximum use of industry’s
production capabilities and for non-core related aviation depot maintenance.

Combat Vehicles Deferred Maintenance
The combat vehicles category refers to deferred vehicle maintenance for the active and reserve
Marine Corps assets. The combat vehicle category consists of weapons systems such as the
M1A1 Tank, the Amphibious Assault Vehicle, the Hercules Recovery Vehicle, and the Light


108 | General Fund
Armored Vehicle. The total requirement is the planned quantity of combat vehicles that require
depot level maintenance in a year as determined by program managers and the operating forces
with requirements validated by a modeling process. The deferred maintenance is the difference
between the validated requirements and funding received for that fiscal year.

Missiles Deferred Maintenance
Four categories are used to determine missile maintenance: missiles, tactical missiles, software
maintenance, and other. Deferred maintenance is defined as the difference between the total
weapon maintenance requirement as determined by requirements modeling processes and the
weapon maintenance that is funded in accordance with the annual budget controls for the missile
maintenance program. The maintenance requirements model projects the quantity of missiles and
missile components per weapon system that are required to be maintained or reworked annually.

Ships Deferred Maintenance
Fleet Type Commanders provide deferred ship maintenance data. Data is collected from
the Current Ships’ Maintenance Plan (CSMP) database, which captures maintenance actions
at all levels (organizational, intermediate, depot) for active and reserve ships. Only depot
level deferred maintenance is provided in the calculation of ship deferred maintenance. This
includes maintenance actions deferred from actual depot maintenance work-packages as well as
maintenance deferred before inclusion in a work package due to fiscal, operational, or capacity
constraints. Although there are some deferred maintenance actions, no ships fall into the category
of “unacceptable operating condition.” Any ship that would be at risk of being in unacceptable
operating condition would receive priority for maintenance funding to maintain acceptable
operating condition.

Ordnance Weapons and Munitions Deferred Maintenance
Ordnance weapons and munitions are part of a broader category, Other Weapons Systems.
This category is comprised of ordnance, end item maintenance for support equipment, camera
equipment, landing aids, calibration equipment, air traffic control equipment, target systems,
expeditionary airfield equipment, special weapons, target maintenance, and repair of repairable
components. Three categories define ordnance maintenance: ordnance maintenance, software
maintenance, and other. Although the various programs vary in the methodology in defining
requirements, all programs define deferred maintenance as the difference between validated
requirements and funding.

Deferred Maintenance on All Other Items Not Identified Above
This category comprises deferred maintenance for software, radar equipment, arrest gear, lighting
and surfacing equipment, and EFTM (external fuel transfer module). The deferred maintenance is
the difference between the validated requirements and funding received for that fiscal year.

Software maintenance includes the operational and system test software that runs in the airborne
avionics systems (e.g., mission computer, display computer, radar) and the software that runs
the ground-based support labs used to perform software sustainment (e.g., compilers, editors,
simulation, configuration management).

Heritage Assets Condition Information

The methodology used to report the condition of the heritage assets was a combination of visual
assessment of the objects, historic value to the DON collection, and general display and storage
standards for historic collections. The overall condition of the collection objects is good.

                                        Fiscal Year 2009 Department of the Navy Annual Financial Report | 109
Department of Defense
Department of the Navy
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
For the periods ended September 30, 2009 and 2008
  ($ in Thousands)

                                                                                           Research,
                                                                                       Development, Test         Operation and
                                                                  Other                  & Evaluation            Maintenance             Procurement
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1               $           13,285   $            2,568,607    $         1,645,908     $        21,534,926
Recoveries of prior year unpaid obligations                                  641                  713,041              5,207,903               7,062,280
Budget authority
     Appropriation                                                    314,574                  20,089,290             52,547,782              43,200,030
     Borrowing authority                                                    0                           0                      0                       0
     Contract authority                                                     0                           0                      0                       0
     Spending authority from offsetting collections
            Earned
                 Collected                                           (157,724)                   511,757               5,361,535                784,947
                 Change in receivables from Federal sources                 0                    (93,774)                (19,075)                (2,873)
            Change in unﬁlled customer orders
                 Advance received                                     161,740                       1,058                (59,533)                  4,129
                 Without advance from Federal sources                       0                     (50,335)                17,963                  26,109
            Anticipated for rest of year, without advances                  0                           0                      0                       0
            Previously unavailable                                          0                           0                      0                       0
            Expenditure transfers from trust funds                          0                           0                      0                       0
     Subtotal                                                         318,590                  20,457,996             57,848,672              44,012,342
Nonexpenditure transfers, net, anticipated and actual                (294,747)                    140,757                935,874                 957,672
Temporarily not available pursuant to Public Law                            0                           0                      0                       0
Permanently not available                                                   0                    (439,541)            (1,813,505)               (824,855)
Total Budgetary Resources                                     $        37,769 $                23,440,860 $           63,824,852 $            72,742,365

Status of Budgetary Resources:
Obligations incurred:
     Direct                                                   $            5,108   $           20,337,097    $        56,090,602     $        53,291,323
     Reimbursable                                                              0                  481,240              5,661,633                 715,669
     Subtotal                                                              5,108               20,818,337             61,752,235              54,006,992
Unobligated balance:
     Apportioned                                                          32,660                2,416,675                413,286              18,271,916
     Exempt from apportionment                                                 0                        0                      0                       0
     Subtotal                                                             32,660                2,416,675                413,286              18,271,916
Unobligated balance not available                                              -                  205,848              1,659,330                 463,456
Total status of budgetary resources                           $           37,768   $           23,440,860    $        63,824,851     $        72,742,364
Change in Obligated Balance:
Obligated balance, net
     Unpaid obligations, brought forward, October 1           $           73,588   $            9,425,212 $           21,572,563 $            56,929,760
     Less: Uncollected customer payments                                       0                 (390,505)            (1,625,008)               (270,829)
     from Federal sources, brought forward, October 1
     Total unpaid obligated balance                                    73,588                   9,034,707              19,947,555             56,658,931
Obligations incurred net ()                                   $         5,108 $                20,818,337 $            61,752,235 $           54,006,992
Less: Gross outlays                                                   (26,682)                (19,924,261)            (55,897,235)           (41,388,451)
Obligated balance transferred, net
     Actual transfers, unpaid  obligations ()                                 0                         0                        0                     0
     Actual transfers, uncollected customer                                   0                         0                        0                     0
       payments from Federal sources ()
     Total Unpaid obligated balance transferred, net                          0                         0                       0                      0
Less: Recoveries of prior year unpaid obligations, actual                  (641)                 (713,041)             (5,207,903)            (7,062,280)
Change in uncollected customer                                                0                   144,109                   1,112                (23,235)
       payments from Federal sources ()
Obligated balance, net, end of  period
     Unpaid obligations                                                   51,373                9,606,247             22,219,660              62,486,021
     Less: Uncollected customer payments ()                                    0                 (246,397)            (1,623,896)               (294,064)
       from Federal sources (-)
     Total, unpaid obligated balance, net, end of period                  51,373                9,359,850             20,595,764              62,191,957
Net Outlays
Net Outlays:
     Gross outlays                                                     26,682                  19,924,261             55,897,235              41,388,451
     Less: Offsetting collections                                      (4,016)                   (512,814)            (5,302,002)               (789,075)
     Less: Distributed Offsetting receipts                           (321,447)                          0                     (2)                      0
     Net Outlays                                              $      (298,781) $               19,411,447 $           50,595,231 $            40,599,376




110 | General Fund
Department of Defense
Department of the Navy
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
For the periods ended September 30, 2009 and 2008
  ($ in Thousands)

                                                                                                 Military
                                                                                               Construction/
                                                                    Military Personnel        Family Housing           2009 Combined           2008 Combined
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                 $              338,138    $          1,927,931     $         28,028,796    $         23,934,546
Recoveries of prior year unpaid obligations                                  9,037,342               2,007,819               24,029,026              20,966,590
Budget authority
     Appropriation                                                          44,819,750               4,286,418              165,257,844             162,740,229
     Borrowing authority                                                             0                       0                        0                       0
     Contract authority                                                              0                       0                        0                       0
     Spending authority from offsetting collections
            Earned
                 Collected                                                     370,187                 935,405                7,806,105               7,252,127
                 Change in receivables from Federal sources                     13,936                 (42,433)                (144,220)                262,649
            Change in unﬁlled customer orders
                 Advance received                                                    0                 216,524                  323,916                 435,937
                 Without advance from Federal sources                               (5)                 84,747                   78,479                 305,473
            Anticipated for rest of year, without advances                           0                       0                        0                       0
            Previously unavailable                                                   0                       0                        0                       0
            Expenditure transfers from trust funds                                   0                       0                        0                       0
     Subtotal                                                               45,203,868               5,480,661              173,322,124             170,996,415
Nonexpenditure transfers, net, anticipated and actual                          172,209                (199,892)               1,711,873               2,506,478
Temporarily not available pursuant to Public Law                                     0                       0                        0                       0
Permanently not available                                                      (87,739)                 (4,422)              (3,170,061)             (2,543,773)
Total Budgetary Resources                                       $           54,663,818 $             9,212,097 $            223,921,758 $           215,860,256

Status of Budgetary Resources:
Obligations incurred:
     Direct                                                     $           53,708,309    $          3,368,997     $        186,801,435    $        179,361,449
     Reimbursable                                                              384,925               2,972,423               10,215,890               8,470,011
     Subtotal                                                               54,093,234               6,341,420              197,017,325             187,831,460
Unobligated balance:
     Apportioned                                                                45,719               2,719,715               23,899,972              25,329,935
     Exempt from apportionment                                                       0                       0                        0                       0
     Subtotal                                                                   45,719               2,719,715               23,899,972              25,329,935
Unobligated balance not available                                              524,865                 150,962                3,004,461               2,698,861
Total status of budgetary resources                             $           54,663,818    $          9,212,097     $        223,921,758    $        215,860,256
Change in Obligated Balance:
Obligated balance, net
     Unpaid obligations, brought forward, October 1             $            1,618,044 $             4,157,377 $             93,776,544 $            86,191,077
     Less: Uncollected customer payments                                       (26,059)             (1,551,816)              (3,864,218)             (3,296,095)
     from Federal sources, brought forward, October 1
     Total unpaid obligated balance                                          1,591,985                2,605,561              89,912,326              82,894,982
Obligations incurred net ()                                     $           54,093,234 $              6,341,420 $           197,017,325 $           187,831,460
Less: Gross outlays                                                        (44,833,275)              (3,147,511)           (165,217,414)           (159,279,403)
Obligated balance transferred, net
     Actual transfers, unpaid  obligations ()                                        0                         0                       0                       0
     Actual transfers, uncollected customer                                          0                         0                       0                       0
       payments from Federal sources ()
     Total Unpaid obligated balance transferred, net                                 0                       0                        0                       0
Less: Recoveries of prior year unpaid obligations, actual                   (9,037,342)             (2,007,819)             (24,029,026)            (20,966,590)
Change in uncollected customer                                                 (13,931)                (42,313)                  65,742                (568,123)
       payments from Federal sources ()
Obligated balance, net, end of  period
     Unpaid obligations                                                      1,840,661               5,343,466              101,547,429              93,776,544
     Less: Uncollected customer payments ()                                    (39,990)             (1,594,129)              (3,798,476)             (3,864,218)
       from Federal sources (-)
     Total, unpaid obligated balance, net, end of period                     1,800,671               3,749,337               97,748,953              89,912,326
Net Outlays
Net Outlays:
     Gross outlays                                                          44,833,275               3,147,511              165,217,414             159,279,403
     Less: Offsetting collections                                             (370,187)             (1,151,929)              (8,130,022)             (7,688,063)
     Less: Distributed Offsetting receipts                                          (2)                      0                 (321,451)                 98,060
     Net Outlays                                                $           44,463,086 $             1,995,582 $            156,765,941 $           151,689,400




                                                              Fiscal Year 2009 Department of the Navy Annual Financial Report | 111
112 | General Fund
         General Fund
Other Accompanying Information




                              113
Fiscal Year 2009 Department of the Navy Annual Financial Report


                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 113
Appropriations, Funds, and Accounts Included in the
Principal Statements
Entity Accounts
General Funds
	     17X0380 	    Coastal Defense Augmentation, Navy
	      17 0703 	   Family Housing, Navy and Marine Corps
	      17 0730 	   Family Housing Construction, Navy and Marine Corps
	      17 0735 	   Family Housing Operation and Maintenance, Navy and Marine Corps
	     17X0810 	    Environmental Restoration, Navy
	      17 1000 	   Medicare Eligible Retiree Health Care Fund, Military Personnel Navy
	      17 1001 	   Medicare Eligible Retiree Health Care Fund, Military Personnel Marine Corps
	      17 1002 	   Medicare Eligible Retiree Health Care Fund, Reserve Personnel Navy
	      17 1003 	   Medicare Eligible Retiree Health Care Fund, Reserve Personnel Marine Corps
	      17 1105 	   Military Personnel, Marine Corps
	      17 1106 	   Operation and Maintenance, Marine Corps
	      17 1107 	   Operation and Maintenance, Marine Corps Reserve
	      17 1108 	   Reserve Personnel, Marine Corps
	      17 1109 	   Procurement, Marine Corps
	      17 1116 	   Operation and Maintenance - Recovery Act, Marine Corps
	      17 1117 	   Operation and Maintenance - Recovery Act, Marine Corps Reserve
	      17 1205 	   Military Construction, Navy and Marine Corps
	      17 1206 	   Military Construction - Recovery Act, Navy and Marine Corps
	      17 1235 	   Military Construction, Naval Reserve
	      17 1236 	   Payments to Kaho Olawe Island Conveyance, Remediation and Environmental
                   Restoration Fund, Navy
	      17 1319 	   Research, Development, Test, and Evaluation, Navy
	      17 1320 	   Research, Development, Test and Evaluation - Recovery Act, Navy
	      17 1405 	   Reserve Personnel, Navy
	      17 1453 	   Military Personnel, Navy
	      17 1506 	   Aircraft Procurement, Navy
	      17 1507 	   Weapons Procurement, Navy
	      17 1508 	   Procurement of Ammunition, Navy and Marine Corps
	      17 1611 	   Shipbuilding and Conversion
	      17 1804 	   Operation and Maintenance, Navy
	      17 1805 	   Operation and Maintenance - Recovery Act, Navy
	      17 1806 	   Operation and Maintenance, Navy Reserve
	      17 1807 	   Operation and Maintenance - Recovery Act, Navy Reserve
	      17 1810 	   Other Procurement, Navy

Revolving Funds
	     17X4557 	 National Defense Sealift Fund, Navy

Earmarked Trust Funds
	     17X8008 	 Office of Naval Records and History Fund
	     17X8716 	 Department of the Navy General Gift Fund



114 | General Fund
	     17X8723 	 Ships Stores Profits, Navy
	     17X8730 	 United States Naval Academy Museum Fund
	     17X8733 	 United States Naval Academy General Gift Fund

Earmarked Special Funds
	     17X5095 	 Wildlife Conservation, Military Reservations, Navy
	     17X5185 	 Kaho Olawe Island Conveyance, Remediation and Environmental Restoration
                Fund, Navy
	     17X5429 	 Rossmoor Liquidating Trust Settlement Account
	     17X5562 	 Ford Island Improvement Account

General Fund Non- Entity Accounts
	     17 1XXX 	 Receipt Accounts
	     17 3XXX 	 Receipt Accounts
	    17X6XXX 	 Deposit Funds

Parent-Child (Allocation) Transfer Accounts
	    17 11 1081 	 International Military Education and Training Funds, appropriated to the
                  President
	   17 11X1081 	 International Military Education and Training Funds, appropriated to the
                  President
	    17 11 1082 	 Foreign Military Financing Program, Funds appropriated to the President
	 17 12X1105B 	 State and Private Forestry, Forest Service
	   17 69X8083 	 Federal-Aid Highways (Liquidation of Contract Authorization), Federal Highway
                  Administration

Deposit Funds
	     17X6001 	 Proceeds of Sales of Lost, Abandoned, or Unclaimed Personal Property,Navy (T)
	     17X6002 	 Personal Funds of Deceased, Mentally Incompetent or Missing Personnel,
                Navy (T)
	     17X6025 	 Pay of the Navy, Deposit Fund (T)
	     17X6026 	 Pay of the Marine Corps, Deposit Fund (T)
	     17X6075 	 Withheld Allotment of Compensation for Payment of Employee Organization
                Dues, Navy
	     17X6083 	 Withheld Allotment of Compensation for Charitable Contributions
	     17X6134 	 Amounts Withheld for Civilian Pay Allotments, Navy
	     17X6434 	 Servicemen’s Group Life Insurance Fund, Suspense, Navy
	     17X6705 	 Civilian Employees Allotment Account, Navy
	     17X6706 	 Commercial Communication Service, Navy




                                      Fiscal Year 2009 Department of the Navy Annual Financial Report | 115
116 | General Fund
Navy Working Capital Fund Principal Statements




                                      117
       Fiscal Year FY 2009 Department of the Navy Annual Financial Report
                              Limitations to the Financial Statements
                              The principal financial statements have been prepared to report the
                              financial position and results of operations of the entity, pursuant
                              to the requirements of 31 United States Code 3515 (b). While the
                              statements have been prepared from the books and records of the
                              entity in accordance with Generally Accepted Accounting Principles for
                              Federal entities and the formats prescribed by Office of Management
                              and Budget, the statements are in addition to the financial reports used
                              to monitor and control budgetary resources which are prepared from
                              the same books and records. The statements should be read with the
                              realization that they are for a component of the U.S. Government, a
                              sovereign entity.


                              Principal Statements
                              The Fiscal Year FY 2009 Navy Working Capital Fund principal
                              statements and related notes are presented in the format prescribed by
                              the Department of Defense Financial Management Regulation 7000.14,
                              Volume 6B. The statements and related notes summarize financial
                              information for individual funds and accounts within the Navy Working
                              Capital Fund for the fiscal year ending September 30, FY 2009, and are
                              presented on a comparative basis with information previously reported
                              for the fiscal year ending September 30, FY 2008.

                              The following statements comprise the Navy Working Capital Fund
                              principal statements:

                                  n	   Consolidated Balance Sheet
                                  n	   Consolidated Statement of Net Cost
                                  n	   Consolidated Statement of Changes in Net Position
                                  n	   Combined Statement of Budgetary Resources

                              The principal statements and related notes have been prepared to report
                              financial position pursuant to the requirements of the Chief Financial
                              Officers Act of 1990, as amended by the Government Management
                              Reform Act of 1994. The accompanying notes should be considered an
                              integral part of the principal statements.




118 | Navy Working Capital Fund
Department of Defense
Navy Working Capital Fund
CONSOLIDATED BALANCE SHEET
As of September 30, 2009 and 2008
  ($ in Thousands)
                                                                                                                          Restated
                                                                                            2009 Consolidated        2008 Consolidated
   ASSETS (Note 2)
    Intragovernmental:
     Fund Balance with Treasury (Note 3)                                                $            1,171,045   $              784,593
     Accounts Receivable (Note 5)                                                                      560,596                  854,151
     Other Assets (Note 6)                                                                                 717                    2,303
    Total Intragovernmental Assets                                                                   1,732,358                1,641,047

    Cash and Other Monetary Assets (Note 7)                                                                476                   (3,353)
    Accounts Receivable, Net (Note 5)                                                                   99,430                   11,635
    Inventory and Related Property, Net (Note 9)                                                    12,175,672               12,043,751
    General Property, Plant, and Equipment, Net (Note 10)                                            2,841,232                3,210,420
    Other Assets (Note 6)                                                                              361,860                  293,597
   TOTAL ASSETS                                                                                     17,211,028               17,197,097
   Stewardship Property, Plant, and Equipment (Note 10) *

   LIABILITIES (Note 11)
    Intragovernmental:
     Accounts Payable (Note 12)                                                                       151,290                  168,350
     Debt (Note 13)                                                                                         -                   16,881
     Other Liabilities (Note 15 & Note 16)                                                            655,157                  420,131
    Total Intragovernmental Liabilities                                                               806,447                  605,362

    Accounts Payable (Note 12)                                                                       3,326,652                3,070,115
    Military Retirement and Other Federal
      Employment Beneﬁts (Note 17)                                                                     931,160                1,035,874
    Other Liabilities (Note 15 & Note 16)                                                            1,730,608                1,551,549
   TOTAL LIABILITIES                                                                                 6,794,867                6,262,900
   Commitments and Contingencies (Note 16) *

   NET POSITION
    Unexpended Appropriations - Other Funds                                                             30,954                   60,156
    Cumulative Results of Operations - Other Funds                                                  10,385,207               10,874,041
   TOTAL NET POSITION                                                                               10,416,161               10,934,197

   TOTAL LIABILITIES AND NET POSITION                                                   $           17,211,028   $           17,197,097




   * - Disclosure but no value required per Federal Accounting Standards.




   The accompanying notes are an integral part of the statements.




                                                                Fiscal Year 2009 Department of the Navy Annual Financial Report | 119
    Department of Defense
    Navy Working Capital Fund
    CONSOLIDATED STATEMENT OF NET COST
    For the Years Ended September 30, 2009 and 2008
      ($ in Thousands)


                                                                            2009 Consolidated      2008 Consolidated
       Program Costs
         Gross Costs                                                    $           24,978,369 $           24,912,489
         Less: Earned Revenue                                                      (23,340,001)           (21,840,461)
         Net Program Costs                                                           1,638,368              3,072,028
       Net Cost of Operations                                           $            1,638,368 $            3,072,028




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.


    120 | Navy Working Capital Fund
    Department of Defense
    Navy Working Capital Fund
    CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
    For the Years Ended September 30, 2009 and 2008
      ($ in Thousands)
                                                                                                                         Restated
                                                                                        2009 Consolidated           2008 Consolidated
       CUMULATIVE RESULTS OF OPERATIONS
        Beginning Balances                                                         $                9,894,936   $             11,947,778
        Prior Period Adjustments                                                                      979,106                    666,761
        Beginning Balances, as adjusted                                                            10,874,042                 12,614,539
        Budgetary Financing Sources:
         Appropriations used                                                                          30,778                     158,111
         Nonexchange revenue                                                                               -                      50,323
         Transfers in/out without reimbursement (+/-)                                                      -                    (102,832)
        Other Financing Sources:
         Transfers in/out without reimbursement (+/-)                                                (364,257)                   (66,968)
         Imputed ﬁnancing from costs absorbed by others                                               470,522                    429,565
         Other (+/-)                                                                                1,012,490                    863,331
        Total Financing Sources                                                                     1,149,533                  1,331,530
        Net Cost of Operations (+/-)                                                                1,638,368                  3,072,028
        Net Change                                                                                   (488,835)                (1,740,498)
        Cumulative Results of Operations                                           $               10,385,207 $               10,874,041




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.


                                                                  Fiscal Year 2009 Department of the Navy Annual Financial Report | 121
    Department of Defense
    Navy Working Capital Fund
    CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
    For the Years Ended September 30, 2009 and 2008
      ($ in Thousands)
                                                                                                           Restated
                                                                            2009 Consolidated         2008 Consolidated
       UNEXPENDED APPROPRIATIONS
        Beginning Balances                                              $                60,156   $                33,595
        Prior Period Adjustments (+/-)                                                        -                         -
        Beginning Balances, as adjusted                                                  60,156                    33,595
        Budgetary Financing Sources:
         Appropriations received                                                           1,576                   286,072
         Appropriations transferred-in/out                                                     -                   (80,000)
         Other adjustments (rescissions, etc) (+/-)                                            -                   (21,400)
         Appropriations used                                                             (30,778)                 (158,111)
        Total Budgetary Financing Sources                                                (29,202)                   26,561
        Unexpended Appropriations                                                         30,954                    60,156
        Net Position                                                    $             10,416,161 $              10,934,197




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.


    122 | Navy Working Capital Fund
    Department of Defense
    Navy Working Capital Fund
    COMBINED STATEMENT OF BUDGETARY RESOURCES
    For the Years Ended September 30, 2009 and 2008
      ($ in Thousands)

                                                                                              2009 Combined            2008 Combined
       BUDGETARY FINANCING ACCOUNTS
       Budgetary Resources:
        Unobligated balance, brought forward, October 1                                  $            2,822,888    $          1,525,166
        Recoveries of prior year unpaid obligations                                                     182,409                  85,626
        Budget Authority:
          Appropriations received                                                                         1,576                 286,074
          Contract Authority                                                                          6,689,051               6,014,993
          Spending authority from offsetting collections:
             Earned
              Collected                                                                              25,849,200              24,398,770
              Change in receivables from Federal sources                                               (339,802)                274,593
             Change in unﬁlled customer orders
               Advances received                                                                        248,350                  20,881
               Without advance from Federal sources                                                     989,973                 703,403
           Subtotal                                                                                  33,438,348              31,698,714
         Nonexpenditure Transfers, net, anticipated and actual                                                -                (182,833)
         Permanently not available                                                                   (6,424,572)             (5,701,987)
       Total Budgetary Resources                                                                     30,019,073              27,424,686

       Status of Budgetary Resources:
        Obligations incurred:
          Direct                                                                                              -                 144,111
          Reimbursable                                                                               26,464,761              24,457,687
          Subtotal                                                                                   26,464,761              24,601,798
        Unobligated balance:
          Apportioned                                                                                 3,350,323               2,773,872
          Exempt from apportionment                                                                     199,586                  44,445
          Subtotal                                                                                    3,549,909               2,818,317
        Unobligated balances not available                                                                4,403                   4,571
       Total Status of Budgetary Resources                                               $           30,019,073    $         27,424,686




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.


                                                                    Fiscal Year 2009 Department of the Navy Annual Financial Report | 123
    Department of Defense
    Navy Working Capital Fund
    COMBINED STATEMENT OF BUDGETARY RESOURCES
    For the Years Ended September 30, 2009 and 2008
      ($ in Thousands)

                                                                            2009 Combined            2008 Combined
       RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
       Change in Obligated Balance:
        Obligated balance, net
           Unpaid obligations, brought forward, October 1               $         11,825,672     $         12,129,800
           Less: Uncollected customer payments from
              Federal sources, brought forward, October 1                          (8,259,920)              (7,281,919)
           Total Unpaid Obligated Balance                                           3,565,752                4,847,881
        Obligations incurred, net (+/-)                                            26,464,761               24,601,798
        Less: Gross outlays                                                       (25,696,052)             (24,820,298)
        Less: Recoveries of prior year unpaid obligations, actual                    (182,409)                 (85,627)
        Change in uncollected customer
           payments from Federal sources (+/-)                                      (650,170)                (978,001)
        Obligated balance, net, end of period
           Unpaid obligations                                                     12,411,972               11,825,673
           Less: Uncollected customer payments from
              Federal sources                                                      (8,910,090)              (8,259,920)
           Total Unpaid Obligated Balance, net, end of period                       3,501,882                3,565,753

       Net Outlays:
        Gross Outlays                                                              25,696,052               24,820,298
        Less: Offsetting collections                                              (26,097,551)             (24,419,646)
       Net Outlays                                                      $            (401,499) $               400,652




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.


    124 | Navy Working Capital Fund
   Navy Working Capital Fund
Notes to the Principal Statements




                                125
Fiscal Year FY 2009 Department of the Navy Annual Financial Report


                           Fiscal Year 2009 Department of the Navy Annual Financial Report | 125
Note 1.	Significant Accounting Policies
1.A.	 Basis of Presentation
These financial statements have been prepared to report the financial position and results of
operations of the Navy Working Capital Fund (NWCF), as required by the Chief Financial Officers
(CFO) Act of 1990, expanded by the Government Management Reform Act of 1994, and other
appropriate legislation. The financial statements have been prepared from the books and records
of the NWCF in accordance with, and to the extent possible, U.S. generally accepted accounting
principles (USGAAP) promulgated by the Federal Accounting Standards Advisory Board (FASAB);
the Office of Management and Budget (OMB) Circular A-136, Financial Reporting Requirements;
and the Department of Defense (DoD), Financial Management Regulation (FMR). The
accompanying financial statements account for all resources for which the NWCF is responsible
unless otherwise noted.

The NWCF is unable to fully implement all elements of USGAAP and OMB Circular A-136, due
to limitations of financial and nonfinancial management processes and systems that support the
financial statements. The NWCF derives reported values and information for major asset and
liability categories largely from nonfinancial systems, such as inventory and logistic systems.
These systems were designed to support reporting requirements for maintaining accountability
over assets and reporting the status of federal appropriations rather than preparing financial
statements in accordance with USGAAP. The NWCF continues to implement process and system
improvements addressing these limitations.

The NWCF currently has seven auditor identified material weaknesses: (1) Financial Management
Systems, (2) Fund Balance with Treasury, (3) Accounts Receivable, (4) Inventory and Related
Property, (5) General Equipment, (6) Accounts Payable, and (7) Other Liabilities.

The NWCF currently has five management identified material weaknesses: (1) Intragovernmental
Eliminations, (2) Unsupported Accounting Entries, (3) Statement of Net Costs, (4) Operating
Materiel and Supplies, (5) Reconciliation of Net Cost of Operations to Budget.

1.B.	Mission of the Reporting Entity
The Department of the Navy (DON) was created on April 30, 1798 by an act of Congress (I Stat.
533; 5 U.S.C. 411-12). The overall mission of DON is to maintain, train, and equip combat-ready
Navy and Marine Corps forces capable of winning wars, deterring aggression, and maintaining
freedom of the seas. The NWCF provides goods, services, and infrastructure to DON and other
DoD customers to help ensure our military forces are mobile, ready, and have the most advanced
technology.

1.C.	 Appropriations and Funds
The NWCF receives appropriations and funds primarily through reimbursable orders from
customers. The NWCF uses these appropriations and funds to execute its mission and
subsequently report on resource usage.

Working capital funds (WCF) received funding to establish an initial corpus through an
appropriation or a transfer of resources from existing appropriations or funds. The corpus finances
operations which result in transactions that flow through the fund. The WCF resources the goods


126 | Navy Working Capital Fund
and services sold to customers on a reimbursable basis and maintains the corpus. Reimbursable
receipts fund future operations and generally are available in their entirety for use without
further congressional action. At various times, Congress provides additional appropriations to
supplement the WCF as an infusion of cash when revenues are inadequate to cover costs within the
corpus.

1.D.	 Basis of Accounting
The NWCF’s financial management systems are unable to meet all full accrual accounting
requirements. Many of the NWCF’s financial and nonfinancial feeder systems and processes were
designed and implemented prior to the issuance of USGAAP. These systems were not designed
to collect and record financial information on the full accrual accounting basis as required by
USGAAP. Most of NWCF’s financial and nonfinancial legacy systems were designed to record
information on a proprietary basis.

The DoD’s Agencywide financial statements and supporting trial balances are compiled from
the underlying financial data and trial balances of the Military Services and Defense Agencies
and their sub-entities. The underlying data is largely derived from proprietary transactions data
from nonfinancial feeder systems, and accruals. Some of the sub-entity level trial balances may
reflect known abnormal balances resulting largely from business and system processes. At the
consolidated Military Service and Defense Agency level these abnormal balances may not be
evident. Disclosures of abnormal balances are made in the applicable footnotes, but only to the
extent that the abnormal balances are evident at the consolidated level.

1.E.	 Revenues and Other Financing Sources
Depot Maintenance WCF activities recognize revenue according to the percentage of completion
method. Supply Management WCF activities recognize revenue from the sale of inventory items.
Research and Development activities recognize revenue according to the percentage of completion
method or as actual costs are incurred and billed. Revenue is recognized at the time service is
rendered for Base Support WCF activities. The Transportation WCF activity, Military Sealift
Command, recognizes revenue on either a reimbursable or per diem basis. The preponderance
of per diem projects are billed and collected in the month services are rendered. In the case of
remaining per diem projects, revenue is accrued in the month the services are rendered. For
reimbursable projects, costs and revenue are recognized in the month services are rendered. MSC
does not generate bills until actual invoiced costs on the project are recorded.

The NWCF does not include nonmonetary support provided by U.S. allies for common defense
and mutual security in amounts reported in the Statement of Net Cost and Note 21, “Reconciliation
of Net Cost of Operations to Budget.” The U.S. has cost-sharing agreements with countries having
a mutual or reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. Fleet
is in a port.

1.F.	Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the
period incurred. Current financial and nonfinancial feeder systems were not designed to collect
and record financial information on the full accrual accounting basis. Estimates are made for major
items, such as payroll expenses, accounts payable, and unbilled revenue. In the case of Operating
Materiel & Supplies (OM&S), operating expenses are generally recognized when the items


                                        Fiscal Year 2009 Department of the Navy Annual Financial Report | 127
are purchased. Efforts are underway to transition to the consumption method for recognizing
OM&S expenses. Under the consumption method, OM&S would be reported as expenses when
consumed. Due to system limitations, in some instances expenditures for capital and other long-
term assets may be recognized as operating expenses. The NWCF continues to implement process
and system improvements to address these limitations.

1.G.	 Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from
consolidated financial statements in order to prevent overstatement for business with itself.
However, the NWCF cannot accurately identify intragovernmental transactions by customer
because NWCF’s systems do not track buyer and seller data at the transaction level. Generally,
seller entities within the DoD provide summary seller-side balances for revenue, accounts
receivable, and unearned revenue to the buyer-side internal DoD accounting offices. In most
cases, the buyer-side records are adjusted to agree with DoD seller-side balances and are then
eliminated. The volume of intragovernmental transactions is so large that reconciliations cannot
be accomplished effectively. The DoD is developing long-term system improvements to ensure
accurate intragovernmental information, including developing sufficient up-front edits and
controls eliminating the need for reconciliations.

The U.S. Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide” and
Treasury Financial Manual Part 2 – Chapter 4700, “Agency Reporting Requirements for the
Financial Report of the United States Government,” provide guidance for reporting and reconciling
intragovernmental balances. While NWCF is unable to fully reconcile intragovernmental
transactions with all federal agencies, NWCF is able to reconcile balances pertaining to borrowings
from the Federal Financing Bank, Federal Employees’ Compensation Act transactions with the
Department of Labor, and benefit program transactions with the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government
is not included. The Federal Government does not apportion debt and its related costs to federal
agencies. The DoD’s financial statements do not report any public debt, interest, or source of
public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To
the extent this financing ultimately may have been obtained through the issuance of public debt,
interest costs have not been capitalized since the U.S. Treasury does not allocate such costs to DoD.

1.H.	Transactions with Foreign Governments and International Organizations
Each year, NWCF sells defense articles and services to foreign governments and international
organizations under the provisions of the Arms Export Control Act of 1976. Under the provisions
of the Act, DoD has authority to sell defense articles and services to foreign countries and
international organizations generally at no profit or loss to the Federal Government. Payment in
U.S. dollars is required in advance.

1.I.	 Funds with the U.S. Treasury
The NWCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices
of the Defense Finance and Accounting Service (DFAS), the Military Services, the U.S. Army Corps
of Engineers (USACE), and the Department of State’s financial service centers process the majority


128 | Navy Working Capital Fund
of the NWCF’s cash collections, disbursements, and adjustments worldwide. Each disbursing
station prepares monthly reports that provide information to the U.S. Treasury on checks issued,
electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by
appropriation on interagency transfers, collections received, and disbursements issued. The U.S.
Treasury records these transactions to the applicable Fund Balance with Treasury (FBWT) account.
On a monthly basis, FBWT is adjusted to agree with the U.S. Treasury accounts.

1.J.	 Foreign Currency
Not applicable.

1.K.	 Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable, claims
receivable, and refunds receivable. NWCF is in the process of developing a methodology for the
allowances for uncollectible accounts due from the public and should see implementation by 4th
Quarter, FY 2010. The DoD does not recognize an allowance for estimated uncollectible amounts
from other federal agencies. Claims against other federal agencies are to be resolved between
the agencies in accordance with dispute resolution procedures defined in the Intragovernmental
Business Rules published in the Treasury Financial Manual at http://www.fms.treas.gov/tfm/vol1/07-
03.pdf.

1.L.	 Direct Loans and Loan Guarantees
Not applicable.

1.M.	Inventories and Related Property
The NWCF values 100% of its inventories at an approximation of historical cost using latest
acquisition cost adjusted for holding gains and losses. The latest acquisition cost method is used
because legacy inventory systems were designed for materiel management rather than accounting.
Although these systems provide visibility and accountability over inventory items, they do not
maintain historical cost data necessary to comply with SFFAS No. 3, “Accounting for Inventory
and Related Property.” Additionally, these systems cannot produce financial transactions using
the USSGL, as required by the Federal Financial Management Improvement Act of 1996 (P.L. 104-
208). At the current time, NWCF does not report any inventory using the moving average cost
method. However, by utilizing new system development processes, NWCF will be transitioning to
the moving average cost method with the implementation of Navy Enterprise Resource Planning
(ERP).

The NWCF manages only military or government-specific materiel under normal conditions.
Materiel is a unique term that relates to military force management, and includes items such as
ships, tanks, self-propelled weapons, aircraft, etc., and related spares, repair parts, and support
equipment. Items commonly used in and available from the commercial sector are not managed
in NWCF’s materiel management activities. Operational cycles are irregular and the military risks
associated with stock-out positions have no commercial parallel. The NWCF holds materiel based
on military need and support for contingencies. The DoD is currently developing a methodology
to be used to account for “inventory held for sale” and “inventory held in reserve for future sale”
with a completion date of year end FY 2010 reporting.


                                        Fiscal Year 2009 Department of the Navy Annual Financial Report | 129
Related property includes OM&S. The OM&S, including munitions not held for sale, are valued
at standard purchase price. The NWCF uses both the consumption method and the purchase
method of accounting for OM&S. Items that are centrally managed and stored, such as engines,
are generally recorded using the consumption method and are reported on the Balance Sheet as
OM&S. When current systems cannot fully support the consumption method, NWCF uses the
purchase method. Under this method, materiel and supplies are expensed when purchased.
During FY 2009 and FY 2008, NWCF expensed significant amounts using the purchase method
because the systems could not support the consumption method or management deemed that
the item was in the hands of the end user. This is a material weakness for the DoD and long-
term system corrections are in process. Once the proper systems are in place, these items will be
accounted for under the consumption method of accounting.

The NWCF recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of
disposal is greater than the potential scrap value; therefore, the net value of condemned materiel is
zero.

Inventory available and purchased for resale includes consumable spare and repair parts and
reparable items owned and managed by NWCF. This inventory is retained to support military
or national contingencies. Inventory held for repair is damaged inventory that requires repair to
make suitable for sale. Often, it is more economical to repair these items rather than to procure
them. The NWCF often relies on weapon systems and machinery no longer in production. As a
result, NWCF supports a process that encourages the repair and rebuilding of certain items. This
repair cycle is essential to maintaining a ready, mobile, and armed military force. Work in process
balances include (1) costs related to the production or servicing of items, including direct material,
direct labor, applied overhead; (2) the value of finished products or completed services that are
yet to be placed in service; and (3) munitions in production and depot maintenance work with its
associated costs incurred in the delivery of maintenance services.

1.N.	 Investments in U.S. Treasury Securities
Not applicable.

1.O.	 General Property, Plant, and Equipment
The DoD’s General Property, Plant, and Equipment (PP&E) capitalization threshold is $100
thousand except for real property, which is $20 thousand. The NWCF has not fully implemented
the threshold for real property; therefore the capitalization threshold is $100 thousand for General
PP&E and most real property.

With the exception of USACE Civil Works and WCF, General PP&E assets are capitalized at
historical acquisition cost when an asset has a useful life of two or more years and when the
acquisition cost equals or exceeds DoD’s capitalization threshold. The DoD also requires the
capitalization of improvements to existing General PP&E assets if the improvements equal or
exceed capitalization threshold and extend the useful life or increase the size, efficiency, or capacity
of the asset. The DoD depreciates all General PP&E, other than land, on a straight-line basis.

The WCF capitalizes all General PP&E used in the performance of their mission. These capitalized
assets are categorized as General PP&E, whether or not it meets the definition of any other General
PP&E categories.



130 | Navy Working Capital Fund
When it is in the best interest of the government, the NWCF provides government property to
contractors to complete contract work. The NWCF either owns or leases such property, or it is
purchased directly by the contractor for the government based on contract terms. When the value
of contractor-procured General PP&E meets or exceeds the DoD capitalization threshold, federal
accounting standards require that it be reported on NWCF’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished
equipment that provides appropriate General PP&E information for financial statement
reporting. The DoD requires NWCF to maintain, in their property systems, information on
all property furnished to contractors. These actions are structured to capture and report the
information necessary for compliance with federal accounting standards. The NWCF has not fully
implemented this policy primarily due to system limitations.

1.P.	Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s
policy is to record advances or prepayments in accordance with USGAAP. As such, payments
made in advance of the receipt of goods and services should be reported as an asset on the Balance
Sheet. The DoD’s policy is to expense and/or properly classify assets when the related goods
and services are received. The NWCF has not implemented this policy primarily due to system
limitations.

1.Q.	Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital or
operating leases. When a lease is essentially equivalent to an installment purchase of property (a
capital lease), and the value equals or exceeds the current capitalization threshold, NWCF records
the applicable asset as though purchased, with an offsetting liability, and depreciates it. The
NWCF records the asset and the liability at the lesser of the present value of the rental and other
lease payments during the lease term (excluding portions representing executory costs paid to the
lessor) or the asset’s fair market value. The discount rate for the present value calculation is either
the lessor’s implicit interest rate or the government’s incremental borrowing rate at the inception
of the lease. The NWCF, as the lessee, receives the use and possession of leased property, for
example real estate or equipment, from a lessor in exchange for a payment of funds. An operating
lease does not substantially transfer all the benefits and risk of ownership. Payments for operating
leases are expensed over the lease term as they become payable.

Office space and leases entered into by NWCF are the largest component of operating leases and
are based on costs gathered from existing leases, General Services Administration (GSA) bills, and
interservice support agreements. Future year projections use the Consumer Price Index.

1.R.	Other Assets
Other assets include those assets, such as military and civil service employee pay advances, travel
advances, and certain contract financing payments that are not reported elsewhere on NWCF’s
Balance Sheet.

The NWCF conducts business with commercial contractors under two primary types of contracts:
fixed price and cost reimbursable. To alleviate the potential financial burden on the contractor
that long-term contracts can cause, NWCF may provide financing payments. Contract financing


                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 131
payments are defined in the Federal Acquisition Regulations, Part 32, as authorized disbursements
to a contractor prior to acceptance of supplies or services by the Government. Contract financing
payments clauses are incorporated in the contract terms and conditions and may include advance
payments, performance-based payments, commercial advances and interim payments, progress
payments based on cost, and interim payments under certain cost-reimbursement contracts. It is
DoD policy to record certain contract financing payments as other assets. The NWCF has not fully
implemented this policy primarily due to system limitations.

Contract financing payments do not include invoice payments, payments for partial deliveries,
lease and rental payments, or progress payments based on a percentage or stage of completion.
The Defense Federal Acquisition Regulation Supplement authorizes progress payments based on
a percentage or stage of completion only for construction of real property, shipbuilding, and ship
conversion, alteration, or repair. Progress payments based on percentage or stage of completion
are reported as Construction in Progress.

1.S.	 Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS
No. 12, “Recognition of Contingent Liabilities Arising from Litigation,” defines a contingency as an
existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain
or loss. The uncertainty will be resolved when one or more future events occur or fail to occur.
The NWCF recognizes contingent liabilities when past events or exchange transactions occur, a
future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do
not exist but there is at least a reasonable possibility of incurring a loss or additional losses. The
NWCF’s risk of loss and resultant contingent liabilities arise from pending or threatened litigation
or claims and assessments due to events such as aircraft, ship and vehicle accidents; medical
malpractice; property or environmental damages; and contract disputes.

1.T.	 Accrued Leave
The NWCF reports liabilities for military leave and accrued compensatory and annual leave for
civilians. Sick leave for civilians is expensed as taken. The liabilities are based on current pay
rates.

1.U.	 Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.
Unexpended Appropriations represent the amounts of budget authority that are unobligated
and have not been rescinded or withdrawn. Unexpended appropriations also represent amounts
obligated for which legal liabilities for payments have not been incurred. Cumulative Results
of Operations represent the net difference between expenses and losses, and financing sources
(including appropriations, revenue, and gains), since inception. Beginning with FY 1998, the
cumulative results of operations also include donations and transfers in and out of assets that were
not reimbursed.

1.V.	Treaties for Use of Foreign Bases
The DoD has the use of land, buildings, and other overseas facilities that are obtained through
various international treaties and agreements negotiated by the Department of State. The NWCF


132 | Navy Working Capital Fund
purchases capital assets overseas with appropriated funds; however, the host country retains title
to the land and capital improvements. Treaty terms generally allow NWCF continued use of these
properties until the treaties expire. In the event treaties or other agreements are terminated, use of
the foreign bases is prohibited and losses are recorded for the value of any nonretrievable capital
assets. The settlement due to the U.S. or host nation is negotiated and takes into account the value
of capital investments and may be offset by the cost of environmental cleanup.

1.W.	Unexpended Obligations
The NWCF obligates funds to provide goods and services for outstanding orders not yet delivered.
Unless the title has passed, the financial statements do not reflect a liability for payment for goods
and services not yet delivered. Unexpended obligations includes both obligations for which goods
and services have been delivered (title passed) and a liability recognized, and obligations for which
no delivery has occurred and no liability recognized. The balance of unexpended obligations
appears immediately before net outlays in the Statement of Budgetary Resources, and is referred to
as “Total, unpaid obligated balances, net, end of period.”

1.X.	 Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and
collections matched at the transaction level to specific obligations, payables, or receivables in the
source systems and those reported by the U.S. Treasury.

Supported disbursements and collections are evidenced by corroborating documentation.
Unsupported disbursements and collections do not have supporting documentation for the
transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between
federal and nonfederal categories based on the percentage of distributed federal and nonfederal
accounts payable and accounts receivable. Supported undistributed disbursements and
collections are then applied to reduce accounts payable and receivable accordingly. Unsupported
undistributed disbursements are recorded as disbursements intransit and reduce nonfederal
accounts payable. Unsupported undistributed collections are recorded in nonfederal other
liabilities.

1.Y.	 Significant Events
In FY 2009, Naval Supply Systems Command converted to Navy Enterprise Resource Planning
(ERP). It is expected that the standardization of systems and processes in financial functions and
acquisition programs is the backbone of Navy ERP and will provide the foundation for subsequent
releases. The system will provide financial transparency and total asset visibility, key ingredients
for improved enterprise management.

1.Z.	 Fiduciary Activities
Not applicable.




                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 133
Note 2.	Nonentity Assets
As of September 30                                                 2009                   2008
(Amounts in thousands)

1. Intragovernmental Assets
      A. Fund Balance with Treasury                         $                    0    $               0
      B. Accounts Receivable                                                     0                    0
      C. Total Intragovernmental Assets                     $                    0    $               0

2. Nonfederal Assets
     A. Cash and Other Monetary Assets                      $                    0    $                0
     B. Accounts Receivable                                                  3,742                 3,369
     C. Other Assets                                                             0                     0
     D. Total Nonfederal Assets                             $                3,742    $            3,369

3. Total Nonentity Assets                                   $                3,742    $            3,369

4. Total Entity Assets                                      $          17,207,286     $      17,193,728

5. Total Assets                                             $          17,211,028     $      17,197,097




Nonentity assets are assets for which the Navy Working Capital Fund (NWCF) maintains
stewardship accountability and reporting responsibility, but are not available for the NWCF normal
operations.

The Nonentity Accounts Receivable amount represents interest, penalties, fines and administrative
fees. These fees do not belong to the NWCF and will be distributed directly to the U.S. Treasury.


Note 3.	Fund Balance with Treasury
As of September 30                                                 2009                   2008
(Amounts in thousands)

1. Fund Balances
     A. Appropriated Funds                                   $                    0   $                0
     B. Revolving Funds                                                   1,171,045              784,593
     C. Trust Funds                                                               0                    0
     D. Special Funds                                                             0                    0
     E. Other Fund Types                                                          0                    0
     F. Total Fund Balances                                  $            1,171,045   $          784,593

2. Fund Balances Per Treasury Versus Agency
     A. Fund Balance per Treasury                            $            1,171,045   $          784,593
     B. Fund Balance per NWCF                                             1,171,045              784,593

3. Reconciling Amount                                        $                   0    $               0




134 | Navy Working Capital Fund
Status of Fund Balance with Treasury

As of September 30                                                        2009                   2008
(Amounts in thousands)

1. Unobligated Balance
     A. Available                                                 $              3,549,908   $          2,818,318
     B. Unavailable                                                                  4,405                  4,571

2. Obligated Balance not yet Disbursed                            $           12,411,972     $       11,825,672

3. Nonbudgetary FBWT                                              $                     0    $                 0

4. NonFBWT Budgetary Accounts                                     $          (14,795,240) $         (13,863,968)

5. Total                                                          $              1,171,045   $           784,593




The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support
FBWT and is a reconciliation between budgetary and proprietary accounts. It primarily consists
of unobligated and obligated balances. The balances reflect the budgetary authority remaining for
disbursement against current and future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative
amount of budgetary authority that has not been set aside to cover outstanding obligations.
The unavailable balance consists primarily of funds invested in U.S. Treasury securities that are
temporarily precluded from obligation by law. Certain unobligated balances are restricted for
future use and are not apportioned for current use. Unobligated balances for trust fund accounts
are restricted for use by the public law that established the funds.

Obligated Balance not yet disbursed represents funds that have been obligated for goods and
services not received, and those received but not paid.

NonFBWT Budgetary Accounts reduces the Status of FBWT. This amount is comprised of contract
authority, accounts receivable, and unfilled orders without advance from customers for the Navy
Working Capital Fund (NWCF).

All unobligated unavailable balances are restricted to future use and are not apportioned for
current use. The unavailable balance consists of contract and budgetary authority from closed
NWCF activities as a result of the financial closure process.


Note 4.	Investments and Related Interest
Not applicable.




                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 135
Note 5.	Accounts Receivable
As of September 30                                                                  2009
                                                                             Allowance For
                                                                                                   Accounts Receivable,
                                                     Gross Amount Due          Estimated
                                                                                                          Net
                                                                             Uncollectibles
(Amounts in thousands)

1. Intragovernmental Receivables                     $         560,596                     N/A $               560,596
2. Nonfederal Receivables (From the Public)          $          99,459   $                  (29) $              99,430

3. Total Accounts Receivable                         $         660,055   $                    (29) $           660,026



As of September 30                                                                  2008
                                                                             Allowance For
                                                                                                   Accounts Receivable,
                                                     Gross Amount Due          Estimated
                                                                                                          Net
                                                                             Uncollectibles
(Amounts in thousands)

1. Intragovernmental Receivables                     $         854,151                     N/A $               854,151
2. Nonfederal Receivables (From the Public)          $          11,664   $                  (29) $              11,635

3. Total Accounts Receivable                         $         865,815   $                    (29) $           865,786




Note 6.	Other Assets
As of September 30                                                           2009                       2008
(Amounts in thousands)

1. Intragovernmental Other Assets
      A. Advances and Prepayments                               $                      717     $                 2,303
      B. Other Assets                                                                    -                           -
      C. Total Intragovernmental Other Assets                   $                      717     $                 2,303

2. Nonfederal Other Assets
     A. Outstanding Contract Financing Payments                 $                   332,318    $                21,583
     B. Advances and Prepayments                                                     17,438                    241,231
     C. Other Assets (With the Public)                                               12,104                     30,783
     D. Total Nonfederal Other Assets                           $                   361,860    $               293,597

3. Total Other Assets                                           $                   362,577    $               295,900




Other Assets (With the Public) consists of prepayments made to vendors, and travel advances.

Contract terms and conditions for certain types of contract financing payments convey certain
rights to the Navy Working Capital Fund (NWCF) that protect the contract work from state or
local taxation, liens or attachment by the contractor’s creditors, transfer of property, or disposition
in bankruptcy. However, these rights should not be misconstrued to mean that ownership of the



136 | Navy Working Capital Fund
contractor’s work has transferred to the Federal Government. The Federal Government does
not have the right to take the work, except as provided in contract clauses related to termination
or acceptance, and NWCF is not obligated to make payment to the contractor until delivery and
acceptance of a satisfactory product.

The Outstanding Contract Financing Payments balance of $332.3 million is comprised of $301.5
million in contract financing payments and an additional $30.9 million in estimated future funded
payments that will be paid to the contractor upon future delivery and Federal Government
acceptance of a satisfactory product. See additional discussion in Note 15, Other Liabilities.

In FY 2008 Outstanding Contract Financing Payments were reported as Advances and
Prepayments. In FY 2009 Outstanding Contract Financing Payments were reported as Outstanding
Contract Financing Payments.


Note 7.	Cash and Other Monetary Assets
As of September 30                                                           2009                   2008
(Amounts in thousands)

1. Cash                                                              $                 476    $             (3,353)
2. Foreign Currency                                                                      0                       0
3. Other Monetary Assets                                                                 0                       0

4. Total Cash, Foreign Currency, & Other Monetary Assets             $                 476    $             (3,353)




There are no restrictions on cash.


Note 8.	Direct Loan and Loan Guarantees
Not applicable.

Note 9.	Inventory and Related Property
As of September 30                                                           2009                   2008
(Amounts in thousands)

1. Inventory, Net                                                    $           11,951,582   $         11,781,791
2. Operating Materiel & Supplies, Net                                               224,090                261,960
3. Stockpile Materiel, Net                                                                0                      0

4. Total                                                             $           12,175,672   $         12,043,751




                                            Fiscal Year 2009 Department of the Navy Annual Financial Report | 137
Inventory, Net

As of September 30                                                                2009
                                            Inventory            Revaluation                                      Valuation
                                           Gross Value           Allowance                Inventory, Net           Method
(Amounts in thousands)

1. Inventory Categories
        A. Held for Use                $        31,319,720   $           (21,279,496) $          10,040,224        LAC, MAC
        B. Held for Repair                       5,834,220                (4,170,846)             1,663,374        LAC, MAC
        C. Excess, Obsolete, and
           Unserviceable                         1,176,397                (1,176,397)                      -         NRV
        D. Raw Materiel                                  -                         -                       -
        E. Work in Process                        247,984                          -               247,984            AC


        F. Total                       $        38,578,321   $           (26,626,739) $          11,951,582




As of September 30                                                                2008
                                            Inventory            Revaluation                                      Valuation
                                           Gross Value           Allowance                Inventory, Net           Method
(Amounts in thousands)

1. Inventory Categories
        A. Held for Use                $        31,796,212   $           (21,948,563) $           9,847,649        LAC, MAC
        B. Held for Repair                       5,656,646                (4,017,038)             1,639,608        LAC, MAC

        C. Excess, Obsolete, and
           Unserviceable                          930,548                  (930,548)                       -         NRV
        D. Raw Materiel                                  -                         -                       -
        E. Work in Process                        294,534                          -               294,534            AC


        F. Total                       $        38,677,940   $           (26,896,149) $          11,781,791


Legend for Valuation Methods:
    LAC = Latest Acquistion Cost                             NRV = Net Realizable Value                        MAC = Moving Average Cost
    SP = Standard Price                                      LCM = Lower of Cost or Market
    AC = Actual Cost                                         O = Other


There are no restrictions on the use, sale, or disposition of inventory except in the following
situations:

   1) 	 Distributions without reimbursement are made when authorized by Department of
        Defense (DoD) directives;
   2) 	 War reserve materiel in the amount of $3.2 million includes repair items that are considered
        restricted; and
   3) 	 Inventory, with the exception of safety stocks, may be sold to foreign, state, and local
        governments; private parties; and contractors in accordance with current policies and
        guidance or at the direction of the President.

There are no known restrictions on disposition of inventory as related to environmental or other
liabilities.

Inventory available and purchased for resale includes consumable spare and repair parts as well as
reparable items owned and managed by the Navy Working Capital Fund (NWCF) and includes all


138 | Navy Working Capital Fund
materiel available for customer purchase. Inventory held for repair consists of damaged materiel
that requires repair to make it usable and all economically reparable materiel. Excess inventory
includes scrap materiels or items that are uneconomical to repair and are awaiting disposal. Work
in process includes costs related to the production or servicing of items, including direct materiel,
direct labor, applied overhead, and other direct costs. Work in process also includes the value of
finished products or completed services pending the submission of bills to the customer.

Federal Accounting Standards require disclosure of the amount of inventory held for “future sale.”
The NWCF currently has no inventory held for future sale reported for 4th Quarter, FY 2009 in
Inventory Held for Sale, Net. All inventory is planned for sale within the next fiscal year.

Inventory is assigned to categories based upon condition of the inventory items, or in the case of
raw materiel and work-in-process based upon stage of fabrication.

The Supply Management, Navy’s inventory is reported using the approximation of historical
cost method. The approximation of historical cost is calculated by using the latest acquisition
cost less the allowance for holding gains and losses. Legacy inventory systems were designed to
capture materiel management information rather than accounting data. Although these systems
provide visibility and accountability over inventory items, they do not maintain historical cost data
necessary to comply with the Statement of Federal Financial Accounting Standards (SFFAS) No. 3,
Accounting for Inventory and Related Property. Since the implementation of the Office of Under
Secretary of Defense, Comptroller (OUSD (C)) Cost of Goods Sold Model, prior year values in
equity, inventory, and inventory allowance accounts have been impacted and remain noncompliant
with SFFAS No. 3 and generally accepted accounting principles. The Navy Enterprise Resource
Planning System will value inventory at moving average cost and will be compliant with necessary
guidance.

NWCF has restated FY 2008 prior year column for Inventory and Related Property, Net by $983.3
million. See Note 26, Restatements, for additional details.




                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 139
Operating Materiel and Supplies, Net

As of September 30                                                           2009
                                           OM&S                Revaluation                              Valuation
                                         Gross Value           Allowance             OM&S, Net           Method
(Amounts in thousands)

1. OM&S Categories
      A. Held for Use                $          224,090    $                 0   $         224,090     SP, LAC, MAC
      B. Held for Repair                               0                     0                   0
      C. Excess, Obsolete, and
         Unserviceable                                 0                     0                   0


        D. Total                     $          224,090    $                 0   $         224,090




As of September 30                                                           2008
                                           OM&S                Revaluation                              Valuation
                                         Gross Value           Allowance             OM&S, Net           Method
(Amounts in thousands)

1. OM&S Categories
      A. Held for Use                $          261,960    $                 0   $         261,960     SP, LAC, MAC
      B. Held for Repair                               0                     0                   0
      C. Excess, Obsolete, and
         Unserviceable                                 0                     0                   0


        D. Total                     $          261,960    $                 0   $         261,960


Legend for Valuation Methods:
    LAC = Latest Acquistion Cost                           NRV = Net Realizable Value                MAC = Moving Average Cost
    SP = Standard Price                                    LCM = Lower of Cost or Market
    AC = Actual Cost                                       O = Other




Operating Materiel and Supplies (OM&S) held for use consists of property that is consumed during
normal operations and includes consumable spare and repair parts for use on customer work by
various activities.

The NWCF determines categories to which OM&S are assigned based upon readiness for issue and
use as determined by condition of the individual inventory items.

Federal Accounting Standards require disclosure of the amount of OM&S held for “future use.”
The NWCF reports that $3.7 million of OM&S is held for future use and is included in the “held for
use” category. These items are not readily available in the market and there is a more than remote
chance that they will eventually be needed.

There are no restrictions with regard to the use, sale, or disposition of OM&S applicable to NWCF
activities.

Stockpile Materiel, Net
Not applicable.




140 | Navy Working Capital Fund
Note 10.	General PP&E, Net
As of September 30                                                                          2009
                                                 Depreciation/                                           (Accumulated
                                                 Amortization    Service Life   Acquisition Value        Depreciation/         Net Book Value
                                                   Method                                                Amortization)
(Amounts in thousands)


1. Major Asset Classes
      A. Land                                        N/A            N/A         $          38,612                   N/A $               38,612
      B. Buildings, Structures, and Facilities       S/L           20 or 40              6,435,611   $         (4,832,768)            1,602,843
      C. Leasehold Improvements                      S/L          lease term                   46                        (9)                37
      D. Software                                    S/L           2-5 or 10              488,682                (360,811)             127,871
      E. General Equipment                           S/L           5 or 10               2,624,542             (2,134,619)             489,923
      F. Military Equipment                          S/L           Various                      0                        0                      0
      G. Shipbuilding (Construction-in-
           Progress)                                 N/A            N/A                         0                        0                      0
      H. Assets Under Capital Lease                  S/L          lease term                    0                        0                      0
      I. Construction-in-Progress (Excludes
           Military Equipment)                       N/A            N/A                   579,393                   N/A                579,393
      J. Other                                                                               2,553                       0               2,553
      K. Total General PP&E                                                     $       10,169,439   $         (7,328,207) $          2,841,232


As of September 30                                                                          2008
                                                 Depreciation/                                           (Accumulated
                                                 Amortization    Service Life   Acquisition Value        Depreciation/         Net Book Value
                                                   Method                                                Amortization)
(Amounts in thousands)


1. Major Asset Classes
      A. Land                                        N/A            N/A         $          39,335                   N/A $               39,335
      B. Buildings, Structures, and Facilities       S/L           20 or 40              6,338,727   $         (4,391,877)            1,946,850
      C. Leasehold Improvements                      S/L          lease term                  348                    (289)                  59
      D. Software                                    S/L           2-5 or 10              489,163                (347,044)             142,119
      E. General Equipment                           S/L           5 or 10               2,596,306             (2,104,726)             491,580
      F. Military Equipment                          S/L           Various                      0                        0                      0
      G. Shipbuilding (Construction-in-
           Progress)                                 N/A            N/A                         0                        0                      0
      H. Assets Under Capital Lease                  S/L          lease term                    0                        0                      0
      I. Construction-in-Progress (Excludes
           Military Equipment)                       N/A            N/A                   588,192                   N/A                588,192
      J. Other                                                                               2,285                       0               2,285
      K. Total General PP&E                                                     $       10,054,356   $         (6,843,936) $          3,210,420


Legend for Valuation Methods:
   S/L = Straight Line                                           N/A = Not Applicable




There are no known restrictions on the use or convertibility of General Property, Plant, and
Equipment (PP&E).

The acquisition cost for General PP&E is captured and maintained in the applicable property
accountability systems. There are no material amounts or types of General PP&E for which the
acquisition cost is unknown.




                                                    Fiscal Year 2009 Department of the Navy Annual Financial Report | 141
Military equipment, heritage assets and stewardship land are reported on the financial statements
of the Department of the Navy General Fund (DON GF).

General PP&E, Other consists of assets awaiting disposal.

Assets under Capital Lease
Not applicable.


Note 11.	Liabilities Not Covered by Budgetary Resources
As of September 30                                                       2009                   2008
(Amounts in thousands)

1. Intragovernmental Liabilities
      A. Accounts Payable                                        $                     0    $                 0
      B. Debt                                                                          0                      0
      C. Other                                                                   206,742                214,104
      D. Total Intragovernmental Liabilities                     $               206,742    $           214,104

2. Nonfederal Liabilities
     A. Accounts Payable                                         $                     0    $                 0
     B. Military Retirement and Other Federal Employment
          Beneﬁts                                                                931,160               1,035,873
     C. Environmental Liabilities                                                      0                       0
     D. Other Liabilities                                                              0                       0
     E. Total Nonfederal Liabilities                             $               931,160    $          1,035,873

3. Total Liabilities Not Covered by Budgetary Resources          $              1,137,902   $          1,249,977

4. Total Liabilities Covered by Budgetary Resources              $              5,656,965   $          5,012,923

5. Total Liabilities                                             $              6,794,867   $          6,262,900




Liabilities Not Covered by Budgetary Resources are liabilities for which congressional action is
needed before budgetary resources can be provided.

Other Intragovernmental Liabilities consist of custodial liabilities for interest, penalties, fines and
administrative fees receivable held on behalf of the U.S. Treasury. These fees will be distributed
directly to the U.S. Treasury when collected, and the corresponding liabilities reduced.

The amount in Liabilities Not Covered by Budgetary Resources is comprised of an actuarial
liability, which is an estimate of what may have to be paid out in future fiscal years. Therefore, this
liability is not covered by current fiscal year budgetary resources.

Military Retirement and Other Federal Employment Benefits consists of various employee actuarial
liabilities not due and payable during the current fiscal year. These liabilities primarily consist
of Federal Employees’ Compensation Act Actuarial liability of $931.2 million. Refer to Note 17,
Military Retirement and Other Federal Employment Benefits, for additional details and disclosures.




142 | Navy Working Capital Fund
Note 12.	Accounts Payable
As of September 30                                                               2009

                                                                        Interest, Penalties, and
                                                  Accounts Payable                                     Total
                                                                         Administrative Fees

(Amounts in thousands)

1. Intragovernmental Payables                 $              151,290    $         N/A              $         151,290
2. Nonfederal Payables (to the Public)                     3,326,652                          0            3,326,652
3. Total                                      $            3,477,942    $                     0    $       3,477,942



As of September 30                                                               2008

                                                                        Interest, Penalties, and
                                                  Accounts Payable                                     Total
                                                                         Administrative Fees

(Amounts in thousands)

1. Intragovernmental Payables                 $               168,350   $         N/A              $         168,350
2. Nonfederal Payables (to the Public)                      3,070,115                         0            3,070,115
3. Total                                      $            3,238,465    $                     0    $       3,238,465




Accounts Payable include amounts owed to federal and nonfederal entities for good and
services received by Navy Working Capital Fund (NWCF). The NWCF’s systems do not track
intragovernmental transactions by customer at the transaction level. Buyer-side accounts payable
are adjusted to agree with internal seller-side accounts receivable. Accounts payable was adjusted
by reclassifying amounts between federal and nonfederal accounts payable.




                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 143
Note 13.	Debt
As of September 30                                                   2009
                                                     Beginning Balance    Net Borrowing            Ending Balance
(Amounts in thousands)

1. Agency Debt (Intragovernmental)
      A. Debt to the Treasury                        $               0    $                   0                     0
      B. Debt to the Federal Financing Bank                      16,881                 (16,881)                    0
      C. Total Agency Debt                           $           16,881   $             (16,881)                    0


2. Total Debt                                        $           16,881   $             (16,881)                    0


As of September 30
                                                     Beginning Balance        Net Borrowing        Ending Balance
(Amounts in thousands)

1. Agency Debt (Intragovernmental)
      A. Debt to the Treasury                        $               0    $                   0                     0
      B. Debt to the Federal Financing Bank                      70,697                 (53,816)             16,881
      C. Total Agency Debt                           $           70,697   $             (53,816) $         16,881.00


2. Total Debt                                        $           70,697   $             (53,816) $         16,881.00




Not applicable.


Note 14.	Environmental Liabilities and Disposal
         Liabilities
The Navy Working Capital Fund Environmental Liabilities are reported under the Department of
the Navy General Fund.




144 | Navy Working Capital Fund
Note 15.	Other Liabilities
As of September 30                                                                           2009
                                                                     Current              Noncurrent
                                                                                                               Total
                                                                     Liability             Liability
(Amounts in thousands)

1. Intragovernmental
      A. Advances from Others                                    $         395,307    $                0   $       395,307
      B. Deposit Funds and Suspense Account Liabilities                          0                     0                   0
      C. Disbursing Ofﬁcer Cash                                                  0                     0                   0
      D. Judgment Fund Liabilities                                               0                     0                   0
      E. FECA Reimbursement to the Dept. of Labor                           90,074              116,668            206,742
      F. Custodial Liabilities                                               4,881                     0                4,881
      G. Employer Contribution and
           Payroll Taxes Payable                                            48,227                     0               48,227
      H. Other Liabilities                                                       0                     0                   0


     I. Total Intragovernmental Other Liabilities                $         538,489    $         116,668    $       655,157


2. Nonfederal
     A. Accrued Funded Payroll and Beneﬁts                       $         920,155    $                0   $       920,155
     B. Advances from Others                                               266,783                     0           266,783
     C. Deferred Credits                                                         0                     0                   0
     D. Deposit Funds and Suspense Accounts                                      31                    0                  31
     E. Temporary Early Retirement Authority                                     0                     0                   0
     F. Nonenvironmental Disposal Liabilities
             (1) Military Equipment (Nonnuclear)                                 0                     0                   0
             (2) Excess/Obsolete Structures                                      0                     0                   0
             (3) Conventional Munitions Disposal                                 0                     0                   0
     G. Accrued Unfunded Annual Leave                                            0                     0                   0
     H. Capital Lease Liability                                                  0                     0                   0
      I. Contract Holdbacks                                                  1,531                     0                1,531
      J.    Employer Contribution and
             Payroll Taxes Payable                                               0                     0                   0
     K. Contingent Liabilities                                             504,532               30,861            535,393
     L. Other Liabilities                                                    6,715                     0                6,715


     M. Total Nonfederal Other Liabilities                       $        1,699,747   $          30,861    $      1,730,608


3. Total Other Liabilities                                       $        2,238,236   $         147,529    $      2,385,765




                                               Fiscal Year 2009 Department of the Navy Annual Financial Report | 145
As of September 30                                                                     2008
                                                              Current               Noncurrent
                                                                                                         Total
                                                              Liability              Liability
(Amounts in thousands)

1. Intragovernmental
      A. Advances from Others                             $         164,922     $                0   $       164,922
      B. Deposit Funds and Suspense Account Liabilities                    0                     0                     0
      C. Disbursing Ofﬁcer Cash                                            0                     0                     0
      D. Judgment Fund Liabilities                                         0                     0                     0
      E. FECA Reimbursement to the Dept. of Labor                    91,672               119,064            210,736
      F. Custodial Liabilities                                        3,369                      0                3,369
      G. Employer Contribution and
           Payroll Taxes Payable                                     41,104                      0               41,104
      H. Other Liabilities                                                 0                     0                     0


     I. Total Intragovernmental Other Liabilities         $         301,067     $         119,064    $       420,131


2. Nonfederal
     A. Accrued Funded Payroll and Beneﬁts                $         816,488     $                0   $       816,488
     B. Advances from Others                                        248,959                      0           248,959
     C. Deferred Credits                                                   0                     0                     0
     D. Deposit Funds and Suspense Accounts                          (11,756)                    0               (11,756)
     E. Temporary Early Retirement Authority                               0                     0                     0
     F. Nonenvironmental Disposal Liabilities
             (1) Military Equipment (Nonnuclear)                           0                     0                     0
             (2) Excess/Obsolete Structures                                0                     0                     0
             (3) Conventional Munitions Disposal                           0                     0                     0
     G. Accrued Unfunded Annual Leave                                      0                     0                     0
     H. Capital Lease Liability                                            0                     0                     0
      I. Contract Holdbacks                                                0                     0                     0
      J.    Employer Contribution and
             Payroll Taxes Payable                                         0                     0                     0
     K. Contingent Liabilities                                      474,675                21,583            496,258
     L. Other Liabilities                                             1,600                      0                1,600


     M. Total Nonfederal Other Liabilities                $        1,529,966    $          21,583    $      1,551,549


3. Total Other Liabilities                                $        1,831,033    $         140,647    $      1,971,680



Contingent Liabilities includes $30.9 million related to contracts authorizing progress payments
based on cost as defined in the Federal Acquisition Regulation (FAR). In accordance with contract
terms, specific rights to the contractor’s work vest with the Federal Government when a specific
type of contract financing payment is made. This action protects taxpayer funds in the event of
contract nonperformance. These rights should not be misconstrued as the rights of ownership.
The NWCF is under no obligation to pay the contractor for amounts greater than the amounts
authorized in the contract until delivery and government acceptance. Due to the probability the
contractors will complete their efforts and deliver satisfactory products, and because the amount
of potential future payments are estimable, the NWCF has recognized a contingent liability for
estimated future payments which are conditional pending delivery and government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between
the estimated costs incurred to date by contractors and amounts authorized to be paid under


146 | Navy Working Capital Fund
progress payments based on cost provisions within the FAR. Estimated contractor-incurred costs
are calculated by dividing the cumulative unliquidated progress payments based on cost by the
contract-authorized progress payment rate. The balance of unliquidated progress payments based
on cost is deducted from the estimated total contractor-incurred costs to determine the contingency
amount.

The $6.7 million balance in Other Liabilities is comprised of: 1) the residual accrued liability
balance of five closed/transitioned shipyards (Long Beach, Charleston, Philadelphia, Mare Island,
and Pearl Harbor) reported at Naval Shipyards Long Beach; 2) accrual of miscellaneous non
labor expenses (i.e. utilities), fringe benefits and accelerated fringe rates applied to jobs at Supply
Management, Navy; and 3) an irreconcilable amount that is being examined at Depot Maintenance,
Aviation. The balances for the closed/transitioned shipyards are being examined. The expected
conclusion is that the balances are no longer necessary and will be candidates for future adjustment
(write-off).

Capital Lease Liability
Not applicable.


Note 16.	Commitments and Contingencies
The Department of the Navy (DON) is a party in various administrative proceedings and legal
actions, related to claims for environmental damage, equal opportunity matters, and contractual
bid protests.

The DON has accrued contingent liabilities for legal actions where the Office of General Counsel
considers an adverse decision probable and the amount of loss is measurable. In the event of
an adverse judgment against the Government, some of the liabilities may be payable from the
U.S. Treasury Judgment Fund. The DON records Judgment Fund liabilities in Note 12, Accounts
Payable; and Note 15, Other Liabilities.

For FY 2009, the NWCF materiality threshold for reporting litigation, claims, or assessments is
$2.2 million. The DON WCF currently has 10 cases that meet the existing FY 2009 DON WCF. The
DON OGC was unable to express an opinion concerning the likely outcome of 7 of the 10 cases.

Due to the inherent uncertainties of litigation, lawyers generally refrain from expressing judgments as
to outcomes except in those relatively few clear cases. In response to a Department of Defense (DoD),
Inspector General Audit, “DoD Process for Reporting Contingent Legal Liabilities,” DON developed
a methodology to determine an estimate for contingent legal liabilities. Beginning with 1st Quarter,
FY 2007 DON recognized and disclosed an estimate for contingent legal liabilities. The methodology
considers the likelihood of an unfavorable outcome or potential liability and is provided as an overall
assessment of all cases currently pending and not on an individual case basis. The likelihood of an
unfavorable or potential liability was determined by using an average of the data from the current
year-to-date and the preceding four years. The total dollar amount of the cases closed was divided
by the total dollar amount claimed in those closed cases for each of the last four years plus current
year, which were then used to calculate the average. This average is based entirely on historical data
and represents the percentage that has historically been paid on claims for all DON cases. The merits
for each individual case have not been taken into consideration. As a result, estimates cannot be
allocated between NWCF and DON General Fund (GF).


                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 147
Note 17.	Military Retirement and Other Federal
        Employment 	Benefits
As of September 30                                                                          2009
                                                                              Assumed            (Less: Assets
                                                          Liabilities       Interest Rate       Available to Pay       Unfunded Liabilities
                                                                                 (%)               Beneﬁts)
(Amounts in thousands)


1. Pension and Health Actuarial Beneﬁts
      A. Military Retirement Pensions                 $                 0                   $                      0   $                 0
      B. Military Retirement Health Beneﬁts                             0                                          0                     0
      C. Military Medicare-Eligible Retiree Beneﬁts                     0                                          0                     0
      D. Total Pension and Health Actuarial Beneﬁts   $                 0                   $                      0   $                 0


2. Other Actuarial Beneﬁts
      A. FECA                                         $           931,160                   $                      0   $           931,160
      B. Voluntary Separation Incentive Programs                        0                                          0                     0
      C. DoD Education Beneﬁts Fund                                     0                                          0                     0
      D. Total Other Actuarial Beneﬁts                $           931,160                   $                      0   $           931,160


3. Other Federal Employment Beneﬁts                   $                 0                   $                      0   $                 0

4. Total Military Retirement and Other Federal
     Employment Beneﬁts:                              $           931,160                   $                      0 $             931,160




As of September 30                                                                          2008
                                                                              Assumed            (Less: Assets
                                                          Liabilities       Interest Rate       Available to Pay       Unfunded Liabilities
                                                                                 (%)               Beneﬁts)
(Amounts in thousands)


1. Pension and Health Actuarial Beneﬁts
      A. Military Retirement Pensions                 $                 0                   $                      0   $                 0
      B. Military Retirement Health Beneﬁts                             0                                          0                     0
      C. Military Medicare-Eligible Retiree Beneﬁts                     0                                          0                     0
      D. Total Pension and Health Actuarial Beneﬁts   $                 0                   $                      0   $                 0


2. Other Actuarial Beneﬁts
      A. FECA                                         $         1,035,874                   $                      0   $          1,035,874
      B. Voluntary Separation Incentive Programs                        0                                          0                     0
      C. DoD Education Beneﬁts Fund                                     0                                          0                     0
      D. Total Other Actuarial Beneﬁts                $         1,035,874                   $                      0   $          1,035,874


3. Other Federal Employment Beneﬁts                   $                 0                   $                      0   $                 0

4. Total Military Retirement and Other Federal
     Employment Beneﬁts:                              $         1,035,874                   $                      0 $            1,035,874




The Department of the Navy (DON) actuarial liability for workers’ compensation benefits is
developed by the Department of Labor and provided to DON at the end of each fiscal year. The
liability is distributed between the Navy Working Capital Fund and DON General Fund based
upon the number of civilian employees funded in each entity as reported in the Navy Budget
Tracking System. The liability includes the expected liability for death, disability, medical, and


148 | Navy Working Capital Fund
miscellaneous costs for approved compensation cases. The liability is determined using a method
that utilizes historical benefit payment patterns related to a specific incurred period to predict the
ultimate payments related to that period.

The assumptions relate to Federal Employees’ Compensation Act (FECA). Consistent with past
practice, the projected annual benefit payments are discounted to the present value using Office of
Management and Budget’s economic assumptions for ten year U.S. Treasury notes and bonds.

The interest rate assumptions utilized when discounting were as follows:

Discount Rates
4.223% in Year 1
4.715% in Year 2 and thereafter

To provide more specificity concerning the effects of inflation on the liability for future workers’
compensation benefits, wage inflation factors (cost of living adjustments or COLAs) and medical
inflation factors (consumer price index medical or CPIMs) were applied to the calculation of
projected future benefits. The actual rates for these factors for the charge back year (CBY) 2009
were also used to adjust the methodology’s historical payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

	       CBY	          COLA	         CPIM
	       2009	         N/A	          N/A
	       2010	         0.47%	        3.42%
	       2011	         1.40%	        3.29%
	       2012	         1.50%	        3.48%
	       2013	         1.80%	        3.71%
	       2014+	        2.00%	        3.71%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The
analysis was based on four tests: (1) a sensitivity analysis of the model to economic assumptions,
(2) a comparison of the percentage change in the liability amount to the percentage change in the
actual incremental payments, (3) a comparison of the incremental paid losses per case (a measure
of case-severity) in CBY 2009 to the average pattern observed during the most current three charge
back years, and (4) a comparison of the estimated liability per case in the Discount Rates projection
to the average pattern for the projections of the most recent three years.




                                          Fiscal Year 2009 Department of the Navy Annual Financial Report | 149
Note 18.	General Disclosures Related to the Statement
         of Net Cost
Intragovernmental Costs and Exchange Revenue
As of September 30                                                   2009                   2008
(Amounts in thousands)

1. Intragovernmental Costs                                    $          4,977,049      $       5,091,758
2. Public Costs                                                         20,001,320             19,820,731
3. Total Costs                                                $         24,978,369      $      24,912,489

4. Intragovernmental Earned Revenue                           $        (22,176,527) $          (20,784,013)
5. Public Earned Revenue                                                (1,163,474)             (1,056,448)
6. Total Earned Revenue                                       $        (23,340,001) $          (21,840,461)

7. Net Cost of Operations                                     $             1,638,368   $          3,072,028


Intragovernmental costs and revenues are related to transactions made between two reporting
entities within the Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and a
nonfederal entity.

The Navy Working Capital Fund’s (NWCF) financial management systems do not track
intragovernmental transactions by customer at the transactional level. Buyer-side expenses
are adjusted to agree with internal seller-side revenues. Expenses are generally adjusted by
reclassifying amounts between federal and nonfederal expenses.

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the
Federal Government supported by appropriations or other means. The intent of the SNC is to
provide gross and net cost information related to the amount of output or outcome for a given
program or organization administered by a responsible reporting entity. The DoD’s current
processes and systems do not capture and report accumulated cost for major programs based upon
the performance measures as required by the Government Performance and Results Act. The
DoD is in the process of reviewing available data and developing a cost reporting methodology as
required by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial
Cost Accounting Concepts and Standards for the Federal Government,” as amended by SFFAS
No. 30, “Inter-entity Cost Implementation.”

The NWCF does not meet accounting standards and that information presented is based on
proprietary transactions data from nonfinancial feeder systems and accruals.


Note 19.	Disclosures Related to the Statement of
         Changes in Net Position
In order to clean up the data before fully converting to Enterprise Resource Planning (ERP), a
Prior Period Adjustment (PPA) was recorded to correct the effects of Cost of Goods Sold (COGS)
inventory valuation process. Therefore, FY 2009 and Comparative FY 2008 have been restated as
explained in Note 26.


150 | Navy Working Capital Fund
The current FY 2009 and comparative FY 2008 Statement of Changes in Net Position were
impacted.

  1.	   The beginning Cumulative Results of Operations was restated by $983.3 million for FY 2009
        and by $666.8 million for FY 2008.
  2.	   The FY 2008 Other Financing Sources, Other was restated by $316.5 million.

Other Financing Sources, Other is comprised of a gain reported during the trading partner
elimination process and an adjustment made to reclassify the COGS model PPA amount properly
to Other Gains.


Note 20.	Disclosures Related to the Statement of
         Budgetary Resources	
As of September 30                                                           2009                   2008
(Amounts in thousands)

1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                      $              8,206,543   $          7,794,257

2. Available Borrowing and Contract Authority at the End
     of the Period                                                                         0                      0




Obligations Incurred – Direct	                 Category A 	              $0
Obligations Incurred – Reimbursable 	          Category B	               $26.5 billion
Obligations Incurred – Reimbursable	           Exempt from 	             $0
	                                              Apportionment

The SBR includes intraentity transactions because the statements are presented as combined.

Defense Departmental Reporting System- Budgetary (DDRS-B), is the system used to produce
the SF133 and DDRS-Audited Financial Statements (AFS) is the system used to produce quarterly
financial reports. The Differences between the SF133 and Statement of Budgetary Resources for
4th Quarter, FY 2009 are as follows:

Unobligated balance, brought forward, October 1 –
  n	 A direct appropriation for War Reserve Material (WRM) in the amount of $32.4 million was
       provided to Marine Supply Management Activity Group in June 2007. The journal entry
       made at that time did not post to the correct budgetary USSGL accounts in DDRS-B; DDRS-
       AFS was adjusted in 4th Quarter, FY 2008.
  n	 Marine Corps: A $1.1 million journal voucher (JV) was posted to DDRS-AFS in September
       2008 to record the activity’s employee benefits accruals and expenses for FEGLI, FEHB,
       Retirement, and VSIP to reconcile to the Department of Labor amounts, per guidance.
       This quarterly data call is only posted in DDRS-AFS, and not to DDRS-B. As the JV is
       not posted in DDRS-B, the expenses did not close with the same cumulative results. This
       results in a disconnect between DDRS-AFS and DDRS-B beginning balances.



                                            Fiscal Year 2009 Department of the Navy Annual Financial Report | 151
Permanently not available - A direct appropriation for WRM for $32.4 million was provided to
Marine Supply Management Activity Group in June 2007. The journal entry made at that time
did not post to the correct budgetary USSGL accounts in DDRS-B; DDRS-AFS was adjusted in
4th Quarter, FY 2008.


Note 21.	Reconciliation of Net Cost of Operations to
         Budget
As of September 30                                                             2009                 2008
(Amounts in thousands)

Resources Used to Finance Activities:
        Budgetary Resources Obligated:
               1. Obligations incurred                                     $    26,464,761      $    24,601,798
               2. Less: Spending authority from offsetting collections
                     and recoveries (-)                                         (26,930,130)         (25,483,273)
               3. Obligations net of offsetting collections and
                     recoveries                                                   (465,369)            (881,475)
               4. Less: Offsetting receipts (-)                                          0                    0
               5. Net obligations                                                 (465,369)            (881,475)
        Other Resources:
               6. Donations and forfeitures of property                                  0                       0
               7. Transfers in/out without reimbursement (+/-)                    (364,257)                (66,968)
               8. Imputed ﬁnancing from costs absorbed by others                   470,522                 429,565
               9. Other (+/-)                                                    1,012,490                 863,331
               10. Net other resources used to ﬁnance activities                  1,118,755           1,225,928
11. Total Resources Used to Finance Activities                             $          653,386   $          344,453

Resources Used to Finance Items not Part of the Net Cost
     of Operations:
               12. Change in budgetary resources obligated for goods,
                    services, and beneﬁts ordered but not yet provided:
                      12a. Undelivered Orders (-)                          $      (412,286) $               81,002
                      12b. Unﬁlled Customer Orders                               1,238,321                 724,284
               13. Resources that fund expenses recognized in prior
                    periods (-)                                                   (109,799)                (11,715)
               14. Budgetary offsetting collections and receipts that
                    do not affect Net Cost of Operations                                  0                    0
               15. Resources that ﬁnance the acquisition of assets (-)           (4,998,100)          (4,402,419)
               16. Other resources or adjustments to net obligated
                    resources that do not affect Net Cost of Operations:
                      16a. Less: Trust or Special Fund Receipts Related
                            to exchange in the Entity’s Budget (-)                       0                    0
                      16b. Other (+/-)                                            (648,232)            (796,364)
17. Total resources used to ﬁnance items not part of the
     Net Cost of Operations                                                $     (4,930,096) $        (4,405,212)
18. Total resources used to ﬁnance the Net Cost of Operations              $     (4,276,710) $        (4,060,759)



As of September 30                                                             2009                 2008
(Amounts in thousands)

 Components of the Net Cost of Operations that will not
      Require or Generate Resources in the Current Period:
       Components Requiring or Generating Resources in Future
            Period:
152 | Navy Working      Capital
              19. Increase        Fund
                           in annual leave liability                       $               0    $                0
              20. Increase in environmental and disposal liability                         0                     0
              21. Upward/Downward reestimates of credit subsidy
                      16a. Less: Trust or Special Fund Receipts Related
                            to exchange in the Entity’s Budget (-)                             0                   0
                      16b. Other (+/-)                                                  (648,232)           (796,364)
17. Total resources used to ﬁnance items not part of the
     Net Cost of Operations                                                  $        (4,930,096) $       (4,405,212)
18. Total resources used to ﬁnance the Net Cost of Operations                $        (4,276,710) $       (4,060,759)



As of September 30                                                                  2009                2008
(Amounts in thousands)

Components of the Net Cost of Operations that will not
     Require or Generate Resources in the Current Period:
        Components Requiring or Generating Resources in Future
            Period:
              19. Increase in annual leave liability                         $                 0    $               0
              20. Increase in environmental and disposal liability                             0                    0
              21. Upward/Downward reestimates of credit subsidy
                    expense                                                                    0                    0
              22. Increase in exchange revenue receivable from the
                    public (-)                                                                 0                     0
              23. Other (+/-)                                                              1,092               210,736
              24. Total components of Net Cost of Operations that
                    will Require or Generate Resources in future periods     $             1,092    $          210,736
    Components not Requiring or Generating Resources:
              25. Depreciation and amortization                              $           590,752    $        252,751
              26. Revaluation of assets or liabilities (+/-)                           1,130,600           1,219,549
              27. Other (+/-)
                      27a. Trust Fund Exchange Revenue                                         0                   0
                      27b. Cost of Goods Sold                                         13,955,406          14,105,206
                      27c. Operating Material and Supplies Used                                0                   0
                      27d. Other                                                      (9,762,772)         (8,655,455)
              28. Total Components of Net Cost of Operations that
                    will not Require or Generate Resources                   $         5,913,986    $      6,922,051
29. Total components of Net Cost of Operations that will not
     Require or Generate Resources in the Current Period                     $         5,915,078    $      7,132,787
30. Net Cost of Operations                                                   $         1,638,368    $      3,072,028


Due to Navy Working Capital Fund (NWCF) financial system limitations, budgetary data is not in
agreement with proprietary expenses and assets capitalized. The difference between budgetary
and proprietary data is a previously identified deficiency. As a result of these system limitations,
resources that finance the acquisition of assets on the reconciliation of Net Cost of Operations
to Budget was adjusted downward by $2.9 billion (absolute amount) at the end of 4th Quarter,
FY 2009 to bring it into balance with the Statement of Net Cost.

The following Reconciliation of Net Cost of Operations to Budget lines are represented as
combined instead of consolidated due to interagency budgetary transactions not being eliminated:

  n	    Obligations Incurred
  n	    Less: Spending Authority from Offsetting Collections and Recoveries
  n	    Obligations Net of Offsetting Collections and Recoveries
  n	    Less: Offsetting Receipts
  n	    Net Obligations
  n	    Undelivered Orders
  n	    Unfilled Customer Orders

Other Resources Used to Finance Activities consists of gains and losses associated with the
financial closure of NWCF activities.



                                               Fiscal Year 2009 Department of the Navy Annual Financial Report | 153
Other Resources Used to Finance Items not Part of the Net Cost of Operations consists of gains and
losses associated with transfers of assets out of NWCF.

Other Components not Requiring or Generating Resources consists of overhead costs distributed
to work in process, as well as costs originally recorded into another expense account that
are transferred to one of three accounts: inventory work in process, internal use software in
development, or completed assets.


Note 22.	Disclosures Related to Incidental Custodial
         Collections
Navy Working Capital Fund (NWCF) collected $3.7 million of incidental custodial revenues
generated primarily from interest, penalties, fines, and administrative fees. These funds are not
available for use by NWCF. At the end of each fiscal year, the accounts are closed and the balances
rendered to the U.S. Treasury.


Note 23.	Earmarked Funds
Not applicable.


Note 24.	Fiduciary Activities
Not applicable.


Note 25.	Other Disclosures
Not applicable.


Note 26.	Restatements
In the current environment, inventory is recorded in the Material Financial and Control System
(MFCS) at standard cost. The inventory is then converted in the Central Database (CDB) from
standard costs to Latest Acquisition Costs (LAC). And finally, the LAC costs from the CDB are
revalued in the cost of good sold (COGS) model to an approximation of historical cost. This model
was developed by Office of Secretary of Defense (OSD) in the early 1990s.

Embedded in this COGS model inventory revaluation process, is a calculation that records a
portion of the revaluation as a Prior Period Adjustment (PPA) monthly. Essentially, this PPA
allowed the supply activities the ability to revalue a portion of their inventory without adversely
affecting their Net Operating Results (NOR). Adjusting the beginning balance in cumulative
results of operations (U.S. Standard General Ledger (USSGL) account 3310) based on the COGS
model calculation was initially designed as a temporary solution but evolved into a business
practice for the military supply communities.

In October 2003, representatives from Defense Finance and Accounting Service - Cleveland (DFAS-
CL), DFAS-Arlington, OSD, Navy Financial Management Office (FMO), and Supply Management,
Navy (NAVSUP) met to discuss the proper handling of these adjustments as they related to the
Budget Execution (BE) (DDRS-B 1307 reports) and the financial statements (DDRS-AFS Financial
Statements). During this collaborative meeting, it was decided that the PPA would not be changed


154 | Navy Working Capital Fund
for BE reporting but would be reclassified from PPA to an inventory allowance adjustment for the
quarterly financial statements (i.e. reclassifying it from USSGL account 7400 to USSGL account
1529).

Based on the team’s (DFAS-CL, FMO, and NAVSUP) continuing analysis and focus on eliminating
the contributing factors causing NWCF fluctuations in inventory and to clean up the data before
fully converting to Enterprise Resource Planning (ERP) architecture, we have done the following:

  1.	   Removed the permanent entry in DDRS-AFS used to reverse the cumulative effects of year-
        end adjustments reclassifying the COGS model calculated Prior Period Adjustment (PPA)
        (USSGL account 7400) to the inventory allowance account (USSGL account 1529).

  2.	   Processed a PPA to remove the cumulative value inappropriately posted to the inventory
        allowance account (USSGL account 1529) in the previous years and move this cumulative
        value to other gains/losses (USSGL account 7190/7290).

  3.	   Changed the reclassification of PPA (USSGL 7400) from the inventory allowance account
        (USSGL 1529) to other gains/losses (USSGL 7190/7290), as applicable. This will
        accomplish two things:

        a.	   It will systematically update cumulative results (USSGL 3310) during the year-end
              close and

        b.	   It will eliminate the need to process a reversing entry in the subsequent year.

In the future, we will be booking Other Gains (USSGL account 7190) and/or Other Losses (USSGL
account 7290) instead of the inventory allowance account (USSGL account 1529) when reclassifying
the PPA (USSGL account 7400) for inventory adjustments

In addition to the above PPA package, NAVSUP processed a PPA package writing off $494.0 million
in Other Supply Officer (OSO) liabilities. The adjustment of $494.0 million is comprised of financial
clean up in the field accounting system, MFCS, and in the CDB. An OSO liability was a mechanism
to track the movement of NAVSUP material from one Supply Officer to another. All of the materiel
was owned by NAVSUP. As materiel was transferred, financial records would be provided to both
the receiving and issuing Supply Officers as well as the Naval Inventory Control Point (NAVICP).
Since each ship maintained independent inventory systems, the NAVICP attempted to track all the
financial inventory records. However, the records were not always sent or received resulting in
unsupported OSO balances.

These adjustments affected Inventory and Other Financing Sources.

Comparative FY 2008 ending balances have been restated and adjustments were made in FY 2009.

The current FY 2009 and comparative FY 2008 Balance Sheet, Statement of Changes in Net Position,
and Statement of Net Cost were impacted.




                                          Fiscal Year 2009 Department of the Navy Annual Financial Report | 155
  1.	   Inventory and Related Property was increased by $1.5 billion in FY 2009 and by $983.3
        million in FY 2008 due to adjustments made to Supply Management USSGL account 1529.

  2.	   The beginning FY 2009 Cumulative Results of Operations was restated by $983.3 million in
        FY 2009 and by $666.8 million in FY 2008.

  3.	   The FY 2008 Other Financing Sources, Other was restated by $316.5 million.




156 | Navy Working Capital Fund
     Navy Working Capital Fund
Required Supplementary Information




                                 157
 Fiscal Year FY 2009 Department of the Navy Annual Financial Report


                            Fiscal Year 2009 Department of the Navy Annual Financial Report | 157
                                  Navy Working Capital Fund
                           General Property, Plant, and Equipment
                       Real Property Deferred Maintenance and Repair
                         For Fiscal Year Ended September 30, FY 2009


The Navy Working Capital Fund real property deferred maintenance and repair information for
fiscal year ended September 30, FY 2009 is reported with the Department of the Navy General
Fund deferred maintenance and repair. See Department of the Navy General Fund Required
Supplementary Information.




158 | Navy Working Capital Fund
   Navy Working Capital Fund
Other Accompanying Information




                                159
Fiscal Year FY 2009 Department of the Navy Annual Financial Report


                           Fiscal Year 2009 Department of the Navy Annual Financial Report | 159
Appropriations, Funds, and Accounts Included in the
Principal Statements
Reporting Entity
Navy Working Capital Fund (NWCF)

Fund/Account Treasury Symbol and Title
	 97X4930.002	

 Navy Working Capital Fund Activity Group Treasury Symbol and Title
 	 97X4930.NA1*	 Depot Maintenance - Shipyardsa
 	 97X4930.NA2*	 Depot Maintenance - Aviation
 	97X4930.NA4A*	 Depot Maintenance - Other, Marine Corps
  	 97X4930.NA3*	 Ordnanceb
  	 97X4930.ND*	 Transportation
  	 97X4930.NE*	 Base Support
  	 97X4930.NH*	 Research and Development
  	 97X4930.NC*	 Supply Management
	97X4930.NC2A*	 Supply Management, Marine Corps

Notes
* The “*” represents alpha or numeric characters which identify an activity or reporting segment of the activity group.

a Depot Maintenance, Shipyards became a part of the DON General Fund in FY 2007. The Depot Maintenance, Shipyards information included in this report
represents residual NWCF accounting.

b The Ordnance activity group became a part of the DON General Fund in FY 2000. The Ordnance information included in this report represents residual NWCF
accounting for this group.




160 | Navy Working Capital Fund
United States Marine Corps General Fund
          Principal Statements




                                 161
    Fiscal Year 2009 Department of the Navy Annual Financial Report
                             Limitations to the Financial Statements
                             The principal financial statements have been prepared to report the
                             financial position and results of operations of the entity, pursuant
                             to the requirements of 31 United States Code 3515 (b). While the
                             statements have been prepared from the books and records of the
                             entity in accordance with Generally Accepted Accounting Principles for
                             Federal entities and the formats prescribed by Office of Management
                             and Budget, the statements are in addition to the financial reports used
                             to monitor and control budgetary resources which are prepared from
                             the same books and records. The statements should be read with the
                             realization that they are for a component of the U.S. Government, a
                             sovereign entity.

                             In Fiscal Year (FY) 2006, the Office of the Under Secretary of Defense
                             (Comptroller), with support from the Department of the Navy, designated the
                             U.S. Marine Corps a financial reporting entity. This designation allowed the
                             Marine Corps to prepare comprehensive subsidiary financial statements and
                             related notes beginning in FY 2006.

                             The Marine Corps shares appropriations with the U.S. Navy and in addition
                             maintains accountability for its own appropriations. The Marine Corps has
                             specific funds and budget execution unto itself that are managed by Marine Corps
                             program sponsors. Given this fiduciary responsibility, the Marine Corps is able to
                             fully comply with Statement of Federal Financial Accounting Concepts Number
                             2, Entity and Display.


                             Principal Statements
                             The FY 2009 U.S. Marine Corps General Fund principal statements and
                             related notes are subsidiary financial statements and related notes of
                             the Department of the Navy General Fund, and are presented in the
                             format prescribed by the Department of Defense Financial Management
                             Regulation 7000.14, Volume 6B. The statements and related notes
                             summarize financial information for individual funds and accounts
                             within the U.S. Marine Corps General Fund for the fiscal year ending
                             September 30, 2009, and are presented on a comparative basis with
                             information previously reported for the fiscal year ending September 30,
                             2008.

                             The following statements comprise the U.S. Marine Corps General Fund
                             principal statements:

                                n	    Consolidated Balance Sheet
                                n	    Consolidated Statement of Net Cost
                                n	    Consolidated Statement of Changes in Net Position
                                n	    Combined Statement of Budgetary Resources

                             The principal statements and related notes have been prepared to report
                             financial position pursuant to the requirements of the Chief Financial
                             Officers Act of 1990, as amended by the Government Management
                             Reform Act of 1994. The accompanying notes should be considered an
                             integral part of the principal statements.



162 | United States Marine Corps General Fund
     Department of Defense
     United States Marine Corps General Fund
     CONSOLIDATED BALANCE SHEET
     As of September 30, 2009 and 2008
       ($ in Thousands)

    Department of Defense
                                                                                                2009 Consolidated         2008 Consolidated
    Department of the Navy General Fund
          ASSETS (Note 2)
    CONSOLIDATED STATEMENT OF CHANGES                                            IN NET POSITION
           Intragovernmental:
    For the Years Ended September 30, 2009 and 2008
            Fund Balance with Treasury (Note 3)                                             $           17,981,853    $           17,809,687
      ($ in Thousands)
            Accounts Receivable (Note 5)                                                                    32,494                    56,370
                                                                                                                           Restated
            Other Assets (Note 6)                                                                               29                       872
                                                                                         2009 Consolidated            2008 Consolidated
           Total Intragovernmental Assets                                                               18,014,376                17,866,929
        CUMULATIVE RESULTS OF OPERATIONS
         Beginning Balances                                                         $             235,996,617 $                 221,854,870
           Cash and Other Monetary Assets (Note 7)                                                          26,640                    52,645
         Prior Period Adjustments                                                                     (94,740)                      (94,740)
           Accounts Receivable, Net (Note 5)                                                                30,542                     7,549
         Beginning Balances, as adjusted                                                          235,901,877                   221,760,130
           Inventory and Related Property, Net (Note 9)                                                  5,809,902                 6,439,109
         Budgetary Financing Sources:
           General Property, Plant, and Equipment, Net (Note 10)                                        12,810,346                12,028,288
           Appropriations used                                                                    159,052,821                   143,328,499
           Other Assets (Note 6)                                                                           561,207                   663,947
           Nonexchange revenue                                                                            174                           620
          TOTAL ASSETS                                                                                  37,253,013                37,058,467
           Donations & forfeitures of cash & cash equivalents                                          24,051                        24,216
          Stewardship Property, Plant, and Equipment (Note 10) *
           Transfers in/out without reimbursement (+/-)                                                     -                       102,833
         Other Financing Sources:
          LIABILITIES (Note 11)
           Donations and forfeitures of property                                                         (667)                            -
           Intragovernmental:
           Transfers in/out without reimbursement (+/-)                                               208,053                       348,312
            Accounts Payable (Note 12)                                                                     204,531                   197,807
           Imputed ﬁnancing from costs absorbed by others                                             779,646                       678,845
            Other Liabilities (Note 15 & Note 16)                                                          109,693                    99,600
           Other (+/-)                                                                              4,046,452                     2,400,714
           Total Intragovernmental Liabilities                                                             314,224                   297,407
         Total Financing Sources                                                                  164,110,530                   146,884,039
         Net Cost of Operations (+/-)                                                             144,013,194                   132,742,293
           Accounts Payable (Note 12)                                                                      703,449                   853,096
         Net Change                                                                                20,097,336                    14,141,746
           Military Retirement and Other Federal
         Cumulative Results of Operations                                           $             255,999,213 $                 235,901,876
              Employment Beneﬁts (Note 17)                                                                 194,375                   219,057
           Environmental and Disposal Liabilities (Note 14)                                                250,892                   262,455
        UNEXPENDED APPROPRIATIONS
           Other Liabilities (Note 15 & Note 16)                                                         1,336,688                 1,292,138
         Beginning Balances                                                         $             121,305,364 $                 109,221,611
          TOTAL LIABILITIES                                                                              2,799,628                 2,924,153
         Prior Period Adjustments (+/-)                                                            27,184,971                    20,021,907
          Commitments and Contingencies (Note 16) *
         Beginning Balances, as adjusted                                                          148,490,335                   129,243,518
         Budgetary Financing Sources:
          NET POSITION
           Appropriations received                                                                 165,233,492                  162,715,443
           Unexpended Appropriations - Other Funds                                                       17,124,697               16,929,956
           Appropriations transferred-in/out (+/-)                                                   1,711,873                    2,403,645
           Cumulative Results of Operations - Earmarked Funds                                                   664                      576
           Other adjustments (rescissions, etc) (+/-)                                               (3,170,061)                  (2,543,772)
           Cumulative Results of Operations - Other Funds                                                17,328,024               17,203,782
           Appropriations used                                                                    (159,052,821)                (143,328,499)
          TOTAL NET POSITION                                                                             34,453,385               34,134,314
         Total Budgetary Financing Sources                                                           4,722,483                   19,246,817
         Unexpended Appropriations                                                                 153,212,818                  148,490,335
          TOTAL LIABILITIES AND NET POSITION                                                $            37,253,013   $           37,058,467
         Net Position                                                               $              409,212,031 $                384,392,211




        * - Disclosure but no value required per Federal Accounting Standards.




       The accompanying notes are an integral part of the statements.




                                                                    Fiscal Year 2009 Department of the Navy Annual Financial Report | 163


The accompanying notes are an integral part of these statements.
        Other Financing Sources:
         Donations and forfeitures of property                                          (667)                          -
         Transfers in/out without reimbursement (+/-)                                208,053                     348,312
         Imputed ﬁnancing from costs absorbed by others                              779,646                     678,845
         Other (+/-)                                                               4,046,452                   2,400,714
        Total Financing Sources                                                  164,110,530                 146,884,039
        Net Cost of Operations (+/-)                                             144,013,194                 132,742,293
        Net Change
      Department  of Defense                                                      20,097,336                  14,141,746
        Cumulative
      United          Results
             States Marine    ofGeneral
                           Corps Operations
                                        Fund                            $        255,999,213 $               235,901,876
      CONSOLIDATED STATEMENT OF NET COST
       UNEXPENDED
      For the Years Ended APPROPRIATIONS
                          September 30, 2009 and 2008
        Beginning   Balances
        ($ in Thousands)                                                $         121,305,364 $               109,221,611
        Prior Period Adjustments (+/-)                                             27,184,971                  20,021,907
        Beginning Balances, as adjusted                                           148,490,335
                                                                                2009 Consolidated            129,243,518
                                                                                                        2008 Consolidated
         Program Costs
        Budgetary   Financing Sources:
             Gross Costs received
         Appropriations                                                     $     165,233,492
                                                                                         30,876,482 $        162,715,443
                                                                                                                26,840,010
             Less: Earned transferred-in/out
         Appropriations   Revenue              (+/-)                                1,711,873
                                                                                           (786,826)           2,403,645
                                                                                                                  (799,394)
             Netadjustments
         Other   Program Costs
                             (rescissions, etc) (+/-)                              (3,170,061)
                                                                                         30,089,656           (2,543,772)
                                                                                                                26,040,616
         Net Cost of Operations
         Appropriations   used                                              $    (159,052,821)
                                                                                         30,089,656 $       (143,328,499)
                                                                                                                26,040,616
        Total Budgetary Financing Sources                                           4,722,483                 19,246,817
        Unexpended Appropriations                                                 153,212,818                148,490,335
        Net Position                                                    $         409,212,031 $              384,392,211




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.




  The accompanying notes are an integral part of these statements.


      164 | United States Marine Corps General Fund
    Department of Defense
    Department of the Navy General Fund
    CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
    For the Years Ended September 30, 2009 and 2008
      ($ in Thousands)
      Department  of Defense
      United States Marine Corps General Fund                                                                                   Restated
                                            2009POSITION
      CONSOLIDATED STATEMENT OF CHANGES IN NET   Consolidated                                                              2008 Consolidated
       CUMULATIVE
      For the Years Ended RESULTS   OF2009
                          September 30, OPERATIONS
                                           and 2008
        Beginning
        ($          Balances
           in Thousands)                                                            $                235,996,617 $                 221,854,870
        Prior Period Adjustments                                                                         (94,740)                       (94,740)
        Beginning Balances, as adjusted                                                              235,901,877
                                                                                            2009 Earmarked Funds                   221,760,130
                                                                                                                            2009 Other Funds
        Budgetary
         CUMULATIVE  Financing   Sources:
                           RESULTS      OF OPERATIONS
         Appropriations    used
          Beginning Balances                                                            $            159,052,821
                                                                                                              577      $            143,328,499
                                                                                                                                      17,203,782
         Nonexchange     revenue
          Prior Period Adjustments                                                                           174 -                          620 -
         Donations
          Beginning&Balances,
                        forfeitures
                                  asofadjusted
                                       cash & cash equivalents                                            24,051
                                                                                                              577                        24,216
                                                                                                                                      17,203,782
         Transfers
          Budgetary in/out  without
                       Financing      reimbursement (+/-)
                                   Sources:                                                                    -                        102,833
        Other  Financing Sources:
           Appropriations    used                                                                                 -                   30,033,566
         Donations
           Transfersand   forfeitures
                      in/out  withoutofreimbursement
                                         property      (+/-)                                                (667)
                                                                                                              150                              --
         Transfers  in/out  without
          Other Financing Sources:    reimbursement  (+/-)                                               208,053                        348,312
         Imputed   ﬁnancing
           Transfers           from costs
                      in/out without       absorbed by others
                                        reimbursement  (+/-)                                             779,646 -                      678,84516
         Other  (+/-)ﬁnancing from costs absorbed by others
           Imputed                                                                                     4,046,452 -                    2,400,714
                                                                                                                                          75,868
        Total Financing
           Other  (+/-) Sources                                                                      164,110,530 -                  146,884,039
                                                                                                                                         104,385
        Net Cost
          Total   of Operations
                Financing   Sources(+/-)                                                             144,013,194
                                                                                                              150                   132,742,293
                                                                                                                                      30,213,835
        Net Change
          Net Cost of Operations (+/-)                                                                20,097,33663                   14,141,746
                                                                                                                                      30,089,593
        Cumulative
          Net Change  Results of Operations                                         $                255,999,21387 $                235,901,876
                                                                                                                                         124,242
          Cumulative Results of Operations                                              $                     664      $              17,328,024
       UNEXPENDED APPROPRIATIONS
        Beginning
         UNEXPENDED Balances
                          APPROPRIATIONS                                            $                121,305,364 $                  109,221,611
        Prior Period Adjustments
          Beginning   Balances       (+/-)                                              $             27,184,971 - $                 20,021,907
                                                                                                                                      16,929,956
        Beginning   Balances,
          Prior Period         as adjusted
                       Adjustments     (+/-)                                                         148,490,335 -                  129,243,518 -
        Budgetary
          Beginning Financing
                      Balances,Sources:
                                 as adjusted                                                                      -                    16,929,956
         Appropriations  received
          Budgetary Financing     Sources:                                                           165,233,492                    162,715,443
         Appropriations
           Appropriationstransferred-in/out
                           received            (+/-)                                                   1,711,873 -                     2,403,645
                                                                                                                                       29,273,364
         Other  adjustmentstransferred-in/out
           Appropriations    (rescissions, etc) (+/-)
                                                 (+/-)                                                (3,170,061) -                  (2,543,772)
                                                                                                                                        1,282,050
         Appropriations  used (rescissions, etc) (+/-)
           Other adjustments                                                                        (159,052,821) -                (143,328,499)
                                                                                                                                          (327,107)
        Total Budgetary Financing
           Appropriations  used       Sources                                                          4,722,483 -                   19,246,817
                                                                                                                                      (30,033,566)
        Unexpended    Appropriations
          Total Budgetary Financing Sources                                                          153,212,818 -                  148,490,335
                                                                                                                                           194,741
        Net Position Appropriations
          Unexpended                                                                $                409,212,031 - $                384,392,211
                                                                                                                                       17,124,697
           Net Position                                                                 $                     664      $              34,452,721




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.




 The accompanying notes are an integral part of these statements.


                                                                    Fiscal Year 2009 Department of the Navy Annual Financial Report | 165
    Department of Defense
    Department of the Navy General Fund
    CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
    For the Years Ended September 30, 2009 and 2008
      ($ in Thousands)
      Department of Defense                                                                                       Restated
      United States Marine Corps General Fund                                   2009 Consolidated            2008 Consolidated
      CONSOLIDATED     STATEMENT
       CUMULATIVE RESULTS            OF CHANGES IN NET POSITION
                          OF OPERATIONS
      ForBeginning
          the Years Ended September 30, 2009 and 2008
                      Balances                                          $               235,996,617 $                221,854,870
        ($ in Thousands)
        Prior  Period Adjustments                                                           (94,740)                      (94,740)
        Beginning Balances, as adjusted                                                 235,901,877                  221,760,130
        Budgetary Financing Sources:                                             2009 Consolidated            2008 Consolidated
         CUMULATIVE        RESULTS OF OPERATIONS
         Appropriations used                                                             159,052,821                  143,328,499
          Beginning    Balances
         Nonexchange revenue                                                $               17,204,359
                                                                                                 174     $              13,760,975
                                                                                                                              620
          Prior Period
         Donations       Adjustments
                     & forfeitures  of cash & cash equivalents                                24,051 -                     24,216 -
          Beginning
         Transfers     Balances,
                   in/out  withoutas adjusted
                                     reimbursement (+/-)                                    17,204,359
                                                                                                    -                   13,760,975
                                                                                                                          102,833
          Budgetary
        Other          Financing
               Financing          Sources:
                           Sources:
           Appropriations
         Donations          used
                     and forfeitures  of property                                          30,033,566
                                                                                               (667)                    29,240,578
                                                                                                                                -
           Transfers
         Transfers    in/out
                   in/out     without
                           without      reimbursement
                                     reimbursement     (+/-)
                                                     (+/-)                                        150
                                                                                            208,053                            153
                                                                                                                         348,312
          Other  Financing   Sources:
         Imputed ﬁnancing from costs absorbed by others                                      779,646                      678,845
           Transfers
         Other  (+/-) in/out without reimbursement (+/-)                                   4,046,45216                  2,400,714 1
           Imputed
        Total        ﬁnancing
              Financing         from costs absorbed by others
                          Sources                                                               75,868
                                                                                         164,110,530                         66,595
                                                                                                                      146,884,039
        NetOther
            Cost (+/-)
                  of Operations (+/-)                                                          104,385
                                                                                         144,013,194                        176,672
                                                                                                                      132,742,293
          Total
        Net     Financing Sources
            Change                                                                          30,213,985
                                                                                          20,097,336                    29,483,999
                                                                                                                       14,141,746
          Net Cost ofResults
        Cumulative      Operations   (+/-)
                              of Operations                             $                   30,089,656
                                                                                         255,999,213 $                  26,040,616
                                                                                                                      235,901,876
          Net Change                                                                           124,329                    3,443,383
          Cumulative Results
       UNEXPENDED                of Operations
                         APPROPRIATIONS                                     $               17,328,688 $                17,204,358
        Beginning Balances                                              $                121,305,364 $                109,221,611
         UNEXPENDED
        Prior             APPROPRIATIONS
              Period Adjustments     (+/-)                                                27,184,971                   20,021,907
          Beginning
        Beginning     Balancesas adjusted
                    Balances,                                               $               16,929,956 $
                                                                                         148,490,335                    15,749,077
                                                                                                                      129,243,518
          Prior Period
        Budgetary      Adjustments
                   Financing   Sources:(+/-)                                                         -                            -
          Beginning Balances,
         Appropriations  receivedas adjusted                                                16,929,956
                                                                                         165,233,492                    15,749,077
                                                                                                                      162,715,443
          Budgetary Financing
         Appropriations          Sources:
                         transferred-in/out   (+/-)                                        1,711,873                     2,403,645
           Appropriations  received
         Other adjustments (rescissions, etc) (+/-)                                         29,273,364
                                                                                          (3,170,061)                    29,317,905
                                                                                                                       (2,543,772)
           Appropriations
         Appropriations    transferred-in/out (+/-)
                         used                                                                1,282,050
                                                                                        (159,052,821)                      1,503,458
                                                                                                                     (143,328,499)
           Other
        Total     adjustments
              Budgetary        (rescissions,
                         Financing    Sourcesetc) (+/-)                                       (327,107)
                                                                                           4,722,483                        (399,906)
                                                                                                                       19,246,817
           Appropriations
        Unexpended         used
                      Appropriations                                                       (30,033,566)
                                                                                         153,212,818                    (29,240,578)
                                                                                                                      148,490,335
          Total
        Net     Budgetary Financing Sources
            Position                                                    $                      194,741 $
                                                                                         409,212,031                       1,180,879
                                                                                                                      384,392,211
          Unexpended Appropriations                                                         17,124,697                   16,929,956
          Net Position                                                      $               34,453,385 $                 34,134,314




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.




 The accompanying notes are an integral part of these statements.


      166 | United States Marine Corps General Fund
    Department of Defense
    Department of the Navy General Fund
    CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
    For the Years Ended September 30, 2009 and 2008
      ($ in Thousands)
     Department of Defense
     United States Marine Corps General Fund                                                                                  Restated
                                           2009 Consolidated
     COMBINED STATEMENT OF BUDGETARY RESOURCES                                                                           2008 Consolidated
     ForCUMULATIVE       RESULTS30,OF
        the Years Ended September     OPERATIONS
                                    2009 and 2008
       ($Beginning Balances
         in Thousands)                                                              $              235,996,617 $                  221,854,870
         Prior Period Adjustments                                                                      (94,740)                       (94,740)
         Beginning Balances, as adjusted                                                       2009235,901,877
                                                                                                    Combined                      221,760,130
                                                                                                                            2008 Combined
         Budgetary Financing
        BUDGETARY               Sources:
                        FINANCING       ACCOUNTS
          Appropriations
        Budgetary          used
                    Resources:                                                                    159,052,821                     143,328,499
          Nonexchange    revenuebrought forward, October 1
          Unobligated balance,                                                            $               174
                                                                                                        5,169,650    $                    620
                                                                                                                                    3,400,875
          Donations
          Recoveries&offorfeitures
                         prior year of cash &obligations
                                    unpaid     cash equivalents                                        24,051
                                                                                                        2,632,670                      24,216
                                                                                                                                    1,809,015
          Transfers in/out without reimbursement (+/-)
          Budget Authority:                                                                                  -                        102,833
         Other  Financing Sources:
            Appropriations   received                                                                  29,273,515                  29,318,058
          Donations
            Spendingand   forfeitures
                      authority  fromofoffsetting
                                         propertycollections:                                            (667)                               -
          Transfers in/out without reimbursement (+/-)
               Earned                                                                                 208,053                         348,312
          Imputed   ﬁnancing from costs absorbed by others
                 Collected                                                                            779,646
                                                                                                          435,081                     678,845
                                                                                                                                      558,199
          Other (+/-)
                 Change in receivables from Federal sources                                         4,046,452
                                                                                                           (3,036)                  2,400,714
                                                                                                                                       (15,858)
         Total Change
               Financing  Sourcescustomer orders
                       in unﬁlled                                                                 164,110,530                     146,884,039
         Net Cost  of Operations
                 Advances          (+/-)
                            received                                                              144,013,194
                                                                                                            1,669                 132,742,293
                                                                                                                                         2,384
         Net Change
                 Without advance from Federal sources                                              20,097,336
                                                                                                          (73,487)                 14,141,746
                                                                                                                                        52,551
         Cumulative
            Subtotal Results of Operations                                          $             255,999,213   $
                                                                                                       29,633,742                 235,901,876
                                                                                                                                   29,915,334
         Nonexpenditure Transfers, net, anticipated and actual                                          1,282,050                   1,503,458
       UNEXPENDED
         Permanently notAPPROPRIATIONS
                           available                                                                     (327,107)                   (399,906)
        Beginning
       Total        Balances
              Budgetary  Resources                                                  $             121,305,364   $
                                                                                                       38,391,005                 109,221,611
                                                                                                                                   36,228,776
        Prior Period Adjustments (+/-)                                                             27,184,971                      20,021,907
        Beginning
       Status       Balances,Resources:
               of Budgetary   as adjusted                                                         148,490,335                     129,243,518
        Budgetary
         ObligationsFinancing
                      incurred:Sources:
         Appropriations
           Direct        received                                                                 165,233,492
                                                                                                       33,915,640                 162,715,443
                                                                                                                                   30,413,211
         Appropriations
           Reimbursable transferred-in/out (+/-)                                                    1,711,873
                                                                                                          396,888                   2,403,645
                                                                                                                                      645,916
         Other  adjustments (rescissions, etc) (+/-)
           Subtotal                                                                                (3,170,061)
                                                                                                       34,312,528                  (2,543,772)
                                                                                                                                   31,059,127
         Appropriations  used
         Unobligated balance:                                                                    (159,052,821)                   (143,328,499)
        Total Budgetary Financing Sources
           Apportioned                                                                              4,722,483
                                                                                                        3,455,244                  19,246,817
                                                                                                                                    4,657,091
        Unexpended
           Subtotal Appropriations                                                                153,212,818
                                                                                                        3,455,244                 148,490,335
                                                                                                                                    4,657,091
        Net Position balances not available
         Unobligated                                                                $             409,212,031   $
                                                                                                          623,233                 384,392,211
                                                                                                                                      512,558
       Total Status of Budgetary Resources                                                $           38,391,005     $             36,228,776




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.




The accompanying notes are an integral part of these statements.


                                                                   Fiscal Year 2009 Department of the Navy Annual Financial Report | 167
    Department of Defense
    Department of the Navy General Fund
    CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
     Department of Defense
    For the Years Ended September 30, 2009 and 2008
     United States Marine Corps General Fund
      ($ in Thousands)
      COMBINED STATEMENT OF BUDGETARY RESOURCES                                                                   Restated
     For the Years Ended September 30, 2009 and 2008
                                                                               2009 Consolidated             2008 Consolidated
        ($ in Thousands)
       CUMULATIVE RESULTS OF OPERATIONS
        Beginning Balances                                                 $           235,996,617
                                                                                     2009 Combined $                 221,854,870
                                                                                                                2008 Combined
        Prior Period Adjustments
        RELATIONSHIP         OF OBLIGATIONS TO OUTLAYS                                     (94,740)                      (94,740)
        Beginning
        Change in Balances,
                     Obligatedas   adjusted
                                  Balance:                                             235,901,877                   221,760,130
        Budgetary
          Obligated  Financing   Sources:
                       balance, net
         Appropriations     used
              Unpaid obligations,     brought forward, October 1                $       159,052,821
                                                                                             12,868,599 $             143,328,499
                                                                                                                        13,841,236
         Nonexchange      revenue
              Less: Uncollected customer payments from                                          174                           620
         Donations    & forfeitures
                 Federal   sources, of  cash &forward,
                                     brought    cash equivalents
                                                        October 1                            24,051
                                                                                               (190,940)                   24,216
                                                                                                                          (154,247)
         Transfers
              Total in/out
                    Unpaidwithout
                              Obligatedreimbursement
                                           Balance     (+/-)                                      -
                                                                                             12,677,659                   102,833
                                                                                                                        13,686,989
          Obligations
        Other  Financing incurred,
                            Sources:net (+/-)                                                 34,312,528                31,059,127
          Less: Gross
         Donations    andoutlays
                           forfeitures of property                                              (667)
                                                                                             (30,510,863)                       -
                                                                                                                       (30,222,749)
          Less: Recoveries
         Transfers             of priorreimbursement
                    in/out without       year unpaid obligations,
                                                       (+/-)      actual                    208,053
                                                                                              (2,632,670)                 348,312
                                                                                                                        (1,809,015)
          Change ﬁnancing
         Imputed    in uncollected
                               from customer
                                      costs absorbed by others                              779,646                       678,845
         Otherpayments
                (+/-) from Federal sources (+/-)                                          4,046,45276,523                  (36,693)
                                                                                                                        2,400,714
          Obligated
        Total Financingbalance,  net, end of period
                           Sources                                                      164,110,530                   146,884,039
              Unpaid
        Net Cost       obligations(+/-)
                  of Operations                                                               14,037,594
                                                                                        144,013,194                     12,868,599
                                                                                                                      132,742,293
              Less: Uncollected customer payments from
        Net Change                                                                       20,097,336                    14,141,746
                 Federal
        Cumulative         sources
                       Results  of Operations                              $                     (114,417)
                                                                                        255,999,213    $                  (190,940)
                                                                                                                      235,901,876
              Total Unpaid Obligated Balance, net, end of period                              13,923,177                12,677,659
       UNEXPENDED APPROPRIATIONS
        Net Outlays:                                                       $            121,305,364 $                 109,221,611
        Beginning Balances
          Gross Outlays                                                                      30,510,863
                                                                                         27,184,971                     30,222,749
                                                                                                                       20,021,907
        Prior Period Adjustments (+/-)
          Less: Offsetting collections                                                         (436,750)                  (560,583)
        Beginning Balances, as adjusted                                                 148,490,335                   129,243,518
          Less: Distributed Offsetting receipts                                                  89,513                    167,559
        Budgetary Financing Sources:
        Net Outlays                                                             $            30,163,626 $               29,829,725
         Appropriations received                                                        165,233,492                   162,715,443
         Appropriations transferred-in/out (+/-)                                          1,711,873                     2,403,645
         Other adjustments (rescissions, etc) (+/-)                                      (3,170,061)                   (2,543,772)
         Appropriations used                                                           (159,052,821)                 (143,328,499)
        Total Budgetary Financing Sources                                                 4,722,483                    19,246,817
        Unexpended Appropriations                                                       153,212,818                   148,490,335
        Net Position                                                       $            409,212,031 $                 384,392,211




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.


 The accompanying notes are an integral part of these statements.


     168 | United States Marine Corps General Fund
United States Marine Corps General Fund
    Notes to The Principal Statements




                                  169
    Fiscal Year 2009 Department of the Navy Annual Financial Report


                             Fiscal Year 2009 Department of the Navy Annual Financial Report | 169
Note 1.	Significant Accounting Policies
1.A.	 Basis of Presentation
The United States Marine Corps (USMC), a component of the Department of the Navy (DON), has
prepared these financial statements to report the financial position and results of operations of the
USMC General Fund, as required by the “Chief Financial Officers (CFO) Act of 1990,” Public Law
101-590, expanded by the “Government Management Reform Act of 1994,” Public Law 103-356,
and other appropriate legislation. Though USMC produces General Fund (GF) financial statements
as a stand alone entity, USMC remains a subsidiary of the DON financial statements and reporting
process. The financial statements have been prepared from the books and records of USMC GF
in accordance with, and to the extent possible, U.S. generally accepted accounting principles
(USGAAP) promulgated by the Federal Accounting Standards Advisory Board (FASAB); the Office
of Management and Budget (OMB) Circular No. A 136, “Financial Reporting Requirements,” and
the Department of Defense (DoD), Financial Management Regulation (FMR). The accompanying
financial statements account for all resources for which USMC GF is responsible unless otherwise
noted.

Information relative to classified assets, programs, and operations is aggregated and reported in
such a manner that it is not discernable.

The USMC GF is unable to fully implement all elements of USGAAP and OMB Circular A 136,
due to limitations of financial and nonfinancial management processes and systems that support
the financial statements. The USMC GF derives reported values and information for major asset
and liability categories largely from nonfinancial systems, such as inventory systems and logistic
systems. These systems were designed to support reporting requirements for maintaining
accountability over assets and reporting the status of federal appropriations rather than preparing
financial statements in accordance with USGAAP. The USMC GF continues to implement process
and system improvements addressing these limitations.

The DoD currently has 13 auditor identified material weaknesses. Of these, the USMC GF has
the following: (1) Financial Management Systems, (2) General Property, Plant, and Equipment
(PP&E), (3) Accounts Payable, and (4) Environmental Liabilities. In designing the improved
financial management and financial reporting structure, USMC GF management recognized the
existence these material weaknesses. The USMC GF management has enabled a combined system
of Standard Accounting, Budgeting, and Reporting System (SABRS) core financial system controls;
standard process controls and internal audit monitoring process; and extensive data quality
reviews to mitigate risks. The USMC FII has designed efforts to improve and refine financial
accounting and financial reporting processes to remediate and mitigate several remaining financial
management issues including those identified as potential financial statement material weaknesses.

1.B.	 Mission of the Reporting Entity
The USMC was created on November 10, 1775 by an act of the 2nd Continental Congress. The
overall mission of USMC is to provide trained and equipped forces to Combatant Commanders in
support of the President’s National Security Strategy. As set forth in the “National Security Act of
1947,” USMC missions are: to seize and defend advanced naval bases and to conduct such land
operations as may be essential to the prosecution of a naval campaign; to provide detachments and
organizations for service in armed vessels of the Navy or for protection of naval property on naval



170 | United States Marine Corps General Fund
stations and bases; to develop, with the other Armed Forces, the tactics, techniques, and equipment
employed by landing forces in amphibious operations; to train and equip, as required, Marine
forces for airborne operations; to develop, with the other Armed Forces, doctrine, procedures, and
equipment of interest to USMC for airborne operations which are not provided for by the Army;
and to be able to expand from a peacetime posture to meet the needs of war in accordance with
mobilization plans.

1.C.	 Appropriations and Funds
The USMC GF receives appropriations and funds as general, special, and deposit funds. These
appropriations and funds may be either provided solely to USMC GF or shared with other
DON activities. The USMC GF uses these appropriations and funds to execute its mission and
subsequently report on resource usage.

General funds are used for financial transactions funded by congressional appropriations,
including military personnel, operation and maintenance, research and development, and
procurement.

Special funds accounts are used to record government receipts reserved for a specific purpose.
Certain special funds may be designated as earmarked funds. Earmarked funds are financed by
specifically identified revenues, required by statute to be used for designated activities, benefits
or purposes, and remain available over time. The USMC GF is required to separately account for
and report on the receipt, use and retention of revenues and other financing sources for earmarked
funds.

Deposit funds are used to record amounts held temporarily until paid to the appropriate
government or public entity. They are not the USMC GF funds, and as such, are not available for
USMC GF’s operations. The USMC GF is acting as an agent or a custodian for funds awaiting
distribution.

1.D.	 Basis of Accounting
The USMC GF’s financial management systems are unable to meet all full accrual accounting
requirements. Many of USMC GF’s financial and nonfinancial feeder systems and processes were
designed and implemented prior to the issuance of USGAAP. These systems were not designed
to collect and record financial information on the full accrual accounting basis as required by
USGAAP. Most of USMC GF’s (financial and nonfinancial) legacy systems were designed to record
information on a budgetary basis.

The DoD’s Agencywide financial statements and supporting trial balances are compiled from the
underlying financial data and trial balances of the Military Services and Defense Agencies and
their sub-entities. The underlying data is largely derived from budgetary transactions (obligations,
disbursements, and collections), from nonfinancial feeder systems, and accruals made for major
items such as payroll expenses, accounts payable, and environmental liabilities. Some of the sub-
entity level trial balances may reflect known abnormal balances resulting largely from business and
system processes. At the consolidated Military Service and Defense Agency level these abnormal
balances may not be evident. Disclosures of abnormal balances are made in the applicable
footnotes, but only to the extent that the abnormal balances are evident at the consolidated level.




                                        Fiscal Year 2009 Department of the Navy Annual Financial Report | 171
The DoD is determining the actions required to bring financial and nonfinancial feeder systems and
processes into compliance with USGAAP. One such action is the current revision of accounting
systems to record transactions based on the U.S. Standard General Ledger (USSGL). The USMC GF
accounting system, SABRS, is USGAAP, USSGL, and Standard Financial Information Structure
(SFIS) compliant. The SABRS is a transaction driven general ledger accounting system that
utilizes standardized transactions for processing. The USMC GF management recognizes the
existence of USMC GF dependencies related to DoD financial and nonfinancial systems. The
SABRS is interfaced with DoD approved business enterprise systems, such as the Defense Travel
System, Standard Procurement System, Defense Civilian Personnel System, Defense Property
Accountability System, and Wide Area Work Flow. These interfaces improve financial reporting
and eliminate manual recording by capturing data from the source systems. Until all USMC GF
financial and nonfinancial feeder systems and processes are updated to collect and report financial
information as required by USGAAP, USMC GF’s financial data relies, in part, on budgetary data
from nonfinancial feeder systems, and accruals.

1.E.	 Revenues and Other Financing Sources
The USMC GF receives congressional appropriations as financing sources for general funds that
expire annually, on a multi-year basis, or do not expire. When authorized by legislation, these
appropriations are supplemented by revenues generated by sales of goods or services. The
USMC GF recognizes revenue as a result of costs incurred and services provided to other federal
agencies and the public. Full cost pricing is USMC GF’s standard policy for services provided as
required by OMB Circular A 25, “User Charges.” The USMC GF recognizes revenue when earned
within the constraints of its current system capabilities. In some instances, revenue is recognized
when bills are issued.

The USMC GF does not include nonmonetary support provided by U.S. allies for common defense
and mutual security in the Statement of Net Cost and the Note 21, “Reconciliation of Net Cost of
Operations to Budget.” The U.S. has cost sharing agreements with countries having a mutual or
reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. Fleet is in port.

1.F.	Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the
period incurred. Current financial and nonfinancial feeder systems were not designed to collect
and record financial information on the full accrual accounting basis. Estimates are made for
major items such as payroll expenses, accounts payable, environmental liabilities, and unbilled
revenue. In the case of Operating Materiel and Supplies (OM&S), operating expenses are generally
recognized when the items are purchased. The USMC GF has implemented the consumption
method for recognizing OM&S expenses for certain items. Under the consumption method, OM&S
would be reported as expenses when consumed. Due to system limitations, in some instances
expenditures for capital and other long term assets may be recognized as operating expenses. The
USMC GF continues to implement process and system improvements to address these limitations.

1.G.	 Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminate intraentity activity and balances from
consolidated financial statements in order to prevent overstatement for business with itself. The
USMC GF accounts for all intragovernmental transactions at the transaction level. In an effort to
more efficiently identify intragovernmental transactions by customer, USMC GF has implemented


172 | United States Marine Corps General Fund
the DoD’s trading partner requirements in its accounting system to capture trading partner data.
Generally, seller entities within DoD provide summary seller side balances for revenue, accounts
receivable, and unearned revenue to the buyer side internal DoD accounting offices. In most cases,
the buyer side records are adjusted to agree with DoD seller side balances and are then eliminated.
The DoD system limitations and the volume of intragovernmental transactions is so large that
reconciliations cannot be accomplished effectively. The DoD is developing long term system
improvements to ensure intragovernmental information, including developing sufficient up-front
edits and controls eliminating the need for manual reconciliations.

The U.S. Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide” and
Treasury Financial Manual, Part 2 Chapter 4700, “Agency Reporting Requirements for the
Financial Report of the United States Government,” provide guidance for reporting and reconciling
intragovernmental balances. While USMC GF is unable to fully reconcile intragovernmental
transactions with all federal agencies, USMC GF is able to reconcile balances pertaining to “Federal
Employees’ Compensation Act” transactions with the Department of Labor, and benefit program
transactions with Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government
is not included. The Federal Government does not apportion debt and its related costs to federal
agencies. The DoD’s financial statements do not report any public debt, interest or source of public
financing whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To
the extent this financing ultimately may have been obtained through the issuance of public debt,
interest costs have not been capitalized since the U.S. Treasury does not allocate such costs to DoD.

1.H.	Transactions with Foreign Governments and International Organizations
Each year, USMC GF sells defense articles and services to foreign governments and international
organizations under the provisions of the “Arms Export Control Act of 1976.” Under the
provisions of the Act, DoD has authority to sell defense articles and services to foreign countries
and international organizations, generally at no profit or loss to the Federal Government. Payment
in U.S. dollars is required in advance.

1.I.	 Funds with the U.S. Treasury
The USMC GF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing
offices of Defense Finance and Accounting Service (DFAS), the Military Services, the U.S. Army
Corps of Engineers (USACE), and the Department of State’s financial service centers process
the majority of USMC GF’s cash collections, disbursements, and adjustments worldwide. Each
disbursing station prepares monthly reports to the U.S. Treasury on checks issued, electronic fund
transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by
appropriation on interagency transfers, collections received, and disbursements issued. The
U.S. Treasury records these transactions to the applicable Fund Balance with Treasury (FBWT)
account. On a monthly basis, USMC GF’s FBWT is adjusted to agree with the U.S. Treasury FBWT
accounts.




                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 173
1.J.	 Foreign Currency
Cash is the total of cash resources under the control of DoD which includes coin, paper currency,
negotiable instruments, and amounts held for deposits in banks and other financial institutions.
Foreign currency consists of the total U.S. dollar equivalent of both purchased and nonpurchased
foreign currencies held in foreign currency fund accounts. Foreign currency is valued using the
U.S. Treasury prevailing rate of exchange.

The majority of cash and all foreign currency is classified as “nonentity” and is restricted. Amounts
reported consist primarily of cash and foreign currency held by disbursing officers to carry out
their paying, collecting, and foreign currency accommodation exchange missions.

The USMC GF conducts a significant portion of operations overseas. Congress established a
special account to handle the gains and losses from foreign currency transactions for five general
fund appropriations: operations and maintenance, military personnel, military construction,
family housing operation and maintenance, and family housing construction. The gains and losses
are calculated as the variance between the exchange rate current at the date of payment and a
budget rate established at the beginning of each fiscal year. Foreign currency fluctuations related to
other appropriations require adjustment to the original obligation amount at the time of payment.
The USMC GF does not separately identify currency fluctuation transactions.

1.K.	 Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts, claims, and refunds
receivable. Allowances for uncollectible accounts due from the public are based upon analysis
of collection history by fund type. The DoD does not recognize an allowance for estimated
uncollectible amounts from other federal agencies. Claims against other federal agencies are to
be resolved between the agencies in accordance with dispute resolution procedures defined in the
Intragovernmental Business Rules published in the Treasury Financial Manual at http://www.fms.
treas.gov/tfm/vol1/07-03.pdf.

1.L.	 Direct Loans and Loan Guarantees
Not applicable.

1.M.	Inventories and Related Property
The USMC GF reports its inventory of repair parts, munitions, and ammunition in related property
as OM&S. The USMC GF manages only military or government specific materiel under normal
conditions. Materiel is a unique term that relates to military force management, and includes items
such as ships, tanks, self-propelled weapons, aircraft, etc., and related spares, repair parts, and
support equipment. Items commonly used in and available from the commercial sector are not
managed in USMC GF’s materiel management activities. The USMC GF holds materiel based on
military need and support for contingencies.

The OM&S nonammunition inventories are valued at cost using the latest acquisition cost method
and are comprised of high volume, high turnover, lower unit price supplies. The latest acquisition
cost unit prices represent end of period contract prices. The USMC GF management has performed
analysis to support that period end OM&S nonammunition account value is comparable to values
of such inventories computed at the Lower of Cost or Market pricing method.



174 | United States Marine Corps General Fund
Most of USMC GF’s OM&S are currently reported using latest acquisition cost adjusted for
holding gains and losses. The USMC GF uses the latest acquisition cost method because legacy
OM&S inventory systems were designed for materiel management rather than accounting. Older
OM&S, munitions are reported at standard price. Although the legacy systems provide visibility
and accountability over items, they do not maintain historical cost data necessary to comply with
SFFAS No. 3, “Accounting for Inventory and Related Property.” Additionally, these systems
cannot produce financial transactions using the USSGL, as required by the “Federal Financial
Management Improvement Act of 1996” (Public Law 104 208).

The USMC GF uses both the consumption method and the purchase method of accounting for
OM&S. Items that are centrally managed and stored inventories such as ammunition, tactical
missiles, spare parts, and engines are expensed based on the consumption method. Noncentrally
managed inventories are accounted for on a purchase method which expenses materiel and
supplies as purchased. The USMC GF plans to implement Global Combatant Support System to
provide unit accountability to account for all items on the consumption method of accounting.

The USMC GF determined that the recurring high dollar value of OM&S in need of repair is
material to the financial statements and requires a separate reporting category. Many high dollar
items are categorized as OM&S rather than military equipment.

The USMC GF recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost
of disposal is greater than the potential scrap value; therefore, the net value of condemned materiel
is zero.

1.N.	 Investments in U.S. Treasury Securties
The USMC GF investments in U.S. Treasury securities are reported in the DON General Fund
Financial Statements.

1.O.	 General Property, Plant, and Equipment
The USMC GF uses the estimated historical cost for valuing military equipment. The DoD
identified the universe of military equipment by accumulating information relating to program
funding and associated military equipment, equipment useful life, program acquisitions and
disposals to create a baseline. The military equipment baseline is updated using expenditure,
acquisition and disposals information.

The DoD’s General Property, Plant, & Equipment (PP&E) capitalization threshold is $100 thousand
except for real property, which is $20 thousand. The DON has not fully implemented the threshold
for real property. The USMC GF is currently using the capitalization threshold of $100 thousand
for all General PP&E.

With the exception of USACE Civil Works and Working Capital Fund, General PP&E assets are
capitalized at historical acquisition cost when an asset has a useful life of two or more years and
when the acquisition cost equals or exceeds DoD’s capitalization threshold. The DoD also requires
capitalization of improvements to existing General PP&E assets if the improvements equal or
exceed the capitalization threshold and extend the useful life or increase the size, efficiency, or
capacity of the asset. The DoD depreciates all General PP&E, other than land, on a straight-line
basis.



                                        Fiscal Year 2009 Department of the Navy Annual Financial Report | 175
When it is in the best interest of the government, the USMC GF provides government property to
contractors to complete contract work. The USMC GF either owns or leases such property, or it is
purchased directly by the contractor for the government based on the contract terms. When the
value of contractor-procured General PP&E meets or exceeds the DoD capitalization threshold,
federal accounting standards require that it be reported on USMC GF’s Balance Sheet.

The DoD developed policy and reporting process for contractors with government furnished
equipment that provides appropriate General PP&E information for financial statement reporting.
The DoD requires components to maintain, in their property systems, information on all property
furnished to contractors. These actions are structured to capture and report the information
necessary for compliance with federal accounting standards. The USMC GF has not fully
implemented this policy primarily due to system limitations. The property system’s next upgrade,
which will be used by all Marine Corps installations, will have a government furnished equipment
module so that the assets will be easier to maintain and track.

1.P.	Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy
is to record advances or prepayments in accordance with USGAAP. As such, payments in advance
of the receipt of goods and services are reported as an asset on the Balance Sheet. The DoD’s policy
is to expense and/or properly classify assets when the related goods and services are received. The
USMC GF has implemented this policy.

1.Q.	Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital
or operating leases. When a lease is essentially equivalent to an installment purchase of property
(a capital lease), and the value equals or exceeds the current capitalization threshold, USMC GF
records the applicable asset as though purchased, with an offsetting liability and depreciates it.
The USMC GF records the asset and liability at the lesser of the present value of the rental and
other lease payments during the lease term (excluding portions representing executory costs paid
to the lessor) or the asset’s fair market value. The discount rate for the present value calculation
is either the lessor’s implicit interest rate or the government’s incremental borrowing rate at
the inception of the lease. The USMC GF as the lessee receives the use and possession of leased
property, for example real estate or equipment, from a lessor in exchange for a payment of funds.
An operating lease does not substantially transfer all benefits and risk of ownership. Payments for
operating leases are expensed over the lease term as they become payable.

Office space and leases entered into by USMC GF are the largest component operating leases
and are based on costs gathered from existing leases, General Services Administration (GSA)
bills, and interservice support agreements. Future year projections use the Consumer Price. The
USMC GF has not implemented procedures to collect and report operating leases. However, under
the Financial Improvement Initiative program, USMC GF has begun to implement a strategy to
identify operating leases and to develop a process to report operating leases.

1.R.	Other Assets
Other assets includes those assets, such as military and civil service employee pay advances,
travel advances, and certain contracting financing payments that are not reported elsewhere on
USMC GF’s Balance Sheet.


176 | United States Marine Corps General Fund
The USMC GF conducts business with commercial contractors under two primary types of
contracts: fixed price and cost reimbursable. To alleviate the potential financial burden on the
contractor that long-term contracts can cause, USMC GF may provide financing payments.
Contract financing payments are defined in the Federal Acquisition Regulations, Part 32,
as authorized disbursements to a contractor prior to acceptance of supplies or services by
Government. Contract financing payment clauses are incorporated in the contract terms and
conditions and may include advance payments, performance-based payments, commercial
advance and interim payments, progress payments based on cost, and interim payments under
certain cost-reimbursement contracts. It is DoD policy to record certain contract financing
payments as other assets. The USMC GF has not fully implemented this policy primarily due to
system limitations.

Contract financing payments do not include invoice payments, payments for partial deliveries,
lease and rental payments, or progress payments based on a percentage or stage of completion.
The Defense Federal Acquisition Regulations Supplement authorizes progress payments based on
percentage of stage of completion only for construction of real property, shipbuilding, and ship
conversion, alteration, or repair. Progress payments based on percentage or stage of completion
are reported as Construction in Progress. The USMC GF does not make progress payments based
on percentage of completion; the Navy Facilities Command manages Marine Corps real property
construction and reports related progress payments in the DON statements.

1.S.	 Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by
the SFFAS No 12, “Recognition of Contingent Liabilities Arising from Litigation,” defines a
contingency as an existing condition, situation, or set of circumstances that involves an uncertainty
as to possible gain or loss. The uncertainty will be resolved when one or more future events occur
or fail to occur. The USMC GF recognizes contingent liabilities when past events or exchange
transactions occur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition
do not exist but there is at least a reasonable possibility of incurring a loss or additional losses.
The USMC GF’s risk of loss and resultant contingent liabilities arise from pending or threatened
litigation or claims and assessments due to events such as vehicle accidents, property or
environmental damages, and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for USMC GF’s assets. Consistent
with SFFAS No. 6, “Accounting for Property, Plant, and Equipment,” recognition of an anticipated
environmental disposal liability begins when the asset is placed into service. Based on DoD’s
policy, which is consistent with SFFAS No. 5, “Accounting for Liabilities of Federal Government”
nonenvironmental disposal liabilities are recognized when management decides to dispose of the
asset. The USMC GF does not have nuclear powered military equipment.

1.T.	 Accrued Leave
The USMC GF reports liabilities for military leave and accrued compensatory and annual leave
for civilians. Sick leave for civilians is expensed as taken. The liabilities are based on current pay
rates.




                                          Fiscal Year 2009 Department of the Navy Annual Financial Report | 177
1.U.	Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended appropriations represent the amounts of budget authority that are unobligated and
have not been rescinded or withdrawn. Unexpended appropriations also represent amounts
obligated for which legal liabilities for payments have not been incurred.

Cumulative results of operations represent the net difference between expenses and losses and
financing sources (including appropriations, revenue, and gains) since inception. Cumulative
results of operations also include donations and transfers in and out of assets that were not
reimbursed.

1.V.	Treaties for Use of Foreign Bases
The DoD has the use of the land, buildings, and other overseas facilities that are obtained through
various international treaties and agreements negotiated by the Department of State. The
USMC GF purchases capital assets overseas with appropriated funds; however, the host country
retains title to the land and capital improvements. Treaty terms generally allow USMC GF
continued use of these properties until the treaties expire. In the event treaties or other agreements
are terminated, use of the foreign bases is prohibited and losses are recorded for the value of any
nonretrievable capital assets. The settlement due to the U.S. or host nation is negotiated and
takes into account the value of capital investments and may be offset by the cost of environmental
cleanup.

1.W.	Unexpended Obligations
The USMC GF obligates funds to provide goods and services for outstanding orders not yet
delivered. Unless the title has passed, the financial statements do not reflect a liability for payment
for goods and services not yet delivered. Unexpended obligations include both obligations
for which goods and services have been delivered (title passed) and a liability recognized, and
obligations for which no delivery has occurred and no liability recognized. The balance of
unexpended obligations appears immediately before net outlays in the Statement of Budgetary
Resources, and is referred to as “Total, unpaid obligated balances, net, end of period.”

1.X.	 Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and
collections matched at the transaction level to a specific obligations, payables, or receivables in the
source system and those reported by the U.S. Treasury.

Supported disbursements and collections are evidenced by corroborating documentation.
Unsupported disbursements and collections do not have supporting documentation for the
transaction and most likely do not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between
federal and nonfederal categories based on the percentage of distributed federal and nonfederal
accounts payable and accounts receivable. Supported undistributed disbursements and
collections are then applied to reduce accounts payable and receivable accordingly. Unsupported
undistributed disbursements are recorded as disbursements in transit and reduce nonfederal



178 | United States Marine Corps General Fund
accounts payable. Unsupported undistributed collections are recorded in nonfederal other
liabilities.

1.Y.	 Significant Events
The USMC GF has no significant events to disclose.

1.Z.	 Fiduciary Activities
Fiduciary cash and other assets are not assets of the USMC GF and are not recognized on the
balance sheet. Fiduciary activities are reported on the financial statement note schedule


Note 2.	Nonentity Assets
As of September 30                                                         2009                   2008
(Amounts in thousands)

1. Intragovernmental Assets
      A. Fund Balance with Treasury                                $              69,717    $            129,938
      B. Accounts Receivable                                                           0                       0
      C. Total Intragovernmental Assets                            $              69,717    $            129,938

2. Nonfederal Assets
     A. Cash and Other Monetary Assets                             $              26,640    $             52,645
     B. Accounts Receivable                                                          392                     407
     C. Other Assets                                                                   0                       0
     D. Total Nonfederal Assets                                    $              27,032    $             53,052

3. Total Nonentity Assets                                          $              96,749    $            182,990

4. Total Entity Assets                                             $           37,156,264   $         36,875,477

5. Total Assets                                                    $           37,253,013   $         37,058,467




Nonentity assets are assets for which USMC GF maintains stewardship accountability and
reporting responsibility, but are not available for USMC’s normal operations.

The nonentity fund balance with treasury represents amounts in USMC GF deposit fund
accounts. The deposit fund accounts contain various withholdings from Marines’ pay such as
taxes, allotments, and garnishments held until the appropriate disbursement date. The USMC GF
maintains stewardship accountability and reporting responsibility for these assets, but the assets
are not available for use in normal operations.

Nonentity cash and other monetary assets represent cash held by disbursing officers to carry out
payment, collection, and foreign currency accommodation exchange missions.

The nonentity nonfederal accounts receivable represents interest, fines, and penalties receivable on
aged delinquent debt. Once collected, nonentity receivables are deposited to the U.S. Treasury as
miscellaneous receipts.




                                          Fiscal Year 2009 Department of the Navy Annual Financial Report | 179
Note 3.	Fund Balance with Treasury
As of September 30                                                    2009                2008
(Amounts in thousands)

1. Fund Balances
     A. Appropriated Funds                                     $         17,911,460   $      17,679,140
     B. Revolving Funds                                                           0                   0
     C. Trust Funds                                                               0                   0
     D. Special Funds                                                           676                 610
     E. Other Fund Types                                                     69,717             129,937
     F. Total Fund Balances                                    $         17,981,853   $      17,809,687

2. Fund Balances Per Treasury Versus Agency
     A. Fund Balance per Treasury                              $         15,576,518   $      15,793,969
     B. Fund Balance per USMC General Fund                               17,981,853          17,809,687

3. Reconciling Amount                                          $         (2,405,335) $       (2,015,718)




Explanation of Reconciliation Amount

	    (In thousands)
Shared Appropriations per USMC GF*	                  $2,556,923
Suspense Accounts per USMC GF**	                       (89,518)
DoD Wide difference between SDP and GWA***	             (11,071)
Total Reconciling Amount	                            $2,405,335

*This amount is the fund balance with treasury for USMC GF portion of appropriations shared
with the U.S. Navy: Research and Development, Test and Evaluation, Navy; Procurement of
Ammunition, Navy and Marine Corps; Wildlife Conservation, Military Reservations, Navy;
and Family Housing Operation and Maintenance, Navy and Marine Corps. The U.S. Treasury
maintains and reports fund balances at the Treasury Index appropriation level. As a result, the
U.S. Treasury does not separately identify USMC GF portion of fund balance with treasury for the
shared appropriations.

**This amount is the fund balance with treasury for suspense and deposit accounts shared with
the U.S. Navy: Disbursing Officer Suspense Account; Lost or Cancelled Treasury Checks Suspense
Account; Interfund/Intragovernmental Payment and Collection (IPAC) Suspense Account; and
Small Escrow Amounts Deposit Account. The U.S. Treasury does not separately identify USMC GF
portion of fund balance with treasury for the shared suspense and deposit accounts.

***This amount is to reconcile at DoD Agencywide level fund balance with treasury Saving Deposit
Program (SDP) with the U.S. Treasury Government-Wide Accounting (GWA). At 1st Quarter,
FY 2009, OUSD(C) decided that USMC GF will report the difference between SDP and GWA
balances for all Services as nonentity. The USMC GF account balance consists of other non-SDP
payroll withholdings; this deposit account is used for all payroll withholdings for Marines and is in
the process of being reconciled.

Other fund types represent USMC GF deposit fund accounts. The deposit fund accounts contain
various withholdings from Marines’ pay such as taxes, allotments, and garnishments held until


180 | United States Marine Corps General Fund
the appropriate disbursement date. The USMC GF maintains stewardship accountability and
reporting responsibility for these assets, but the assets are not available for use in USMC GF
operations.

Status of Fund Balance with Treasury

As of September 30                                                        2009                   2008
(Amounts in thousands)

1. Unobligated Balance
     A. Available                                                 $              3,455,244   $          4,657,091
     B. Unavailable                                                                623,233                512,559

2. Obligated Balance not yet Disbursed                            $           14,037,593     $       12,868,599

3. Nonbudgetary FBWT                                              $                (19,800) $             (37,622)

4. NonFBWT Budgetary Accounts                                     $               (114,417) $           (190,940)

5. Total                                                          $           17,981,853     $       17,809,687


Status of Fund Balance with Treasury
The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support the
FBWT and is a reconciliation between budgetary and proprietary accounts. It primarily consists
of unobligated and obligated balances. The balances reflect the budgetary authority remaining for
disbursement against current or future obligations.

Unobligated balance is classified as available or unavailable and represents the cumulative
amount of budgetary authority that has not been set aside to cover outstanding obligations.
Certain unobligated balances are restricted for future use and are not apportioned for current
use. Unobligated balances for trust fund accounts are restricted for use by the public law that
established the funds.

Obligated balance not yet disbursed represents funds that have been obligated for goods and
services not received, and those received but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as unavailable
receipt accounts or clearing accounts. Nonbudgetary FBWT is comprised of the fund balance with
Treasury for the Disbursing Officer Suspense Account, Lost or Cancelled Treasury Checks Suspense
Account, Interfund/IPAC Suspense Account, Small Escrow Accounts Deposit Account, and the Pay
of the Marine Corps Deposit Account.

NonFBWT Budgetary Accounts reduce the Status of FBWT. NonFBWT budgetary accounts are
comprised of unfilled customer orders without advance and reimbursements and other income
earned-receivable.

Unobligated balances are segregated to show available and unavailable amounts in the note
schedule. Certain unobligated balances are unavailable for new obligations, but the USMC GF has
no restrictions on unobligated balances.



                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 181
Note 4.	Investments and Related Interest
The USMC GF investments and related interest are reported under the Department of the Navy
General Fund.


Note 5.	Accounts Receivable
As of September 30                                                               2009
                                                                          Allowance For
                                                                                                 Accounts Receivable,
                                                  Gross Amount Due          Estimated
                                                                                                        Net
                                                                          Uncollectibles
(Amounts in thousands)

1. Intragovernmental Receivables                  $          32,494                       N/A $               32,494
2. Nonfederal Receivables (From the Public)       $          37,640   $                  (7,098) $            30,542

3. Total Accounts Receivable                      $          70,134   $                  (7,098) $            63,036



As of September 30                                                               2008
                                                                          Allowance For
                                                                                                 Accounts Receivable,
                                                  Gross Amount Due          Estimated
                                                                                                        Net
                                                                          Uncollectibles
(Amounts in thousands)

1. Intragovernmental Receivables                  $          56,370                       N/A $               56,370
2. Nonfederal Receivables (From the Public)       $          20,059   $                 (12,510) $             7,549

3. Total Accounts Receivable                      $          76,429   $                 (12,510) $            63,919




Note 6.	Other Assets
As of September 30                                                        2009                        2008
(Amounts in thousands)

1. Intragovernmental Other Assets
      A. Advances and Prepayments                            $                          29   $                  872
      B. Other Assets                                                                    0                        0
      C. Total Intragovernmental Other Assets                $                          29   $                  872

2. Nonfederal Other Assets
     A. Outstanding Contract Financing Payments              $                   531,473     $               635,080
     B. Advances and Prepayments                                                  29,734                      28,867
     C. Other Assets (With the Public)                                                 0                           0
     D. Total Nonfederal Other Assets                        $                   561,207     $               663,947

3. Total Other Assets                                        $                   561,236     $               664,819




Contract terms and conditions for certain types of contract financing payments convey certain
rights to the Government that protect the contract work from state or local taxation, liens or


182 | United States Marine Corps General Fund
attachment by the contractor’s creditors, transfer of property, or disposition in bankruptcy.
However, these rights should not be misconstrued to mean that ownership of the contractor’s work
has transferred to the Federal Government. The Federal Government does not have the right to
take the work, except as provided in contract clauses related to termination or acceptance, and
USMC GF is not obligated to make payment to the contractor until delivery and acceptance.

The Contract Financing Payment balance $531.5 million is comprised of $505.7 million in contract
financing payments and an additional $25.8 million in estimated future payments that will be paid
to the contractor upon future delivery and Government acceptance of a satisfactory product. (See
additional discussion in Note 15, Other Liabilities).


Note 7.	Cash and Other Monetary Assets
As of September 30                                                           2009                   2008
(Amounts in thousands)

1. Cash                                                              $                21,205    $            52,645
2. Foreign Currency                                                                    5,435                      0
3. Other Monetary Assets                                                                   0                      0

4. Total Cash, Foreign Currency, & Other Monetary Assets             $                26,640    $            52,645




Cash and foreign currency are nonentity assets held by USMC GF. Cash, $21.2 million and foreign
currency, $5.4 million are restricted, held by USMC disbursing officers, but not available for
USMC GF’s normal operations.

The amounts reported as cash consist of cash held by disbursing officers to carry out their
payment, collection, and foreign currency accommodation exchange mission. The source of the
amounts reported is the Statement of Accountability, a DoD disbursing officer’s report.


Note 8.	Direct Loan and Loan Guarantees
Not applicable.


Note 9.	Inventory and Related Property
As of September 30                                                           2009                   2008
(Amounts in thousands)

1. Inventory, Net                                                    $                      0   $                  0
2. Operating Materiel & Supplies, Net                                               5,809,902              6,439,109
3. Stockpile Materiel, Net                                                                  0                      0

4. Total                                                             $              5,809,902   $          6,439,109




Inventory, Net
Not applicable.


                                            Fiscal Year 2009 Department of the Navy Annual Financial Report | 183
Operating Materiel and Supplies, Net

As of September 30                                                               2009
                                               OM&S                Revaluation                              Valuation
                                             Gross Value           Allowance               OM&S, Net         Method
(Amounts in thousands)

1. OM&S Categories
     A. Held for Use                     $         5,424,975   $                  0    $        5,424,975   SP, LAC, MAC
     B. Held for Repair                             384,927                       0              384,927    SP, LAC, MAC
     C. Excess, Obsolete, and
        Unserviceable                               131,092                (131,092)                   0       NRV


      D. Total                           $         5,940,994   $           (131,092) $          5,809,902




As of September 30                                                               2008
                                               OM&S                Revaluation                              Valuation
                                             Gross Value           Allowance               OM&S, Net         Method
(Amounts in thousands)

1. OM&S Categories
     A. Held for Use                     $         5,928,868   $                  0    $        5,928,868   SP, LAC, MAC
     B. Held for Repair                             510,241                       0              510,241    SP, LAC, MAC
     C. Excess, Obsolete, and
        Unserviceable                                88,964                 (88,964)                   0       NRV


      D. Total                           $         6,528,073   $            (88,964) $          6,439,109


Legend for Valuation Methods:
   LAC = Latest Acquistion Cost                                NRV = Net Realizable Value
   SP = Standard Price                                         MAC = Moving Average Cost



General Composition of Operating Materiel and Supplies
Operating materiel and supplies include (1) ammunition and munitions that consists of spare and
repair parts and missiles, and (2) Appropriation Purchase Account (APA) Secondary Inventory that
consists of spare and repair parts, clothing and textiles, medical and dental supplies, and fuel.

Restrictions on Operating Materiel and Supplies
There are no restrictions on the use of operating materiel and supplies.

Decision Criteria for Identifying the Category to which Operating Materiel and Supplies are
Assigned
The USMC GF determines reporting categories for operating materiel and supplies based on
condition codes assigned to individual inventory items.

Of the $5.8 billion operating materiel and supplies, $5.5 billion is valued using latest acquisition
cost adjusted for gains and losses, and the remaining $346.2 million is valued at standard price.

Stockpile Materiel, Net
Not applicable.


184 | United States Marine Corps General Fund
Note 10.	General PP&E, Net
As of September 30                                                                          2009
                                                 Depreciation/                                           (Accumulated
                                                 Amortization    Service Life   Acquisition Value        Depreciation/         Net Book Value
                                                   Method                                                Amortization)
(Amounts in thousands)


1. Major Asset Classes
      A. Land                                        N/A            N/A         $         169,067                   N/A $              169,067
      B. Buildings, Structures, and Facilities       S/L           20 Or 40              8,609,832   $         (4,553,370)            4,056,462
      C. Leasehold Improvements                      S/L          lease term                    0                        0                      0
      D. Software                                    S/L          2-5 Or 10                     0                        0                      0
      E. General Equipment                           S/L           5 or 10                393,870                (142,200)             251,670
      F. Military Equipment                          S/L           Various              11,202,272             (2,869,125)            8,333,147
      G. Shipbuilding (Construction-in-
           Progress)                                 N/A            N/A                         0                        0                      0
      H. Assets Under Capital Lease                  S/L          lease term                    0                        0                      0
      I. Construction-in-Progress (Excludes
           Military Equipment)                       N/A            N/A                         0                   N/A                         0
      J. Other                                                                                  0                        0                      0
      K. Total General PP&E                                                     $       20,375,041   $         (7,564,695) $         12,810,346


As of September 30                                                                          2008
                                                 Depreciation/                                           (Accumulated
                                                 Amortization    Service Life   Acquisition Value        Depreciation/         Net Book Value
                                                   Method                                                Amortization)
(Amounts in thousands)




1. Major Asset Classes
      A. Land                                        N/A            N/A         $         166,286                   N/A $              166,286
      B. Buildings, Structures, and Facilities       S/L           20 Or 40              7,975,979   $         (4,264,255)            3,711,724
      C. Leasehold Improvements                      S/L          lease term                    0                        0                      0
      D. Software                                    S/L          2-5 Or 10                     0                        0                      0
      E. General Equipment                           S/L           5 or 10                507,536                (173,235)             334,301
      F. Military Equipment                          S/L           Various              10,119,025             (2,303,048)            7,815,977
      G. Shipbuilding (Construction-in-
           Progress)                                 N/A            N/A                         0                        0                      0
      H. Assets Under Capital Lease                  S/L          lease term                    0                        0                      0
      I. Construction-in-Progress (Excludes
           Military Equipment)                       N/A            N/A                         0                   N/A                         0
      J. Other                                                                                  0                        0                      0
      K. Total General PP&E                                                     $       18,768,826   $         (6,740,538) $         12,028,288


Legend for Valuation Methods:
   S/L = Straight Line                                           N/A = Not Applicable




Restrictions on the use or convertibility of General Property, Plant, and Equipment, Net
For USMC GF sites outside of the continental U.S. there are no restrictions on the use or
convertibility of General Property, Plant, and Equipment (PP&E) in accordance with international
agreements with Japan. In other areas where Marines are deployed, such as Iraq or Afghanistan,
information is not available regarding restrictions on General PP&E.



                                                    Fiscal Year 2009 Department of the Navy Annual Financial Report | 185
Heritage Assets and Stewardship Land
The Federal Accounting Standards Advisory Board’s SFFAS No. 29, “Heritage Assets and
Stewardship Land,” requires note disclosures for these types of assets. The USMC GF policy
is to preserve its heritage assets, which are items of historical, cultural, educational, or artistic
importance.

Heritage assets within the USMC GF consist of buildings and structures, and museum collections.
The USMC GF defines these as follows:

   n	     Buildings and Structures. Buildings and structures listed on or eligible for listing on, the
          National Register of Historic Places, including Multi-Use Heritage Assets.
   n	     Museum Collection Items. Items which are unique for one or more of the following
          reasons: historical or natural significance; cultural, educational, or artistic importance; or
          significant technical or architectural characteristics.

The methodology used to report the condition of the heritage assets was a combination of visual
assessment of the objects, historic value to USMC GF collection, and general display and storage
standards for historic collections. The overall condition of the collection objects is good.

The USMC GF holds the following quantities of heritage assets at September 30, 2009.
                                                            Measure    As of September                                    As of September
Categories                                                  Quantity       30, 2008         Additions       Deleitons         30, 2009

Buildings and Structures                                    Each                  1,960                 0            0              1,960
Archaeological Sites                                        Each                     0                  0            0                 0
Musuem Collection Items (Objects, Not Including Fine Art)   Each                 40,491           1,299             48             41,742
Musuem Collection Items (Objects, Fine Art)                 Each                  1,014            129               1              1,142




The USMC GF continues to review and validate the heritage asset database. For FY 2009, the
USMC GF acquired 129 fine art objects and 1,299 other museum collection items partly through
donation and as a result of reclassification of items in the            database.
                                                                           September Items were also deleted
                                                     (acres in Thousands)
                                                                     As of                                 As of September
because    they Facility
Facility Code   did not  Titlemeet the reporting criteria.               30, 2007      Additions Deleitons     30, 2008
9110             Government Owned Land                                             789                  0            0               789
9111             State Owned Land                                                    0                  0            0                 0
9120             Withdrawn Public Land                                             679                  0            0               679
9130             Licensend and Permitted Land                                        7                  0            0                 7
9140             Public Land                                                       692                  0            0               692
9210             Land Easement                                                      36                  0           28                 8
9220             In-Leased Land                                                     63                  0            0                63
9230             Foreign Land                                                       84                  0            0                84
                                                                                                            Grand Total             2,322
                                                                                            TOTAL - All Other Lands                  951
                                                                                          TOTAL - Stewardship Lands                 1,371




186 | United States Marine Corps General Fund
                                                                    Measure      As of September                                    As of September
Categories                                                          Quantity         30, 2008         Additions       Deleitons         30, 2009

Buildings and Structures                                            Each                    1,960                 0            0              1,960
Archaeological Sites                                                Each                       0                  0            0                 0
Musuem Collection Items (Objects, Not Including Fine Art)           Each                   40,491           1,299             48             41,742
The  USMC GF’s
 Musuem               stewardship
        Collection Items                land consists mainly
                         (Objects, Fine Art)           Each of mission essential
                                                                         1,014   land129
                                                                                      acquired by
                                                                                                1 donated1,142
or devise. Fiscal Year ended September 30, 2009 stewardship land data is not available due to
limitation of the USMC GF financial and nonfinancial management processes and systems that feed
into the financial statements. The USMC GF held the following acres of land as of September 30,
2008.
                                                                  (acres in Thousands)
                                                                                  As of September                                   As of September
Facility Code        Facility Title                                                   30, 2007        Additions       Deleitons         30, 2008
9110                 Government Owned Land                                                   789                  0            0               789
9111                 State Owned Land                                                          0                  0            0                 0
9120                 Withdrawn Public Land                                                   679                  0            0               679
9130                 Licensend and Permitted Land                                               7                 0            0                 7
9140                 Public Land                                                             692                  0            0               692
9210                 Land Easement                                                            36                  0           28                 8
9220                 In-Leased Land                                                           63                  0            0                63
9230                 Foreign Land                                                             84                  0            0                84
                                                                                                                      Grand Total             2,322
                                                                                                      TOTAL - All Other Lands                  951
                                                                                                    TOTAL - Stewardship Lands                 1,371

Note: FY 2009 data will be available after December 15, 2009


The overall mission of USMC is to provide trained and equipped forces to Combatant
Commanders in support of the President’s National Security Strategy. In that mission the
USMC GF, with minor exceptions, uses most of the buildings and stewardship land in its daily
activities and includes the buildings on the Balance Sheet as multi-use heritage assets (capitalized
and depreciated).

Stewardship land also includes public domain and land set aside. Within the definition of
stewardship land, land can be further categorized as improved, semi-improved or in the other
category of land. Some of this land is used as a buffer around perimeter of Marine Corps
installations and may be used grazing land and forestry maintenance areas. The USMC GF strives
to be a responsible steward of the land and maintain it in a way that protect human health and the
environmental and allows for training and support of force readiness.

Assets under Capital Lease
Not applicable.




                                                               Fiscal Year 2009 Department of the Navy Annual Financial Report | 187
Note 11.	Liabilities Not Covered by Budgetary Resources
As of September 30                                                     2009                   2008
(Amounts in thousands)

1. Intragovernmental Liabilities
      A. Accounts Payable                                       $                1,850    $             1,693
      B. Debt                                                                        0                      0
      C. Other                                                                  93,087                129,868
      D. Total Intragovernmental Liabilities                    $               94,937    $           131,561

2. Nonfederal Liabilities
     A. Accounts Payable                                        $               23,499    $            19,097
     B. Military Retirement and Other Federal Employment
          Beneﬁts                                                              194,375                219,057
     C. Environmental Liabilities                                              250,891                262,455
     D. Other Liabilities                                                      785,564                716,421
     E. Total Nonfederal Liabilities                            $             1,254,329   $          1,217,030

3. Total Liabilities Not Covered by Budgetary Resources         $             1,349,266   $          1,348,591

4. Total Liabilities Covered by Budgetary Resources             $             1,450,362   $          1,575,562

5. Total Liabilities                                            $             2,799,628   $          2,924,153




Liabilities not covered by budgetary resources are liabilities for which congressional action is
needed before budgetary resources can be provided. These liabilities are not covered by realized
budgetary resources as of the Balance Sheet date. Budgetary authority to satisfy these liabilities
is expected to be provided in a future Defense Appropriations Act. When that future budgetary
authority is provided, these respective liabilities will be recorded as covered by budgetary
resources with an associated funded expense.

Unfunded military and civilian leave liability, $743.5 million is not covered by budgetary resources
because it is funded as leave is taken. Environmental Liabilities, $250.9 million, are estimates
related to future events that will be budgeted for when those assets are removed from service and
cleaned up in future years.

The military retirement and other federal employment benefits, $194.4 million consists of various
employee future actuarial liabilities not due and payable during the current fiscal year. Refer to
Note 17, Military Retirement and Other Federal Employment Benefits, for additional details and
disclosures.

Intragovernmental liabilities – other (not covered by budgetary resources) includes liability for the
Federal Employees Compensation Act, $51.4 million and unemployment compensation,
$41.7 million.

Nonfederal liabilities - other liabilities (not covered by budgetary resources) includes civilian and
military unfunded leave liability, $743.5 million and nonenvironmental disposal excess/obsolete
structures liability, $39.4 million.


188 | United States Marine Corps General Fund
Note 12.	Accounts Payable
As of September 30                                                              2009

                                                                       Interest, Penalties, and
                                                  Accounts Payable                                    Total
                                                                        Administrative Fees

(Amounts in thousands)

1. Intragovernmental Payables                 $              204,531   $         N/A              $           204,531
2. Nonfederal Payables (to the Public)                       703,449                         0                703,449
3. Total                                      $              907,980   $                     0    $           907,980



As of September 30                                                              2008

                                                                       Interest, Penalties, and
                                                  Accounts Payable                                    Total
                                                                        Administrative Fees

(Amounts in thousands)

1. Intragovernmental Payables                 $              197,807   $         N/A              $           197,807
2. Nonfederal Payables (to the Public)                       853,096                         0                853,096
3. Total                                      $            1,050,903   $                     0    $       1,050,903




Accounts payable include amounts owed to federal and nonfederal entities for goods and services
received by USMC GF. The USMC GF has implemented the DoD’s trading partner requirements in
the core accounting system, Standard Accounting Budgeting Reporting System to capture trading
partner data. Other financial and feeder systems do not track intragovernmental transactions by
customer at the transaction level. Buyer-side accounts payable are adjusted to agree with internal
seller side accounts receivable. Accounts payable was adjusted by reclassifying amounts between
federal and nonfederal accounts payable.


Note 13.	Debt
Not applicable.




                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 189
Note 14.	Environmental Liabilities
As of September 30                                                                 2009                 2008
(Amounts in thousands)


1. Environmental Liabilities--Nonfederal
   A. Accrued Environmental Restoration Liabilities
      1. Active Installations—Installation Restoration Program (IRP) and
           Building Demolition and Debris Removal (BD/DR)                      $               0    $               0
      2. Active Installations—Military Munitions Response Program (MMRP)                       0                    0
      3. Formerly Used Defense Sites—IRP and BD/DR                                             0                    0
      4. Formerly Used Defense Sites--MMRP                                                     0                    0


   B. Other Accrued Environmental Liabilities—Non-BRAC
      1. Environmental Corrective Action                                                  111,843               98,927
      2. Environmental Closure Requirements                                               112,301              126,707
      3. Environmental Response at Operational Ranges                                         23                   22
      4. Asbestos                                                                           2,893                   0
      5. Non-Military Equipment                                                            23,785               36,742
      6. Other                                                                                47                   57


   C. Base Realignment and Closure Installations
      1. Installation Restoration Program                                                      0                    0
      2. Military Munitions Response Program                                                   0                    0
      3. Environmental Corrective Action / Closure Requirements                                0                    0
      4. Asbestos                                                                              0                    0
      5. Non-Military Equipment                                                                0                    0
      6. Other                                                                                 0                    0


   D. Environmental Disposal for Military Equipment / Weapons Programs
      1. Nuclear Powered Military Equipment / Spent Nuclear Fuel                               0                    0
      2. Non-Nuclear Powered Military Equipment                                                0                    0
      3. Other National Defense Weapons Systems                                                0                    0
      4. Other                                                                                 0                    0


   E. Chemical Weapons Disposal Program
      1. Chemical Demilitarization - Chemical Materials Agency (CMA)                           0                    0
      2. Chemical Demilitarization - Assembled Chemical Weapons Alternatives
           (ACWA)                                                                              0                    0
      3. Other                                                                                 0                    0


2. Total Environmental Liabilities                                             $          250,892   $          262,455




Environmental Liabilities Nonfederal
Other Accrued Environmental Liabilities – Active Installations
In the 4th Quarter, FY 2009, USMC GF reported $111.8 million in environmental corrective action
and $112.3 million in environmental closure requirements. The USMC GF is continuing efforts
to complete their survey and estimations of USMC GF environmental liabilities of closure/
decommissioning requirements for ongoing operations.

Other Accrued Environmental Liabilities – Other
The USMC GF reported $47.1 thousand in other accrued environmental liabilities, other which is
comprised solely of noncurrent liability for transformers containing Polychlorinated Biphenyls (PCB).


190 | United States Marine Corps General Fund
Unrecognized Cleanup Costs
The unrecognized portion of cleanup costs is the unamortized portion of closure assets and non
military equipment, and un-utilized landfill capacity. As of September 30, 2009, total unrecognized
other environmental liabilities were $60.2 million.

Applicable Laws and Regulations for Cleanup Requirements
The following is a summary of significant laws that impact USMC GF’s environmental policy and
regulations for cleanup requirements:

The Resource Conservation and Recovery Act (RCRA) of 1976 as amended by the Hazardous and
Solid Waste Amendments of 1984, was the first comprehensive federal effort to deal with safe
disposal of all types of hazardous wastes, and provides for “cradle to grave” tracking of hazardous
wastes. The RCRA addresses and requires permits for solid waste and hazardous waste closure
and corrective action, including solid waste landfill and hazardous waste permitted storage facility
closures. Permits are required for treatment, storage or disposal. Requirements for underground
storage tanks are also contained in RCRA.

The Comprehensive Environmental Response, Compensation, and Liability Act of 1980
(CERCLA), commonly referred to as the Superfund legislation, provided for Federal agencies
authority to respond to the release or the substantial threat of release of hazardous substances
into the environment. The CERCLA was amended several times; one of the amendments was the
Superfund Amendment and Reauthorization Act of 1986. This amendment established procedures
to ensure that actual or threatened hazardous substance releases have proper responses. The
procedures address reporting, investigating, remedy selection, and responsive provisions.

The Clean Water Act (CWA) of 1977, Section 405 Disposal of Sewage Sludge, amended the Federal
Water Pollution Control Act. The purpose of CWA is to restore and maintain the integrity of the
nation’s waters. Facilities may dispose of sewage sludge on site from the operation of a treatment
works. The CWA implementing regulations established closure and post closure requirements
for sewage sludge disposal. To help protect the nation’s drinking water supply, including
underground injections through a permitting scheme implemented by the states is the purpose
of the Safe Drinking Water Act (SDWA) of 1974, amended in 1986 to include Wellhead Protection
Areas. The SDWA regulates the underground disposal of wastes in deep wells and establishes a
program to protect public water supply wells. One requirement to protect public water supply
wells addresses closure of Class I injection wells used for industrial hazardous, industrial
nonhazardous and municipal (nonhazardous) waste.

Method for Assigning Estimated Total Cleanup Costs to Current Operating Periods
The USMC GF uses engineering estimates and independently validated models to estimate
environmental costs. The models are contained within the Remedial Action Cost Engineering
Requirements and the Normalization of Data System. The DoD validates the models in accordance
with DoD Instruction 5000.61 and primarily uses the models to estimate the liabilities based
on data received during a preliminary assessment and initial site investigation. The USMC GF
primarily uses engineering estimates after obtaining extensive data during the remedial
investigation/feasibility phase of the environmental project.

Once the environmental cost estimates are complete, USMC GF complies with accounting
standards to assign costs to current operating periods. The USMC GF has already expensed the


                                        Fiscal Year 2009 Department of the Navy Annual Financial Report | 191
costs for cleanup associated with General PP&E placed into service prior to October 1, 1997, unless
the costs are intended to be recovered through user charges. If the costs are recovered through user
charges, then USMC GF expensed that portion of the asset that has passed since General PP&E was
placed into service and is systematically recognizing the remaining cost over the life of the assets.

For General PP&E placed into service after September 30, 1997, the USMC GF expenses the
associated environmental costs systematically over the life of the asset. The USMC GF expenses
the full cost to clean up contamination for Stewardship PP&E at the time the asset is placed into
service.

The USMC GF uses two methods for systematic recognition: physical capacity for operating
landfills and life expectancy in years for all other assets.

Method for Estimating NonDefense Environmental Restoration Program (NonDERP)
Environmental Liabilities
The NonDERP environmental liability estimates are based on the following:

   n	   Execution/payment amounts,
   n	   Historical references (e.g., prior projects, investigations, monitoring),
   n	   Current projects of comparable scope (similar sites),
   n	   Estimates from vendors/contractors,
   n	   Estimates from Military Construction Data Project form,
   n	   Program Objectives Memorandum Guidebook, and
   n	   Professional experience.

Description of the Types of Environmental Liabilities and Disposal Liabilities
Other Accrued Environmental Costs (NonDERP funds), Cost, Base Realignment and Closure
(BRAC), and Environmental Disposal for Weapons systems Programs
The USMC GF defines NonDERP environmental sites/units as those sites/units associated with
on-going operations such as solid waste management unit cleanup, landfill closure, permitted
facilities, removal, replacement, retro fill, and/or disposal of the PCB transformers, underground
storage tank remedial investigation and closure. The USMC GF has reported NonDERP
environmental liabilities for USMC GF installations totaled 225 projects and covered approximately
3,290 sites. The projects span the following nonDERP reporting categories: (1) closure for units
or sites put into service prior to September 30, 1997, (2) closure for units or sites put into service
after September 30, 1997, and (3) corrective actions. There are no projects that are categorized as
NonDERP environmental liability for “response at active ranges” and other reporting categories.
For units or sites put into service after September 30, 1997, the number of years of service was used
to allocate the liability for the current fiscal year and the accumulated liability to date.

Accrued Environmental Restoration Defense Environmental Restoration Program (DERP)
Funded
The U.S. Navy centrally manages and executes DERP and BRAC portions at Department of the
Navy level. Therefore, USMC GF does not report DERP and BRAC environmental liabilities.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to
Inflation, Deflation, Technology, or Applicable Laws and Regulations


192 | United States Marine Corps General Fund
NonDERP environmental liabilities can change in the future because of changes in laws/
regulations and regulatory agencies agreements, and technology advances.

Description of the Level of Uncertainty Regarding the Accounting Estimates used to Calculate
the Reported Environmental Liabilities
The environmental liabilities for USMC GF are based on accounting estimates that require certain
judgments and assumptions that we believe are reasonable based upon information available to us
at the time of calculating the estimates. The actual results may vary materially from the accounting
estimates if laws/regulations change requiring a different closure method, or if agreements with
regulatory agencies require remediation to a different degree than anticipated when calculating the
estimates. The liabilities can be further impacted if further investigation of the environmental sites
discloses contamination different than known at the time of the estimates.




                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 193
Note 15.	Other Liabilities
As of September 30                                                                     2009
                                                              Current               Noncurrent
                                                                                                         Total
                                                              Liability              Liability
(Amounts in thousands)

1. Intragovernmental
      A. Advances from Others                             $                 0   $                0   $                0
      B. Deposit Funds and Suspense Account Liabilities              (19,800)                    0               (19,800)
      C. Disbursing Ofﬁcer Cash                                      26,641                      0               26,641
      D. Judgment Fund Liabilities                                          0                    0                    0
      E. FECA Reimbursement to the Dept. of Labor                    22,512                28,919                51,431
      F. Custodial Liabilities                                            391                    0                  391
      G. Employer Contribution and
           Payroll Taxes Payable                                      9,281                      0                9,281
      H. Other Liabilities                                           41,749                      0               41,749


     I. Total Intragovernmental Other Liabilities         $          80,774     $          28,919    $       109,693


2. Nonfederal
     A. Accrued Funded Payroll and Beneﬁts                $         513,439     $                0   $       513,439
     B. Advances from Others                                          4,052                      0                4,052
     C. Deferred Credits                                                    0                    0                    0
     D. Deposit Funds and Suspense Accounts                                 0                    0                    0
     E. Temporary Early Retirement Authority                                0                    0                    0
     F. Nonenvironmental Disposal Liabilities                                                                         0
             (1) Military Equipment (Nonnuclear)                            0                    0                    0
             (2) Excess/Obsolete Structures                           5,282                34,110                39,392
             (3) Conventional Munitions Disposal                            0                    0                    0
     G. Accrued Unfunded Annual Leave                               743,476                      0           743,476
     H. Capital Lease Liability                                             0                    0                    0
      I. Contract Holdbacks                                           5,460                      0                5,460
     J.    Employer Contribution and                                                                                  0
            Payroll Taxes Payable                                     2,363                      0                2,363
     K. Contingent Liabilities                                              0              28,506                28,506
     L. Other Liabilities                                                   0                    0                    0


     M. Total Nonfederal Other Liabilities                $        1,274,072    $          62,616    $      1,336,688


3. Total Other Liabilities                                $        1,354,846    $          91,535    $      1,446,381




194 | United States Marine Corps General Fund
As of September 30                                                                            2008
                                                                     Current               Noncurrent
                                                                                                                Total
                                                                     Liability              Liability
(Amounts in thousands)

1. Intragovernmental
      A. Advances from Others                                    $                 0   $                0   $                0
      B. Deposit Funds and Suspense Account Liabilities                     (37,622)                    0               (37,622)
      C. Disbursing Ofﬁcer Cash                                             52,651                      0               52,651
      D. Judgment Fund Liabilities                                                 0                    0                    0
      E. FECA Reimbursement to the Dept. of Labor                           22,036                29,555                51,591
      F. Custodial Liabilities                                                   401                    0                  401
      G. Employer Contribution and
           Payroll Taxes Payable                                             7,291                      0                7,291
      H. Other Liabilities                                                  25,288                      0               25,288


     I. Total Intragovernmental Other Liabilities                $          70,045     $          29,555    $           99,600


2. Nonfederal
     A. Accrued Funded Payroll and Beneﬁts                       $         510,118     $                0   $       510,118
     B. Advances from Others                                                 2,384                      0                2,384
     C. Deferred Credits                                                           0                    0                    0
     D. Deposit Funds and Suspense Accounts                                        0                    0                    0
     E. Temporary Early Retirement Authority                                       0                    0                    0
     F. Nonenvironmental Disposal Liabilities                                                                                0
             (1) Military Equipment (Nonnuclear)                                   0                    0                    0
             (2) Excess/Obsolete Structures                                  5,282                34,110                39,392
             (3) Conventional Munitions Disposal                                   0                    0                    0
     G. Accrued Unfunded Annual Leave                                      672,100                      0           672,100
     H. Capital Lease Liability                                                    0                    0                    0
      I. Contract Holdbacks                                                        0              11,171                11,171
     J.    Employer Contribution and                                                                                         0
            Payroll Taxes Payable                                            5,598                      0                5,598
     K. Contingent Liabilities                                                     0              51,375                51,375
     L. Other Liabilities                                                          0                    0                    0


     M. Total Nonfederal Other Liabilities                       $        1,195,482    $          96,656    $      1,292,138


3. Total Other Liabilities                                       $        1,265,527    $         126,211    $      1,391,738



Intragovernmental other liabilities-others includes unemployment compensation and accrued
education benefits for separated Marines.

Contingent liabilities includes $25.8 million related to contracts authorizing progress payments
based on cost as defined in the Federal Acquisition Regulation (FAR). In accordance with contract
terms, specific rights to the contractor’s work vests with the Federal Government when a specific
type of contract financing payments is made. This action protects taxpayer funds in the event of
contract nonperformance. These rights should not be misconstrued as the right of ownership.
The USMC GF is under no obligation to pay the contractor for amounts greater than the amounts
authorized in the contracts until delivery and government acceptance. Due to the probability the
contractors will complete its efforts and deliver satisfactory products, and because the amount of
potential future payments are estimable; the USMC GF has recognized a contingent liability for
estimated future payments which are conditional pending delivery and Government acceptance.


                                               Fiscal Year 2009 Department of the Navy Annual Financial Report | 195
Total contingent liabilities for progress payments Based on Cost represent the difference between
the estimated costs incurred to date by contractors and amounts authorized to be paid under
progress payments based on cost provisions within the DAR. Estimated contractor incurred costs
are calculated by dividing the cumulative unliquidated progress payments based on cost by the
contract authorized progress payment rate. The balance of unliquidated Progress Payments Based
on Cost is deducted from the estimated total contactor incurred costs to determine the contingency
amount.

Contingent liabilities also include $2.7 million in estimated legal liabilities. In FY 2007, Department
of Navy/USMC GF began recognizing and disclosing an estimate for contingent legal liabilities.
The methodology to determine an estimate for contingent legal liabilities considers the likelihood
of an unfavorable outcome or potential liability is provided as an overall assessment of all
cases currently pending and not on an individual case basis. For more details, see Note 16,
Commitments and Contingencies.

Capital Lease Liability
Not applicable.


Note 16.	Commitments and Contingencies
The USMC GF, a sub-entity of the Department of the Navy (DON) General Fund, is a party in
various administrative proceedings and legal actions, related to claims for environmental damage,
equal opportunity matters, and contractual bid protests which may ultimately result in settlements
or decisions adverse to the Federal Government. These proceedings and actions arise in the
normal course of operations and their ultimate disposition is unknown.

The USMC GF has accrued contingent liabilities for legal actions where the Office of Navy General
Counsel considers an adverse decision probable and the amount of the loss is measurable. In the
event of an adverse judgment against the Government, some of the liabilities may be payable from
the U.S. Treasury Judgment Fund. Others may be payable from DON resources, either directly or
by reimbursement to the Judgment Fund. The USMC GF records Judgment Fund liabilities in Note
12, “Accounts Payable.”

The Office of Navy General Counsel completed a review of litigation and claims threatened or
asserted involving the USMC GF to which attorneys devote substantial attention in the form of
legal consultation or representation. This review applies to individual and aggregate claims,
litigation, assessments, or contingencies arising out of a single event or series of events, and
includes matters that existed on September 30, 2009.

Based on information contained in the FY 2009 Final Legal Representation Letters, management
does not have sufficient reason to believe that it is likely that the Government will be liable for the
amounts claimed in individual or aggregated cases.

The DON developed a methodology to determine an estimate for contingent legal liabilities for
aggregated cases. This estimate approximates the percentage that has historically been paid on
claims. It is based entirely on historical data. The merits of each individual case have not been
taken into consideration. Until sufficient historical data can be collected for the Navy Working
Capital Fund—Marine Corps, this estimate will consider all USMC funding sources together. This


196 | United States Marine Corps General Fund
estimate for contingencies that are considered both measurable and probable have been recognized
and included in contingent liabilities in Note 15, Other Liabilities.

The estimate for those aggregate of cases considered reasonably possible to result in an adverse
judgment against USMC GF is $36.6 million.

The USMC GF is a party in numerous individual contracts that contain clauses, such as price
escalation, award fee payments, or dispute resolution, that may result in a future outflow of
expenditures. Currently, USMC GF has limited automated system processes by which it captures
or assesses these potential contingent liabilities; therefore, the amounts reported may not fairly
present USMC GF’s contingent liabilities.

The USMC GF recognizes contingent liabilities for obligations related to undelivered orders for
open contracts citing canceled appropriations, which remain unfilled or unreconciled in Note 12,
Accounts Payable, nonfederal payables.




                                        Fiscal Year 2009 Department of the Navy Annual Financial Report | 197
Note 17.	Military Retirement and Other Federal
         Employment Benefits
As of September 30                                                                          2009
                                                                              Assumed            (Less: Assets
                                                          Liabilities       Interest Rate       Available to Pay       Unfunded Liabilities
                                                                                 (%)               Beneﬁts)
(Amounts in thousands)


1. Pension and Health Actuarial Beneﬁts
      A. Military Retirement Pensions                 $                 0                   $                      0   $                 0
      B. Military Retirement Health Beneﬁts                             0                                          0                     0
      C. Military Medicare-Eligible Retiree Beneﬁts                     0                                          0                     0
      D. Total Pension and Health Actuarial Beneﬁts   $                 0                   $                      0   $                 0


2. Other Actuarial Beneﬁts
      A. FECA                                         $           194,375                   $                      0   $           194,375
      B. Voluntary Separation Incentive Programs                        0                                          0                     0
      C. DoD Education Beneﬁts Fund                                     0                                          0                     0
      D. Total Other Actuarial Beneﬁts                $           194,375                   $                      0   $           194,375


3. Other Federal Employment Beneﬁts                   $                 0                   $                      0   $                 0

4. Total Military Retirement and Other Federal
     Employment Beneﬁts:                              $           194,375                   $                      0 $             194,375




As of September 30                                                                          2008
                                                                              Assumed            (Less: Assets
                                                          Liabilities       Interest Rate       Available to Pay       Unfunded Liabilities
                                                                                 (%)               Beneﬁts)
(Amounts in thousands)


1. Pension and Health Actuarial Beneﬁts
      A. Military Retirement Pensions                 $                 0                   $                      0   $                 0
      B. Military Retirement Health Beneﬁts                             0                                          0                     0
      C. Military Medicare-Eligible Retiree Beneﬁts                     0                                          0                     0
      D. Total Pension and Health Actuarial Beneﬁts   $                 0                   $                      0   $                 0


2. Other Actuarial Beneﬁts
      A. FECA                                         $           219,057                   $                      0   $           219,057
      B. Voluntary Separation Incentive Programs                        0                                          0                     0
      C. DoD Education Beneﬁts Fund                                     0                                          0                     0
      D. Total Other Actuarial Beneﬁts                $           219,057                   $                      0   $           219,057


3. Other Federal Employment Beneﬁts                   $                 0                   $                      0   $                 0

4. Total Military Retirement and Other Federal
     Employment Beneﬁts:                              $           219,057                   $                      0 $             219,057




Military Retirement Pensions
The portion of the military retirement benefits actuarial liability applicable to USMC GF is reported
on the financial statements of the Military Retirement Fund.




198 | United States Marine Corps General Fund
Military Retirement Health Benefits
Health benefits are funded centrally at the Department of Defense (DoD) level. As such, the
portion of the health benefits actuarial liability that is applicable to USMC GF is reported only on
the DoD Agencywide Financial Statements and the Medicare-Eligible Retiree Health Care Fund
Financial Statements.

Federal Employees Compensation Act (FECA)
The USMC GF actuarial liability for future workers’ compensation benefits is developed by
Department of Labor and provided to USMC GF at the end of each fiscal year. The liability is
allocated between USMC GF and Navy Working Capital Fund Marine Corps based on the number
of civilian employees funded in each entity as reported in the Navy Budget Tracking System. The
benefits include the expected liability for death, disability, medical, and miscellaneous costs for
approved compensation cases, plus a component for incurred but not reported claims.

The liability is determined using a method that utilizes historical benefit payment patterns related
to a specific incurred period to predict the ultimate payments related to that period. Consistent
with past practice, these projected annual benefit payments have been discounted to present value
using the Office of Management and Budget’s economic assumptions for 10 year U.S. Treasury
notes and bonds. For discounting, a 4.22 percent interest rate was assumed for year one and 4.72
percent interest rate was assumed for year 2 and thereafter.

To provide more specifically for the effects of inflation on the liability for future workers’
compensation benefits, wage inflation factors (cost of living adjustments or COLAs) and medical
inflation factors (consumer price index medical or CPIMs) were applied to the calculation of
projected future benefits. The actual rates for these factors for the charge back year (CBY) 2009
were also used to adjust the methodology’s historical payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBY were as follows:

	       CBY 		          COLA	 	         CPIM
	       2009 		          N/A		           N/A
	       2010		          0.47% 		        3.42%
	       2011 		         1.40%		         3.29%
	       2012		          1.50% 		        3.48%
	       2013 		         1.80%		         3.71%
	       2014 +		        2.00%		         3.71%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The
analysis was based on four tests: (1) a sensitivity analysis of the model to economic assumptions,
(2) a comparison of the percentage change in the liability amount by agency to the percentage
change in the actual incremental payments, (3) a comparison of the incremental paid losses per
case (a measure of case severity) in CBY 2009 to the average pattern observed during the most
current three charge back years, and (4) a comparison of the estimated liability per case in the 2009
projection to the average pattern for the projections of the most recent 3 years.




                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 199
Note 18.	General Disclosures Related to the Statement
of Net Cost
Intragovernmental Costs and Exchange Revenue
As of September 30                                                    2009                 2008
(Amounts in thousands)

1. Intragovernmental Costs                                     $          7,094,993   $        6,616,796
2. Public Costs                                                          23,781,489           20,223,214
3. Total Costs                                                 $         30,876,482   $       26,840,010

4. Intragovernmental Earned Revenue                            $             (288,879) $          (381,558)
5. Public Earned Revenue                                                     (497,947)            (417,836)
6. Total Earned Revenue                                        $             (786,826) $          (799,394)

7. Net Cost of Operations                                      $         30,089,656   $       26,040,616




Intragovernmental costs and revenues are related to transactions made between two reporting
entities within the Federal Government.

Public costs and revenues are exchange transactions made between USMC GF and a nonfederal
entity.

The USMC GF systems do not track intragovernmental transactions by customer at the transaction
level. Buyer side expenses are adjusted to agree with internal seller side revenues. Expenses are
generally adjusted by reclassifying amounts between federal and nonfederal expenses.

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the
Federal Government supported by appropriations or other means. The intent of the SNC is to
provide gross and net cost information related to the amount of output or outcome for a given
program or organization administration by a responsible reporting entity. The DoD’s current
processes and systems do not capture and report accumulated costs for major programs based
upon the performance measures as requires by the Government Performance and Results Act. The
DoD is in the process of reviewing available data and developing a cost reporting methodology as
required by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial
Cost Accounting Concepts and Standards for the Federal Government,” as amended by SFFAS
No. 30, “Inter entity Cost Implementation.”

The SNC presents information based on budgetary obligation, disbursement, and collection
transactions, as well as data from nonfinancial feeder systems. Amounts are adjusted for accruals
such as payroll expenses, accounts payable, and environmental liabilities.

The USMC GF’s accounting system does not capture information relative to heritage assets
separately and distinctly from normal operations. The USMC GF does not report any amounts
for the costs of acquiring, constructing, improving, reconstructing, or renovating heritage assets
(other than multi use heritage assets); nor costs for acquiring stewardship land and preparing
stewardship for its intended use.



200 | United States Marine Corps General Fund
Note 19.	Disclosures Related to the Statement of
         Changes in Net Position
Other financing sources, other is comprised of the adjustments of $585.6 million to record year to
date change in land, building and accumulated depreciation and $(481.2) million to record year to
date changes in operating materiel and supplies, ammunition.

Budgetary financing source, other adjustments (rescissions, etc.) is comprised of $(327.1) million
due to canceling year adjustments.

Appropriations received reported on the Statement of Changes of Net Position (SCNP) does not
agree with appropriation reported on the Statement of Budgetary Resources (SBR). The difference
of $150.1 thousand is the amount of special receipts from USMC GF portion of the Wildlife
Conservation on Military Reservations appropriation. This amount is included as appropriation
reported on the SBR, but not on the SCNP.

Earmarked Cumulative Results of Operations ending balance on the SCNP does not agree with the
Earmarked Cumulative Results reported on the Balance Sheet because the cumulative results on
the Balance Sheet are presented net of eliminations.


Note 20.	Disclosures Related to the Statement of
         Budgetary Resources	
As of September 30                                                           2009                   2008
(Amounts in thousands)

1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                      $           13,155,273   $         11,921,573

2. Available Borrowing and Contract Authority at the End
     of the Period                                                                       0                      0




The USMC GF Report on Budget Execution accurately reflects $26.4 billion direct obligations in
category A, amounts apportioned quarterly; $5.5 billion direct obligations in category B, amounts
apportioned on a basis other than quarterly; and $396.5 million reimbursable obligations in
category B.

The SBR includes intraentity transactions because the statements are presented as combined.

Appropriations Received on SBR does not agree with Appropriations Received on the Statement
of Changes in Net Position (SCNP) because of differences between proprietary and budgetary
accounting concepts and reporting concepts. The difference of $150 thousand is the amount of
special receipts from USMC GF portion of the Wildlife Conservation on Military Reservations
appropriation. This amount is included on the SBR, but not on SCNP.




                                            Fiscal Year 2009 Department of the Navy Annual Financial Report | 201
Note 21.	Reconciliation of Net Cost of Operations to
         Budget
As of September 30                                                             2009                  2008
(Amounts in thousands)

Resources Used to Finance Activities:
        Budgetary Resources Obligated:
               1. Obligations incurred                                     $    34,312,528       $    31,059,127
               2. Less: Spending authority from offsetting collections
                     and recoveries (-)                                          (2,992,897)           (2,406,291)
               3. Obligations net of offsetting collections and
                     recoveries                                                 31,319,631            28,652,836
               4. Less: Offsetting receipts (-)                                     89,513               167,559
               5. Net obligations                                               31,409,144            28,820,395
        Other Resources:
               6. Donations and forfeitures of property                                     0                     0
               7. Transfers in/out without reimbursement (+/-)                             16                     1
               8. Imputed ﬁnancing from costs absorbed by others                       75,868                66,595
               9. Other (+/-)                                                         104,385               176,672
               10. Net other resources used to ﬁnance activities                      180,269               243,268
11. Total Resources Used to Finance Activities                             $    31,589,413       $    29,063,663

Resources Used to Finance Items not Part of the Net Cost
     of Operations:
               12. Change in budgetary resources obligated for goods,
                    services, and beneﬁts ordered but not yet provided:
                      12a. Undelivered Orders (-)                          $     (1,233,700) $              508,888
                      12b. Unﬁlled Customer Orders                                  (71,818)                 54,935
               13. Resources that fund expenses recognized in prior
                    periods (-)                                                       (40,074)               (3,032)
               14. Budgetary offsetting collections and receipts that
                    do not affect Net Cost of Operations                            (89,514)             (167,559)
               15. Resources that ﬁnance the acquisition of assets (-)           (1,661,460)           (4,152,785)
               16. Other resources or adjustments to net obligated
                    resources that do not affect Net Cost of Operations:
                      16a. Less: Trust or Special Fund Receipts Related
                            to exchange in the Entity’s Budget (-)                       0                     0
                      16b. Other (+/-)                                            (104,400)             (176,673)
17. Total resources used to ﬁnance items not part of the
     Net Cost of Operations                                                $     (3,200,966) $         (3,936,226)
18. Total resources used to ﬁnance the Net Cost of Operations              $    28,388,447       $    25,127,437



As of September 30                                                             2009                  2008
(Amounts in thousands)

 Components of the Net Cost of Operations that will not
      Require or Generate Resources in the Current Period:
       Components Requiring or Generating Resources in Future
            Period:
              19. Increase in annual leave liability                       $           71,376    $           85,423
              20. Increase in environmental and disposal liability                          0                37,809
              21. Upward/Downward reestimates of credit subsidy
                    expense                                                                 0                    0
              22. Increase in exchange revenue receivable from the
                    public (-)                                                              0                     0
202 | United States
              23. OtherMarine
                         (+/-) Corps General Fund                                      22,427                24,564
              24. Total components of Net Cost of Operations that
                    will Require or Generate Resources in future periods   $           93,803    $          147,796
                      16a. Less: Trust or Special Fund Receipts Related
                            to exchange in the Entity’s Budget (-)                              0                    0
                      16b. Other (+/-)                                                   (104,400)            (176,673)
17. Total resources used to ﬁnance items not part of the
     Net Cost of Operations                                                   $        (3,200,966) $         (3,936,226)
18. Total resources used to ﬁnance the Net Cost of Operations                 $        28,388,447      $    25,127,437



As of September 30                                                                   2009                  2008
(Amounts in thousands)

Components of the Net Cost of Operations that will not
     Require or Generate Resources in the Current Period:
        Components Requiring or Generating Resources in Future
            Period:
              19. Increase in annual leave liability                          $              71,376    $           85,423
              20. Increase in environmental and disposal liability                                0                37,809
              21. Upward/Downward reestimates of credit subsidy
                    expense                                                                       0                     0
              22. Increase in exchange revenue receivable from the
                    public (-)                                                                    0                     0
              23. Other (+/-)                                                                22,427                24,564
              24. Total components of Net Cost of Operations that
                    will Require or Generate Resources in future periods      $              93,803    $          147,796
    Components not Requiring or Generating Resources:
              25. Depreciation and amortization                               $         1,121,170 $            878,531
              26. Revaluation of assets or liabilities (+/-)                             (150,516)            (112,348)
              27. Other (+/-)
                      27a. Trust Fund Exchange Revenue                                            0                     0
                      27b. Cost of Goods Sold                                                     0                     0
                      27c. Operating Material and Supplies Used                             642,161                     0
                      27d. Other                                                             (5,409)                 (800)
              28. Total Components of Net Cost of Operations that
                    will not Require or Generate Resources                    $         1,607,406      $          765,383
29. Total components of Net Cost of Operations that will not
     Require or Generate Resources in the Current Period                      $         1,701,209      $          913,179
30. Net Cost of Operations                                                    $        30,089,656      $    26,040,616


The following note schedule lines are presented as combined instead of consolidated due to
intraagency budgetary transactions not being eliminated:

  n	    Obligations Incurred
  n	    Less: Spending Authority from Offsetting Collections and Recoveries
  n	    Obligations Net of Offsetting Collections and Recoveries
  n	    Less: Offsetting Receipts
  n	    Net Obligations
  n	    Undelivered Orders
  n	    Unfilled Customer Orders

The note schedule line, “Other Resources, Other” is primarily comprised of the year to date
changes in real property and ammunition.

The note schedule line, “Other, Resources or Adjustments to Net Obligated Resources That Do Not
Affect Net Cost of Operations, Other” is comprised of the year to date changes in real property and
ammunition and free issues from the Defense Logistics Agency Stock Fund.




                                               Fiscal Year 2009 Department of the Navy Annual Financial Report | 203
The note schedule line, “Components Requiring or Generating Resources Future Period, Other” is
comprised of future funded expenses from closing canceled year receivables and payables and the
year-to-date change in Federal Employees Compensation Act (FECA) actuarial liability.

The note schedule line, “Components Not Requiring or Generating Resources, Other, Other” is
primarily comprised of adjustments made to operating materiel and supplies expenses, refunds
receivable and the bad debt expense for public accounts receivable.


Note 22.	Disclosures Related to Incidental Custodial
         Collections
Not applicable.


Note 23.	Earmarked Funds
                                                                                   2009
BALANCE SHEET                                                Medicare Eligible
As of September 30                              Military                       Other Earmarked
                                                              Retiree Health                     Eliminations       Total
(Amounts in thousands)                     Retirement Fund                          Funds
                                                               Care Fund

ASSETS
Fund balance with Treasury                 $            0                  0              676                   0           676
Investments                                             0                  0                0                   0             0
Accounts & Interest Receivable                          0                  0                0                   0             0
Other Assets                                            0                  0                0                   0             0
Total Assets                               $            0                  0              676                   0           676

LIABILITIES and NET POSITION
Military Retirement Beneﬁts and Other
     Federal Employment Beneﬁts            $            0                  0                0                   0             0
Other Liabilities                                       0                  0               12                   0            12
Total Liabilities                          $            0                  0               12                   0            12

Unexpended Appropriations                               0                  0                0                   0             0
Cumulative Results of Operations                        0                  0              664                   0           664
Total Liabilities & Net Position           $            0                  0              676                   0           676


STATEMENT OF NET COST
For the period ended September 30
Program Costs                              $            0                  0               63                   0            63
Less Earned Revenue                                     0                  0                0                   0             0
Net Program Costs                          $            0                  0               63                   0            63
Less Earned Revenues Not Attributable to
      Programs                                          0                  0                0                   0             0
Net Cost of Operations                     $            0                  0               63                   0            63

STATEMENT OF CHANGES IN NET POSITION
For the period ended September 30
Net Position Beginning of the Period       $            0                  0              576                   0           576
Net Cost of Operations                                  0                  0               63                   0            63
Budgetary Financing Sources                             0                  0              151                   0           151
Other Financing Sources                                 0                  0                0                   0             0
Change in Net Position                     $            0                  0               88                   0            88

Net Position End of Period                 $            0                  0              664                   0           664




204 | United States Marine Corps General Fund
                                                                                   2008
BALANCE SHEET                                                Medicare Eligible
As of September 30                             Military                        Other Earmarked
                                                              Retiree Health                     Eliminations       Total
(Amounts in thousands)                     Retirement Fund                          Funds
                                                               Care Fund

ASSETS
Fund balance with Treasury                  $           0                  0              610                   0           610
Investments                                             0                  0                0                   0             0
Accounts & Interest Receivable                          0                  0                0                   0             0
Other Assets                                            0                  0                0                   0             0
Total Assets                                $           0                  0              610                   0           610

LIABILITIES and NET POSITION
Military Retirement Beneﬁts and Other
     Federal Employment Beneﬁts             $           0                  0                0                   0             0
Other Liabilities                                       0                  0               34                   0            34
Total Liabilities                           $           0                  0               34                   0            34

Unexpended Appropriations                               0                  0                0                   0             0
Cumulative Results of Operations                        0                  0              576                   0           576
Total Liabilities & Net Position            $           0                  0              610                   0           610


STATEMENT OF NET COST
For the period ended September 30
Program Costs                               $           0                  0               51                   0            51
Less Earned Revenue                                     0                  0                0                   0             0
Net Program Costs                           $           0                  0               51                   0            51
Less Earned Revenues Not Attributable to
      Programs                                          0                  0                0                   0             -
Net Cost of Operations                      $           0                  0               51                   0            51

STATEMENT OF CHANGES IN NET POSITION
For the period ended September 30
Net Position Beginning of the Period        $           0                  0              474                   0           474
Net Cost of Operations                                  0                  0               51                   0            51
Budgetary Financing Sources                             0                  0              153                   0           153
Other Financing Sources                                 0                  0                0                   0             0
Change in Net Position                      $           0                  0              102                   0           102

Net Position End of Period                  $           0                  0              576                   0           576



Wildlife Conservation, Military Reservations, 16 USC 670
This fund provides for the development and conservation of fish and wildlife and recreational
facilities on military installations. Proceeds from the sale of fishing and hunting permits are
used for these programs at Navy and Marine Corps installations charging such user fees. These
programs are carried out through cooperative plans agreed upon by the local representatives of the
Secretary of Defense, the Secretary of the Interior, and the appropriate agency of the state in which
the installation is located. During this reporting period, legislation regarding the purpose and use
of the Wildlife Conservation, Military Reservation has not changed.

The nonexchange revenue in the amount of $150.1 thousand is from the proceeds of the sale of
fishing and hunting permits.




                                           Fiscal Year 2009 Department of the Navy Annual Financial Report | 205
Note 24.	Fiduciary Activities
For the period ended September 30                                                   2009
(Amounts in thousands)

1. Fiduciary net assets, beginning of year                               $                    8,759

2. Fiduciary revenues                                                                              0
3. Contributions                                                                              16,533
4. Investment earnings                                                                           826
5. Gain (Loss) on disposition of investments, net                                                  0
6. Administrative and other expenses                                                               0
7. Distributions to and on behalf of beneﬁciaries                                            (16,300)
8. Increase/(Decrease) in ﬁduciary net assets                            $                     1,059

9. Fiduciary net assets, end of period                                   $                    9,818


For the period ended September 30                                                   2009
(Amounts in thousands)

Fiduciary Assets
     1. Cash and cash equivalents                                        $                    9,818
     2. Investments                                                                               0
     3. Other Assets                                                                              0

Fiduciary Liabilities
     4. Less: Liabilities                                                $                          0

Total Fiduciary Net Assets                                               $                    9,818



Fiduciary activities are the collection or receipt, and the management, protection, accounting,
investment and disposition by the Federal Government of cash or other assets in which nonfederal
individuals or entities have an ownership interest that the Federal Government must uphold.

The Savings Deposit Program was authorized by the Act of August 14, 1966, which authorized
USMC GF to collect unallotted current pay and allowance on behalf of Marines servings in areas
that have been designated a combat zone or are in direct support of a combat zone. Marines may
deposit amounts up to $10,000 with interest accrual at a rate of 10 percent per annum.

This legislation dates back to the Vietnam Conflict, members of the Uniformed Services who were
serving on a permanent duty assignment outside the United States, or its possessions, to deposit
their “unallotted current pay and allowances” for savings purposes. Effective February 1, 2003
any member serving in an area that has been designated a combat zone or is in direct support of a
combat zone is eligible to participate in the Savings Deposit Program after the member has served
in that assignment for at least 30 consecutive days or at least one day for each of 3 consecutive
months.

Fiduciary cash and other assets are not assets of the Federal Government and accordingly are not
recognized on the balance sheet.


206 | United States Marine Corps General Fund
Note 25.	Other Disclosures
Currently, USMC GF does not record or report operating leases; however, under its Financial
Improvement Initiative program, USMC GF has begun to implement a strategy to identify
operating leases and to develop a process to report operating leases in the USMC GF financial
statements. The development of our process is in its early stages, therefore, at this time, a
completion date has not been established. Procedures have been adopted to establish/update
inter-service support agreements and financial practices. Training and implementation of the
procedures will begin during FY 2010.


Note 26.	Restatements
The USMC GF does not have any restatements.




                                       Fiscal Year 2009 Department of the Navy Annual Financial Report | 207
208 | United States Marine Corps General Fund
    United States Marine Corps General Fund
Required Supplementary Stewardship Information




                                      209
        Fiscal Year 2009 Department of the Navy Annual Financial Report


                                 Fiscal Year 2009 Department of the Navy Annual Financial Report | 209
                            Investments in Research and Development
                          Yearly Investment in Research and Development
                                 For Fiscal Years 2006 through 2009
                                             ($ in Millions)


Categories                                                       FY09       FY08      FY07       FY06
Development
     Advanced Technology Development                               $ 232        $3        $5       $ 36
     Advanced Component Development and Prototypes                  225        361         64       302
     System Development and Demonstration                             19        22         18           13
     Research, Development, Test, and Evaluation
     Management Support                                               44        44         48           48
     Operational Systems Development                                 511       508       359        284
Totals                                                           $ 1,031     $ 938      $ 494     $ 683

Narrative Statement:

Investments in Research and Development
Fiscal Year (FY) 2009 is the fourth year that the U.S. Marine Corps (USMC) General Fund (GF) is
reporting as a separate entity and therefore is reporting four comparative years for Investments in
Research and Development schedule. The USMC GF Research, Development, Test, and Evaluation
investments are all in Development; there are no basic and applied research investments. The
values included in the table above are based on Development outlays (expenditures). Outlays
are used because current USMC GF systems are unable to fully capture and summarize costs in
accordance with standards promulgated by the Federal Accounting Standards Advisory Board.

Development
Development takes what has been discovered or learned from basic and applied research and
uses it to establish technological feasibility, assessment of operability, and production capability.
Development is comprised of five stages, as defined below.

   1. 	 Advanced Technology Development is the systematic use of the knowledge or
        understanding gained from research directed toward proof of technological feasibility and
        assessment of operational and production rather than the development of hardware for
        service use. It employs demonstration activities intended to prove or test a technology or
        method.

   2. 	 Advanced Component Development and Prototypes evaluates integrated technologies
        in as realistic an operating environment as possible to assess the performance or cost
        reduction potential of advanced technology. Programs in this phase are generally system
        specific. Major outputs of Advanced Component Development and Prototypes are
        hardware and software components or complete weapon systems ready for operational
        and developmental testing and field use.




210 | United States Marine Corps General Fund
  3. 	 System Development and Demonstration concludes the program or project and prepares
       it for production. It consists primarily of preproduction efforts, such as logistics and
       repair studies. Major outputs are weapons systems finalized for complete operational and
       developmental testing.

  4. 	 Research, Development, Test, and Evaluation Management Support is support for
       installations and operations for general research and development use. This category
       includes costs associated with test ranges, military construction maintenance support for
       laboratories, operation and maintenance of test aircraft and ships, and studies and analyses
       in support of the Research and Development program.

  5. 	 Operational Systems Development is concerned with development projects in support of
       programs or upgrades that are still in engineering and manufacturing development. These
       projects have received approval for production, for which production funds have been
       budgeted in subsequent fiscal years.

The following are two representative program examples for the Development category.

Expeditionary Fighting Vehicle Program
The Expeditionary Fighting Vehicle (EFV) Program will field a successor to the Marine Corps’
current amphibious vehicle, the Assault Amphibious Vehicle Model 7A1 (AAV7A1). The EFV
will provide the principal means of tactical surface mobility for the Marine Air Group Task Force
during both ship-to-objective maneuvers and sustained combat operations ashore.

The EFV program is an Acquisition Category-1D program managed by the Marine Corps. The
EFV is the next generation of Marine Corps Assault Vehicles being developed to satisfy the
requirements of the 21st Century Marine War Fighters. Along with the Landing Craft Air Cushion
and the MV-22 Osprey, the EFV will provide the Marine Corps with the tactical mobility assets
required within the Expeditionary Maneuver Warfare capstone. Acquisition of the EFV is critical to
the Marine Corps.

During FY 2009, the EFV program continued engineering and logistics efforts to support design
development, manufacturing planning, and design enhancements of both the EFV Command and
Personnel variants. The program continued developmental and reliability test support as well
as the design, integration and testing of vehicle modifications that will support the Milestone C
Operational Assessment. Developmental Testing and Reliability/Availability/Maintainability
testing conducted during FY 2009 included riverine testing; detection, acquisition, recognition,
and identification testing; track and drivetrain durability testing; and toxic fumes testing. The
Design for Reliability effort was completed during this period following the established systems
engineering processes. The System Development Demonstration (SDD) prototypes manufacturing
continued. Also, the capstone System Critical Design Review and Integrated Baseline Review were
completed.

Efforts continued on the SDD-2 contract, awarded during FY 2008. This follow-on SDD Phase
includes continued design, development, and reliability upgrades; increased Reliability/




                                        Fiscal Year 2009 Department of the Navy Annual Financial Report | 211
Availability/Maintainability testing; modification of existing SDD prototypes; and manufacture
and testing of up to seven additional SDD prototype vehicles.

Joint Light Tactical Vehicle
The Joint Light Tactical Vehicle (JLTV) capabilities represent a shift to adapt from a threat based,
Cold War garrison force focused on containment to a capabilities based, expeditionary force
focused on flexibility, survivability, force protection, responsiveness, and agility. The JLTV is a
joint Army/Marine Corps program, which consists of a family of vehicles with companion trailers
capable of performing multiple mission roles. The JLTV family of vehicles must be capable of
operating across a broad spectrum of terrain and weather conditions. The Military Services and
the U.S. Special Operations Command require enhanced capabilities, greater than those provided
by the existing High Mobility Multipurpose Wheeled Vehicle, to support the Joint Functional
Concepts of Battlespace Awareness, Force Application, and Focused Logistics. The initial
production of JLTVs will provide the Marine Air Group Task Force commander a family of tactical
wheeled vehicles capable of providing combat forces protected, sustained, and netted mobility in
irregular warfare operations and enhancing its contribution to the integrated Joint Task Force.

In October 2008, the JLTV program awarded three Technology Development phase contracts.
However, two competitors filed protests, which resulted in a work-stop until the Government
Accountability Office (GAO) completed a protest review. In March 2009, the JLTV program
office held Start of Work Meetings and System Requirements Reviews with the contractors.
The Start of Work Meetings allowed the JLTV program office to develop joint team charters,
establish communication lines, and establish metrics. The System Requirements Reviews ensured
agreement on what each JLTV contract requires.

During FY 2009, the JLTV program office awarded contracts for the incorporation of additional
right hand operations versions because Australia had joined the JLTV program in January 2009.
The additional test assets from each contractor benefits the U.S. by further reducing schedule risk,
performance risk, and U.S. test costs, as well as improving the quality and depth of data from the
Technology Development phase.

During FY 2009, Preliminary Design Reviews were completed. Each contractor presented
key design trades and decisions in the following performance parameter areas: mobility,
transportability, net-ready, force protection, survivability, payload, and availability. The Army and
Marine Corps Combat Developers also conducted Quarterly Knowledge Point reviews to evaluate
these design trades in order to establish vehicle requirements that balance affordability with
protection, payload, and performance within a transportable platform.

NON-FEDERAL PHYSICAL PROPERTY
The U.S. Marine Corps General Fund does not fund this type of Activity.




212 | United States Marine Corps General Fund
United States Marine Corps General Fund
  Required Supplementary Information




                                  213
    Fiscal Year 2009 Department of the Navy Annual Financial Report


                             Fiscal Year 2009 Department of the Navy Annual Financial Report | 213
                                                United States Marine Corps
                                           General Property, Plant, and Equipment
                                       Real Property Deferred Maintenance and Repair
                                         For Fiscal Year Ended September 30, 2009
                                                      ($ in Thousands)

 Property Type                                        1. Plant Replacement   2. Required Work                                        3. Percentage
                                                              Value        (Deferred Maintenance
                                                                                and Repair)
 Category 1: Enduring
 Facilities                                                          $ 40,569,794                               $ 1,214,148                         3.0%
 Category 2: Excess Facilities or
 Planned for Replacement                                                        $ 391                                       $0                      0.0%
 Category 3: Heritage Assets                                               $ 14,662                                    $ 4440                       3.0%
NOTE: The table above presents real property deferred maintenance and repair data for both U.S. Marine Corps General Fund and Navy Working Capital Fund-
Marine Corps.


Narrative Statement:

    1. 	 The method used to assess facilities conditions is a facilities inspection, which categorizes
         buildings as Adequate, Substandard or Inadequate. Those ratings are converted to Quality
         ratings (Q-ratings) of 100%-90% Q1; 90%-80% Q2; 80%-60% Q3; and less than 60% Q4 by
         assessing facilities that are rated as Adequate and less than 25 years old as Q1; facilities that
         are over 25 years old and rated as Adequate as Q2; facilities rated as Substandard as Q3;
         and Inadequate facilities as Q4.

    2. 	 There has been no change to the condition assessment methodology since last fiscal year.

    3. 	 The U.S. Marine Corps follows the Office of the Secretary of Defense installation strategic
         plan goal of having facilities at a Q2 level on average as an acceptable rating. This
         represents an average level of 15% of Plant Replacement Value (PRV) as an acceptable level
         of deferred maintenance. The table above shows that deferred maintenance and repair are
         valued at approximately 3.0% of PRV for categories 1 and 3. The percentage for category 1
         and 3 facilities is the same because Marine Corps cannot separate the deferred maintenance
         between those categories at this time. Category 2 is zero because Marine Corps does not
         hold deferred maintenance backlogs on facilities to be demolished.

Description of Property Type categories:
  n	 Category 1 – Buildings, Structures, and Utilities that are enduring and required to support
        an ongoing mission, including multi-use Heritage Assets.
  n	 Category 2 – Buildings, Structures, and Utilities that are excess to requirements or planned
        for replacement or disposal, including multi-use Heritage Assets.
  n	 Category 3 – Buildings, Structures, and Utilities that are Heritage Assets.




214 | United States Marine Corps General Fund
                            Military Equipment Deferred Maintenance
                            For Fiscal Year Ended September 30, 2009
                                          ($ in Thousands)

Major Category                                  OP30 Amounts         Adjustments              Totals
1. Aircraft                                                    $0                  $0                   $0
2. Automotive Equipment                                          0                   0                   0
3. Combat Vehicles                                               0                   0                   0
4. Construction Equipment                                     514                    0                 514
5. Electronics and Communications Systems                   2,177                    0              2,177
6. Missiles                                                    23                    0                  23
7. Ships                                                         0                   0                   0
8. Ordnance Weapons and Munitions                          10,182                    0             10,182
9. General Purpose Equipment                                     0                   0                   0
10. All Other Items Not Identified Above                         0                   0                   0
Total                                                    $12,896                   $0             $12,896

Narrative Statement:

Combat Vehicles Deferred Maintenance
The combat vehicles category refers to deferred vehicle maintenance for the active and reserve
Marine Corps assets. The combat vehicle category consists of weapons systems such as the
M1A1 Tank, the Amphibious Assault Vehicle, the Hercules Recovery Vehicle, and the Light
Armored Vehicle. The total requirement is the planned quantity of combat vehicles that require
depot level maintenance in a year as determined by program managers and the operating forces
with requirements validated by a modeling process. The deferred maintenance is the difference
between the validated requirements and funding received for that fiscal year.

Missiles Deferred Maintenance
Four categories are used to determine missile maintenance: missiles, tactical missiles, software
maintenance, and other. Deferred maintenance is defined as the difference between the total
weapon maintenance requirement as determined by requirements modeling processes and the
weapon maintenance that is funded in accordance with the annual budget controls for the missile
maintenance program. The maintenance requirements model projects the quantity of missiles and
missile components per weapon system that are required to be maintained or reworked annually.

Ordnance Weapons and Munitions Deferred Maintenance
Ordnance weapons and munitions are part of a broader category, Other Weapons Systems.
This category is comprised of ordnance, end item maintenance for support equipment, camera
equipment, landing aids, calibration equipment, air traffic control equipment, target systems,
expeditionary airfield equipment, special weapons, target maintenance, and repair of repairable
components. Three categories define ordnance maintenance: ordnance maintenance, software
maintenance, and other. Although the various programs vary in the methodology in defining
requirements, all programs define deferred maintenance as the difference between validated
requirements and funding.


                                       Fiscal Year 2009 Department of the Navy Annual Financial Report | 215
Heritage Assets Condition Information

The methodology used to report the condition of the heritage assets was a combination of visual
assessment of the objects, historic value to the DON collection, and general display and storage
standards for historic collections. The overall condition of the collection objects is good.




216 | United States Marine Corps General Fund
United States Marine Corps General Fund
    Other Accompanying Information




                                  217
    Fiscal Year 2009 Department of the Navy Annual Financial Report


                             Fiscal Year 2009 Department of the Navy Annual Financial Report | 217
Appropriations, Funds, and Accounts Included in the
Principal Statements
Entity Accounts
General Accounts
	      17 1001	 Medicare Eligible Retiree Health Care Fund, Military Personnel Marine Corps
	      17 1003	 Medicare Eligible Retiree Health Care Fund, Reserve Personnel Marine Corps
	      17 1105	 Military Personnel, Marine Corps
	      17 1106	 Operation and Maintenance, Marine Corps
	      17 1107	 Operation and Maintenance, Marine Corps Reserve
	      17 1108	 Reserve Personnel, Marine Corps
	      17 1109	 Procurement, Marine Corps
	      17 1116	 Operation and Maintenance - Recovery Act, Marine Corps
	      17 1117	 Operation and Maintenance - Recovery Act, Marine Corps Reserve
	      17 1206	 Military Construction - Recovery Act, Navy and Marine Corps

Shared Appropriations (Appropriations from which U.S. Marine Corps receives allocations)
	      17 0703	 Family Housing, Navy and Marine Corps
	      17 1319	 Research and Development, Test and Evaluation, Navy
	      17 1508	 Procurement of Ammunition, Navy and Marine Corps

Shared Earmarked Funds
	     17X5095	 Wildlife Conservation

Non-Entity Accounts
	    17X6026	 Pay of the Marine Corps, Deposit Fund Receipts

Shared Non-Entity Accounts
	     17 3XXX	 Receipt Accounts
	    17X6XXX	 Deposit Funds




218 | United States Marine Corps General Fund
Navy Working Capital Fund – Marine Corps
         Principal Statements




                                 219
    Fiscal Year 2009 Department of the Navy Annual Financial Report
                              Limitations to the Financial Statements
                              The principal financial statements have been prepared to report the
                              financial position and results of operations of the entity, pursuant to the
                              requirements of 31 United States Code 3515 (b). While the statements have
                              been prepared from the books and records of the entity in accordance with
                              Generally Accepted Accounting Principles for Federal entities and the
                              formats prescribed by Office of Management and Budget, the statements are
                              in addition to the financial reports used to monitor and control budgetary
                              resources which are prepared from the same books and records. The
                              statements should be read with the realization that they are for a component
                              of the U.S. Government, a sovereign entity.

                              In Fiscal Year (FY) 2006, the Office of the Under Secretary of Defense (Comptroller),
                              with support from the Department of the Navy, designated the U.S. Marine Corps
                              a financial reporting entity. This designation allowed the Marine Corps to prepare
                              comprehensive subsidiary financial statements and related notes beginning in FY
                              2006.

                              The Marine Corps shares appropriations with the U.S. Navy and in addition
                              maintains accountability for its own appropriations. The Marine Corps has specific
                              funds and budget execution unto itself that are managed by Marine Corps program
                              sponsors, maintained in a single core integrated Working Capital Fund accounting
                              and budgeting reporting system, and supported by Marine Corps managerial
                              accountants and the Defense Finance and Accounting Service. Given this fiduciary
                              responsibility, the Marine Corps is able to fully comply with Statement of Federal
                              Financial Accounting Concepts Number 2, Entity and Display.


                              Principal Statements
                              The FY 2009 Navy Working Capital Fund-Marine Corps principal statements
                              and related notes are subsidiary financial statements and related notes
                              of the Navy Working Capital Fund, and are presented in the format
                              prescribed by the Department of Defense Financial Management Regulation
                              7000.14, Volume 6B. The statements and related notes summarize financial
                              information for individual activity groups and activities within the Navy
                              Working Capital Fund-Marine Corps for the fiscal year ending September 30,
                              2009, and are presented on a comparative basis with information previously
                              reported for the fiscal year ending September 30, 2008.

                              The following statements comprise the Navy Working Capital Fund-Marine
                              Corps principal statements:

                                 n	     Consolidated Balance Sheet
                                 n	     Consolidated Statement of Net Cost
                                 n	     Consolidated Statement of Changes in Net Position
                                 n	     Combined Statement of Budgetary Resources

                              The principal statements and related notes have been prepared to report
                              financial position pursuant to the requirements of the Chief Financial
                              Officers Act of 1990, as amended by the Government Management Reform
                              Act of 1994. The accompanying notes should be considered an integral part
                              of the principal statements.



220 | Navy Working Capital Fund – Marine Corps
    Department of Defense
    Navy Working Capital Fund - Marine Corps
    CONSOLIDATED BALANCE SHEET
    Department
    As          of Defense
       of September 30, 2009 and 2008
    Department of the Navy General Fund
     ($ in Thousands)
     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION                                                                   Restated
    For the Years Ended September 30, 2009 and 2008                                      2009 Consolidated          2008 Consolidated
       ($ASSETS   (Note 2)
          in Thousands)
        Intragovernmental:                                                                                             Restated
          Fund Balance with Treasury (Note 3)                                         $ Consolidated86,045
                                                                                    2009                        $ 2008 Consolidated
                                                                                                                                 70,746
          Accounts
        CUMULATIVE  Receivable
                        RESULTS(Note
                                  OF5)OPERATIONS                                                     15,363                       5,826
          Other Assets (Note
         Beginning Balances  6)                                                 $           235,996,617 $-                          295
                                                                                                                            221,854,870
        Total
         PriorIntragovernmental
               Period AdjustmentsAssets                                                            101,408
                                                                                                (94,740)                         76,867
                                                                                                                                (94,740)
        Beginning Balances, as adjusted                                                     235,901,877                     221,760,130
        Accounts
        Budgetary Receivable,
                     FinancingNet  (Note 5)
                                Sources:                                                                 283                          81
        Inventory  and Related
         Appropriations    used Property, Net (Note 9)                                             252,843
                                                                                            159,052,821                        346,415
                                                                                                                            143,328,499
        General  Property,
          Nonexchange      Plant, and Equipment, Net (Note 10)
                         revenue                                                                     50,029
                                                                                                    174                          45,972
                                                                                                                                     620
        Other Assets   (Note 6)
          Donations & forfeitures  of cash & cash equivalents                                    24,051 828                         509
                                                                                                                                 24,216
       TOTAL   ASSETS
          Transfers in/out without reimbursement (+/-)                                             405,391
                                                                                                       -                       469,844
                                                                                                                                102,833
       Stewardship    Property,
        Other Financing         Plant, and Equipment (Note 10) *
                           Sources:
          Donations and forfeitures of property                                                     (667)                              -
       LIABILITIES    (Notewithout
          Transfers in/out    11)    reimbursement (+/-)                                         208,053                        348,312
        Intragovernmental:
          Imputed ﬁnancing from costs absorbed by others                                         779,646                        678,845
         Accounts   Payable (Note 12)
          Other (+/-)                                                                                 11,942
                                                                                               4,046,452                         52,258
                                                                                                                              2,400,714
         Other  Liabilities (Note 15 & Note 16)
        Total Financing Sources                                                                        1,415
                                                                                             164,110,530                          1,130
                                                                                                                            146,884,039
        Total Intragovernmental    Liabilities
        Net Cost of Operations (+/-)                                                                  13,357
                                                                                             144,013,194                         53,388
                                                                                                                            132,742,293
        Net Change                                                                            20,097,336                     14,141,746
        Accounts
        CumulativePayable  (Note
                     Results     12)
                              of Operations                                     $                     99,387$
                                                                                             255,999,213                         24,291
                                                                                                                            235,901,876
        Military Retirement and Other Federal
          Employment APPROPRIATIONS
       UNEXPENDED         Beneﬁts (Note 17)                                                           28,311                     27,219
        Other Liabilities
        Beginning Balances(Note 15 & Note 16)                                   $                     14,593$
                                                                                             121,305,364                         11,296
                                                                                                                            109,221,611
       TOTAL   LIABILITIES
        Prior Period Adjustments (+/-)                                                              155,648
                                                                                              27,184,971                       116,194
                                                                                                                             20,021,907
       Commitments     and Contingencies
        Beginning Balances,   as adjusted (Note 16) *                                        148,490,335                    129,243,518
        Budgetary Financing Sources:
       NET POSITION received
         Appropriations                                                                       165,233,492                   162,715,443
        Unexpended  Appropriations
         Appropriations              - Other(+/-)
                        transferred-in/out   Funds                                                      3,198
                                                                                                1,711,873                        32,400
                                                                                                                              2,403,645
        Cumulative Results of
         Other adjustments    Operationsetc)
                           (rescissions,  - Other
                                             (+/-)Funds                                              246,545
                                                                                               (3,170,061)                     321,250
                                                                                                                             (2,543,772)
       TOTAL  NET  POSITION
         Appropriations used                                                                         249,743
                                                                                             (159,052,821)                     353,650
                                                                                                                           (143,328,499)
        Total Budgetary Financing Sources                                                       4,722,483                    19,246,817
       TOTAL   LIABILITIES
        Unexpended          AND NET POSITION
                     Appropriations                                                  $               405,391
                                                                                              153,212,818       $              469,844
                                                                                                                            148,490,335
        Net Position                                                            $             409,212,031 $                 384,392,211




       * - Disclosure but no value required per Federal Accounting Standards.




        The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.


                                                  Fiscal
The accompanying notes are an integral part of these     Year 2009 Department of the Navy Annual Financial Report | 221
                                                     statements.
    Department of Defense
    Navy Working Capital Fund - Marine Corps
    CONSOLIDATED STATEMENT OF NET COST
    For the Years Ended September 30, 2009 and 2008
    Department   of Defense
      ($ in Thousands)
    Department of the Navy General Fund
     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                2009 Consolidated                                         2008 Consolidated
    For Program
        the Years Ended
                  Costs September 30, 2009 and 2008
       ($ inGross
             Thousands)
                  Costs                                                       $              714,419 $               801,781
         Less: Earned Revenue                                                               (602,504)        Restated
                                                                                                                    (656,654)
         Net Program Costs                                                   2009 Consolidated111,915   2008 Consolidated
                                                                                                                     145,127
       CUMULATIVE
       Net             RESULTS OF OPERATIONS
           Cost of Operations                                                  $              111,915 $              145,127
        Beginning Balances                                               $            235,996,617 $               221,854,870
        Prior Period Adjustments                                                          (94,740)                    (94,740)
        Beginning Balances, as adjusted                                               235,901,877                 221,760,130
        Budgetary Financing Sources:
         Appropriations used                                                          159,052,821                 143,328,499
         Nonexchange revenue                                                                  174                         620
         Donations & forfeitures of cash & cash equivalents                                24,051                      24,216
         Transfers in/out without reimbursement (+/-)                                           -                     102,833
        Other Financing Sources:
         Donations and forfeitures of property                                               (667)                          -
         Transfers in/out without reimbursement (+/-)                                     208,053                     348,312
         Imputed ﬁnancing from costs absorbed by others                                   779,646                     678,845
         Other (+/-)                                                                    4,046,452                   2,400,714
        Total Financing Sources                                                       164,110,530                 146,884,039
        Net Cost of Operations (+/-)                                                  144,013,194                 132,742,293
        Net Change                                                                     20,097,336                  14,141,746
        Cumulative Results of Operations                                 $            255,999,213 $               235,901,876

        UNEXPENDED APPROPRIATIONS
         Beginning Balances                                              $            121,305,364   $             109,221,611
         Prior Period Adjustments (+/-)                                                27,184,971                  20,021,907
         Beginning Balances, as adjusted                                              148,490,335                 129,243,518
         Budgetary Financing Sources:
          Appropriations received                                                     165,233,492                 162,715,443
          Appropriations transferred-in/out (+/-)                                       1,711,873                   2,403,645
          Other adjustments (rescissions, etc) (+/-)                                   (3,170,061)                 (2,543,772)
          Appropriations used                                                        (159,052,821)               (143,328,499)
         Total Budgetary Financing Sources                                              4,722,483                  19,246,817
         Unexpended Appropriations                                                    153,212,818                 148,490,335
         Net Position                                                    $            409,212,031 $               384,392,211




        The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.


    222 | Navy Working Capital Fund – Marine Corps
The accompanying notes are an integral part of these statements.
    Department of Defense
    Navy Working Capital Fund - Marine Corps
    CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
    For the Years Ended September 30, 2009 and 2008
    Department   of Defense
      ($ in Thousands)
    Department of the Navy General Fund                                                                                   Restated
    CONSOLIDATED STATEMENT OF CHANGES IN NET2009
                                              POSITION
                                                 Consolidated                                                        2008 Consolidated
    For the Years Ended September 30, 2009 and 2008
       CUMULATIVE RESULTS OF OPERATIONS
      ($ in Thousands)                                                              $                 325,438 $                    458,571
        Beginning Balances
                                                                                                       (4,188)            Restated       -
        Prior Period Adjustments
                                                                                         2009 Consolidated
                                                                                                      321,250        2008 Consolidated
                                                                                                                                   458,571
        Beginning Balances, as adjusted
       CUMULATIVE       RESULTS
        Budgetary Financing          OF OPERATIONS
                                 Sources:
        Beginning   Balances                                                        $             235,996,617
                                                                                                       29,202 $               221,854,870
                                                                                                                                      798
         Appropriations used
        Prior Period  Adjustments                                                                     (94,740)
                                                                                                       15,000                     (94,740)
                                                                                                                                        -
         Transfers in/out  without reimbursement (+/-)
        Beginning   Balances,   as adjusted                                                       235,901,877                 221,760,130
        Other Financing Sources:
        Budgetary   Financing
         Transfers in/out        Sources:
                           without   reimbursement (+/-)                                              (20,258)                          -
         Appropriations   used                                                                    159,052,821
                                                                                                       13,265                 143,328,499
                                                                                                                                   11,197
         Imputed ﬁnancing     from costs absorbed by others
         Nonexchange                                                                                      174                         620
         Other  (+/-) revenue                                                                               1                      (4,189)
         Donations   & forfeitures                                                                     24,051                      24,216
        Total Financing  Sources of cash & cash equivalents                                            37,210                       7,806
         Transfers in/out  without
        Net Cost of Operations       reimbursement (+/-)
                                   (+/-)                                                              111,915-                    102,833
                                                                                                                                  145,127
        Other  Financing
        Net Change        Sources:                                                                    (74,705)                   (137,321)
         Donations and
        Cumulative       forfeitures
                     Results          of property
                               of Operations                                        $                    (667) $
                                                                                                      246,545                     321,250-
         Transfers in/out without reimbursement (+/-)                                                 208,053                     348,312
         Imputed ﬁnancing from costs absorbed by others                                               779,646                     678,845
         Other (+/-)                                                                                4,046,452                   2,400,714
        Total Financing Sources                                                                   164,110,530                 146,884,039
        Net Cost of Operations (+/-)                                                              144,013,194                 132,742,293
        Net Change                                                                                 20,097,336                  14,141,746
        Cumulative Results of Operations                                            $             255,999,213 $               235,901,876

       UNEXPENDED APPROPRIATIONS
        Beginning Balances                                                          $             121,305,364    $            109,221,611
        Prior Period Adjustments (+/-)                                                             27,184,971                  20,021,907
        Beginning Balances, as adjusted                                                           148,490,335                 129,243,518
        Budgetary Financing Sources:
         Appropriations received                                                                  165,233,492                  162,715,443
         Appropriations transferred-in/out (+/-)                                                    1,711,873                    2,403,645
         Other adjustments (rescissions, etc) (+/-)                                                (3,170,061)                  (2,543,772)
         Appropriations used                                                                     (159,052,821)                (143,328,499)
        Total Budgetary Financing Sources                                                           4,722,483                   19,246,817
        Unexpended Appropriations                                                                 153,212,818                  148,490,335
        Net Position                                                                $             409,212,031 $                384,392,211




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.


                                                                  Fiscal Year 2009 Department of the Navy Annual Financial Report | 223
The accompanying notes are an integral part of these statements.
    Department of Defense
    Navy Working Capital Fund - Marine Corps
    CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
    For the Years Ended September 30, 2009 and 2008
    Department   of Defense
      ($ in Thousands)
     Department of the Navy General Fund                                                                     Restated
     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                            2009 Consolidated                                           2008 Consolidated
     For UNEXPENDED
         the Years Ended September 30, 2009 and 2008
                          APPROPRIATIONS
       ($ Beginning
          in Thousands)
                     Balances                                            $                32,400    $                 32,400
        Prior Period Adjustments (+/-)                                                         -             Restated      -
        Beginning Balances, as adjusted                                      2009 Consolidated
                                                                                          32,400        2008 Consolidated
                                                                                                                      32,400
        CUMULATIVE       RESULTS
        Budgetary Financing         OF OPERATIONS
                               Sources:
         Beginning   Balances
         Appropriations received                                         $            235,996,617- $             221,854,870
                                                                                                                        866
         Prior
          OtherPeriod  Adjustments
                adjustments  (rescissions, etc) (+/-)                                      (94,740)
                                                                                                 -                   (94,740)
                                                                                                                         (68)
         Beginning   Balances,
         Appropriations   used as adjusted                                            235,901,877
                                                                                          (29,202)               221,760,130
                                                                                                                       (798)
         Budgetary
        Total        Financing
               Budgetary        Sources:
                          Financing   Sources                                             (29,202)                         -
          Appropriations
        Unexpended         used
                       Appropriations                                                 159,052,821
                                                                                            3,198                143,328,499
                                                                                                                      32,400
          Nonexchange
        Net  Position revenue                                            $                    174 $
                                                                                         249,743                         620
                                                                                                                    353,650
          Donations & forfeitures of cash & cash equivalents                               24,051                     24,216
          Transfers in/out without reimbursement (+/-)                                           -                   102,833
         Other Financing Sources:
          Donations and forfeitures of property                                              (667)                         -
          Transfers in/out without reimbursement (+/-)                                    208,053                    348,312
          Imputed ﬁnancing from costs absorbed by others                                  779,646                    678,845
          Other (+/-)                                                                   4,046,452                  2,400,714
         Total Financing Sources                                                      164,110,530                146,884,039
         Net Cost of Operations (+/-)                                                 144,013,194                132,742,293
         Net Change                                                                    20,097,336                 14,141,746
         Cumulative Results of Operations                                $            255,999,213 $              235,901,876

        UNEXPENDED APPROPRIATIONS
         Beginning Balances                                              $            121,305,364   $            109,221,611
         Prior Period Adjustments (+/-)                                                27,184,971                 20,021,907
         Beginning Balances, as adjusted                                              148,490,335                129,243,518
         Budgetary Financing Sources:
          Appropriations received                                                     165,233,492                162,715,443
          Appropriations transferred-in/out (+/-)                                       1,711,873                  2,403,645
          Other adjustments (rescissions, etc) (+/-)                                   (3,170,061)                (2,543,772)
          Appropriations used                                                        (159,052,821)              (143,328,499)
         Total Budgetary Financing Sources                                              4,722,483                 19,246,817
         Unexpended Appropriations                                                    153,212,818                148,490,335
         Net Position                                                    $            409,212,031 $              384,392,211




        The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.


    224 | Navy Working Capital Fund – Marine Corps
The accompanying notes are an integral part of these statements.
    Department of Defense
    Navy Working Capital Fund - Marine Corps
    COMBINED
    Department of DefenseSTATEMENT OF BUDGETARY RESOURCES
    For the Yearsof
    Department    Ended  September
                    the Navy       30,Fund
                             General   2009 and 2008
    CONSOLIDATED
      ($ in Thousands)          STATEMENT OF CHANGES IN NET POSITION
    For the Years Ended September 30, 2009 and 2008
      ($ in Thousands)                                                                        2009 Combined           2008 Combined
       BUDGETARY FINANCING ACCOUNTS                                                                                    Restated
       Budgetary Resources:                                                              2009 Consolidated        2008 Consolidated
        Unobligated balance,
       CUMULATIVE       RESULTS  brought    forward, October 1
                                      OF OPERATIONS                                      $              290,303 $              179,815
        Budget  Authority:
        Beginning Balances                                                          $             235,996,617 $             221,854,870
          Appropriations
        Prior               received
              Period Adjustments                                                                      (94,740) -                    866
                                                                                                                                (94,740)
          Contract Authority
        Beginning   Balances, as adjusted                                                               173,739
                                                                                                  235,901,877                    34,040
                                                                                                                            221,760,130
          SpendingFinancing
        Budgetary    authority Sources:
                                 from offsetting collections:
             Earned
         Appropriations used                                                                      159,052,821                143,328,499
               Collectedrevenue
         Nonexchange                                                                                     702,938
                                                                                                          174                   676,609
                                                                                                                                     620
               Change
         Donations      in receivables
                    & forfeitures         from
                                     of cash  &Federal  sources
                                                 cash equivalents                                          9,529
                                                                                                       24,051                     (7,292)
                                                                                                                                  24,216
             Change
         Transfers   in unﬁlled
                   in/out   withoutcustomer    orders (+/-)
                                       reimbursement                                                         -                   102,833
               Advances received
        Other Financing    Sources:                                                                         (283)                   (186)
               Without
         Donations  andadvance      from
                          forfeitures   of Federal
                                           propertysources                                               (35,736)
                                                                                                         (667)                    51,241-
           Subtotal
         Transfers in/out without reimbursement (+/-)                                                    850,187
                                                                                                      208,053                   755,278
                                                                                                                                 348,312
         Nonexpenditure
         Imputed ﬁnancing   Transfers,
                              from costs net,absorbed
                                              anticipated and actual
                                                       by others                                          15,000
                                                                                                      779,646                    678,845-
         Permanently
         Other (+/-)   not  available                                                                   (161,376)
                                                                                                    4,046,452                     27,500
                                                                                                                               2,400,714
       Total
        TotalBudgetary
              FinancingResources
                          Sources                                                                        994,114
                                                                                                  164,110,530                   962,593
                                                                                                                             146,884,039
        Net Cost of Operations (+/-)                                                              144,013,194                132,742,293
       Status of Budgetary Resources:
        Net Change                                                                                 20,097,336                 14,141,746
        Obligations incurred:
        Cumulative   Results of Operations                                          $             255,999,213 $              235,901,876
          Direct                                                                                                -                    798
          ReimbursableAPPROPRIATIONS
       UNEXPENDED                                                                                        711,760                671,492
          Subtotal Balances
        Beginning                                                                   $                    711,760$
                                                                                                  121,305,364                   672,290
                                                                                                                             109,221,611
        Unobligated   balance:
        Prior Period Adjustments    (+/-)                                                          27,184,971                 20,021,907
          Apportioned
        Beginning   Balances, as adjusted                                                                218,963
                                                                                                  148,490,335                   194,510
                                                                                                                             129,243,518
          Exempt from
        Budgetary       apportionment
                    Financing  Sources:                                                                   63,393                  95,793
          Subtotal
         Appropriations  received                                                                        282,355
                                                                                                  165,233,492                   290,303
                                                                                                                             162,715,443
        Unobligated   balance
         Appropriations        not available (+/-)
                         transferred-in/out                                                         1,711,873 (1)              2,403,645-
       Total Status of Budgetary   Resources
         Other adjustments (rescissions,  etc) (+/-)                                     $               994,114 $
                                                                                                   (3,170,061)                  962,593
                                                                                                                              (2,543,772)
         Appropriations used                                                                     (159,052,821)              (143,328,499)
        Total Budgetary Financing Sources                                                           4,722,483                 19,246,817
        Unexpended Appropriations                                                                 153,212,818                148,490,335
        Net Position                                                                $             409,212,031 $              384,392,211




       The accompanying notes are an integral part of the statements.




The accompanying notes are an integral part of these statements.

The accompanying notes are an integral part of these statements.
                                                                  Fiscal Year 2009 Department of the Navy Annual Financial Report | 225
  Department of Defense
  Navy Working Capital Fund - Marine Corps
  COMBINED STATEMENT OF BUDGETARY RESOURCES
  For the Years Ended September 30, 2009 and 2008
    Department   of Defense
    ($ in Thousands)
    Department of the Navy General Fund
    CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                              2009 Combined                                                2008 Combined
     RELATIONSHIP
    For                  OF OBLIGATIONS
        the Years Ended September              TO OUTLAYS
                                  30, 2009 and 2008
     Change   in Obligated Balance:
      ($ in Thousands)
       Obligated balance, net                                                                                   Restated
           Unpaid obligations, brought forward, October 1                    $ 2009 Consolidated
                                                                                            242,172    $              243,475
                                                                                                           2008 Consolidated
           Less: Uncollected
       CUMULATIVE              customer
                         RESULTS         payments from
                                     OF OPERATIONS
              FederalBalances
         Beginning     sources, brought forward, October 1               $                  (341,661) $
                                                                                        235,996,617                  (297,712)
                                                                                                                    221,854,870
           TotalPeriod
         Prior   Unpaid  Obligated Balance
                       Adjustments                                                            (99,489)
                                                                                             (94,740)                 (54,237)
                                                                                                                         (94,740)
       Obligations
         Beginning Balances,net
                     incurred,     (+/-)
                                as adjusted                                                   711,760
                                                                                        235,901,877                   672,290
                                                                                                                    221,760,130
       Less: Gross outlays                                                                  (702,355)                (673,593)
         Budgetary Financing Sources:
       Change in uncollected customer                                                   159,052,821                 143,328,499
          Appropriations used
           payments from Federal sources (+/-)                                                26,206
                                                                                                174                  (43,949)
                                                                                                                            620
          Nonexchange revenue
       Obligated balance, net, end of period
          Donations & forfeitures of cash & cash equivalents                                 24,051                      24,216
           Unpaid obligations                                                                251,577                 242,172
          Transfers in/out without reimbursement (+/-)                                             -                    102,833
           Less: Uncollected customer payments from
         Other Financing Sources:
              Federal sources                                                               (315,455)                (341,661)
          Donations and forfeitures of property                                                (667)                            -
           Total Unpaid Obligated Balance, net, end of period                                (63,878)                 (99,489)
          Transfers in/out without reimbursement (+/-)                                      208,053                      348,312
          Imputed ﬁnancing from costs absorbed by others                                    779,646                      678,845
     Net Outlays:
          Other  (+/-)                                                                    4,046,452                    2,400,714
       Gross  Outlays                                                                        702,355                  673,593
         Total Financing   Sources
       Less: Offsetting collections                                                     164,110,530
                                                                                            (702,654)               146,884,039
                                                                                                                     (676,423)
         Net  Cost
     Net Outlays    of Operations  (+/-)                                     $          144,013,194
                                                                                                (299) $             132,742,293
                                                                                                                        (2,830)
         Net Change                                                                      20,097,336                   14,141,746
         Cumulative Results of Operations                                $              255,999,213 $               235,901,876

        UNEXPENDED APPROPRIATIONS
         Beginning Balances                                              $              121,305,364    $            109,221,611
         Prior Period Adjustments (+/-)                                                  27,184,971                  20,021,907
         Beginning Balances, as adjusted                                                148,490,335                 129,243,518
         Budgetary Financing Sources:
          Appropriations received                                                       165,233,492                 162,715,443
          Appropriations transferred-in/out (+/-)                                         1,711,873                   2,403,645
          Other adjustments (rescissions, etc) (+/-)                                     (3,170,061)                 (2,543,772)
          Appropriations used                                                          (159,052,821)               (143,328,499)
         Total Budgetary Financing Sources                                                4,722,483                  19,246,817
         Unexpended Appropriations                                                      153,212,818                 148,490,335
         Net Position                                                    $              409,212,031 $               384,392,211




        The accompanying notes are an integral part of the statements.




    226 | Navy Working Capital Fund – Marine Corps
The accompanying notes are an integral part of these statements.
Navy Working Capital Fund – Marine Corps
   Notes to The Principal Statements




                                  227
    Fiscal Year 2009 Department of the Navy Annual Financial Report


                             Fiscal Year 2009 Department of the Navy Annual Financial Report | 227
Note 1.	Significant Accounting Policies
1.A.	 Basis of Presentation
These financial statements have been prepared to report the financial position and results of
operations of the Navy Working Capital Fund-Marine Corps (NWCF-MC), as required by the
Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of
1994, and other appropriate legislation. The financial statements have been prepared from the
books and records of NWCF-MC in accordance with, and to the extent possible, U.S. generally
accepted accounting principles (USGAAP) promulgated by the Federal Accounting Standards
Advisory Board (FASAB); the Office of Management and Budget (OMB) Circular A-136, Financial
Reporting Requirements; and the Department of Defense (DoD), Financial Management Regulation
(FMR). The accompanying financial statements account for all resources for which NWCF-MC is
responsible unless otherwise noted.

The NWCF-MC is unable to fully implement all elements of USGAAP and OMB Circular A-136,
due to limitations of financial and nonfinancial management processes and systems that support
the financial statements. The NWCF-MC derives reported values and information for major asset
and liability categories largely from nonfinancial systems, such as inventory and logistic systems.
These systems were designed to support reporting requirements for maintaining accountability
over assets and reporting the status of federal appropriations rather than preparing financial
statements in accordance with USGAAP. The NWCF-MC continues to implement process and
system improvements addressing these limitations.

The DoD currently has 13 auditor identified material weaknesses. Of these, NWCF-MC has the
following: (1) Financial Management Systems; (2) Fund Balance with Treasury; (3) Accounts
Receivable; (4) Inventory; (5) Operating Materiels and Supplies; (6) General Property, Plant, and
Equipment; (7) Accounts Payable; (8) Statement of Net Cost; (9) Intragovernmental Eliminations;
(10) Other Accounting Entries; and (11) Reconciliation of Net Cost of Operations to Budget.

1.B.	 Mission of the Reporting Entity
The United States Marine Corps (USMC) was created on November 10, 1775 as an act of the 2nd
Continental Congress. The overall mission of USMC is to defend advanced naval bases and to
conduct such land operations as may be essential to the prosecution of a naval campaign. The
NWCF-MC provides goods and quality products, responsive maintenance support services
required to support mobilization, surge and reconstitution requirements to the Department of the
Navy (DON) and other DoD customers to ensure the operating forces are equipped for war in
accordance with mobilization plans. In addition, NWCF-MC supports other governmental and
nongovernmental customers.

1.C.	 Appropriations and Funds
The NWCF-MC receives appropriations and funds as working capital (revolving) funds. The
NWCF-MC uses these appropriations and funds to execute its missions and subsequently report on
resource usage.

Working capital funds (WCF) received funding to establish an initial corpus through an
appropriation or a transfer of resources from existing appropriations or funds. The corpus finances
operations and transactions that flow through the fund. The WCF resources the goods and services


228 | Navy Working Capital Fund – Marine Corps
sold to customers on a reimbursable basis and maintains the corpus. Reimbursable receipts fund
future operations and generally are available in their entirety for use without further congressional
action. At various times, Congress provides additional appropriations to supplement WCF as an
infusion of cash when revenues are inadequate to cover costs within the corpus.

1.D.	 Basis of Accounting
The NWCF-MC’s financial management systems are unable to meet all full accrual accounting
requirements. Many of NWCF-MC’s financial and nonfinancial feeder systems and processes were
designed and implemented prior to the issuance of USGAAP. These systems were not designed
to collect and record financial information on the full accrual accounting basis as required by
USGAAP. The NWCF-MC and the Defense Finance and Accounting Service (DFAS) continue
with the implementation of new accounting systems designed to produce both proprietary and
budgetary reports and use U.S. Standard General Ledger (USSGL). Until the implementation is
completed, the amounts recorded are primarily based upon proprietary data.

The DoD’s Agencywide financial statements and supporting trial balances are compiled from the
underlying financial data and trial balances of the Military Services and Defense Agencies and
their sub-entities. The underlying data is largely derived from budgetary transactions (obligations,
disbursements, and collections), from nonfinancial feeder systems, and accruals made for major
items such as payroll expenses, accounts payable, and environmental liabilities. Some of the sub-
entity level trial balances may reflect known abnormal balances resulting largely from business and
system processes. At the consolidated Military Service and Defense Agency level these abnormal
balances may not be evident. Disclosures of abnormal balances are made in the applicable
footnotes, but only to the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder
systems and processes into compliance with USGAAP. One such action is the current revision of
accounting systems to record transactions based on USSGL. Until all NWCF-MC’s financial and
nonfinancial feeder systems and processes are updated to collect and report financial information
as required by USGAAP, NWCF-MC’s financial data will be derived from data from nonfinancial
feeder systems and accruals.

1.E.	 Revenues and Other Financing Sources
Depot Maintenance WCF activities recognize revenue according to the percentage of completion
method. Supply Management WCF activities recognize revenue from the sale of inventory items.

1.F.	Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in
the period incurred. Current financial and nonfinancial feeder systems were not designed to
collect and record financial information on the full accrual accounting basis. Estimates are made
for major items such as payroll expenses, accounts payable, and unbilled revenue. In the case of
Operating Materiel and Supplies (OM&S), operating expenses are generally recognized when the
items are issued for workload consumption, which is the “consumption method of accounting.”
Under the consumption method, OM&S would be reported as expenses when consumed. Due
to system limitations, in some instances expenditures for capital and other long-term assets
may be recognized as operating expenses. The NWCF-MC continues to implement process and
system improvements to address these limitations. In certain cases, OM&S may be reported as


                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 229
an operating expense at the time of purchase, which is the “purchase method of accounting.”
Some examples of OM&S that would be expensed based on the purchase method are (1) when
the customer’s statement of work requires the purchase method to be utilized, (2) for unique
nonrecurring workload as required, and (3) for fast moving products that have minimal repair
cycle times and require direct delivery to the production shops.

1.G.	 Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminate intraentity activity and balances from
consolidated financial statements in order to prevent overstatement for business with itself.
However, NWCF-MC cannot accurately identify intragovernmental transactions by customer
because NWCF-MC’s systems do not track buyer and seller data at the transaction level. Generally,
seller entities within DoD provide summary seller-side balances for revenue, accounts receivable,
and unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-
side records are adjusted to agree with DoD seller-side balances and are then eliminated. The
volume of intragovernmental transactions is so large that reconciliations cannot be accomplished
effectively. The DoD is developing long-term system improvements to ensure accurate
intragovernmental information, including developing sufficient up-front edits and controls
eliminating the need for reconciliations.

The U.S. Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide” and
Treasury Financial Manual Part 2 – Chapter 4700, “Agency Reporting Requirements for the
Financial Report of the United States Government,” provide guidance for reporting and reconciling
intragovernmental balances. While NWCF-MC is unable to fully reconcile intragovernmental
transactions with all federal agencies, NWCF-MC is able to reconcile balances pertaining to Federal
Employees’ Compensation Act transactions with the Department of Labor and benefit program
transactions with the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government
is not included. The Federal Government does not apportion debt and its related costs to federal
agencies. The DoD’s financial statements do not report any public debt, interest, or source of
public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To
the extent this financing ultimately may have been obtained through the issuance of public debt,
interest costs have not been capitalized since U.S. Treasury does not allocate such costs to DoD.

1.H.	Transactions with Foreign Governments and International Organizations
Each year, NWCF-MC sells defense articles and services to foreign governments and international
organizations under the provisions of the “Arms Export Control Act of 1976.” Under the
provisions of the Act, DoD has authority to sell defense articles and services to foreign countries
and international organizations generally at no profit or loss to the Federal Government. Payment
in U.S. dollars is required in advance.

1.I.	 Funds with the U.S. Treasury
The NWCF-MC’s monetary resources are maintained in U.S. Treasury accounts. The disbursing
offices of DFAS, the Military Departments, U.S. Army Corps of Engineers (USACE), and
the Department of State’s financial service centers process the majority of NWCF-MC’s cash


230 | Navy Working Capital Fund – Marine Corps
collections, disbursements, and adjustments worldwide. Each disbursing station prepares monthly
reports to U.S. Treasury on checks issued, electronic fund transfers, interagency transfers, and
deposits.

In addition, DFAS sites and USACE Finance Center submit reports to U.S. Treasury by
appropriation on interagency transfers, collections received, and disbursements issued. The U.S.
Treasury records these transactions to the applicable Fund Balance with Treasury (FBWT) account.
On a monthly basis, FBWT is adjusted to agree with U.S. Treasury accounts.

1.J.	 Foreign Currency
Not applicable.

1.K.	 Accounts Receivable
Accounts receivable from other federal entities or the public includes: accounts receivable, claims
receivable, and refunds receivable. Allowances for uncollectible accounts due from the public
are based upon an estimate of uncollectible accounts receivable. This estimate is a percentage
of the billed amount after the total project cost has been adjusted to reflect the advance deposit.
The NWCF-MC requires an advance deposit from all public entities prior to the commencement
of work. Therefore, an assumption is made that the amount of uncollectible accounts should be
negligible. The DoD does not recognize an allowance for estimated uncollectible amounts from
other federal agencies. Claims against other federal agencies are to be resolved between the
agencies in accordance with dispute resolution procedures defined in the “Intragovernmental
Business Rules” published in the Treasury Financial Manual at http://www.fms.treas.gov/tfm/vol1/07-
03.pdf.

1.L.	 Direct Loans and Loan Guarantees
Not applicable.

1.M.	Inventories and Related Property
The NWCF-MC values and reports its resale inventories at an approximation of historical cost
using latest acquisition cost (LAC) adjusted for holding gains and losses. The LAC method is used
because legacy inventory systems were designed for materiel management rather than accounting.
Although these systems provide visibility and accountability over inventory items, they do not
maintain historical cost data necessary to comply with SFFAS No. 3, “Accounting for Inventory
and Related Property.” Additionally, these systems cannot produce financial transactions using
USSGL, as required by the Federal Financial Management Improvement Act of 1996 (P.L. 104-208).

As a part of the Financial Improvement Plan, NWCF-MC will be reviewing several cost accounting
systems to determine the feasibility of implementing Supply Management Activity Group’s
operations.

The NWCF-MC manages only military or government-specific materiel under normal conditions.
Materiel is a unique term that relates to military force management, and includes items such as
tanks, self-propelled weapons, etc., and related spares, repair parts, and support equipment. Items
commonly used in and available from the commercial sector are not managed in NWCF-MC
materiel management activities. Operational cycles are irregular and the military risks associated
with stock-out positions have no commercial parallel. The NWCF-MC holds materiel based on


                                        Fiscal Year 2009 Department of the Navy Annual Financial Report | 231
military need and support for contingencies. The DoD is currently developing a methodology to
be used to account for “inventory held for sale” and “inventory held in reserve for future sale”
with a completion date of year-end FY 2010 reporting.

Related property includes OM&S and stockpile materiels. The OM&S, including munitions not
held for sale, are valued at standard purchase price. The NWCF-MC uses both the consumption
method and the purchase method of accounting for OM&S. Items that are centrally managed and
stored, such as ammunition and engines, are generally recorded using the consumption method
and are reported on the Balance Sheet as OM&S. The NWCF-MC uses the purchase method only
when special circumstances exist as identified under “recognition of expenses.”

The NWCF-MC recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The
cost of disposal is greater than the potential scrap value; therefore, the net value of condemned
materiel is zero.

Inventory available and purchased for resale includes consumable spare and repair parts and
repairable items owned and managed by NWCF-MC. This inventory is retained to support
military or national contingencies. Inventory held for repair is damaged inventory that requires
repair to make suitable for sale. Often, it is more economical to repair these items rather than
to procure them. The NWCF-MC often relies on weapon systems and machinery no longer in
production. As a result, NWCF-MC supports a process that encourages the repair and rebuilding
of certain items. This repair cycle is essential to maintaining a ready, mobile, and armed military
force. Work in process balances include (1) costs related to the production or servicing of items,
including direct material, direct labor, and applied overhead; (2) the value of finished products
or completed services that are yet to be placed in service; (3) munitions in production and depot
maintenance work with its associated costs incurred in the delivery of maintenance services.

1.N.	 Investments in U.S. Treasury Securities
Not applicable.

1.O.	 General Property, Plant, and Equipment
The DoD’s General Property, Plant, and Equipment (PP&E) capitalization threshold is $100
thousand except for real property, which is $20 thousand. The NWCF-MC has not fully
implemented the threshold for real property; therefore, DoD is primarily using the capitalization
threshold of $100 thousand for General PP&E, and most real property. The NWCF-MC is currently
using the capitalization threshold of $100 thousand for all General PP&E.

With the exception of USACE Civil Works and WCF, General PP&E assets are capitalized at
historical acquisition cost when an asset has a useful life of two or more years and when the
acquisition cost equals or exceeds DoD’s capitalization threshold. The DoD also requires the
capitalization of improvements to existing General PP&E assets if the improvements equal or
exceed the capitalization threshold and extend the useful life or increase the size, efficiency, or
capacity of the asset. The DoD depreciates all General PP&E, other than land, on a straight-line
basis.

The WCF capitalizes all General PP&E used in the performance of their mission. These capitalized
assets are categorized as General PP&E, whether or not it meets the definition of any other General
PP&E categories.



232 | Navy Working Capital Fund – Marine Corps
1.P.	Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy
is to record advances or prepayments in accordance with USGAAP. As such, payments made in
advance of the receipt of goods and services should be reported as an asset on the Balance Sheet.
The DoD’s policy is to expense and/or properly classify assets when the related goods and services
are received. The NWCF-MC has not implemented this policy primarily due to system limitations.

1.Q.	Leases
Not applicable.

1.R.	Other Assets
Other assets include those assets, such as military and civil service employee pay advances, travel
advances, and certain contract financing payments that are not reported elsewhere on NWCF-MC’s
Balance Sheet.

The NWCF-MC conducts business with commercial contractors under two primary types of
contracts: fixed price and cost reimbursable. To alleviate the potential financial burden on the
contractor that long-term contracts can cause, NWCF-MC may provide financing payments.
Contract financing payments are defined in the Federal Acquisition Regulations, Part 32, as
authorized disbursements to a contractor prior to acceptance of supplies or services by the
Government. Contract financing payments clauses are incorporated in the contract terms and
conditions and may include advance payments, performance-based payments, commercial
advances and interim payments, progress payments based on cost, and interim payments under
certain cost-reimbursement contracts. It is DoD policy to record certain contract financing
payments as other assets. The NWCF-MC has not fully implemented this policy primarily due to
system limitations.

Contract financing payments do not include invoice payments, payments for partial deliveries,
lease and rental payments, or progress payments based on a percentage or stage of completion.
The Defense Federal Acquisition Regulation Supplement authorizes progress payments based on a
percentage or stage of completion only for construction of real property. Progress payments based
on percentage or stage of completion are reported as Construction in Progress.

1.S.	 Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS
No. 12, “Recognition of Contingent Liabilities Arising from Litigation,” defines a contingency as an
existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain
or loss. The uncertainty will be resolved when one or more future events occur or fail to occur.
The NWCF-MC recognizes contingent liabilities when past events or exchange transactions occur, a
future loss is probable, and the loss amount can be reasonably estimated.

The NWCF-MC is unable to identify specific legal contingencies primarily due to difficulty
identifying data and method of computation. These difficulties include, but are not limited to
unsupported comprehensive documentation that specifically identifies NWCF-MC as the liable
source of contingency. Contingent legal liabilities are recognized at DON and corporate Marine
Corps levels only, but not at NWCF-MC level.



                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 233
Financial statement reporting is limited to disclosure when conditions for liability recognition do
not exist but there is at least a reasonable possibility of incurring a loss or additional losses. The
NWCF-MC’s risk of loss and resultant contingent liabilities arise from pending or threatened
litigation or claims and assessments due to events such as vehicle accidents; property damages;
and contract disputes.

1.T. 	 Accrued Leave
The NWCF-MC reports liabilities for military leave and accrued compensatory and annual leave
for civilians. Sick leave for civilians is expensed as taken. The liabilities are based on current pay
rates.

1.U.	 Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent the amounts of budget authority that are unobligated
and have not been rescinded or withdrawn. Unexpended appropriations also represent amounts
obligated for which legal liabilities for payments have not been incurred.

Cumulative Results of Operations represent the net difference, between expenses and losses and
financing sources (including appropriations, revenue, and gains), since inception. Beginning with
FY 1998, the cumulative results of operations also include donations and transfers in and out of
assets that were not reimbursed.

1.V. 	Treaties for Use of Foreign Bases
Not applicable.

1.W.	Unexpended Obligations
The NWCF-MC obligates funds to provide goods and services for outstanding orders not yet
delivered. Unless the title has passed, the financial statements do not reflect a liability for payment
for goods and services not yet delivered. Unexpended obligations include both obligations
for which goods and services have been delivered (title passed) and a liability recognized, and
obligations for which no delivery has occurred and no liability recognized. The balance of
unexpended obligations appears immediately before net outlays in the Statement of Budgetary
Resources, and is referred to as, “Total, unpaid obligated balances, net, end of period.”

1.X. 	Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and
collections matched at the transaction level to a specific obligations, payables, or receivables in the
source systems and those reported by U.S. Treasury.

Supported disbursements and collections are evidenced by corroborating documentation.
Unsupported disbursements and collections do not have supporting documentation for the
transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between
federal and nonfederal categories based on the percentage of distributed federal and nonfederal
accounts payable and accounts receivable. Supported undistributed disbursements and
collections are then applied to reduce accounts payable and receivable accordingly. Unsupported


234 | Navy Working Capital Fund – Marine Corps
undistributed disbursements are recorded as disbursements in transit and reduce nonfederal
accounts payable. Unsupported undistributed collections are recorded in nonfederal other
liabilities. The NWCF-MC does not follow DoD policy because financial feeder systems and
accounting systems do not provide sufficient detail to identify federal and nonfederal or supported
and unsupported transactions.

The NWCF-MC identifies undistributed disbursements and collections to specific federal and
nonfederal partners based on detailed transactions and apply them to accounts payable and
accounts receivable appropriately. Disbursements and collections, which remain unidentified,
are treated as unsupported. Unsupported undistributed disbursements are recorded in federal
accounts payable since the majority of NWCF-MC business is with federal entities. Unsupported
undistributed collections are zero.

1.Y.	 Significant Events
Not applicable.

1.Z. 	Fiduciary Activities
Not applicable.


Note 2.	Nonentity Assets
As of September 30                                                         2009                   2008
(Amounts in thousands)

1. Intragovernmental Assets
      A. Fund Balance with Treasury                                $                   0    $                 0
      B. Accounts Receivable                                                           0                      0
      C. Total Intragovernmental Assets                            $                   0    $                 0

2. Nonfederal Assets
     A. Cash and Other Monetary Assets                             $                   0    $                 0
     B. Accounts Receivable                                                            1                      1
     C. Other Assets                                                                   0                      0
     D. Total Nonfederal Assets                                    $                   1    $                 1

3. Total Nonentity Assets                                          $                   1    $                 1

4. Total Entity Assets                                             $              405,390   $            469,843

5. Total Assets                                                    $              405,391   $            469,844


Nonentity assets are assets for which the Navy Working Capital Fund-Marine Corps (NWCF-MC)
maintains stewardship accountability and reporting responsibility but are not available for NWCF-
MC’s normal operations.

The amount reported in NWCF-MC’s Nonentity Assets is accounts receivable for penalties and
interest related to a public receivable, which has been submitted to the Debt Management Office
for collection.

Nonentity receivables are deposited in U.S. Treasury as miscellaneous receipts once collected.


                                          Fiscal Year 2009 Department of the Navy Annual Financial Report | 235
Note 3.	Fund Balance with Treasury
As of September 30                                                  2009                 2008
(Amounts in thousands)

1. Fund Balances
     A. Appropriated Funds                                   $                   0   $                0
     B. Revolving Funds                                                     86,045               70,746
     C. Trust Funds                                                              0                    0
     D. Special Funds                                                            0                    0
     E. Other Fund Types                                                         0                    0
     F. Total Fund Balances                                  $              86,045   $           70,746

2. Fund Balances Per Treasury Versus Agency
     A. Fund Balance per Treasury                            $              86,045   $           70,746
     B. Fund Balance per United States Marine Corps                         86,045               70,746

3. Reconciling Amount                                        $                   0   $                 0




The Navy Working Capital Fund-Marine Corps (NWCF-MC) has no reconciling amount to report
this period.

Status of Fund Balance with Treasury

As of September 30                                                  2009                 2008
(Amounts in thousands)

1. Unobligated Balance
     A. Available                                            $             282,355   $          290,303
     B. Unavailable                                                              0                    0

2. Obligated Balance not yet Disbursed                       $             251,577   $          242,172

3. Nonbudgetary FBWT                                         $                   0   $                 0

4. NonFBWT Budgetary Accounts                                $             (447,887) $          (461,729)

5. Total                                                     $              86,045   $           70,746




The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support
FBWT and is a reconciliation between budgetary and proprietary accounts. It primarily consists
of unobligated and obligated balances. The balances reflect the budgetary authority remaining for
disbursement against current or future obligations.

Obligated balance not yet disbursed represents funds that have been obligated for goods and
services not received, and those received but not paid.

NonFBWT Budgetary Accounts reduces the Status of FBWT. For NWCF-MC, NonFBWT
Budgetary Accounts are comprised of contract authority for capital assets in depot maintenance


236 | Navy Working Capital Fund – Marine Corps
and operating expenses in supply management, accounts receivable, and unfilled orders from
customers.

Unobligated balances are segregated to show available and unavailable amounts in the note
schedule. For this reporting period, there are no unobligated unavailable balances for NWCF-MC.
Unobligated available balances are not restricted to future use.


Note 4.	Investments and Related Interest
Not applicable.


Note 5.	Accounts Receivable
As of September 30                                                                     2009
                                                                                   Allowance For
                                                                                                        Accounts Receivable,
                                                          Gross Amount Due           Estimated
                                                                                                               Net
                                                                                   Uncollectibles
(Amounts in thousands)

1. Intragovernmental Receivables                          $           15,363                  N/A       $            15,363
2. Nonfederal Receivables (From the Public)               $              283   $                 0      $               283

3. Total Accounts Receivable                              $           15,646   $                    0   $            15,646



As of September 30                                                                     2008
                                                                                   Allowance For
                                                                                                        Accounts Receivable,
                                                          Gross Amount Due           Estimated
                                                                                                               Net
                                                                                   Uncollectibles
(Amounts in thousands)

1. Intragovernmental Receivables                          $            5,826                  N/A       $             5,826
2. Nonfederal Receivables (From the Public)               $               81   $                 0      $                81

3. Total Accounts Receivable                              $            5,907   $                    0   $             5,907




                                              Fiscal Year 2009 Department of the Navy Annual Financial Report | 237
Note 6.	Other Assets
As of September 30                                                2009               2008
(Amounts in thousands)

1. Intragovernmental Other Assets
      A. Advances and Prepayments                          $                0   $            295
      B. Other Assets                                                       0                  0
      C. Total Intragovernmental Other Assets              $                0   $            295

2. Nonfederal Other Assets
     A. Outstanding Contract Financing Payments            $              788   $             60
     B. Advances and Prepayments                                           40                449
     C. Other Assets (With the Public)                                      0                  0
     D. Total Nonfederal Other Assets                      $              828   $            509

3. Total Other Assets                                      $              828   $            804




Contract terms and conditions for certain types of contract financing payments convey certain
rights to the Government that protect the contract work from state or local taxation, liens or
attachment by the contractor’s creditors, transfer of property, or disposition in bankruptcy.
However, these rights should not be misconstrued to mean that ownership of the contractor’s work
has transferred to the Federal Government. The Federal Government does not have the right to
take the work, except as provided in contract clauses related to termination or acceptance, and
Navy Working Capital Fund-Marine Corps is not obligated to make payment to the contractor
until delivery and acceptance.

The Contract Financing Payment balance of $787.7 thousand is the estimated future payments that
will be paid to the contractor upon future delivery and Government acceptance of a satisfactory
product. (See additional discussion in Note 15, Other Liabilities).


Note 7.	Cash and Other Monetary Assets
Not applicable.


Note 8.	Direct Loan and Loan Guarantees
Not applicable.




238 | Navy Working Capital Fund – Marine Corps
Note 9.	Inventory and Related Property
As of September 30                                                                      2009                            2008
(Amounts in thousands)

1. Inventory, Net                                                            $                   157,599    $                   231,432
2. Operating Materiel & Supplies, Net                                                             95,244                        114,983
3. Stockpile Materiel, Net                                                                             0                              0

4. Total                                                                     $                   252,843    $                   346,415




Inventory, Net

As of September 30                                                                     2009
                                                   Inventory            Revaluation                                     Valuation
                                                  Gross Value           Allowance              Inventory, Net            Method
(Amounts in thousands)

1. Inventory Categories
      A. Available and Purchased for Resale   $          330,537    $            (408,850) $               (78,313)      LAC, MAC
      B. Held for Repair                                 262,956                  (27,722)                 235,234       LAC, MAC
      C. Excess, Obsolete, and
         Unserviceable                                   182,741                 (182,741)                         0       NRV
      D. Raw Materiel                                           0                       0                          0
      E. Work in Process                                    678                         0                       678            AC


      F. Total                                $          776,912    $            (619,313) $               157,599




As of September 30                                                                     2008
                                                   Inventory            Revaluation                                     Valuation
                                                  Gross Value           Allowance              Inventory, Net            Method
(Amounts in thousands)

1. Inventory Categories
      A. Available and Purchased for Resale   $          432,793    $            (438,506) $                (5,713)      LAC, MAC
      B. Held for Repair                                 237,273                        0                  237,273       LAC, MAC
      C. Excess, Obsolete, and
         Unserviceable                                          0                       0                          0
      D. Raw Materiel                                           0                       0                          0
      E. Work in Process                                    (128)                       0                       (128)          AC


      F. Total                                $          669,938    $            (438,506) $               231,432


Legend for Valuation Methods:
   LAC = Latest Acquistion Cost                                     NRV = Net Realizable Value         MAC = Moving Average Cost
   SP = Standard Price                                              LCM = Lower of Cost or Market
   AC = Actual Cost                                                 O = Other

The $78.3 million abnormal balance in Inventory Available and Purchased for Resale is the result
of adjustments made in the calculation methodologies, beginning in the 4th Quarter, Fiscal Year
(FY) 2008, to compute balances in the inventory allowance account. This account is an offset to the


                                              Fiscal Year 2009 Department of the Navy Annual Financial Report | 239
inventory accounts, completed monthly, to revalue inventory in the Supply Management Activity
Group (SMAG) accounts from standard to latest acquisition cost. Further research is required
to document a proposed prior period adjustment (PPA) to correct the account balance, and to
analyze both data and processes to ensure all causes of the abnormal balance have been identified.
Anticipated completion data for finalization is 1st Quarter, FY 2010.

Generally, there are no restrictions with regard to the use, sale, or disposition of inventory to
applicable Department of Defense (DoD) activities and personnel. Other than specified safety
and war reserve levels, established as a result of DoD and MC regulatory operations, inventory
may be sold to foreign countries, state and local governments, private parties and contractors in
accordance with DoD and MC policies and guidance or at the direction of the President.

The Navy Working Capital Fund-Marine Corps (NWCF-MC) has changed the accounting method
for calculating the adjustment for the cost of goods sold (COGS) model. A PPA was processed to
correct the prior period balance of $4.2 million for FY 2008.

SMAG’s inventory is recorded in its financial system at standard cost. It is then converted from
standard costs to latest acquisition costs (LAC) and reported on the monthly financial statement.

LAC costs are revalued in COGS model to an approximation of historical cost. Embedded in
this COGS model inventory revaluation process, is a calculation that records a portion of the
revaluation as PPA on a monthly basis. Essentially, this PPA allowed supply activities to revalue a
portion of inventory without adversely affecting Net Operating Results. Adjusting the beginning
balance in cumulative results of operations based on COGS model calculation was initially
designed as a temporary solution but evolved into a business practice for the military supply
communities. This, however, was not the proper way to handle these adjustments as it relates to
budget execution and audited financial statements.

Inventory Categories
Inventory represents property that is held (a) for sale to customers, (b) in the process of supporting
production for eventual sale to customers, and (c) to be consumed in the production of goods for
sale or in the provision of providing services for a fee.

Inventory Available and Purchased for Resale includes consumable spare and repair parts and
repairable items owned and managed by NWCF-MC as well as consumable and repairable items
that are managed by other Military Services, such as the Defense Logistics Agency or the General
Services Administration, where MC has permission to stock, store, and sell. Materiel available and
purchased for resale includes materiel held to support military or national contingencies based on
various managerial decisions.

Included in Inventory Available and Purchased for Resale, is an amount of $82.8 million for War
Reserve Materiel for SMAG, MC.

Federal Accounting Standards require disclosure of the amount of Inventory Held for “Future
Sale.” The NWCF-MC currently has no inventory included in this reporting period that is being
held for future sale. All inventory, included in Inventory Net through 4th Quarter, FY 2009 is
currently planned for sale to customers or retained for military or national contingencies. There is
no management or valuation difference between the two categories.


240 | Navy Working Capital Fund – Marine Corps
Inventory Held for Repair is inventory that is in less than “ready for issue/sale” condition and
requires repair to make suitable for sale. Some of the inventory items are more economical to
repair than to procure. Since many weapon systems and machinery for warfighting readiness
are no longer in commercial production, there are relatively no ready and economical sources
of replenishment available via new purchase. The MC supports its customers’ requests for
purchase of certain items by repairing or rebuilding these items vice new acquisitions. The repair/
rebuild process is an essential part of the MC’s commitment as a “Force in Readiness” as well as
supporting our other DoD customers in maintaining a ready, mobile, and armed military forces.

Inventory Excess, Obsolete, and Unserviceable are stocks that are no longer needed due to changes
in technology, laws, customs, or operations; or are damaged physically and cannot be consumed in
operations.

Work in Process balances include costs related to the production or servicing of items, including
direct materiel, direct labor, applied overhead and other direct costs. Work in Process also includes
the value of finished products or completed services pending billing to the customer. Work in
Process designation may also be used to accumulate the amount paid to a contractor under cost
reimbursable contracts, including the amount withheld from payment to ensure performance, and
the amount paid to other Government plants for accrued costs of end items of materiel ordered,
but not delivered.

The NWCF-MC has changed the method of identifying the category to which inventory attributes
are assigned to populate Note 9. During the analysis of the inventory, DFAS and MC discovered
the following: (a) revaluation allowance account was not being populated for the inventory
held for repair, or excess, obsolete and unserviceable and (b) excess, obsolete and unserviceable
inventory was being captured in inventory available and purchased for resale account. DFAS
corrected this error in this quarter by redistributing the allowance amount in the appropriate
categories and separately identifying the excess, obsolete, and unserviceable inventory. This
resulted in a net effect of zero to inventory, net. The NWCF-MC has adopted this as a business
practice for financial statement reporting.




                                        Fiscal Year 2009 Department of the Navy Annual Financial Report | 241
Operating Materiel and Supplies, Net

As of September 30                                                              2009
                                              OM&S                Revaluation                             Valuation
                                            Gross Value           Allowance             OM&S, Net          Method
(Amounts in thousands)

1. OM&S Categories
     A. Held for Use                    $            95,244   $                 0   $           95,244   SP, LAC, MAC
     B. Held for Repair                                   0                     0                   0
     C. Excess, Obsolete, and
        Unserviceable                                     0                     0                   0

      D. Total                          $            95,244   $                 0   $           95,244




As of September 30                                                              2008
                                              OM&S
                                                                  Revaluation                             Valuation
                                            Gross Value           Allowance             OM&S, Net          Method
(Amounts in thousands)

1. OM&S Categories
     A. Held for Use                    $          114,983    $                 0   $          114,983   SP, LAC, MAC
     B. Held for Repair                                   0                     0                   0
     C. Excess, Obsolete, and
        Unserviceable                                     0                     0                   0

      D. Total                          $          114,983    $                 0   $          114,983


Legend for Valuation Methods:
   LAC = Latest Acquistion Cost                               NRV = Net Realizable Value      MAC = Moving Average Cost
   SP = Standard Price                                        LCM = Lower of Cost or Market
   AC = Actual Cost                                           O = Other


Operating Materiel and Supplies (OM&S) Held for Use represents property that is consumed
during normal operations and includes consumable spare and repair parts for use on customer
work by various activities. The items are recorded using different methodologies including actual,
weighted-average and historical cost.

Generally, there are no restrictions with regard to the use, sale, or disposition of OM&S applicable
to DoD activities.

Generally, the values of NWCF-MC’s Government Furnished Material are not included in OM&S
values reported above. The DoD is presently reviewing its process for reporting these amounts
in an effort to determine the appropriate accounting treatment and the best method to annually
collect and report required information without duplicating information already in other existing
logistics systems in accordance with Volume 6B, Chapter 10 of DoD Financial Management
Regulation.

Stockpile Materiel, Net
Not applicable.



242 | Navy Working Capital Fund – Marine Corps
Note 10.	General PP&E, Net
As of September 30                                                                         2009
                                                 Depreciation/                                          (Accumulated
                                                 Amortization    Service Life   Acquisition Value       Depreciation/         Net Book Value
                                                   Method                                               Amortization)
(Amounts in thousands)


1. Major Asset Classes
      A. Land                                        N/A            N/A         $               0                  N/A $                       0
      B. Buildings, Structures, and Facilities       S/L          20 Or 40                 74,247   $            (46,754)              27,493
      C. Leasehold Improvements                      S/L         lease term                     0                       0                      0
      D. Software                                    S/L          2-5 Or 10                     0                       0                      0
      E. General Equipment                           S/L           5 or 10                 71,649                (60,899)              10,750
      F. Military Equipment                          S/L           Various                      0                       0                      0
      G. Shipbuilding (Construction-in-
           Progress)                                 N/A            N/A                         0                       0                      0
      H. Assets Under Capital Lease                  S/L         lease term                     0                       0                      0
       I. Construction-in-Progress (Excludes
           Military Equipment)                       N/A            N/A                    11,786                  N/A                 11,786
      J. Other                                                                                  0                       0                      0
      K. Total General PP&E                                                     $         157,682   $           (107,653) $            50,029




As of September 30                                                                         2008
                                                 Depreciation/                                          (Accumulated
                                                 Amortization    Service Life   Acquisition Value       Depreciation/         Net Book Value
                                                   Method                                               Amortization)
(Amounts in thousands)


1. Major Asset Classes
      A. Land                                        N/A            N/A         $               0                  N/A $                       0
      B. Buildings, Structures, and Facilities       S/L          20 Or 40                 73,328   $            (44,226)              29,102
      C. Leasehold Improvements                      S/L         lease term                     0                       0                      0
      D. Software                                    S/L          2-5 Or 10                     0                       0                      0
      E. General Equipment                           S/L           5 or 10                 70,053                (59,613)              10,440
      F. Military Equipment                          S/L           Various                      0                       0                      0
      G. Shipbuilding (Construction-in-
           Progress)                                 N/A            N/A                         0                       0                      0
      H. Assets Under Capital Lease                  S/L         lease term                     0                       0                      0
       I. Construction-in-Progress (Excludes
           Military Equipment)                       N/A            N/A                     6,430                  N/A                  6,430
      J. Other                                                                                  0                       0                      0
      K. Total General PP&E                                                     $         149,811   $           (103,839) $            45,972


   SL = Straight Line                             N/A = Not Applicable



Generally, for Navy Working Capital Fund-Marine Corps (NWCF-MC), there are no restrictions on
General Property, Plant, and Equipment.

Heritage Assets and Stewardship Land are reported in the financial statements and related
footnotes of the General Fund-MC.




                                                    Fiscal Year 2009 Department of the Navy Annual Financial Report | 243
Assets under Capital Lease
Not applicable.


Note 11.	Liabilities Not Covered by Budgetary Resources
As of September 30                                                     2009                 2008
(Amounts in thousands)

1. Intragovernmental Liabilities
      A. Accounts Payable                                      $                   0    $               0
      B. Debt                                                                      0                    0
      C. Other                                                                     0                    1
      D. Total Intragovernmental Liabilities                   $                   0    $               1

2. Nonfederal Liabilities
     A. Accounts Payable                                       $                   0    $               0
     B. Military Retirement and Other Federal Employment
          Beneﬁts                                                              28,310              27,219
     C. Environmental Liabilities                                                   0                   0
     D. Other Liabilities                                                           0                   0
     E. Total Nonfederal Liabilities                           $               28,310   $          27,219

3. Total Liabilities Not Covered by Budgetary Resources        $               28,310   $          27,220

4. Total Liabilities Covered by Budgetary Resources            $              127,338   $          88,974

5. Total Liabilities                                           $              155,648   $          116,194


Liabilities not covered by budgetary resources are liabilities for which congressional action is
needed before budgetary resources can be provided.

The Military Retirement and Other Federal Employment Benefits are related to the Department
of Labor’s Office of Inspector General estimated liability for future Navy Working Capital Fund-
Marine Corps workers’ compensation benefits. This liability is recorded as actuarial since it is
based on guidelines issued by the Office of Management and Budget.

Military Retirement and Other Federal Employment Benefits consists of various employee actuarial
liabilities not due and payable during the current fiscal year. These liabilities primarily consist of
$28.3 million. These actuarial benefits will be funded in future years. Refer to Note 17, Military
Retirement and Other Federal Employment Benefits, for additional details and disclosures.




244 | Navy Working Capital Fund – Marine Corps
Note 12.	Accounts Payable
As of September 30                                                              2009

                                                                       Interest, Penalties, and
                                                  Accounts Payable                                    Total
                                                                        Administrative Fees

(Amounts in thousands)

1. Intragovernmental Payables                 $               11,942   $         N/A              $           11,942
2. Nonfederal Payables (to the Public)                        99,387                         0                99,387
3. Total                                      $              111,329   $                     0    $           111,329



As of September 30                                                              2008

                                                                       Interest, Penalties, and
                                                  Accounts Payable                                    Total
                                                                        Administrative Fees

(Amounts in thousands)

1. Intragovernmental Payables                 $               52,258   $         N/A              $           52,258
2. Nonfederal Payables (to the Public)                        24,291                         0                24,291
3. Total                                      $               76,549   $                     0    $           76,549




Accounts Payable include amounts owed to federal and nonfederal entities for goods and services
by Navy Working Capital Fund-Marine Corps (NWCF-MC). The NWCF-MC’s systems do not
track intragovernmental transactions by customer at the transaction level. Buyer-side accounts
payable are adjusted to agree with internal seller-side accounts receivable. Accounts payable was
adjusted by reclassifying amounts between federal and nonfederal accounts payable.


Note 13.	Debt
Not applicable.


Note 14.	Environmental Liabilities
Environmental Liabilities are reported on the financial statements of Marine Corps General Fund.




                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 245
Note 15.	Other Liabilities
As of September 30                                                                    2009
                                                              Current              Noncurrent
                                                                                                        Total
                                                              Liability             Liability
(Amounts in thousands)

1. Intragovernmental
      A. Advances from Others                             $               0    $                0   $               0
      B. Deposit Funds and Suspense Account Liabilities                   0                     0                   0
      C. Disbursing Ofﬁcer Cash                                           0                     0                   0
      D. Judgment Fund Liabilities                                        0                     0                   0
      E. FECA Reimbursement to the Dept. of Labor                         0                     0                   0
      F. Custodial Liabilities                                             1                    0                   1
      G. Employer Contribution and
           Payroll Taxes Payable                                      1,414                     0                1,414
      H. Other Liabilities                                                0                     0                   0


     I. Total Intragovernmental Other Liabilities         $           1,415    $                0   $            1,415


2. Nonfederal
     A. Accrued Funded Payroll and Beneﬁts                $          13,720    $                0   $           13,720
     B. Advances from Others                                              85                    0                  85
     C. Deferred Credits                                                  0                     0                   0
     D. Deposit Funds and Suspense Accounts                               0                     0                   0
     E. Temporary Early Retirement Authority                              0                     0                   0
     F. Nonenvironmental Disposal Liabilities                                                                       0
             (1) Military Equipment (Nonnuclear)                          0                     0                   0
             (2) Excess/Obsolete Structures                               0                     0                   0
             (3) Conventional Munitions Disposal                          0                     0                   0
     G. Accrued Unfunded Annual Leave                                     0                     0                   0
     H. Capital Lease Liability                                           0                     0                   0
      I. Contract Holdbacks                                               0                     0                   0
     J.    Employer Contribution and
            Payroll Taxes Payable                                         0                     0                   0
     K. Contingent Liabilities                                            0                 788                   788
     L. Other Liabilities                                                 0                     0                   0


     M. Total Nonfederal Other Liabilities                $          13,805    $            788     $           14,593


3. Total Other Liabilities                                $          15,220    $            788     $           16,008




246 | Navy Working Capital Fund – Marine Corps
As of September 30                                                                            2008
                                                                     Current               Noncurrent
                                                                                                                 Total
                                                                     Liability              Liability
(Amounts in thousands)

1. Intragovernmental
      A. Advances from Others                                    $                 0   $                0    $               0
      B. Deposit Funds and Suspense Account Liabilities                            0                    0                    0
      C. Disbursing Ofﬁcer Cash                                                    0                    0                    0
      D. Judgment Fund Liabilities                                                 0                    0                    0
      E. FECA Reimbursement to the Dept. of Labor                                  0                    0                    0
      F. Custodial Liabilities                                                     1                    0                    1
      G. Employer Contribution and
           Payroll Taxes Payable                                             1,129                      0                 1,129
      H. Other Liabilities                                                         0                    0                    0


     I. Total Intragovernmental Other Liabilities                $           1,130     $                0    $            1,130


2. Nonfederal
     A. Accrued Funded Payroll and Beneﬁts                       $          10,868     $                0    $           10,868
     B. Advances from Others                                                     368                    0                  368
     C. Deferred Credits                                                           0                    0                    0
     D. Deposit Funds and Suspense Accounts                                        0                    0                    0
     E. Temporary Early Retirement Authority                                       0                    0                    0
     F. Nonenvironmental Disposal Liabilities                                                                                0
             (1) Military Equipment (Nonnuclear)                                   0                    0                    0
             (2) Excess/Obsolete Structures                                        0                    0                    0
             (3) Conventional Munitions Disposal                                   0                    0                    0
     G. Accrued Unfunded Annual Leave                                              0                    0                    0
     H. Capital Lease Liability                                                    0                    0                    0
      I. Contract Holdbacks                                                        0                    0                    0
     J.    Employer Contribution and                                                                                         0
            Payroll Taxes Payable                                                  0                    0                    0
     K. Contingent Liabilities                                                     0                    60                  60
     L. Other Liabilities                                                          0                    0                    0


     M. Total Nonfederal Other Liabilities                       $          11,236     $                60   $           11,296


3. Total Other Liabilities                                       $          12,366     $                60   $           12,426



Contingent Liabilities includes $787.7 thousand related to contracts authorizing Progress Payments
based on cost as defined in the Federal Acquisition Regulation (FAR). In accordance with contract
terms, specific rights to the contractors’ work vests with the Federal Government when a specific
type of contract financing payment is made. This action protects taxpayer funds in the event of
contract nonperformance. These rights should not be misconstrued as rights of ownership. The
Navy Working Capital Fund-Marine Corps (NWCF-MC) is under no obligation to pay contractors
for amounts greater than the amounts authorized in contracts until delivery and government
acceptance. Due to the probability the contractors will complete their efforts and deliver
satisfactory products, and because the amount of potential future payments are estimable, NWCF-
MC has recognized a contingent liability for estimated future payments which are conditional
pending delivery and government acceptance.




                                               Fiscal Year 2009 Department of the Navy Annual Financial Report | 247
Total contingent liabilities for progress payments based on cost represent the difference between
the estimated costs incurred to date by contractors and amounts authorized to be paid under
progress payments based on cost provisions within FAR. Estimated contractor-incurred costs
are calculated by dividing the cumulative unliquidated progress payments based on cost by the
contract–authorized progress payment rate. The balance of unliquidated progress payments based
on cost is deducted from the estimated total contractor-incurred costs to determine the contingency
amount.

Capital Lease Liability
Not applicable.


Note 16.	Commitments and Contingencies
The Navy Working Capital Fund-Marine Corps (NWCF-MC) is a party in various administrative
proceedings and legal actions related to claims for equal opportunity matters and contractual bid
protests. While the results of these legal actions may ultimately result in settlements or decisions
adverse to the Federal Government, due to uncertainties of litigation, difficulty in identifying
data, historical information, and methods of computation, estimates of contingent liability are not
available for NWCF-MC.

The Office of the Navy General Counsel completed a review of litigation and claims threatened or
asserted involving NWCF-MC which attorneys devote substantial attention in the form of legal
consultation or representation. This review reflects a threshold of materiality of $59.6 thousand,
which applies to individual and aggregate claims, litigation, assessments, or contingencies arising
out of a single event or series of events, and includes matters that existed on September 30, 2009.

The NWCF-MC has cases that individually meet its existing FY 2009 materiality threshold of
$59.6 thousand. The Department of the Navy (DON) legal counsel could not express an opinion to
the outcome, including estimating contingent liability amounts for the cases against NWCF-MC.

The NWCF-MC does not have undelivered orders for open contracts related to cancelled
appropriations for which a contractual commitment for payment exists.

The NWCF-MC has contractual arrangements (i.e. undelivered orders) which may require financial
obligations based on contractor claims under the “disputes” clause contained in contracts. As of
the end of 4th Quarter, FY 2009, undelivered orders are estimated at $125.0 million.

The NWCF-MC has contingencies that are considered both measurable and probable and have
been recognized as liabilities. Refer to Note 15 for further details.

The NWCF-MC is a party in numerous individual contracts that contain clauses, such as price
escalation, award fee payments, or dispute resolution, that may result in a future outflow of
expenditures. Currently, NWCF-MC has limited automated system processes by which it captures
or assesses these potential contingent liabilities; therefore, the amounts reported may not fairly
present NWCF-MC’s contingent liabilities.




248 | Navy Working Capital Fund – Marine Corps
Note 17.	Military Retirement and Other Federal
         Employment 	Benefits
As of September 30                                                                                 2009
                                                                                     Assumed            (Less: Assets
                                                                 Liabilities       Interest Rate       Available to Pay       Unfunded Liabilities
                                                                                        (%)               Beneﬁts)
(Amounts in thousands)


1. Pension and Health Actuarial Beneﬁts
      A. Military Retirement Pensions                        $                 0                   $                      0   $                 0
      B. Military Retirement Health Beneﬁts                                    0                                          0                     0
      C. Military Medicare-Eligible Retiree Beneﬁts                            0                                          0                     0
      D. Total Pension and Health Actuarial Beneﬁts          $                 0                   $                      0   $                 0


2. Other Actuarial Beneﬁts
      A. FECA                                                $            28,311                   $                      0   $            28,311
      B. Voluntary Separation Incentive Programs                               0                                          0                     0
      C. DoD Education Beneﬁts Fund                                            0                                          0                     0
      D. Total Other Actuarial Beneﬁts                       $            28,311                   $                      0   $            28,311


3. Other Federal Employment Beneﬁts                          $                 0                   $                      0   $                 0
4. Total Military Retirement and Other Federal
    Employment Beneﬁts:                                      $            28,311                   $                      0 $              28,311




As of September 30                                                                                 2008
                                                                                     Assumed            (Less: Assets
                                                                 Liabilities       Interest Rate       Available to Pay       Unfunded Liabilities
                                                                                        (%)               Beneﬁts)
(Amounts in thousands)


1. Pension and Health Actuarial Beneﬁts
      A. Military Retirement Pensions                        $                 0                   $                      0   $                 0
      B. Military Retirement Health Beneﬁts                                    0                                          0                     0
      C. Military Medicare-Eligible Retiree Beneﬁts                            0                                          0                     0
      D. Total Pension and Health Actuarial Beneﬁts          $                 0                   $                      0   $                 0


2. Other Actuarial Beneﬁts
      A. FECA                                                $            27,219                   $                      0   $            27,219
      B. Voluntary Separation Incentive Programs                               0                                          0                     0
      C. DoD Education Beneﬁts Fund                                            0                                          0                     0
      D. Total Other Actuarial Beneﬁts                       $            27,219                   $                      0   $            27,219


3. Other Federal Employment Beneﬁts                          $                 0                   $                      0   $                 0
4. Total Military Retirement and Other Federal
    Employment Beneﬁts:                                      $            27,219                   $                      0 $              27,219




The Department of the Navy (DON) actuarial liability for workers’ compensation benefits is
developed by the Department of Labor and provided to DON at the end of each fiscal year (FY).
The liability is distributed between the Navy Working Capital Fund (NWCF) and General Fund for
DON and the Marine Corps (MC), which is based upon the number of civilian employees funded
in each entity as, reported in the Navy Budget Tracking System. The liability includes the expected


                                                      Fiscal Year 2009 Department of the Navy Annual Financial Report | 249
liability for death, disability, medical, and miscellaneous costs for approved compensation cases.
The liability is determined using a method that utilizes historical benefit payment patterns to
predict the ultimate payments.

The NWCF-MC’s estimated actuarial liability is updated only at the end of each FY. The change in
actuarial liability for FY 2009 is a decrease of $23.6 million.

The projected annual benefit payments are discounted to the present value using the Office of
Management and Budget’s economic assumptions for ten year U.S. Treasury notes and bonds.
Cost of living adjustments (COLAs) and medical inflation factors are also applied to the calculation
of projected future benefits. The interest rate assumptions used in the discount calculations are as
follows for September 30, 2009:

	       2009
	       4.223% in Year 1
	       4.715% in Year 2 and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’
compensations benefits, wage inflation factors COLAs and medical inflation factors (consumer
price index medical or CPIMs) were applied to the calculation of projected future benefits. The
actual rates for these factors for the charge back year (CBY) 2009 were also used to adjust the
methodology’s historical payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various charge back years were as
follows:

	       CBY		           COLA		            CPIM
	       2010		          0.47%		           3.42%
	       2011		          1.40%		           3.29%
	       2012		          1.50%		           3.48%
	       2013		          1.80%		           3.71%
	       2014+		         2.00%		           3.71%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The
analysis was based on four tests:

    (1) 	 A sensitivity analysis of the model to economic assumptions,
    (2) 	 A comparison of the percentage change in the liability amount by agency to the percentage
          change in the actual incremental payments,
    (3) 	 A comparison of the incremental paid losses per case (a measure of case severity) in
          CBY 2009 to the average pattern observed during the most current three charge back years,
          and
    (4) 	 A comparison of the estimated liability per case in the 2009 projection to the average
          pattern for the projections of the most recent three years.




250 | Navy Working Capital Fund – Marine Corps
Note 18.	Disclosures Related to the Statement of Net
         Cost
Intragovernmental Costs and Exchange Revenue
As of September 30                                                        2009                   2008
(Amounts in thousands)

1. Intragovernmental Costs                                        $              424,954   $            382,207
2. Public Costs                                                                  289,465                419,574
3. Total Costs                                                    $              714,419   $            801,781

4. Intragovernmental Earned Revenue                               $              (600,243) $            (656,410)
5. Public Earned Revenue                                                           (2,261)                  (244)
6. Total Earned Revenue                                           $              (602,504) $            (656,654)

7. Net Cost of Operations                                         $              111,915   $            145,127




Intragovernmental costs and revenues are related to transactions made between two reporting
entities within the Federal Government.

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the
Federal Government supported by appropriations or other means. The intent of SNC is to provide
gross and net cost information related to the amount of output or outcome for a given program
or organization administered by a responsible reporting entity. The Department of Defense’s
(DoD’s) current processes and systems do not capture and report accumulated costs for major
programs based upon the performance measures as required by the Government Performance and
Results Act. The DoD is in the process of reviewing available data and developing a cost reporting
methodology as required by the Statement of Federal Financial Accounting Standards (SFFAS)
No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government”, as
amended by SFFAS No. 30, “Inter-entity Cost Implementation”.

Public costs and revenues are exchange transactions made between the reporting entity and a
nonfederal entity.

The Navy Working Capital Fund-Marine Corps’ (NWCF-MC’s) systems do not track
intragovernmental transactions by customer at the transaction level. Buyer-side expenses
are adjusted to agree with internal seller-side revenues. Expenses are generally adjusted by
reclassifying amounts between federal and nonfederal expenses.

The NWCF-MC generally records transactions on an accrual basis as required by federal generally
accepted accounting principles (GAAP).

The NWCF-MC does not report any heritage assets or stewardship land, as these entities are
reported on the financial statements of the General Fund-Marine Corps.




                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 251
Note 19.	Disclosures Related to the Statement of
         Changes in Net Position
In the current environment, inventory for Supply Management Activity Group is recorded in the
financial system at standard cost. The inventory is then converted in the General Ledger from
standard costs to Latest Acquisition Costs (LAC). Finally, LAC costs are revalued in the cost of
good sold (COGS) model to an approximation of historical cost. This model was developed by the
Office of the Under Secretary of Defense (OUSD) in the early 1990s.

Embedded in this COGS model inventory revaluation process, is a calculation that records a
portion of the revaluation as a prior period adjustment (PPA) on a monthly basis. Essentially, this
PPA allowed supply activities to revalue a portion of inventory without adversely affecting Net
Operating Results (NOR). Adjusting the beginning balance in cumulative results of operations
[U. S. Standard General Ledger (USSGL) 3310] based on COGS model calculation was initially
designed as a temporary solution but evolved into a business practice for the military supply
communities.

In October 2003, representatives from the Defense Finance and Accounting Service-Cleveland
(DFAS-CL), DFAS-Arlington, OUSD, Navy Financial Management Office (FMO), and Navy Supply
met to discuss the proper handling of these adjustments as they related to the Budget Execution
(BE) [Defense Departmental Reporting System-Budgetary (DDRS-B) Accounting Report Monthly
(AR (M) 1307 reports) and the financial statements [DDRS-Audited Financial Statements (AFS)].
During this collaborative meeting, it was decided that PPA would not be changed for BE reporting
but would be reclassified from PPA to an inventory allowance adjustment for the quarterly
financial statements (i.e. reclassifying it from USSGL 7400 to 1529).

Based on our team’s (DFAS-CL, FMO, and Marine Corps) continuing analysis during fiscal year
(FY) 2008 and 2009 and focus on eliminating the contributing factors causing Navy Working
Capital Fund-Marine Corps (NWCF-MC) fluctuations in inventory and to clean up the data, we
have done the following:

  1.	   Removed the permanent entry in DDRS-AFS used to reverse the cumulative effects of
        year-end adjustments reclassifying the COGS model calculated PPA (USSGL 7400) to the
        inventory allowance account (USSGL 1529).

  2.	   Processed PPA to remove the cumulative value inappropriately posted to the inventory
        allowance account (USSGL 1529) in the previous year and move this cumulative value to
        other gains/losses (USSGL 7190/7290).

  3.	   Changed the reclassification of PPA (USSGL 7400) from the inventory allowance account
        (USSGL 1529) to other gains/losses (USSGL 7190/7290), as applicable. This will
        accomplish two things:

        (a) It will systematically update cumulative results (USSGL 3310) during the year-end close
              and

        (b) It will eliminate the need to process a reversing entry in the subsequent year.


252 | Navy Working Capital Fund – Marine Corps
FY 2009 was adjusted for the restatement and Comparative FY 2008 has been restated.

The current FY 2009 and comparative FY 2008 Balance Sheet and the Statement of Changes in Net
Position lines were impacted as follows:

  1.	   Line 1.E. Inventory and Related Property was decreased by $4.2 million in FY 2009 and by
        $4.2 million in FY 2008 due to adjustments made to NWCF-MC USSGL account 1529.

  2.	   Line 7.D. The beginning FY 2009 Cumulative Results of Operations was adjusted by
        $4.2 million in FY 2009 and restated by $4.2 million in FY 2008.

  3.	   Line 2.B. The FY 2009 Correction of Errors was decreased by $4.2 million.

  4.	   Line 5.D. The FY 2008 Other Financing Sources, Other was restated by $4.2 million.

In the future, we will be reclassifying COGS adjustment (included in USSGL 7400 for the monthly
BE purposes) from PPA to other gains/losses (USSGL account 7190/7290), as applicable, instead of
inventory allowance, (USSGL 1529).


Note 20.	Disclosures Related to the Statement of
         Budgetary Resources	
As of September 30                                                           2009                   2008
(Amounts in thousands)

1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                      $              124,979   $            154,257

2. Available Borrowing and Contract Authority at the End
     of the Period                                                                       0                      0


The Office of Management and Budget Circular A-136 requires disclosure of the amount of direct
and reimbursable obligations incurred against amounts apportioned under categories A, B, and
exempt from apportionment. Navy Working Capital Fund-Marine Corps (NWCF-MC) has a total
$711.8 million in reimbursable obligations incurred in Category B.

The Statement of Budgetary Resources (SBR) includes intraentity transactions because the
statements are presented as combined.

The NWCF-MC has no available borrowing authority and contract authority at the end of this
period.

The NWCF-MC does not have any legal arrangements affecting the use of unobligated balances of
budget authority such as time limits, purpose, and obligation limitations.

The NWCF-MC has a $31.3 million difference between amounts reported on SBR and SF 133,
Monthly Report on Budget Execution and Budgetary Resources. This is due to an adjustment for


                                            Fiscal Year 2009 Department of the Navy Annual Financial Report | 253
$32.4 million processed in order to correct a posting error. The original adjustment was posted
to an incorrect account in June 2007 for a supplemental direct appropriation received to finance
the cost of War Reserve Materiel replenishment. This was offset by an adjustment for $1.1 million
posted for Employee Benefits. These adjustments were processed in the quarterly financial
statement compilation and not included in the monthly budgetary reports.


Note 21.	Reconciliation of Net Cost of Operations
         toBudget
As of September 30                                                             2009                  2008
(Amounts in thousands)

Resources Used to Finance Activities:
        Budgetary Resources Obligated:
               1. Obligations incurred                                     $          711,760    $          672,290
               2. Less: Spending authority from offsetting collections
                     and recoveries (-)                                           (676,448)             (720,372)
               3. Obligations net of offsetting collections and
                     recoveries                                                        35,312               (48,082)
               4. Less: Offsetting receipts (-)                                             0                     0
               5. Net obligations                                                      35,312               (48,082)
        Other Resources:
               6. Donations and forfeitures of property                                     0                     0
               7. Transfers in/out without reimbursement (+/-)                        (20,258)                    0
               8. Imputed ﬁnancing from costs absorbed by others                       13,265                11,197
               9. Other (+/-)                                                               1                (4,189)
               10. Net other resources used to ﬁnance activities                       (6,992)                7,008
11. Total Resources Used to Finance Activities                             $           28,320    $          (41,074)

Resources Used to Finance Items not Part of the Net Cost
     of Operations:
               12. Change in budgetary resources obligated for goods,
                    services, and beneﬁts ordered but not yet provided:
                      12a. Undelivered Orders (-)                          $           29,278 $               6,889
                      12b. Unﬁlled Customer Orders                                    (36,019)               51,054
               13. Resources that fund expenses recognized in prior
                    periods (-)                                                             0                  (405)
               14. Budgetary offsetting collections and receipts that
                    do not affect Net Cost of Operations                                 0                        0
               15. Resources that ﬁnance the acquisition of assets (-)            (130,363)                 (92,507)
               16. Other resources or adjustments to net obligated
                    resources that do not affect Net Cost of Operations:
                      16a. Less: Trust or Special Fund Receipts Related
                            to exchange in the Entity’s Budget (-)                          0                     0
                      16b. Other (+/-)                                                 20,258                 4,188
17. Total resources used to ﬁnance items not part of the
     Net Cost of Operations                                                $      (116,846) $               (30,781)
18. Total resources used to ﬁnance the Net Cost of Operations              $       (88,526) $               (71,855)



As of September 30                                                             2009                  2008
(Amounts in thousands)

 Components of the Net Cost of Operations that will not
      Require or Generate Resources in the Current Period:
       Components Requiring or Generating Resources in Future
            Period:
              19. Increase in annual leave liability                       $                0    $                0
254 | Navy Working      Capital Fund – Marine Corps
              20. Increase in environmental and disposal liability                          0                     0
              21. Upward/Downward reestimates of credit subsidy
                    expense                                                                 0                     0
                            to exchange in the Entity’s Budget (-)                                0                    0
                      16b. Other (+/-)                                                       20,258                4,188
17. Total resources used to ﬁnance items not part of the
     Net Cost of Operations                                                   $           (116,846) $            (30,781)
18. Total resources used to ﬁnance the Net Cost of Operations                 $            (88,526) $            (71,855)



As of September 30                                                                   2009                 2008
(Amounts in thousands)

Components of the Net Cost of Operations that will not
     Require or Generate Resources in the Current Period:
        Components Requiring or Generating Resources in Future
            Period:
              19. Increase in annual leave liability                          $                  0    $                0
              20. Increase in environmental and disposal liability                               0                     0
              21. Upward/Downward reestimates of credit subsidy
                    expense                                                                      0                     0
              22. Increase in exchange revenue receivable from the
                    public (-)                                                                    0                    0
              23. Other (+/-)                                                                 1,092                    0
              24. Total components of Net Cost of Operations that
                    will Require or Generate Resources in future periods      $               1,092   $                0
    Components not Requiring or Generating Resources:
              25. Depreciation and amortization                               $               4,899   $            4,975
              26. Revaluation of assets or liabilities (+/-)                                162,883              151,228
              27. Other (+/-)
                      27a. Trust Fund Exchange Revenue                                           0                     0
                      27b. Cost of Goods Sold                                              642,773                60,779
                      27c. Operating Material and Supplies Used                                  0                     0
                      27d. Other                                                          (611,206)                    0
              28. Total Components of Net Cost of Operations that
                    will not Require or Generate Resources                    $             199,349   $          216,982
29. Total components of Net Cost of Operations that will not
     Require or Generate Resources in the Current Period                      $             200,441   $          216,982
30. Net Cost of Operations                                                    $             111,915   $          145,127


The Reconciliation of Net Cost of Operations to Budget is designed to provide information about
the total resources used by an entity to explain how those resources were used to finance orders
for goods and services not yet delivered, to acquire assets and liabilities, and to fund the entity’s
net cost of operations. It is designed to report the differences and facilitate the reconciliation of
accrual based amounts used in the Statement of Net Cost (SNC) and obligation-based amounts
used in the Statement of Budgetary Resources. The computations and presentation of items in the
Reconciliation of Net Cost of Operations to Budget demonstrate that the budgetary and proprietary
information in an entity’s financial management system agree.

Due to the Navy Working Capital Fund-Marine Corps (NWCF-MC) financial system limitations,
budgetary data is not in agreement with proprietary expenses and assets capitalized. The
difference between budgetary and proprietary data has been previously identified as a system
deficiency.

To bring the Reconciliation of Net Cost of Operations to Budget into balance with SNC, the
following adjustment (absolute value) was made:

Resources That Finance the Acquisition of Assets: $130.4 million

The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined
instead of consolidated due to intraagency budgetary transactions not being eliminated:



                                                Fiscal Year 2009 Department of the Navy Annual Financial Report | 255
  n	   Obligations Incurred
  n	   Less: Spending Authority from Offsetting Collections and Recoveries
  n	   Obligations Net of Offsetting Collections and Recoveries
  n	   Net Obligations
  n	   Undelivered Orders
  n	   Unfilled Customer Orders

The NWCF-MC has four “Other” lines on the Reconciliation of Net Cost of Operations to Budget
during fiscal year (FY) 2009. The compositions are described below:

Resources Used to Finance Items not Part of the Net Cost of Operations, Other Resources or
Adjustments to Net Obligated Resources that do not affect Net Cost of Operations, Other:
The amount reported as other consists of assets transferred without reimbursement. This is the
result of an agreement between the Marine Corps and the Defense Logistics Agency (DLA) to
transfer DLA managed materiel in FY 2009. The materiel was transferred from the Maintenance
Centers to DLA for redistribution and/or resale in an effort to reduce Department of Defense
inventory across services.

Components of the Net Cost of Operations that will not Require or Generate Resources in the
Current Period:
  n	 Components Requiring or Generating Resources in Future Period, Other
The amount reported as other consists of changes in actuarial liability.
  n	 Components not Requiring or Generating Resources, Other
The amounts reported as other consists of NWCF-MC
  n	 Cost of Goods Sold
  n	 Applied overhead and cost capitalization offset for direct costs incurred.


Note 22.	Disclosures Related to Incidental Custodial
         Collections
Not applicable.


Note 23.	Earmarked Funds
Not applicable.


Note 24.	Fiduciary Activities
Not applicable.


Note 25.	Other Disclosures
Not applicable.


Note 26.	Restatements


256 | Navy Working Capital Fund – Marine Corps
In the current environment, inventory for Supply Management Activity Group is recorded in the
financial system at standard cost. The inventory is then converted in the General Ledger from
standard costs to Latest Acquisition Costs (LAC). Finally, LAC costs are revalued in the cost of
good sold (COGS) model to an approximation of historical cost. This model was developed by the
Office of the Under Secretary of Defense (OUSD) in the early 1990s.

Embedded in this COGS model inventory revaluation process, is a calculation that records a
portion of the revaluation as a prior period adjustment (PPA) on a monthly basis. Essentially, this
PPA allowed supply activities to revalue a portion of inventory without adversely affecting Net
Operating Results (NOR). Adjusting the beginning balance in cumulative results of operations
[U. S. Standard General Ledger (USSGL) 3310] based on COGS model calculation was initially
designed as a temporary solution but evolved into a business practice for the military supply
communities.

In October 2003, representatives from the Defense Finance and Accounting Service-Cleveland
(DFAS-CL), DFAS-Arlington, OUSD, Navy Financial Management Office (FMO), and Navy Supply
met to discuss the proper handling of these adjustments as they related to the Budget Execution
(BE) [Defense Departmental Reporting System-Budgetary (DDRS-B) Accounting Report Monthly
(AR (M) 1307 reports) and the financial statements [DDRS-Audited Financial Statements (AFS)].
During this collaborative meeting, it was decided that PPA would not be changed for BE reporting
but would be reclassified from PPA to an inventory allowance adjustment for the quarterly
financial statements (i.e. reclassifying it from USSGL 7400 to 1529).

Based on our team’s (DFAS-CL, FMO, and Marine Corps) continuing analysis during fiscal year
(FY) 2008 and 2009 and focus on eliminating the contributing factors causing Navy Working
Capital Fund-Marine Corps (NWCF-MC) fluctuations in inventory and to clean up the data, we
have done the following:

  1.	   Removed the permanent entry in DDRS-AFS used to reverse the cumulative effects of
        year-end adjustments reclassifying the COGS model calculated PPA (USSGL 7400) to the
        inventory allowance account (USSGL 1529).

  2.	   Processed PPA to remove the cumulative value inappropriately posted to the inventory
        allowance account (USSGL 1529) in the previous year and move this cumulative value to
        other gains/losses (USSGL 7190/7290).

  3.	   Changed the reclassification of PPA (USSGL 7400) from the inventory allowance account
        (USSGL 1529) to other gains/losses (USSGL 7190/7290), as applicable. This will
        accomplish two things:

        (a) It will systematically update cumulative results (USSGL 3310) during the year-end close
              and

        (b) It will eliminate the need to process a reversing entry in the subsequent year.

FY 2009 was adjusted for the restatement and Comparative FY 2008 has been restated.



                                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 257
The current FY 2009 and comparative FY 2008 Balance Sheet and the Statement of Changes in Net
Position lines were impacted as follows:

  1.	   Line 1.E. Inventory and Related Property was decreased by $4.2 million in
  	     FY 2009 and by $4.2 million in FY 2008 due to adjustments made to
  	     NWCF-MC USSGL account 1529.

  2.	   Line 7.D. The beginning FY 2009 Cumulative Results of Operations was adjusted by
        $4.2 million in FY 2009 and restated by $4.2 million in FY 2008.

  3.	   Line 2.B. The FY 2009 Correction of Errors was decreased by $4.2 million.

  4.	   Line 5.D. The FY 2008 Other Financing Sources, Other was restated by $4.2 million.

In the future, we will be reclassifying COGS adjustment (included in USSGL 7400 for the monthly
BE purposes) from PPA to other gains/losses (USSGL account 7190/7290), as applicable, instead of
inventory allowance, (USSGL 1529).




258 | Navy Working Capital Fund – Marine Corps
Navy Working Capital Fund – Marine Corps
  Required Supplementary Information




                                  259
    Fiscal Year 2009 Department of the Navy Annual Financial Report


                             Fiscal Year 2009 Department of the Navy Annual Financial Report | 259
                         Navy Working Capital Fund-Marine Corps
                           General Property, Plant, and Equipment
                       Real Property Deferred Maintenance and Repair
                          For Fiscal Year Ended September 30, 2009


The Navy Working Capital Fund-Marine Corps real property deferred maintenance and repair
information for fiscal year ended September 30, 2009 is reported with the U.S. Marine Corps
General Fund deferred maintenance and repair. See U.S. Marine Corps General Fund Required
Supplementary Information.




260 | Navy Working Capital Fund – Marine Corps
Navy Working Capital Fund – Marine Corps
    Other Accompanying Information




                                  261
    Fiscal Year 2009 Department of the Navy Annual Financial Report


                             Fiscal Year 2009 Department of the Navy Annual Financial Report | 261
Appropriations, Funds, and Accounts Included in the
Principal Statements
Reporting Entity
Navy Working Capital Fund (NWCF)

Fund/Account Treasury Symbol and Title:
	 97X4930.002	

Navy Working Capital Fund Activity Group Treasury Symbol and Title:
	97X4930.NA4A	 Depot Maintenance - Other, Marine Corps
	97X4930.NC2A	 Supply Management, Marine Corps




262 | Navy Working Capital Fund – Marine Corps
Navy Working Capital Fund – Marine Corps
    Other Accompanying Information




                                  263
    Fiscal Year 2009 Department of the Navy Annual Financial Report


                             Fiscal Year 2009 Department of the Navy Annual Financial Report | 263
264 | Navy Working Capital Fund – Marine Corps
                 Audit Opinions




                              265
Fiscal Year 2009 Department of the Navy Annual Financial Report


                         Fiscal Year 2009 Department of the Navy Annual Financial Report | 265
266 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 267
268 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 269
270 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 271
272 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 273
274 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 275
276 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 277
278 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 279
280 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 281
282 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 283
284 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 285
286 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 287
288 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 289
290 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 291
292 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 293
294 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 295
296 | Audit Opinions
Fiscal Year 2009 Department of the Navy Annual Financial Report | 297
298 | Audit Opinions
Special thanks to Rear Admiral Frank Thorp IV, Chief of Naval Information; Mr. Christopher
Madden, Director of the Navy Visual News Service; and the staff of the Office of the Chief of Naval
Information for providing the Department of the Navy photographs.

Many thanks also to the Financial Statements Team at the Department of the Navy (DON) Office
of Financial Operations, the extended financial community at the DON major commands, and
our accounting partners at the Defense Finance and Accounting Service for their dedicated time
and effort in producing the Fiscal Year 2009 Department of the Navy Annual Financial Report. We
dedicate the Fiscal Year 2009 Department of the Navy Annual Financial Report once again to the
men and women of our Navy and Marine Corps warfighting team.




                                        Fiscal Year 2009 Department of the Navy Annual Financial Report | 299
                                For More Information
                Assistant Secretary of the Navy Financial Management and Comptroller
                                 http://www.finance.hq.navy.mil/FMC

                                                Navy
                                        http://www.navy.mil

                                           Marine Corps
                                       http://www.marines.mil


                                            Contact Us
              An electronic copy of this report is available at http://www.fmo.navy.mil
Comments or requests for printed copies of this report may be sent to DON_Financial_Report@navy.mil



300 | Audit Opinions
